<html>
<title> - COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 2020</title>
<body><pre>[House Hearing, 116 Congress]
[From the U.S. Government Publishing Office]


                   COMMERCE, JUSTICE, SCIENCE, AND RELATED 
                       AGENCIES APPROPRIATIONS FOR 2020

_______________________________________________________________________

                                 HEARINGS

                                 BEFORE A

                           SUBCOMMITTEE OF THE

                       COMMITTEE ON APPROPRIATIONS

                         HOUSE OF REPRESENTATIVES

                      ONE HUNDRED SIXTEENTH CONGRESS

                              FIRST SESSION

                              ________________

               SUBCOMMITTEE ON COMMERCE, JUSTICE, SCIENCE,
                          AND RELATED AGENCIES

                   JOSE E. SERRANO, New York, Chairman

  MATT CARTWRIGHT, Pennsylvania		ROBERT B. ADERHOLT, Alabama
  GRACE MENG, New York			MARTHA ROBY, Alabama
  BRENDA L. LAWRENCE, Michigan		STEVEN M. PALAZZO, Mississippi
  CHARLIE CRIST, Florida		TOM GRAVES, Georgia
  ED CASE, Hawaii
  MARCY KAPTUR, Ohio

NOTE: Under committee rules, Mrs. Lowey, as chairwoman of the full 
committee, and Ms. Granger, as ranking minority member of the full 
committee, are authorized to sit as members of all subcommittees.

             Bob Bonner, Jeff Ashford, Matt Smith, BG Wright,
           TJ Lowdermilk, Shannon McCully, and Trisha Castaneda
                            Subcommittee Staff

                            _____________________
                            
                            
                                  PART 6

                                                                   Page
  
  National Aeronautics and Space Administration...................    1                                       
  National Oceanic and Atmospheric Administration.................   55                                       
  Department of Commerce..........................................   83                                     
  Federal Bureau of Investigation.................................  101                                        
  Department of Justice...........................................  127                                        
  Oversight of the 2020 Census Preparation........................  203                                      
  Outside Witness Testimony.......................................  251
                                        


[GRAPHIC NOT AVAILABLE IN TIFF FORMAT]

                            _____________________
                            
       
       Printed for the use of the Committee on Appropriations   
                            
                                   
                                                                            

                    U.S. GOVERNMENT PUBLISHING OFFICE                    
36-827                  WASHINGTON : 2019                     
          
--------------------------------------------------------------------------------------


                      COMMITTEE ON APPROPRIATIONS

                                ----------                              
                  NITA M. LOWEY, New York, Chairwoman


  MARCY KAPTUR, Ohio				KAY GRANGER, Texas		
  PETER J. VISCLOSKY, Indiana			HAROLD ROGERS, Kentucky			
  JOSE E. SERRANO, New York			ROBERT B. ADERHOLT, Alabama
  ROSA L. DeLAURO, Connecticut			MICHAEL K. SIMPSON, Idaho
  DAVID E. PRICE, North Carolina		JOHN R. CARTER, Texas
  LUCILLE ROYBAL-ALLARD, California		KEN CALVERT, California
  SANFORD D. BISHOP, Jr., Georgia		TOM COLE, Oklahoma
  BARBARA LEE, California			MARIO DIAZ-BALART, Florida
  BETTY McCOLLUM, Minnesota			TOM GRAVES, Georgia
  TIM RYAN, Ohio				STEVE WOMACK, Arkansas
  C. A. DUTCH RUPPERSBERGER, Maryland		JEFF FORTENBERRY, Nebraska	
  DEBBIE WASSERMAN SCHULTZ, Florida		CHUCK FLEISCHMANN, Tennessee
  HENRY CUELLAR, Texas				JAIME HERRERA BEUTLER, Washington			
  CHELLIE PINGREE, Maine			DAVID P. JOYCE, Ohio
  MIKE QUIGLEY, Illinois			ANDY HARRIS, Maryland			
  DEREK KILMER, Washington			MARTHA ROBY, Alabama
  MATT CARTWRIGHT, Pennsylvania			MARK E. AMODEI, Nevada
  GRACE MENG, New York				CHRIS STEWART, Utah			
  MARK POCAN, Wisconsin				STEVEN M. PALAZZO, Mississippi
  KATHERINE M. CLARK, Massachusetts		DAN NEWHOUSE, Washington
  PETE AGUILAR, California			JOHN R. MOOLENAAR, Michigan
  LOIS FRANKEL, Florida				JOHN H. RUTHERFORD, Florida
  CHERI BUSTOS, Illinois			 WILL HURD, Texas
  BONNIE WATSON COLEMAN, New Jersey
  BRENDA L. LAWRENCE, Michigan
  NORMA J. TORRES, California
  CHARLIE CRIST, Florida
  ANN KIRKPATRICK, Arizona
  ED CASE, Hawaii

                   Shalanda Young, Clerk and Staff Director

                                   (ii)

 
COMMERCE, JUSTICE, SCIENCE, AND RELATED AGENCIES APPROPRIATIONS FOR 
                                  2020

                              ----------                              

                                       Wednesday, March 27, 2019.  

             NATIONAL AERONAUTICS AND SPACE ADMINISTRATION

                                WITNESS

JAMES BRIDENSTINE, ADMINISTRATOR, NASA
    Mr. Serrano. The subcommittee shall come to order. I would 
like to welcome NASA administrator James Bridenstine to the 
subcommittee. Welcome, my friend. It has been a while since I 
have seen you at the other place.
    Mr. Bridenstine. Yes, sir.
    Mr. Serrano. It is nice to see you here.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Mr. Serrano. The other place is the House, you know.
    Mr. Bridenstine. The locker room downstairs, where we used 
to have----
    Mr. Serrano. Are you going to clean it out one of these 
days?
    Mr. Bridenstine. You used to be right next to me.
    Mr. Serrano. I didn't want to say that. Yes. The locker was 
right next to mine and he hasn't cleaned it out yet.
    Mr. Bridenstine. It is on the agenda.
    Mr. Serrano. Did you know something because you had a NASA 
t-shirt, I noticed.
    Mr. Bridenstine. Can you imagine?
    Mr. Serrano. NASA is a great agency that has accomplished 
much over the last 60 years. A milestone in space flight 
occurred on July 20, 1969, 50 years ago, when American 
commander Neil Armstrong and Lunar Module pilot, Buzz Aldrin, 
landed the Apollo Lunar Module Eagle on the moon at 4:17 p.m. 
Eastern Standard Time. Armstrong became the first man to step 
onto the lunar surface, an inspiring accomplishment.
    NASA continues its missions by being responsible for 
civilian space activities, science, and aeronautics research. 
NASA plays a key role in fostering innovation and opportunity. 
As most of you know, I am a strong supporter of NASA and 
believe that its missions help keep the United States at the 
forefront of space exploration and scientific research.
    The President's budget request for fiscal year 2020 
includes $21 billion for NASA, which is nearly $500 million 
decrease from 2019 enacted level. While NASA provides funding 
for a number of science and exploration activities, this budget 
proposal reduces funding for a number of important areas. I am 
particularly concerned that the President's budget request 
proposes a $602 million cut to NASA's science mission 
directorate.
    From the fiscal year 2019 enacted level, this again zeroes 
out funding for three longstanding programs with NASA's Office 
of STEM Engagement which help inspire the next generation of 
scientists, it is very naive for NASA to propose, once again, 
to cut these investments after Congress spoke very clearly a 
little over two months ago when the omnibus was signed into 
law. It is my intention, as chairman of this subcommittee, to 
provide robust funding for these programs that are so important 
for the future of our youth and our country.
    President Trump's budget request also proposes cutting 
funding for earth science, which is reduced by 151.2 million 
below last year. The research funded in this account is 
critical to understanding the impact of climate change on our 
planet. Our future literally depends on it, which makes these 
proposals so troubling.
    In addition, I am extremely concerned by the intent to 
eliminate the Wide Field InfraRed Survey Telescope, WFIRST. 
This project received $312 million. In fiscal year 2019, it was 
ranked as the highest scientific priority space astrophysics 
mission by the 2010 Decadal Survey.
    I also have to express my strong reservations with a 
proposal to procure commercial rockets for a mission prior to 
the planned Exploration Mission 1, EM-1, in June 2020 instead 
of January 2021, at an additional cost estimated to be nearly 
$1 billion. These significant amounts of money can be better 
utilized for other programs that NASA wants to cancel and that 
are greatly needed.
    Lastly, as you very well know, I am also a strong supporter 
of the Arecibo Observatory in Puerto Rico. NASA's fiscal year 
2020 budget request includes funding for NASA activities at the 
observatory and I would like to hear more about this work. 
Thank you once again, Administrator, for joining us today. I 
look forward to hearing your testimony. Now, I would like to 
turn to my colleague and friend, Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman, for yielding and I 
want to join you in welcoming the NASA Administrator, Jim 
Bridenstine, to the subcommittee this afternoon. And 
Administrator, we appreciate you being here to discuss the 
fiscal year 2020 budget. And I know, of course you served in 
the House, but I think this is your first time before this 
subcommittee----
    Mr. Bridenstine. Yes, sir.
    Mr. Aderholt [continuing]. In this capacity. And so we 
welcome you to be here today and thank you for your service.
    For nearly 60 years, we have relied on the National 
Aeronautics and Space Administration to ensure that the United 
States remained a world leader in space exploration. Through 
NASA's scientific research, technological developments, and 
missions, we have furthered our understanding of Aeronautics, 
the Earth, and the Moon, distant planets, and even far off 
galaxies.
    I am honored to serve on this subcommittee since my home 
state of Alabama has a long and proud tradition of supporting 
our nation's space program. Since 1960, the Marshall Space 
Flight Center in Huntsville has been NASA's lead center for 
rocket propulsion. Marshall has also been the lead center, or 
played major roles in lander work, as well as major science 
programs including designing the Hubble telescope to be service 
accessible.
    I think many of us had prepared remarks and questions, 
which suddenly took a little bit of a turn and took a new 
meaning yesterday. I believe the vice president made one of the 
most important space policy speeches since President Kennedy 
laid out the challenge to land on the moon back in the 1960s.
    There are several themes to draw on from that speech, but 
two which stand out to me as being urgent and being 
accountable. To look to the future, I think we can learn from a 
glance at the past. The Apollo program was an urgent mission. 
Government and private sector had to find new ways to work 
together, and both had to be willing to undergo internal 
shakeups and to know when to hit the reset button and to surge 
ahead.
    After Sputnik flew over America, the completion of the task 
in our own program occurred much faster. SLS is in the 
spotlight. The vice president at the National Space Council 
meeting yesterday, as you know, called on us to all rise to a 
higher level of excellence. I expect the NASA's contractor 
partner, Boeing, to rise to the occasion of this new urgency 
and redouble their efforts to get SLS ready to fly in 2020.
    NASA as a manager has the duty to rise to the occasion, 
examine their internal process from top to bottom, to clear out 
bureaucracy, to make this an agency priority, and make better, 
faster decisions which allow Boeing to finish the project. NASA 
must access the next steps and move forward quickly, and not 
get caught up on the paralysis of analysis, as the vice 
president said.
    I believe this call to excellence, however, extends to more 
programs than just the SLS core stage. We need to finish the 
Orion capsule. We need to complete the ground operations. We 
need to complete the James Webb telescope. And we need to 
review the centers' operational budgets to ensure that they are 
sufficient to fulfill their mission.
    With great respect to the administration, we also need to 
move ahead with the Exploration Upper Stage or what is referred 
to as the EUS. This upper stage will allow flights for both 
astronauts and very large cargo elements on the same flight. To 
use that, we much also push ahead with a mobile launch platform 
design for the block 1B SLS, instead of continuing to modify a 
platform originally made for a much smaller Aries 1 rocket.
    The EUS stage will allow us to meet the challenge to safe--
of safely landing astronauts on the moon in 2024. Mr. Chairman, 
I would--I want to also speak up for excellence in the 
planetary exploration program.
    Congress has directed that NASA use the SLS for the Europa 
mission. The proposed change to a commercial rocket means we 
lose the mission plan advantages of the unparallel faring size 
and the tremendous speed made possible by the EUS. The change 
would add years of waiting to the data from the mission. I 
would expect NASA to abide by the provisions in the previous 
bill language.
    Likewise, the vice president called for moving ahead with 
innovation of nuclear propulsion, low and rich uranium, and the 
thermal propulsion which offers a safe and speedy way to 
transport humans and thereby avoid much of the dangerous 
radiation exposure.
    We must start work now to be ready when the planetary 
orbits once again create a favorable time to launch to Mars.
    And finally, Mr. Chairman, it is time that NASA officials 
make a serious results driven examination of the contracting 
and other aspects of commercial programs. It is not enough to 
promise savings and speed, and then serve up hardware delays, 
schedule delays, and cost overruns. It is most certainly too 
early to exclude SLS from delivering gateway elements and 
landers.
    The same excellence we are going to demand of SLS program, 
must be required of these programs as well. And I will close by 
saying, Mr. Chairman, that I share your concerns about cuts to 
STEM Engagement. With a looming wave of retiring engineers from 
both the government sector and the private sector, now is not 
the time to stop encouraging our young people to major in these 
areas. NASA is revered by the public and has unique abilities 
to inspire youth.
    And with that, Mr. Chairman, I yield back and look forward 
to hearing the testimony of the administrator today. Thank you 
very much.
    Mr. Serrano. Do you know the drill? You keep it to 5 
minutes and we include your whole statement in the record.
    Mr. Bridenstine. Yes, sir.
    Mr. Serrano. Thank you.
    Mr. Bridenstine. Chairman Serrano, Ranking Member Aderholt, 
and members of the committee, it is great to be back in the 
House of Representatives, seeing your smiling faces. I hope 
they stay that way for the rest of the hearing. It is good to 
be back in the House.
    I will tell you that the budget request is strong for NASA. 
I heard your language about maybe it is a little smaller than 
what got passed in February, but it is a good budget request 
that helps us accomplish the objectives of Space Policy 
Directive-1. Science is still strong, and of course, we have 
got ongoing missions that we are sustaining in the best 
interest of our country.
    I think the big thing that we have underway right now is a 
return to the moon. This time, we are doing it differently than 
we did it during the Apollo era, and we are doing it 
differently than has ever been prescribed by previous 
administrations. This time when we go to the moon, we are going 
sustainably. What does that mean?
    That means this time when we go to the moon, we are going 
to stay. Does that mean we are going to have a permanent human 
presence on the surface of the moon? No, but what it means is 
that we are going to have robots, landers, rovers, and humans, 
all going back and forth to the moon for a sustainable duration 
to get more resources than ever before.
    The President's Space Policy Directive-1 says, ``Go to the 
moon. Go sustainably. Utilize the resources of the Moon.'' In 
2008 and in 2009, we made discoveries. We now know that there 
is hundreds of millions of tons of water ice at the poles of 
the moon. Water ice represents life support. It is air to 
breathe. It is water to drink. It is hydrogen and oxygen, which 
is rocket fuel and it is available in hundreds of millions of 
tons at the poles of the Moon.
    That is a game changer for the future. Those resources, we 
intend to utilize those resources. The other benefit of the 
Moon is it is a proving ground. That ultimately at the end of 
the day, we can learn to live and work on another world, and 
then take those capabilities and as much as possible, replicate 
them for a journey to Mars, which is still high on the agenda.
    The President's budget request has sufficient funds to do 
these activities, but we are not missing the fact that at the 
end of the day, the goal is Mars. The Science Mission 
Directorate is continuing to focus on Mars. In fact, for the 
first time, we are going to be funding the Mars Sample Return 
mission. We have all seen what we have gotten already from the 
Mars missions that we have done.
    We now know that Mars at one time had a magnetosphere that 
protected it from the radiation of deep space. It had two-
thirds of its northern hemisphere covered by an ocean at Mars. 
It had a thick atmosphere. In other words, Mars was at one time 
habitable. We are not saying it was inhabited, but it was 
capable. It was habitable at one point in its history.
    At some point, it all changed. The magnetosphere went away. 
The oceans dried up. The atmosphere became very thin. It is not 
carbon dioxide rather than potentially water vapor or other 
things.
    All of this conspires to say, what can we learn about Mars 
to inform us about our own planet and how it is changing. That 
is one of the reasons it is important to do Planetary Science 
so we can also apply that to Earth Science. The Earth Science 
budget is strong. We are still sensing the Earth across large 
parts of the electromagnetic spectrum, and we are using that 
data to make critically important decisions about how our own 
climate here is changing. It is true that this is the only 
planet we know to host life. Therefore, it is the planet that I 
care about the most, as well as all of us should care about the 
most.
    When we think about ultimately the other parts of the 
Science Mission Directorate, we talk about heliophysics, the 
study of the Sun. We have the Parker Solar Probe right now 
orbiting the Sun, and in fact doing missions that will take it 
through the Sun's atmosphere, if you can imagine that, the 
corona. That is the solar corona, I should say.
    This is an amazing mission. It has proven to be very 
successful already. We are going to continue it. It is going to 
help us be able to predict solar flares. It is going to help us 
predict coronal mass ejections potentially. That could be very 
damaging to astronauts in deep space as we return to the Moon 
and eventually go on to Mars. We need to be able to predict 
those to protect human life into the future.
    Of course, astrophysics is critically important. The James 
Webb Space Telescope, we are getting that back on track, it had 
some schedule problems. Of course, because of the support of 
this committee, we are moving forward and anticipate launching 
that in March of 2021. We have margin in the schedule to 
accomplish that objective.
    The Science Mission Directorate is strong. The Human 
Exploration and Operations Mission Directorate is strong. The 
Aeronautics Mission Directorate, which sometimes gets missed. 
The first A in NASA, is Aeronautics, and we really believe that 
can have a transformational impact for our country 
economically, as we work to make aviation more fuel efficient, 
more friendly for the environment, and certainly the idea that 
we could even fly across the United States in a way that would 
be supersonic and yet have a low boom.
    In other words, in a way that we could actually fly across 
from New York, Mr. Chairman, to maybe even Huntsville, Alabama 
in a matter of 30 minutes because we can fly supersonic, rather 
than plowing through the atmosphere at .6 Mach as we have been 
doing for the last 60 years.
    A lot of exciting things that we are doing. The budget is 
strong. I am happy to answer any of your questions, and of 
course, I am glad to be back in the House of Representatives 
with you.
    [The information follows:] 
    
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Serrano. Let me just say to begin, and before the 
questions maybe get a little hard and you stop smiling, that I 
can sense the excitement that you feel about leading this 
agency. I will tell you, that is how we feel in this committee 
and I think in the whole Congress. That is a very exciting 
thing.
    So, I am encouraged by that. I am not encouraged by the 
fact that you say you are not going to leave humans on the Moon 
because Mr. Aderholt and I were making a list of people to send 
to the Moon.
    Mr. Bridenstine. I might have a list of my own, sir.
    Mr. Serrano. I hope we are not on it. Mr. Administrator, 
initially, the President's budget request does not include an 
extra one billion dollars to fund a launch in addition to the 
previously planned space launch system, EM-1. On March 13, you 
testified before the Senate that we should launch a mission 
around the Moon in June 2020 using a commercial, off the shelf 
rocket in lieu of the heavily invested Space Launch System.
    Yesterday at the Marshal Space Flight Center, you said that 
none of the commercial solutions would work for a June 2020 
launch and that accelerating SLS is the right answer. Then 
yesterday also at the same place, the Vice President appeared 
to pressure the folks at the Marshall Space Flight Center for a 
solution to meet a June 2020 date, which looks more and more 
like a political deadline. That is at least three different 
directions in only two weeks.
    These major swings on flagship programs are expensive. We 
are the committee providing the funding for such programs. 
Bottom line, are these sudden program shifts being made in 
response to political pressure?
    Mr. Bridenstine. Mr. Chairman, not because of political 
pressure. A couple of things. The June 2020 date was set years 
ago and in fact maybe even in the last administration. I am not 
sure on that. It was certainly done before I got to NASA as the 
Administrator. That date has been there.
    One of the challenges that we have had is slips in schedule 
without necessarily seeing a change in behavior. What I am 
trying to do is change that. If we tell Congress and we tell 
others that we are going to launch in June of 2020, it was my 
goal to make sure that we could launch in June of 2020.
    I did make the statement before the Senate a few weeks ago 
that we need to look at all options in order to maintain 
schedule. Again, the investments are big and we need to do what 
we can to maintain schedule. We did look at those commercial 
options, as you identified. We came to a determination that 
while some of those options are feasible, none of those 
options, as you identified, are going to keep us within budget 
and on schedule.
    The other thing to do is to figure out within the SLS and 
the Orion program, how do we accelerate the Space Launch 
System. We have got a 40-day study that is underway right now 
and it is our assessment that we can accelerate that. Will we 
meet a June of 2020 launch date? I don't think that is in the 
cards, but I do think we can accelerate significantly from 
where we were originally told that that launch date would 
occur, which could be a slip of almost a couple of years. I 
think we can accelerate well ahead of that based on a number of 
things that we have already done to accelerate. I can get into 
those, sir, if you are interested.
    Mr. Serrano. I understand and in a friendly gesture, let me 
tell you that, as you well know, 75 percent of our profession 
is perception and the perception by many is that it is being 
accelerated so that it can come in and excite the country a few 
months before a November election, something that is going to 
happen in 2020. So understand that is out there for people to 
talk about.
    Because our committee pays the bills, how much will this 
new effort cost to speed the delivery of the Space Launch 
System?
    Mr. Bridenstine. The cost would stay the same. We have got 
a 45-day study that is due in a couple of weeks. I say the cost 
would stay the same. We need to look at it. A 45-day study is 
not done yet, but there will be options. The intent is to stay 
within cost and increase the schedule.
    As far as you mentioned political pressure and the 
perception, I just want to be really clear. There is nobody who 
has had a conversation with me about launching in early 2020 
for any reasons other than the fact that we want to maintain 
schedule because it is important, I think, for the program and 
it is important for the support we have here in the House of 
Representatives to show that we are making progress in a 
meaningful way on the schedule that NASA committed to. That is 
the intent here.
    Mr. Serrano. One quick question before I go to Mr. 
Aderholt. Are there any planned astronaut-led missions? Because 
as I have told you many times, and I have told my committee 
many times, and they know it, in all my 29 years in the 
Congress, there is nothing more exciting than to see the faces 
of kids in a school when an astronaut visits.
    Mr. Bridenstine. Yes.
    Mr. Serrano. It is something really special. And the more 
opportunities we have to have folks who just came from space, 
the more that excitement and that interest in the science grows 
when they visit.
    Mr. Bridenstine. I agree completely, Mr. Chairman. I used 
to be the executive director of a non-profit Air and Space 
Museum in Tulsa, Oklahoma, and I can tell you firsthand that 
kind of interaction changes the lives of children. I have seen 
it firsthand. I may have experienced it myself when I was 
young, interacting with pilots, and working with wind tunnels 
at a summer camp when I was a child.
    It is absolutely true that we need to accomplish these 
objectives, because it is in the interest of our country to 
inspire the next generation to get active in the STEM fields.
    Mr. Serrano. Thank you. Mr. Aderholt.
    Mr. Aderholt. Mr. Chairman. As I mentioned in my opening 
remarks, the vice president's speech at the meeting at the 
National Space Council yesterday down in Alabama was a 
significant change in course from the proposed Exploration 
Mission-1 modification that we have been hearing about lately. 
And let me just say I am glad to hear that you have set aside 
the idea of using commercial rockets to perform EM-1.
    Can you provide some insight into what procedure and 
management details you are reexamining to make sure that NASA 
meets the President's challenge to accelerate the Space Launch 
System?
    Mr. Bridenstine. I would be happy to. A couple of things. 
You mentioned management and what was the other thing? 
Procedures?
    Mr. Aderholt. Yes.
    Mr. Bridenstine. We have the 45-day study, I am going to 
get ahead of it. The reality is in a few short weeks, we are 
going to have the results of that study and there are going to 
be options for acceleration in that study. I will tell you the 
things that we have already been looking at and some of the 
items that I think will help us accelerate.
    In fact, we have already purchased hardware, tooling, that 
will help us integrate the Space Launch System horizontally 
rather than vertically. The challenge there has been, when you 
talk about the engine section of the SLS rocket, it has proven 
to be in the critical path. More complex and more challenging 
than we originally anticipated as an Agency. The challenge has 
been as long as they do vertical integration down at Michoud, 
on top of the engine section, the entire rocket is waiting for 
that engine section to be complete.
    That means there are a whole host of other things that we 
need to be doing that we can't get to do because we are waiting 
for the engine section. What we are trying to do is move that 
engine section out of the critical path. How do we do that? 
Well, we have had to buy new tooling so we can horizontally 
integrate the oxygen tank, the hydrogen tank, the inner tank, 
horizontally integrate those proponents so that we can actually 
be working on the rest of the rocket while we are waiting on 
the engine section. That required an investment in tooling and 
we have now made that investment in response to meetings that 
you and I have had in the past, in response to making sure that 
we are meeting our commitments.
    That is one thing that we have done. The key is in as many 
places as possible. When we talk about the production of a 
rocket, how do we make it instead of in series? How do we put 
it in parallel? How do we get things at the same time rather 
than doing things in series? There is an example and we are 
looking at other things as well.
    Some other things we are doing procedurally, when you think 
about the test of the rocket. Again, because of direction from 
Congress, we are using the space shuttle main engines, the RS-
25s. These engines have flown hundreds of times, three engines 
on every shuttle launch. Of course, we did well over a hundred 
shuttle launches. These are well proven engines and they have 
been tested with millions of seconds of tests. Now we have 
digital controllers that are going to actually schedule fluids 
to these engines. What does that mean?
    What that means is that this brand-new rocket, which we are 
testing in all kinds of computer models, that you really can't 
test it until you actually test it. We have the main engines 
that are thoroughly tested, and now digital controllers, when 
we talk about the scheduling of fluids to those engines, 
through those digital controllers, we might be able to accept 
very high off nominal fluid flows. That is in the realm of what 
is possible based on the new technology that we are adding to 
the RS-25.
    Which means, if we can test each engine independently, 
there is a chance. I have got professional rocket engineers who 
are looking at this right now, I am not saying that we are 
going to do this, but there is a chance that we could actually 
test those engines again in parallel rather than in series. We 
don't have to wait for a full development of a rocket in order 
to test those engines.
    We can take those engines to Stennis, one at a time, four 
different engines, test them in high off nominal conditions, 
and then instead of building the rocket at Stennis, we can take 
the components as we test them in parallel, rather than in 
series, building the rocket and then rebuilding the rocket, we 
can actually move things to where we are integrating more of 
the rocket at the Cape rather than, again, doing things in 
series.
    Those are some of the things that we are looking at. There 
is more. There is a lot more. It is also true going back to 
your other question about the management, Mr. Ranking Member, 
the management has got to change, and this is one of the things 
that we have been working on for a little bit of time now. We 
talk about Human Exploration and Operations.
    There is a big difference between operations, which is when 
we talk about the International Space Station and resupplying 
the International Space Station, and flying crews to the 
International Space Station. These are all operational and 
development.
    Development is very different. We are talking about brand 
new, never used before equipment, and we are doing that within 
the operations with commercial crew. Don't get me wrong, I am 
not suggesting we are not, but talking about brand-new 
capabilities at a scale that we haven't had in a very long 
time, if at all, ever.
    What we are talking about is creating a new mission 
directorate at NASA and it is focused on development activities 
that are very large in scale. That mission directorate, we 
would call it Moon to Mars Mission Directorate because it is 
going to be focused on getting to the Moon and using those 
capabilities to go on to Mars.
    On a management side, we are trying to separate operations 
from development so that we can get a better mix of the right 
people in the right places to accomplish these objectives.
    Mr. Aderholt. Let me just follow up with one thing. It 
seems that continuing with the SLS green run test could take 
five to eight months. What details can you share with us as to 
whether NASA is reconsidering these tests, given such time 
constraints?
    Mr. Bridenstine. Another great question. The key is to test 
in a way that we know that we optimize the success of the first 
launch. That has got to be the goal.
    When we talk about a green run test, we are talking about 
building the core stage of the rocket with all four engines, 
all at the same time, and then running the whole rocket, if you 
will, minus the boosters, the side boosters that are solids, 
running the whole rocket with four main engines for a period of 
eight minutes.
    The question is, is that necessary and could we test each 
engine individually at very high off nominal kind of conditions 
to get certainty, to eliminate almost as much risk as we would 
if we ran the full green run.
    You are absolutely right. That could save six months' of 
schedule, depending on how we do it.
    Mr. Aderholt. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you. We will begin now our first round 
of questions by members--with the Chairman holding a soft 
gavel. Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman, and thank you, Mr. 
Administrator, for being here today. As your classmate, I just 
want to again congratulate you.
    Mr. Bridenstine. Thank you. Great to be here.
    Ms. Meng. As you know, March is Women's History Month where 
we celebrate the amazing accomplishments of all women. My 
eight-year-old niece, Marissa, wants to be the first woman on 
the Moon. And as much as I would love for her to be that woman, 
I hope you achieve it before then because she is only eight.
    Mr. Bridenstine. Okay. We hope so too.
    Ms. Meng. But I wanted to talk about what was supposed to 
be the first all-female spacewalk at the International Space 
Station. Obviously, it's all over the news, but it would've 
been an amazing milestone for all women, and demonstrated to 
girls that nothing is impossible, even in space. And I know 
that the all-female spacewalk was not intentionally planned, 
but how could NASA not have realized earlier with the uniforms?
    Mr. Bridenstine. That is a great question, an important 
question. We are working every day to increase opportunities 
for women at NASA. It doesn't take long, either going to our 
centers or walking around headquarters, to see that women are 
under represented in the STEM fields. That is just the reality. 
We all recognize it and we are working to make changes to that.
    We have had really good success on the Science side. Maybe 
not so much success on the engineering side, but we are working 
every day to address it with different programs and 
opportunities. On the spacewalk specifically, it should be 
noted that the spacesuits, think of them as little space ships, 
each one of them is designed specifically, not just for the 
astronaut, but also for the mission.
    The challenge is we only have a certain number of 
spacesuits and the logistics of some are on the ground and 
being basically refurbished, and some are on the space station. 
We fully anticipated that we were going to be able to do the 
first all-female spacewalk. We were excited about it. We let 
people know about it and we encouraged people to watch.
    We discovered during the first spacewalk that the spacesuit 
was going to need to be adjusted. If we were to make that 
adjustment, remember these spacesuits are designed for the 
mission, as well as the person, it is going to take time away 
from the crew, a period of at least 12 hours to modify the 
spacesuit, plus additional risk. We have two female astronauts 
on the International Space Station right now, three Americans, 
two of them are females. We are very proud of that as well. Our 
astronaut, Anne McClain, made the decision that she wanted to 
make sure that the interest of mission success and safety came 
first, and she decided that in the interest of safety and 
mission success, that it would be easier and more appropriate 
to switch the person doing the spacewalk, rather than try to 
modify the spacesuit.
    She did the right thing and we are very proud that I run an 
Agency where people are making decisions for the best interest 
of the mission, even if it wasn't in the best interest of 
herself.
    Ms. Meng. Thank you. And if we can be helpful in Congress 
to ensure that something like this doesn't happen again, please 
don't hesitate to work with us.
    Mr. Bridenstine. Yes.
    Ms. Meng. I wanted to--I have a little bit of time left. 
The president's budget is asking for more than $21 billion for 
2020. However, just like last year's budget proposal, you've 
mentioned issues with STEM. No funding is requested for the 
Office of STEM Engagement. In the entire 807 pages long, the 
word ``woman'' is also only included one time. So you've 
addressed the problem about not enough women in the STEM 
fields, particularly engineering I think you mentioned.
    Mr. Bridenstine. Yes.
    Ms. Meng. So how can we continue to engage and encourage 
participation, especially for women and minorities?
    Mr. Bridenstine. Great question. It is something we think 
about at NASA every day and we are making efforts to kind of 
change the direction. A couple of things.
    We do 100 percent believe in STEM Engagement, and we have 
to be starting that next generation of scientists and engineers 
to accomplish the missions of the future. I can say, we 
actually do a lot of education outreach and STEM engagement 
through programs through the mission directorates.
    For example, it is important to understand, we have got 
robots all over the solar system right now doing amazing 
things. All the way out in the Kuiper belt, which is beyond 
Pluto, and of course we have got robots on Mars, and around 
asteroids in deep space, Bennu, for example. So these are all 
exciting things.
    The question is how do we inspire that next generation of 
robotic technician, that robotic engineer, that robotic 
scientist? We engage through the science mission directorate an 
organization called First Robotics. That gets young people. We 
are talking about high schoolers, building robots, competing in 
competitions, and inspiring that next generation.
    I just went out to a robotics competition and had the 
opportunity to speak to a bunch of young kids. They are 
building things that are absolutely magnificent. They are 
reaching out to young girls and communities that are not 
represented well in the STEM fields. We support that effort in 
those areas, and we will absolutely continue to do that.
    We work, of course, with the mission directorates on 
internships and those activities. All through the education 
process, we are trying to engage kids at all different levels.
    Ms. Meng. Thank you. I yield back.
    Mr. Serrano. Ms. Roby.
    Ms. Roby. Well, thank you, Mr. Administrator. It is great 
to see you here today back in the House. And a couple of 
things, first of all, my son, George, who you have seen running 
around the halls here for many years, his new favorite thing is 
to watch the Science Channel with his mother.
    Mr. Bridenstine. Good.
    Ms. Roby. So, I will be excited to tell him tonight about 
the conversations that we had with you today.
    Mr. Bridenstine. Awesome.
    Ms. Roby. Also, in an effort not to repeat too much of what 
my other colleague from Alabama said, I will try not to. If I 
do, I apologize. And you know this jumping up and down is 
constituents in the hallway, and lots of hearings going on, so 
I know you can certainly appreciate that.
    Mr. Bridenstine. I understand.
    Ms. Roby. And we are here to talk about NASA's budget. And 
Mr. Administrator, you can probably guess, being from Alabama, 
what my questions are about. Just in Alabama alone, Space 
Launch System, SLS, provides more than 13,000 jobs, 2.2 billion 
economic impact among NASA contractors and the supplier 
workforce. Of course, as mentioned by Mr. Aderholt during 
yesterday's Space Council meeting, you reaffirmed that SLS is 
the best launch vehicle for Orion for Exploration Mission-1, 
EM-1, and future missions. And you called for an acceleration 
of the Exploration Upper Stage to be ready by EM-3. And I 
appreciate your decision, again, to reaffirm the use of SLS for 
the EM-1 and beyond.
    Can you highlight for us the key reasons SLS is the best 
approach for these missions, and what capabilities it provides 
that other alternatives cannot?
    Mr. Bridenstine. Great question. When we talk about going 
to the Moon, we need a number of things, but the key thing is, 
we need large upmass. We have to be able to launch massive 
things into space that can be capable of keeping humans alive, 
we are talking about large mass, and not just put it in orbit 
around the Earth, but get it all the way to the Moon.
    If we are going to achieve that, SLS is the vehicle to do 
it. Are there others that can do it? Yes, there are others that 
could do it, barely. When I say barely, what I mean is they 
could perform a free return trajectory. A free return 
trajectory doesn't get us into orbit around the Moon, which is 
where you have to be if you want to get to the surface of the 
Moon.
    What we have got to do is, we have got to have a big 
rocket. That is what SLS is. What the Exploration Upper Stage 
ultimately allows us to do is put even more mass into orbit 
around the Moon, and ultimately get to a day where we can co-
manifest payloads. In other words, we can launch hardware that 
would include a lander, it would include habitation, and 
include the Orion crew capsule, and the European service module 
all at the same time.
    If we want to accelerate to get to the Moon as soon as 
possible, the SLS is a critical piece of that, and so is the 
Exploration Upper Stage.
    Ms. Roby. So, talk to us, because SLS is the world's only 
human rated rocket in its class designed from the ground up to 
safely transport astronauts to the moon and deep space. How 
important is it that the U.S. be the leader in this capability 
with our international partners? And does SLS give the U.S. a 
tool to lead our international partners on these other 
missions?
    Mr. Bridenstine. Without question, I talk to our 
international partners all the time. I have met with the heads 
of all the space agencies around the world. Everybody is keen 
on partnering with us in going back to the Moon, this time 
sustainably. SLS is the key to that. There are other countries 
in the world that have ideas of having a super heavy lift 
capability similar to this. I would say that those countries, 
those capabilities are at this point on paper, great paper 
designs.
    We are actually building a rocket that is very real and the 
closest way that we are going to be able to launch to the Moon, 
is with that rocket. I believe we are going to do our first 
trip around the Moon in 2020, which is next year.
    Ms. Roby. So in light of the vice president's comments 
yesterday, when do you expect to announce the astronauts that 
will launch on the SLS and Orion for EM-2?
    Mr. Bridenstine. That is a great question. Soon.
    Ms. Roby. Because I would assume they would need to be 
begin training soon.
    Mr. Bridenstine. Absolutely. The idea would be 2020 we 
would do the first launch of SLS uncrewed.
    Ms. Roby. Correct.
    Mr. Bridenstine. By the way, because it is uncrewed, that 
enables us to do things that we otherwise couldn't do, test 
envelopes, that kind of thing. Then the second launch of SLS 
with an Orion crew capsule would be crewed. We would be looking 
for that in 2022.
    It is an aggressive agenda, but we can do that.
    Ms. Roby. Okay. Thank you so much. Thank you for your 
service to our country. And we appreciate, again, your time 
today. And Mr. Chairman, I yield back.
    Mr. Bridenstine. Thank you.
    Mr. Serrano. Thank you. Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman, and Dr. James 
Bridenstine, Jim, great to have you back.
    Mr. Bridenstine. Thank you. Good to be here.
    Mr. Cartwright. In case anybody missed it, Dr. Bridenstine 
was part of the greatest class ever elected to the United 
States Congress. Let the record reflect Congresswoman Meng is 
nodding in the affirmative.
    So thanks for being here today. I commend you on the 
progress that you have made in your short term in your position 
in positioning our nation as the leader in commercial space, 
really, what is a revolution. And also the leadership you have 
shown in our efforts to return to the Moon and beyond.
    Something that you and I have spoken of before, I am a 
little frustrated about the third consecutive year of proposed 
deep cuts to earth and climate science in NASA's budget. It 
clearly contradicts the priorities of both this subcommittee 
and of Congress. In recent years, we have seen a rapid increase 
in extreme weather events and tragically lost thousands of 
lives, many of them in the southeast United States.
    Additionally, between 2005 and 2018, you may know that 
total federal funding for disaster assistance is almost half a 
trillion dollars. So this is a big deal, focusing on the causes 
and the cures of climate change.
    Just last month, we heard from your Earth Science Director, 
Dr. Michael Freilich, that the Earth Science Division in 2018 
provided vital real time environmental data to agencies 
responding to wildfires in California, floods in the Midwest, 
and several hurricanes in the south. We learned that there are 
key scientific questions that NASA must continue working on to 
improve our understandings and our predictions of climate 
change and enable better resource management.
    This proposed 7.8 percent cut to Earth Science, which is 
out of proportion to other cuts in different parts of the 
Agency, I just want you to know as we set your funding, we do 
not see that as something that we can afford to have happen. It 
would make it harder to understand earth's complex climate 
patterns. It would make it much more expensive to adapt to our 
new and changing planet.
    I want to shift right over to the benefits of NASA 
innovations, if I might.
    NASA's increasing collaboration with the private sector on 
new space technologies and planetary explorations is what I 
want to talk about, includes some very new aerospace 
accelerator programs, which will select 10 start-up companies 
to develop new technologies for space. Can you give us specific 
examples of where such NASA and private-sector collaborations 
have led to new innovations and spurred economic growth right 
here in the United States?
    Mr. Bridenstine. I think so. Specifically, regarding Earth 
Science, is that----
    Mr. Cartwright. Any collaboration with the private sector.
    Mr. Bridenstine. Great. I have a couple of things I want to 
address because I want you to know that NASA is committed and I 
am committed to making sure that we are continuing to study the 
Earth and following the decadal surveys, and I have talked to 
you about my goal, to make sure that NASA remains apolitical, 
bipartisan. We love to have support from all sides.
    I understand your concern. Know that we are committed to 
the Earth Science budget of NASA; in fact, right now, we have 
the highest Earth Science budget in the history of NASA, which 
is a good thing. It is on par with last year at the same time, 
so I guess we might have lost a little bit. Again, with 
bipartisan support in the House and the Senate and even support 
from the administration, and it is also true that this budget 
request, while a little bit less than we are currently enacted, 
it is still higher than 5 of the years that were enacted in the 
previous administration. This is a very strong Earth Science 
budget request and I just want to make sure that we are all in 
agreement.
    You have my commitment that we are going to continue 
studying the Earth across large parts of the electromagnetic 
spectrum. We are going to continue to provide that critical 
information that I know that you are so keenly interested in. 
And I would love to work with you more if you have ideas on 
what we can do.
    As far as public-private partnerships, we saw just a few 
weeks ago, you probably saw Crew Dragon docked to the 
International Space Station. That was a big investment by NASA, 
but it was a big investment by the private sector at the same 
time, and it enabled us to locate and put a crew-capable 
vehicle docked to the International Space Station and come home 
safely. The idea being, when we do resupply to the 
International Space Station of equipment and food and other 
things, and when we send crew to the International Space 
Station, we want those activities, we want NASA, where there is 
a robust commercial marketplace, we want NASA to be one 
customer of many customers driving down to our costs and we 
want to have numerous providers that are competing on cost and 
innovation, which we have seen now. When commercial providers 
launched to the International Space Station, now we are seeing 
the re-use of rockets. Imagine flying an airplane from New York 
to LA and when you get to where you are going, you have to 
throw the airplane away. The cost would be so high, nobody 
would ever fly. That is what we have been doing with space 
launch for all these years.
    NASA has made a commitment that instead of purchasing, 
owning and operating hardware, where there is a robust 
marketplace, we want to be a customer and let them compete, as 
long as we are doing it safely, which we are very keen on, as 
well. We are on the precipice of commercializing low-earth 
orbit for human capability and we want to continue to see that 
happen.
    These public-private partnerships, of course, have been 
very successful on those activities, but also, even on earth 
science. We would like to see NASA buy data from commercial 
operators that are sensing the Earth in parts of the 
electromagnetic spectrum for purposes that NASA did not go out 
and seek their sensing. They are doing it for insurance 
companies. They are doing it for private, you know, weather 
kind of capabilities. They are doing it for agriculture 
companies. How can NASA tap into that? We want to buy that 
data, too, and become a customer there. We want to actually get 
more earth science data than ever before by taking advantage of 
those commercial capabilities.
    Mr. Cartwright. Thank you. I yield back.
    Mr. Serrano. Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman.
    Administrator Bridenstine, it is great to have you here 
today. I really enjoy hearing your knowledge on all subjects of 
NASA. It is fascinating. It is tremendous, and I think you are 
the right man or the right person for the job to serve as 
NASA's administrator.
    Mr. Bridenstine. Thank you.
    Mr. Palazzo. I would have a couple questions. One of them 
is the enhanced-use lease agreement that NASA has been able to 
use very effectively to drive down costs and utilize underused 
properties. It seems like every year that is expiring and it 
affects all of your space centers--and I know you are trying to 
do a lot with limited resources--so every penny, every dollar 
that we save is a dollar that we can put in the exploration and 
development and do the things the American people want us to 
do.
    Can you tell me, do you support the EUL and why is it good 
for NASA?
    Mr. Bridenstine. Critically important for NASA. Enhanced-
use lease enables us, as an Agency, to take property that might 
be underutilized and enable private companies to utilize it. It 
could be land for housing. It could be a test stand for 
Stennis. It could be a building that we have at one of our 
centers that is not fully utilized. If we can have a tenant 
occupy that property and, pay to improve that property, make it 
relevant for today's era--when we talk about test stands, we 
talk about launch sites, those kinds of things--we benefit 
greatly going back to what Congressman Cartwright was talking 
about, commercial helping us and us helping commercial, it 
works out very well when we can take advantage of enhanced-use 
leasing because it takes that underutilized capability, makes 
it utilized, and, of course, it brings resources to NASA then 
20 years from now, 30 years, 40 years, we are going to be able 
to have and/or use for other purposes. It is a really good 
program. We are very grateful to this committee and Congress, 
for making sure that is continued in the appropriations 
process.
    Mr. Palazzo. That's very good to hear. We are working on 
legislation to try to make the EUL longer, because as you know, 
I mean, with the exploration, it is almost a lot like flood 
insurance. People don't--you know, they want the certainty of 
the program being in place for a long time, but if it is 
expiring every six months, every year, every two years, I don't 
think we are fully utilizing the commerce, the industries, that 
would seek out NASA facilities and the joint ventures and the 
partnerships.
    Mr. Bridenstine. Then when there is a lapse in 
appropriations, everybody flees, and then we are back to where 
we started. You are exactly right, if we could make it 
permanent, it would be great.
    Mr. Palazzo. Right. I perfectly understand that. I know I 
came in a little late and I apologize, and there was some 
conversation on the Green Run. I know that is expected to be 
conducted at Stennis Space Center, so I would love, in the 
essence of time, if you would have one of your people come 
speak with us and just tell me some of the alternatives that 
you are talking about and what can we do to ensure that a Green 
Run is taking place.
    I know when I was on the space subcommittee, we had a lot 
of astronauts and a lot of people who have flown on rockets. 
Many of them had flown to the Moon. They understand how 
important testing our rocket engines are and testing them 
correctly, because you only get one chance. You don't want to 
test a rocket when you are strapped into that rocket.
    Mr. Bridenstine. That's right.
    Mr. Palazzo. We can't afford that.
    And they said one of the reasons of our successes was that 
we have tested the rockets and we did it well and we did it at 
Stennis Space Center. And I know they have an excellent record 
of making sure that when we send a man up to space, that man 
comes back--or woman or person--alive.
    Mr. Bridenstine. Right.
    Mr. Palazzo. So, really quick--I have a little bit of 
time--I was going to ask about our Russian and China 
partnerships and the technological gap, but something that I 
have always been curious on from my previous committee is space 
debris. Is it getting worse? How are we going to address that? 
Because I do know that can affect not only our space stations, 
our satellites. Do we have any type of law in place that 
prevents other countries from say, detonating or exploding or 
polluting our space?
    Mr. Bridenstine. Great--all important points--great 
question. The answer is, yes, space debris is getting worse, 
not better. It is true that in low-earth orbit, debris does get 
removed just by the drag from the upper atmosphere, but a lot 
of what we do is beyond, you know, that lowest of low-earth 
orbits and that debris stays for a long time.
    It is important to note that NASA is a part of what's 
called the Interagency Space Debris Coordination Committee. 
That committee has basically, all the Space Agencies from 
around the world that do, you know, big activities in space. 
They have assessed, and NASA is a part of it, that every 5 to 9 
years, we are going to have a collision in orbit, similar to 
the Iridium-Cosmos collision that occurred, I think it was back 
in 2009.
    In other words, in every 5 to 9 years, we are going to have 
a collision that results in thousands of pieces of orbital 
debris that are trackable, which means that there are thousands 
of more pieces that are not trackable at this point. We need to 
do a number of things. We need to improve space-situational 
awareness. I know that the Air Force has been working on get 
the space fence online, so that is going to be an improvement, 
but that is just going to show us a lot more debris. Then we 
have to be able to characterize that debris and get better at 
assessing conjunctions and increasing the probabilistic, or I 
should say, the probabilities of those conjunctions occurring.
    When I say increasing the probability, I guess, 
increasing--you know, every piece of debris that has a bubble 
around it based on uncertainty. We need to get that bubble a 
lot smaller, in other words, reduce the uncertainty, so that 
while we see more debris, at the same time, we have more 
certainty that debris is not going to be impacting any of our 
missions and/or people we have on the International Space 
Station.
    Space-situational awareness and Space-traffic management is 
the next step after better space-situational awareness, and 
then mitigation--don't let it happen to begin with. Do space-
situational awareness to make sure you understand it; space-
traffic management to make sure you can control around it; and 
then eventually remediation, which is very costly, but getting 
it out of orbit. That is the next big thing. The European Space 
Agency is very keen on that right now. They want us to join 
them in that effort. We are looking at it.
    We do have some missions that are heading in that 
direction, but it ends up being very expensive and we need to 
make sure that we are doing all the necessary things. Here's 
the thing--important point--debris ends up being there for a 
long time. If we wreck space, we are not getting it back, and 
it is also important to note that creating debris fields 
intentionally is wrong. That is an important point, because 
some people like to test anti-satellite capabilities 
intentionally and create orbital debris fields that we, today, 
are still dealing with, and those same countries come to us for 
space-situational awareness because of the debris fields that 
they, themselves created, and that is being provided by the 
American taxpayer, not just to them, but to the entire world 
for free.
    The entire world has to step up and say, If you are going 
to do this, you are going to pay a consequence, and right now 
that consequence is not being paid.
    Mr. Serrano. Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman.
    And, Administrator Bridenstine, thank you for being here 
today. It is a pleasure to have you with us.
    Mr. Bridenstine. Thank you.
    Mr. Crist. Despite the administration's rhetoric about 
leading in space and the announcement from the vice president 
yesterday to return humans to the surface of the moon by 2024, 
the fiscal year 2020 budget request proposes to reduce NASA's 
funding by almost half a billion dollars. This includes 
significant cuts to NASA's new exploration systems, the space-
launch system, Orion crew capsule, and exploration ground 
systems. I am particularly concerned that these cuts would 
disproportionately impact my state of Florida. I am told that 
at least 250 million in cuts would directly impact 
infrastructure at the Kennedy Space Center and additional cuts 
would impact Florida's NASA supplier companies, many of which 
are located within my district.
    This budget proposal also potentially undermines human 
exploration of deep space by deferring funding for the 
exploration upper stage of the Space Launch System and 
eliminating funding for a second mobile launcher, the latter of 
which could threaten hundreds of new jobs in Florida starting 
this year. I do agree that the exploration, upper stage, and 
second mobile launcher are critical to NASA's leadership in 
space and our ability to explore the Moon, Mars, and other 
deep-space destinations.
    Mr. Bridenstine. Absolutely. I agree with that 100 percent.
    Mr. Crist. With the proposed cuts in this budget, can we 
meet the vice president's goal of returning to the Moon by 
2024?
    Mr. Bridenstine. We are going to--if we are going to have 
boots on the Moon in 2024, as the vice president indicated 
yesterday, which I believe we can achieve, we are going to need 
SLS. We are going to need to accelerate it and get as many of 
those as soon as possible. We are going to need exploration 
upper stage as soon as possible. 2024 is a very aggressive 
schedule and there is nothing that we can do to accelerate that 
in a more meaningful way to get boots on the Moon in 2024 than 
having exploration upper stage, you know, the Orion crew 
capsule, the European Service Module, and the Space Launch 
System. With the exploration upper stage, we need that second 
mobile launcher.
    Mr. Crist. So, I assume--pardon me, I am sorry.
    Mr. Bridenstine. That is all--you are absolutely accurate.
    Mr. Crist. So, I assume that all means that we would need 
more funding in order to accomplish those goals?
    Mr. Bridenstine. Yes.
    Mr. Crist. What about getting humans to Mars by 2033?
    Mr. Bridenstine. That is--you know, I want to make that 
happen. I want to be really clear.
    Mr. Crist. That would be great.
    Mr. Bridenstine. It is more challenging. There is a lot of 
technologies that have to be developed. I heard people talking 
earlier about nuclear thermal propulsion to--you know, that 
kind of capability. We talk about deep space, we talk about 
radiation affecting the human condition.
    What does that mean? We have got to get to Mars quicker. A 
7-month journey is going to be very harmful to the human 
condition, so we have to go faster and nuclear thermal is a 
part of that. We also need to figure out how do we shield from 
the radiation. We need to figure out how to live and work on 
another world.
    When you go to Mars, we are only lined up with Mars on the 
same side of the Sun once every 26 months. What does that mean? 
That means when we go to Mars, we are going to have to be able 
to live there for a couple of years before we can come home. We 
have to figure out how to, basically, what we call in-situ 
resource utilization. In this budget request, Congressman, we 
do have resources for in situ resource utilization for the 
first time and the President has given us a direction to 
actually utilize the resources of the Moon, which has never 
been done before.
    The reason we do that, the reason the Moon matters here, is 
because it is a proving ground. It is a proving ground for all 
of the capabilities that we need to test all of the 
capabilities where we need to learn. It is a 3-day journey 
home, which means things can go wrong and we can actually come 
home safely. We proved that with Apollo 13. We don't want to 
relive Apollo 13, but if things go wrong, the Moon--it is a 
better place--if that happened on the way to Mars, the 
astronauts would not have made it.
    The Moon is the best path to prove all these capabilities, 
technologies, and so, 2033 is, I think, aggressive, but the 
only way we can make that happen is to utilize the Moon as the 
proving ground.
    Mr. Crist. Yes, sir. Thank you very much.
    Mr. Bridenstine. Thank you.
    Mr. Crist. Thank you, Mr. Chairman. I yield.
    Mr. Bridenstine. That is again, we are only on the same 
side of the Sun every 26 months, so when we go, we have got to 
be prepared.
    Mr. Serrano. Well, they better take a lot of DVDs.
    Mr. Bridenstine. Yeah.
    Mr. Serrano. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Dr. Bridenstine, welcome back.
    Mr. Bridenstine. Thank you. By the way, Congressman 
Cartwright was teasing when he called me Doctor, so, just----
    Ms. Kaptur. Well, I am just trying to be a friendly source 
here.
    Mr. Bridenstine. All right.
    Ms. Kaptur. I wanted to ask you, your budget submission 
reflects some realignment of funding, moving money outside of 
the aeronautics line item. I am particularly interested in that 
line item. And could you please explain--and by the way, moving 
money out of aeronautics to me is quite a concerning move.
    Mr. Bridenstine. Yes.
    Ms. Kaptur. Could you please explain how decreasing in the 
aeronautics line will impact wind tunnels, specifically, at 
NASA's Glenn Research Facility in Brook Park, Ohio, which I 
represent, and I just wanted to place on the record that NASA's 
Glenn wind tunnels are critical for hypersonic testing. We are 
one of the only places in the world that can do this and I am 
concerned that there may be something happening somewhere 
within the Agency that I want to get on the record here.
    Could you please explain how and why you have decided to 
change this account for the wind tunnel budget in this way?
    Mr. Bridenstine. Yes, ma'am. Critically important question, 
and know that we are 100 percent committed to the wind tunnels. 
There will be no change in the capabilities or the technologies 
that are available at Glenn because of this. This is basically 
moving numbers from one budget, line item to another budget 
line item. The reason we do that is because before, you know, 
we have wind tunnels--and this is throughout the Agency--that 
is utilized by different parts of NASA.
    We had the Science Mission Directorate paying a certain 
amount, and the Human Exploration and Operations Mission 
Directorate paying a certain amount, and the Aeronautics 
Mission Directorate paying a certain amount. It became 
difficult to track--who is paying what, who is using it most--
and it became a challenge. What we have done now, is we have 
said we are going to take all of those resources that are being 
paid by the different mission directorates of NASA and instead, 
we are going to put them into one account and we are going to 
fund them from one account, so we can track it better and have 
better accounting on it.
    The key here is to know that there will be no change in 
capability at all at Glenn and, in fact, it stabilizes the 
funding in a way that will make things more predictable and I 
think better for the future.
    Ms. Kaptur. All right. I just want to put on the record, 
you know, NASA Glenn Lewis Research Center is connected by an 
umbilical cord to the Plum Brook Research Center, where the 
Orion is being built right now----
    Mr. Bridenstine. Yes.
    Ms. Kaptur [continuing]. In an international consortium. 
So, the wind tunnel issue is expensive and it has been 
developed over a long period of time and I want to hear you 
correctly that, in fact, though you are funding something 
centrally, it will not affect the mission?
    Mr. Bridenstine. That's correct.
    Ms. Kaptur. It will not--so, can I ask, what criteria did 
NASA use to determine whether a facility is best managed and 
funded centrally, by staff, or directly by any one of the 
mission directorates?
    Mr. Bridenstine. What I'd like to do, if possible, this was 
a project that was run out of CFO's office. I would like to 
take that for the record and get back to you on the specifics 
that went into this process, if that is okay.
    Ms. Kaptur. OK. That would be very, very helpful to us.
    Mr. Bridenstine. OK.
    Ms. Kaptur. And I have a related question on another topic, 
but I just know that that is my top priority----
    Mr. Bridenstine. Yes.
    Ms. Kaptur [continuing]. And any other member up here 
representing a NASA center would do the same.
    Mr. Bridenstine. Yes.
    Ms. Kaptur. And we are--I said, how is it possible--just so 
you know my perspective--that a center named after John Glenn 
in a state that Neil Armstrong called home, could have the 
smallest NASA center in America?
    Mr. Bridenstine. And the Wright brothers.
    Ms. Kaptur. Well, that was a little before their time, but, 
yes, and the Wright brothers. So, I just sort of say, you know, 
I have got to defend my own and so we want to make sure that we 
don't compromise any asset that we have spent so long in 
perfecting.
    Mr. Bridenstine. Yes, ma'am.
    Ms. Kaptur. OK. Thank you for listening.
    Mr. Bridenstine. Thank you.
    Ms. Kaptur. My second question in my brief remaining time 
is in January 2019, NASA Glenn, Carnegie Melon University, and 
the National Energy Laboratory built on work in partnership 
with Magnetics, a company in Pittsburgh, and was awarded a U.S. 
patent for a commercialization-ready technology. Will your 
fiscal year 2020 budget allow Glenn to continue this type of 
collaboration with universities and industry throughout the 
Midwest?
    Mr. Bridenstine. Yes, ma'am. We are--in fact, right now, as 
you mentioned, we have these programs. I think that is under 
kind of a community development line----
    Ms. Kaptur. Yes.
    Mr. Bridenstine [continuing]. And that is underway right 
now and I think it is around $5 million and we have 10 
different centers, of course, where that money is allocated to 
centers for distribution, but that activity is underway right 
now and it is in our interests.
    Ms. Kaptur. All right. Very good. Thank you so much.
    Thank you, Mr. Chairman.
    Mr. Serrano. Thank you. The overall budget request is 
nearly $500 million below last year's appropriated level. Some 
of the cuts carry heavy congressional and public interests such 
as Earth Science and Education. Does the administration see 
these as targets for the committee to fund from other 
resources; in other words, are these items that were left this 
way knowing that you have got friends over here who are going 
to--the agency has friends over here that are going to take 
care of it?
    Mr. Bridenstine. I don't think that was the intent at all, 
Mr. Chairman. I think, you know, any cuts that were there were 
based on priorities and the budget. We wanted to make sure that 
we were not duplicating efforts or doing things that were being 
done in other ways and, certainly, that was the effort here.
    Mr. Serrano. Okay. Just, again, perception, it would seem 
to some people that that is what happens every so often. 
Agencies know there is support for these programs so they don't 
include it and they submit better numbers, they think.
    The University of Puerto Rico at Mayaguez and Rio Piedras 
campuses, especially the Mayaguez campus, has provided many 
scientists to NASA. These campuses have been recipients of the 
National Space Grant College and Fellowship Programs. Last 
year, the administration cut the education requests to zero and 
the committee added funding back. This year, it was zeroed 
again. Does the administration not see the need for such 
programs?
    Mr. Bridenstine. A couple of things. As of right now, and I 
looked this up because--so everybody knows, Mr. Chairman, you 
cornered me years ago, long before I had this job, about how 
important this was when you learned that I was potentially on 
the docket for this position. I looked up our different grant 
programs that are going to the University of Puerto Rico 
because I know it was of interest to you long ago. We have 
about 13 different grants right now that are active and it is 
also true that our goal is to make sure that we are reaching 
the right folks at the right time in order to stimulate young 
folks in the STEM curriculum, especially in those sometimes 
underprivileged or underrepresented communities, and our goal 
is to do that.
    We do that through the Science Mission Directorate, and 
through the Human Exploration and Operations Mission 
Directorate. We do it through the mission directorates, not 
always just through those grant programs that you mentioned. 
Again, what we are trying to do is make sure that we are 
allocating every dollar to the most effective possible way to 
accomplish the objective.
    Mr. Serrano. Well, I would hope that you continue to look 
at that because these grants are very important to these 
campuses and they have provided NASA with a lot of engineers, 
as you know, the Mayaguez campus. And--the fact that I was born 
in Mayaguez, by the way; it is just an aside.
    Additionally, I have a keen interest in the continuation of 
the Arecibo Observatory in North Central Puerto Rico, that is 
partially funded by NASA. I trust funding will continue to be 
provided for Arecibo?
    Mr. Bridenstine. Yes, sir. We have right now, about $4 and 
a half million dollars that we spend utilizing it on an annual 
basis and that is going to scale to about $5 million by 2022.
    Mr. Serrano. By 20?
    Mr. Bridenstine. 2022.
    Mr. Serrano. OK. When NASA's FY 2020 budget proposes to 
eliminate funding for the Wide-field Infrared Survey Telescope, 
that will be a first. This telescope was designed to work in 
concert with the James Webb Telescope by using its wide field 
of view to find objects while the James Webb Telescope would 
have the ability to focus in on more fine objects referred by 
the WFIRST telescope. If one was built to work with the other, 
why is WFIRST considered for elimination?
    Mr. Bridenstine. This is an important question and I want 
to make sure that I get it just right. They are intended to 
work together. One is wide-field, one is going to be able to 
look even further. With James Webb, we are talking about 
looking back to what we call cosmic dawn, the very first light 
in the universe, basically, looking back in time, which is kind 
of crazy to think about.
    Here, I think is the point. The James Webb Telescope is 
what we call a flagship mission. The WFIRST would be a flagship 
mission. One of the challenges, we have even right now within 
the Astrophysics Division of the Science Mission Directorate at 
NASA, is that the James Webb Space Telescope is well beyond its 
originally scheduled date. It is well over cost, and, of 
course, I have talked in Congress about this a lot recently.
    We are now getting it back on track. Because they work 
together, it makes sense to do one before the other and if 
James Webb is not yet ready, preparing WFIRST right away is 
probably not the right approach. What we are working on as an 
Agency, is better portfolio management. We need those large 
flagship missions like WFIRST, like James Webb, but we also 
need a balanced portfolio that includes smaller missions, 
medium-class missions, and small missions, to ultimately, in 
other words, spread the risk. I guess, think of it as hedging 
on these kinds of missions.
    The intent is to create a better balance of the portfolio 
in future years, but you are absolutely right. WFIRST is not 
funded in the budget requests because James Webb is not yet 
launched. We have that back on track to launch in March of 
2021. WFIRST will be a critical mission when James Webb is on 
orbit.
    Mr. Serrano. So, the plan is to still have them work 
together?
    Mr. Bridenstine. Yes.
    Mr. Serrano. Okay. Mr. Aderholt.
    Mr. Aderholt. Thank you. As you know, a frequent and 
regular tempo of launches to--fix costs of aspects of launch 
programs. So, one launch a year is probably not the best use of 
taxpayer dollars. What steps are you examining, especially in 
light of yesterday's speech, to make greater use of SLS and 
also its unique large capacity?
    Mr. Bridenstine. The key is to have missions for SLS, and 
given, as you said, what the vice president said yesterday, we 
are, in fact, going to have missions for SLS. What we need to 
do is we have to accelerate that first launch, get an uncrewed 
test of the Orion crew vehicle around the Moon, and then we 
need to get to the second launch of SLS EM-2 with crew, and 
from that point forward, we are going into an operations-kind 
of tempo.
    I think we, as an Agency, can get to a point where we are 
surge, which is ultimately what we are going to need to do. We 
are going to need to surge SLS, surge Orion, and, in fact, 
surge the exploration of upper stage if we are going to put 
boots on the Moon in 2024. Getting a throughput, instead of 
once every year, getting a throughput of once every six months 
is what we are going to have to accomplish. If we do that, you 
are absolutely right, the costs per launch will be driven down.
    Another thing to consider, we have what we call the SM-1, 
which is Science Mission 1, it is written in the law that we 
are going to launch that on an SLS. For example, it is a Europa 
mission. It is going all the way out to Europa to help us 
assess and characterize Europa, which is a Moon of Jupiter, and 
it is water world; it is covered in ice and it has got liquid 
water plumes coming out of it. The question is: Could there be 
life there? That is what we are trying to characterize.
    One of the things that we need to consider, if the agenda 
is to get boots on the moon in 2024, do we want to use one of 
the very valuable and critical SLS launches to launch Europa, 
knowing that that is going to potentially take time? Could we, 
in essence, launch that on a different vehicle that would take 
a lot longer to get Europa--it could take an additional 3 years 
to get to Europa--but, at the same time, would not take away 
from the schedule to get boots on the Moon. I guess my point 
is, given the 2024 agenda, which is what you identified earlier 
and how important that is, if that is the case, there is going 
to be no shortage of missions for SLS and there is going to be 
no shortage of a desire to surge and, of course, all of this is 
going to require resources that we are going to--I am more than 
happy to work with you to figure out how to get those.
    Mr. Aderholt. OK. The exploration, upper stage, and the 
Mobile Launcher 2 are important Space Launch System upgrade 
elements which would allow future crewed missions to also bring 
along payloads like lunar landers, gateway elements and 
habitats to the Moon, and eventually to Mars. Can you comment 
on the unique capabilities of the EUS and how close NASA is to 
letting a contract for the Mobile Launcher 2?
    Mr. Bridenstine. Great question. In May we will be under 
contract for the second mobile launcher. The second mobile 
launcher is valuable because it enables us to launch an SLS 
with an exploration upper stage, which gives us more upmass, 
more ability to launch bigger objects and objects further; in 
other words, all the way to the Moon.
    If we are going to land in 2024, we have got to have that 
second mobile launcher. We certainly need to have exploration 
upper stage, and all of these things need to be accelerated. 
The key is, when we talk about exploration upper stage, what it 
allows us to do is launch humans on the Orion crew capsule with 
the European Service Module and at the same time, launch 
hardware, big hardware with those humans. That big hardware 
could be habitation. It could be parts of the gateway. It could 
be landers that can get those humans to the surface of the 
Moon. The key, ultimately, is going to be larger upmass, which 
SLS is the key to doing that. Exploration upper stage helps us 
do that.
    Mr. Aderholt. Well, SLS and Orion programs are key to the 
health of our national aerospace supplier base and it has 
really helped to really put in a new boost of energy to the 
suppliers in all of the 50 states following the retirement of 
the space shuttle.
    And I am not aware of any other DOD program which has a 
broad supplier and workforce impact. The program supports NASA 
workforce, and infrastructure of Kennedy, Marshall, Stennis, 
and Michaud assembly facility.
    Can you talk about the importance of our national space 
programs, such as the capabilities, the supplier base, the 
innovation of SLS, the Orion benefit on a broad range of 
aerospace industry users.
    Mr. Bridenstine. That is a great point. When we talk about 
these kind of capabilities, it is part of our national 
infrastructure. It is part of our industrial base that keeps 
America the number one place in the world when it comes to 
exploration. The vice president was very clear yesterday. We 
are to remain the preeminent space faring nation. That is on 
our agenda. We have got to have the industrial base to achieve 
that.
    SLS and Orion are programs that keep that going. I can tell 
you as a former member of Congress from Oklahoma, we have a lot 
of suppliers to those programs in Oklahoma that are doing 
critically important work that actually spills over. We talk 
about the capability to launch a missile off of an airplane, 
for example, or the ability to do different types of design. 
All of these kind of capabilities are back in my home state of 
Oklahoma because of this particular program.
    Part of being part of the industrial base is, that is a big 
piece of what SLS is.
    Mr. Aderholt. Thank you Mr. Chairman.
    Mr. Serrano. Thank you. Ms. Roby.
    Ms. Roby. Thank you, Mr. Chairman. And whereas this 
committee plays an important role of making sure we stay within 
our budget and on time. I would like to channel a little bit of 
the spirit of our former chairman, if I might, and just tell 
you this is really awesome. And it is really cool to be a part 
of this and to be able to ask you these questions, but to think 
about the role that we get to play as members of Congress and 
future space exploration. And so I am thrilled, as always, to 
be here.
    I am concerned that NASA hasn't moved ahead with the 
procurement of the SLS core stage for EM-3 and beyond. Despite 
having already purchased the engine's boosters and Orion crew 
vehicles for those missions, in order to expedite the lunar 
missions the vice president highlighted. Will you move forward 
quickly with the contract to allow the SLS program to procure 
the long lead items from suppliers and begin work on core stage 
3 and beyond?
    Mr. Bridenstine. We are going to need to. If we are going 
to achieve boots on the Moon, which is what the vice president 
called us to do yesterday by 2024, the answer is absolutely we 
need to move as quickly as possible, not just on EM-3, but EM-
4, EM-5. There is a lot of work that has to be done very 
quickly. The answer is yes.
    The vice president was very clear, and he was talking on 
behalf of the President. This goes right back to space policy 
directive-1, that was signed over a year ago by the President 
to go to the Moon sustainably with commercial partners, 
international partners, and utilize the resources of the moon. 
If we are going to do--if we are going to put the pieces in 
place to put those boots on the Moon in 2024, we are going to 
have to move very quickly on all these pieces.
    Ms. Roby. Thank you again for being here. Mr. Chairman, I 
yield back.
    Mr. Serrano. Mr. Administrator, the administration's goal 
is to privatize U.S. efforts at the International Space Station 
by 2025. Are you concerned about our partnerships if we don't 
continue U.S. presence in low Earth orbit after 2025 due to a 
lack of federal funding or a gap for a successor station?
    Mr. Bridenstine. It is a concern. We are in a position now, 
because of the International Space Station, we are 
commercializing low Earth orbit rapidly. This particular budget 
request does not specifically say that we are going to end 
direct funding for the ISS in 2025. It says we want to move to 
a new model of funding. In other words, how are we going to 
commercialize low Earth orbit in a more robust way? The goal 
being that if NASA can be one customer of many customers and we 
can have numerous providers competing on cost and innovation, 
not just for resupply of ISS, not just for commercial crew, 
getting crew to the ISS, but also habitation itself.
    Industry is interested in the microgravity environment, 
whether it is pharmaceuticals, or manufacturing, and the health 
care industry even larger. Right now, we have got experiments 
where we are using adult stem cells to print human organs in 3D 
and that could be transformational.
    There is a lot of market opportunities, plus there is an 
entire, I guess, ecosystem of people that are interested in 
going to space for tourism, just commercially just for, I 
guess, fun, vacation. There is an opportunity there as well. 
What we want to do is utilize the International Space Station 
to prove out those capabilities and those technologies.
    There are companies out there that are trying to develop 
their own commercial habitats. We want to encourage that. There 
is money in this budget to help them move along faster. Again, 
if we can commercialize and be a customer, then our costs go 
down, and then we can utilize our resources on activities for 
which there is not yet a commercial robust--a robust commercial 
marketplace, for example, returning to the Moon.
    That is the agenda here. We want to make sure that in low 
Earth orbit we do everything possible to commercialize, drive 
down costs, use resources to go where there is no commercial 
market yet.
    Mr. Serrano. Mr. Aderholt is going to the Moon on vacation 
he told me. And he has got a question.
    Mr. Aderholt. I am not going to Mars, though. It is too 
long of a trip. Over the last two fiscal years, Congress has 
provided over 175 million towards the development of a nuclear 
thermal propulsion. And therefore, we were a little 
disappointed to see the request did not include any of the 
funding for that purpose. How much of the 75 million that 
Congress provided in fiscal year 2018 for nuclear thermal 
propulsion activities has NASA spent towards demonstration 
preparation instead of, for example, multiple studies?
    And my understanding is that other nuclear work as produced 
power elements limited to one megawatt. Can you respond to 
that?
    Mr. Bridenstine. You are right. I think it is nuclear 
thermal propulsion and related activities. I think under that 
related activities, we did spend money on, as you mentioned, 
kilowatt power for being able to provide, in essence, a lot of 
power for people to live and work on the surface of the Moon. 
The answer is we have spent money on studies. We are continuing 
to develop. We are in phase one. We are trying to get really 
smart on how we would utilize nuclear thermal and that kind of 
thing, but as you heard yesterday, the vice president is keenly 
aware of the importance for nuclear thermal in order to get to 
Mars faster. The DOD has an interest in nuclear thermal as 
well.
    We want to make sure that we are doing that.
    Mr. Aderholt. Given Congress' direction on that and, of 
course, the vice president's speech yesterday, can you commit 
to us to moving ahead with plans for an in space demonstration 
of the nuclear thermal propulsion in 2024?
    Mr. Bridenstine. As far as plans for a demonstration in 
2024, I would have to get back to you specifically on where we 
are on that. I am not, off the top of my head, prepared to talk 
about where we are on that whole development.
    Mr. Aderholt. Okay. If you could get back with us on that, 
that would be great.
    Mr. Bridenstine. Yes.
    Mr. Aderholt. Thank you.
    Mr. Serrano. Thank you for your testimony today. Thank you 
for answering our questions. I hope you understand, and I think 
you do, that where we try to fill holes that may exist in the 
budget is because this chairman, and this ranking member, and 
the members of this subcommittee do have a lot of respect, 
understanding, and support for NASA. We think what you do is 
important for the future of our country. We want you to do 
more. And this is--I speak for Mr. Aderholt and Ms. Roby 
because I know they agree, do more with education and schools, 
you know, having your folks visit schools, visit children, 
visit students, visit colleges, let them know what is available 
at NASA and what NASA will bring to the next generation.
    So thank you, good luck, and we will see you at the end of 
the process.
    Mr. Bridenstine. Thank you, Mr. Chairman.
    Mr. Serrano. And the hearing is adjourned.
    [Clerk's note. The Department did not respond with answers 
to submitted questions in time for inclusion in the record.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                       Wednesday, March 27, 2019.  

            NATIONAL OCEANIC AND ATMOSPHERIC ADMINISTRATION

                               WITNESSES

NEIL JACOBS, ACTING ADMINISTRATOR, NATIONAL OCEANIC AND ATMOSPHERIC 
    ADMINISTRATION
    Mr.  Serrano. The subcommittee will come to order.
    Dr. Jacobs, NOAA's acting administrator, thank you for 
coming back for your second time.
    As acting administrator, Dr. Jacobs oversees the agency's 
$5.4 billion budget, which includes NOAA's sea, air, land, and 
space observing platforms, and the critical environmental data 
they provide. He also covers the wet side of NOAA in all of its 
work in fisheries and coastal management.
    Now, the administration has requested $4.46 billion for 
NOAA for fiscal year 2020. The agency's top three priorities 
include improving extreme weather prediction through the 
implementation of the Weather Act, expanding the Blue Economy, 
and further investments in space innovation. These are good 
steps but remain vastly overshadowed by the devastating cuts 
that President Trump has in store for NOAA.
    The request represents an 18 percent decrease or nearly a 
$1 billion cut from the 2019 enacted level. In terms of job 
cuts, this amounts to a reduction of 547 civilian positions 
within the agency, which is quite devastating. The massive cuts 
or outright elimination of vital environmental research remains 
wildly unrealistic and unworkable, just as they have for the 
past two fiscal years.
    This proposal severely cuts funding for ocean exploration 
and observations, species recovery programs, the tsunami 
warning program, fisheries management, program grants to our 
academic and nonprofit research institutions that conduct 
research to further NOAA's goals and mission, just to name a 
few.
    It, once again, proposes a complete elimination of funding 
for NOAA grant and education program. It deems as lower 
priority, including Sea Grants, Coastal Zone Management grants, 
Pacific coastal climate research, the Coastal Salmon Recovery 
Fund. These remain nonstarters with the subcommittee, we must 
tell you now.
    I would like to remind the administration that investment 
in critical research in our universities protecting coastal 
habitats, where one half of the U.S. population resides, and 
the livelihoods of fishermen are not low priority. Not to this 
subcommittee. These grant programs employ thousands of 
scientists across the country and territories, protect local 
economies, and give us the tools to safeguard our communities 
against sea level rise and climate change. The investments we 
make today will prepare us for the challenges we face tomorrow.
    As our February hearing on NOAA climate research made very 
clear, we are starting to experience those challenges now. 
Therefore, I do not believe this budget, as presented to us 
today, allows NOAA to live up to its core mission, as the 
Administration would have us believe.
    Dr. Jacobs, it is good to see you. Thank you for joining us 
to discuss NOAA's priorities and outlook for fiscal year 2020.
    At this time, I recognize my friend, the ranking member, 
Mr. Aderholt.
    Mr.  Aderholt. Thank you for yielding, Mr. Chairman. And I 
look forward to having another productive day of hearings. I 
think we got a pretty full day today.
    So good to have Dr. Jacobs here, and welcome back to the 
subcommittee, and we appreciate you taking the time to join us 
to discuss the National Oceanic and Atmospheric Administration, 
better known as NOAA, fiscal year 2020 budget.
    Of course, as we see, the fiscal year 2020 budget request 
is $4.5 billion. Of course, a reduction, $968 million from 
fiscal year 2019 enacted level. I understand that formulating 
the fiscal year 2020 budget, you are required to make some 
tough choices, and you got to make some--put some programs 
above others. And while I have concerns that some potential 
programs impact and some of the things that would be impacted 
by this request, especially when it comes to key weather 
research programs, I am pleased to see that the--that your 
budget continues to--and NOAA continues to focus on identifying 
agency efficiencies, maximizing the economic contributions for 
our coastal and marine resources, and also reducing the impact 
of extreme weather.
    Utilizing the information that we gather from the hearing 
today, this subcommittee will work hard over the coming months 
to carefully review the budget proposal to provide NOAA the 
resources that it needs for fiscal year 2020 to effectively 
carry out this mission.
    So, Dr. Jacobs, again we look forward to your testimony, 
and continue to work together to better understand and predict 
the changes in our world's weather system and the bodies of 
water, and share that information to the public, and to 
conserve our coastal and marine resources.
    So with that, I yield back.
    Mr.  Serrano. Thank you.
    Mr. Jacobs, you are recognized for 5 minutes. Try to keep 
it to five, but please understand that your whole statement 
will be inserted in the record.
    Mr.  Jacobs. Thank you, Mr. Chairman, ranking member, and 
members of the committee. Thank you for the opportunity to 
testify today. The President's fiscal year 2020 budget request 
for NOAA is $111 million above the fiscal year 2019 request and 
emphasizes core programs while making targeted investments 
which we believe will produce a substantial return for the 
American taxpayer.
    Accelerating advancements in the global modeling program is 
a top priority. While there have been many achievements in 
2018, problems exist with the current structure of weather 
research to operations. The internal and external strategy is 
fractured, and the computing procurement process is cumbersome 
and the funding process disincentivizes collaboration.
    The fiscal year 2020 request addresses many of these 
challenges through the creation of the Earth Prediction 
Innovation Center, or EPIC. Based on the Weather Research and 
Forecast Innovation Act of 2017 and the recently authorized 
National Integrated Drought Information System Reauthorization 
Act of 2018, EPIC will severe as the hub for building and 
maintaining a true community model.
    EPIC's innovative structure will link scientists and 
software engineers in academia, private industry, and partner 
agencies with research development and operational activities 
inside of NOAA. EPIC will significantly enhance our ability to 
access external expertise, reestablishing preeminence of U.S. 
forecast model skill, and improving our ability to provide 
accurate watches and warnings.
    The NOAA Satellite Observing System Architecture study, or 
NSOSA, which was completed in 2017, analyzed various approaches 
to better meet mission requirements with greater flexibility 
and responsiveness and incorporating involving technologies. 
Congress recognized the importance of NSOSA codifying the 
program in the NIDIS Reauthorization Act of 2018.
    This budget initiates NSOSA implementation and invests to 
evaluate innovative space-based solutions and partnerships, 
including $12.3 million for joint venture partnerships and 
hosted payloads on geostationary and polar orbits. It also 
continues the importance of commercial weather data pilot 
program, as well as $5 million for the option to purchase data 
after successful testing.
    This budget makes necessary investments for strong coastal 
communities and economies. It includes an increase of $2.3 
million for regional fishery management councils to analyze and 
remove outdated or ineffective regulations. To help level the 
playing field for U.S. commercial fishermen in a global seafood 
marketplace, an additional $1.6 million is requested to enforce 
Seafood Import Monitoring Program and prevent the importation 
of seafood caught using illegal fishing practices.
    Finally, the budget includes an increase of $3.6 million to 
support aquaculture by assisting an industry with the 
regulatory compliance and conducting research to ensure the 
American farmed fish are safe and sustainable.
    Executive Order 13840 established the National Ocean Policy 
focused on providing tools to coastal communities to 
sustainably manage their offshore waters. The budget includes 
an additional $4 million of ocean data platforms, building on 
innovative tools developed by NOAA to improve siting and 
offshore activities.
    NOAA has made great strides in the past 2 years to reduce 
the amount of time needed for environmental review, the time to 
complete formal and informal Endangered Species Act 
consultations so it is reduced by over 22 and 65 percent, 
respectively. Incidental harassment authorizations under the 
Marine Mammal Protection Act have been reduced by 25 percent. 
The fiscal year 2020 budget builds on this success by providing 
an additional $3 million to further reduce the timeline of 
consultations and permits.
    Other sectors in the Blue Economy that this budget 
addresses include marine transportation through additional 
precision navigation data, efforts to reduce marine debris, 
accelerate economic benefit of new and expanded marine 
sanctuaries, and reducing the backlog of Natural Resource 
Damage Assessment cases.
    Finally, this budget includes $5 million for the National 
Oceanographic Partnership Program. We intend to use these funds 
to leverage investments from other Federal agencies, private 
industry, and philanthropic organizations that have shared 
interest in advancing ocean research. These funds can be used 
for a variety of partnerships, ranging from ocean exploration 
to new technology to detect and protect marine mammals.
    NOAA services touch every America every day. I believe this 
budget request meets NOAA's core mission by protecting lives 
and property, while also positioning the agency to be more 
efficient and effective moving forward.
    Thank you again for the opportunity to testify today. I 
would be pleased to answer any questions you may have.
    [The information follows:] 
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr.  Serrano. Thank you for your testimony, sir.
    Dr. Jacobs, and I say this with all due respect, I am 
having a hard time taking this budget proposal seriously. It 
includes an 18 percent top line cut along with wholesale 
elimination of nearly all of the grant programs. It proposes 
terminating 547 NOAA employees and upending the lives of so 
many students and post-docs whose funding would be pulled from 
Sea Grant, the cooperative institutes, and the other external 
research funding.
    Do you know how many students exactly would lose the 
funding they depend on to continue their studies? Is it dozens, 
hundreds, thousands maybe?
    Mr.  Jacobs. I don't know the exact number of students that 
would be impacted.
    Mr.  Serrano. Does anybody know at NOAA that could tell us 
at a sooner rather than later date?
    Mr.  Jacobs. I will look into that and see if I can find a 
number.
    Mr.  Serrano. So this budget would, in my opinion, halt the 
early careers of possibly thousands of young scientists. Has 
NOAA ever discussed that ramification with the department and 
OMB?
    Mr.  Jacobs. We have. But in the situation where we had to 
make some tough choices and balancing administration 
priorities, we really focused on our core mission of protecting 
life and property.
    Mr.  Serrano. Let me go back a second to my initial 
question. You say you don't know how many people it would 
affect. In the discussions with OMB, did it come up the 
possibility that Congress would ask you how many people it 
would affect? We tend to do that a lot.
    Mr.  Jacobs. Well, as far as the impact to our ability to 
maintain our core mission, we still have what we need to do 
that. As far as the outreach into the educational aspect of it, 
I don't have that number.
    Mr.  Serrano. Continuing with education. I am extremely 
disappointed to once again see severe cuts to NOAA's Office of 
Education. In particular, the budget proposes to eliminate a 
program I helped create over 20 years ago, the Educational 
Partnership Program, with Minority-Serving Institutions.
    Do you know what some of the accomplishments of this 
program are, for example, that the partner institutions have 
produced over 2,300 degrees in the NOAA sciences since 2002?
    Mr.  Jacobs. Oh, it is a very valuable program. I would 
point out that we are a million dollars above the previous 
year's President's budget in this program. As far as STEM goes, 
there is actually quite a few aspects of this throughout NOAA. 
We have K-12 programs at the forecast offices. We have a lot of 
different outreach that we still do. In fact, moving the 
community model development program outside of NOAA and putting 
a lot of our data on external web portals gives the 
universities and students and PIs and post-docs access to a 
tremendous amount of information.
    So my hope is that a lot of this data, while we may not 
explicit be funding their research, we will be giving them 
access to more information and data to do research.
    Mr.  Serrano. Well, one of the things that troubles me with 
this whole presentation is that NOAA doesn't seem to know just 
how successful they have been. I mean, that the cuts are coming 
in without fully understanding that these programs mean a lot 
to a lot of people and produce for the future of our country.
    Are you also aware that over 50 percent of our Nation's 
Black Ph.D. Graduates in the marine and atmospheric sciences 
benefited from these programs? You do?
    Mr.  Jacobs. Again, it is--in the budget situation we are 
in, we had to make tough choices and focus on our----
    Mr.  Serrano. What is the budget situation you are in? Is 
it--I mean, because we have been around here long enough to 
also know that there is another way of presenting budgets, and 
that is you leave holes that are easy for anybody to see and 
then Congress will take care of it. Is this what is happening 
here, that you are all hoping that Congress will fill in these 
holes in negotiations with the House and the Senate?
    Mr.  Jacobs. We made a conscious decision to focus on our 
core mission of maintaining full-time employees and protecting 
life and property.
    Mr.  Serrano. Let me just ask you one more question. This 
budget proposes to cut an additional 248 employees from the 
National Weather Service, despite regular reports, including 
one from GAO of understaffing and subsequent negative impacts 
on the quality of forecast produced.
    How many hours have weather forecasters worked without pay 
covering vacant operational shifts because they have hit the 
overtime premium pay cap imposed by law? What efforts, if any, 
has the Weather Service taken to avoid requiring its 
forecasters to work shifts for which they will not be paid?
    Mr.  Jacobs. As far as I know, we are doing a tremendous 
amount of work in actually backfilling and hiring new 
forecasters. In fiscal year 2018, it was the first time since 
2011 that our actual hiring had outpaced attrition. And, 
granted, we had a setback during the shutdown because of 
typical retirements happening at the end of the year. We are 
staffed at roughly 91\1/2\ percent right now. And once we 
actually get to the point where we are fully staffed, we won't 
have to have people, you know, working overtime unless they 
want to.
    Mr.  Serrano. Mr. Aderholt.
    Mr.  Aderholt. National Water Center, it plays a key role, 
as you know, in strengthening our Nation's water forecast 
capabilities for floods and droughts and improving preparedness 
for water-related disasters. My question to you, Dr. Jacobs, 
would be, can you speak to the importance of the work that is 
being done at the National Water Center? Especially, I would be 
interested in speaking--if you could speak in light of the 
recent flooding events in Nebraska and the fact that NOAA's 
spring outlook indicated that two-thirds of the lower 48 States 
face an elevated risk of flooding through May.
    Mr.  Jacobs. The work being done in the National Water 
Center is extremely critical. It is a little known fact that 
water actually is responsible for the most deaths, over a 
hundred a year, and about half of those are in cars. It is a 
critical component of our integrated modeling system where we 
are working on forecasting precipitation, and integrating that 
with the national water model, which forecasts stream flow with 
the help of USGS gauges.
    The downstream effects of this are not just related to the 
protection of life and property, although that is the primary 
concern; it is actually hugely important to the economy, 
because the Mississippi River is a huge port, and the water 
flow, particularly now with the amount of volume going through 
there, is slowing down the shipping. So there is a tremendous 
amount of value that the Water Center provides, and it is an 
integral part of what we are doing.
    I would like to add that in fiscal year 2019, we will be 
including Hawaii in the scope of the National Water Center's 
coverage, and in fiscal year 2020, we will be including Puerto 
Rico.
    Mr.  Aderholt. As you know, the committee provided funds to 
expedite hiring within the Water Prediction Operation Division 
of the National Water Center. Is NOAA committed to maintaining 
those staffing levels for fiscal year 2020?
    Mr.  Jacobs. Absolutely. So right now, we have 68 staff at 
the Water Center. Our goal is to increase the staff by 25 
percent by the end of fiscal year 2019.
    Mr.  Aderholt. Would additional resources in staff help 
improve the Center's work that they do there? Is that----
    Mr.  Jacobs. We have the resources. We have $1.5 million 
provided by Congress. It is largely a timing and hiring issue, 
but we are on pace to hit the 25 percent.
    Mr.  Aderholt. Okay. As you are aware, the southeast 
experienced some of the most destructive and deadly tornadoes 
in the country. Just earlier this month, I pointed out 
yesterday in a hearing, that 23 people lost their lives when an 
EF4 tornado tore through east Alabama, and that is why my 
constituents and so many in Alabama, and even other parts of 
the southeast, really value the research programs like the 
VORTEX Southeast. It brings Federal agencies together to help 
better understand how environmental factors in the region 
affect tornado formation intensity and paths.
    Yesterday, Dr. Cordova was here with the NSF, and I spoke 
with her about the role in and our commitment to VORTEX 
Southeast as well.
    Can you take a moment to explain the role that NOAA plays 
in the VORTEX Southeast?
    Mr.  Jacobs. So the research and the ability to both 
observe and detect and predict tornadoes is right on the 
cutting edge of what we are doing. Typically, I refer to a 
tornado or a convective cell as sub-grid scale in the 
forecasting. And while we can observe tornadoes with radar, 
what we really want to do is understand the dynamics in 
thunderstorms and be able to try to predict them. And we are 
just now at the cutting edge of being able to predict rotation 
and thunderstorm cells. We can't actually predict tornadoes 
yet, but we can predict tornadic potential.
    So the outcome of this project VORTEX, as well as what we 
are going to be doing with the EPIC, we will be looking at 
convective resolving models, convective ensembles, and 
probabilistic forecasting. And eventually, my hope is to get to 
a point where we can improve what we call our warn on forecast 
capability, and that is actually issuing tornado warnings based 
on forecasted rotation and cells, instead of actually waiting 
to observe the rotation on radar imaging.
    Mr.  Aderholt. Well, given that NOAA has put such high 
priority on improving weather forecast models to save lives and 
protect property, what was the rationale in terminating this 
program?
    Mr.  Jacobs. So a lot of the research that is being done in 
that program, particularly when it comes to convective allowing 
models, is going to be done on the academic community side 
through the Earth Prediction Innovation Center. So while we are 
streamlining our unified forecasting systems, so there has been 
a lot of talk about the FV3 in the global model, but we are 
also going to an FV3-based convective-allowing model, which 
will be the next generation of our high-resolution convective 
forecast, which will obviously be the key model in predicting 
tornadic potential.
    Mr.  Aderholt. So this research would be carried out in a 
different area of NOAA?
    Mr.  Jacobs. There will be several different parts, both in 
the Weather Service, U.S. Weather Research Program, as well as 
other parts of OAR that we will be doing convective research as 
well as tornadic research.
    Mr.  Aderholt. You mentioned about the fact that it is--
that you cannot really predict when a tornado will occur. What 
do you think it will take for us to develop a real accurate 
advanced tornado warning system?
    Mr.  Jacobs. Really, it will be probably parallel paths 
working on the convective-allowing models and probabilistic 
forecast, as well as looking into social sciences and the human 
response to tornado warnings and how they are issued. 
Originally, we thought that more lead time would provide better 
response, but how that is messaged is really a social science 
issue. So we are really looking at this from a social science 
angle to get the public to better respond to our warnings.
    Mr.  Aderholt. Thank you. Thank you, Mr. Chairman.
    Mr.  Serrano. Mr. Cartwright.
    Mr.  Cartwright. Thank you, Mr. Chairman. And thank you, 
Dr. Jacobs, for coming back. We had you not too long ago.
    As you might recall from our last hearing, I am very 
interested in what NOAA is doing to address climate change. 
Significantly, I am interested in preventing damage to the 
American economy, and also, obviously, improving the science.
    As stated in the fourth National Climate Assessment, which 
NOAA helped produce, the impacts of climate change are already 
being felt in communities across the country. The increasing 
frequency and intensity of weather-related disasters, some of 
which Mr. Aderholt just referred to in the southeast, is having 
a real economic impact, not to mention lives lost.
    Between 2005 and 2018 alone, total Federal funding for 
disaster assistance in the United States has approached half a 
trillion dollars, half a trillion dollars in 13 years. Just 
last month, we heard from you that NOAA provides vital realtime 
weather and climate data to help communities prepare for severe 
weather events. We also learned there are key scientific 
questions that NOAA has to continue working on to improve the 
accuracy and reliability of the short- and long-term weather 
forecasts and climate models.
    Now, this proposed 18 percent cut to NOAA's budget 
decreases funding for weather research and modeling, surface 
ocean and upper air observations, and regional climate labs. It 
also eliminates competitive climate research funds and the 
Arctic Research Program. These are cuts that make it harder to 
improve forecasts for floods, hurricanes, wildfires, let alone 
trying to figure out how to predict tornadoes.
    I have some questions. In our last hearing, you confirmed 
that the National Climate Assessment is based on facts and 
sound science. Is that still your position?
    Mr.  Jacobs. It is--the National Climate Assessment 
basically took the RCP scenarios and extrapolated those to 
generate potential weather and climate forecast impacts, and 
the results based on those scenarios are grounded in science.
    Mr.  Cartwright. So just so we are on the same page, this 
means you agree with the NCA finding that human activities, 
especially emissions of greenhouse gases from fossil fuel 
combustion, deforestation, and land use change, are primarily 
responsible for the climate changes observed over the last six 
decades. Correct?
    Mr.  Jacobs. Well, in absence of any other natural force in 
human production of CO<INF>2</INF> as well as the removal of 
the CO<INF>2</INF> sinks is certainly a dominant factor.
    Mr.  Cartwright. Do you agree with the NCA finding that we 
are already seeing the impacts of climate change, and that in 
the future, we will likely experience increased frequency and 
intensity of extreme weather events?
    Mr.  Jacobs. Well, so the impacts of climate change that we 
have been seeing now, like as far as sea level rise and such, 
are fairly well-documented. The scenarios of what the actual 
future weather impacts would be are still being debated. There 
is some frequency----
    Mr.  Cartwright. Let me stop you there. You signed off on 
the National Climate Assessment, and that is in there.
    Mr.  Jacobs. Well, those are predictions based on 
predictions. If you believe the assumptions on the first set of 
predictions, then, yes. The discussion as far as----
    Mr.  Cartwright. I don't mean to interrupt you, but we have 
limited time. You believe it and that is why you signed off on 
it, right, Dr. Jacobs?
    Mr.  Jacobs. Well, those are peer-reviewed papers. But, you 
know, we would have to wait a hundred years to see if they 
verify.
    Mr.  Cartwright. Of course. Do you also agree with the NCA 
finding that without substantial and sustained reductions in 
global greenhouse gas emissions, the continued warming is 
expected to cause substantial net damage to the United States 
economy throughout this century?
    Mr.  Jacobs. Well, there is also a discussion of improved 
agricultural capabilities----
    Mr.  Cartwright. It is a yes or no question, and then you 
can explain. Do you agree with that? It is in the NCA finding 
that you signed off on.
    Mr.  Jacobs. I don't disagree with anything in the NCA.
    Mr.  Cartwright. Okay. And you can explain, I don't mean to 
cut you off.
    Mr.  Jacobs. Well, I mean, there is--there could be 
positive potential impacts as well, and some of these are 
natural and some of them are human induced; it doesn't change 
the fact that we should be prepared to deal with them.
    Mr.  Cartwright. Exactly. Mr. Jacobs, have you communicated 
your views on the soundness of the NCA to the White House, who 
believe that climate change is a hoax?
    Mr.  Jacobs. I have had numerous discussions with Dr. 
Droegemeier, who is the advisor to the White House on all 
things related to science.
    Mr.  Cartwright. Well, do you think it is responsible 
leadership on the part of the Administration knowingly to 
ignore the advice of its foremost scientists, like you, Dr. 
Jacobs, on an issue that will cause significant harm to the 
United States economy and loss of lives?
    Mr.  Jacobs. I don't have any evidence that they are 
ignoring what they are being told.
    Mr.  Cartwright. Thank you, Doctor.
    I yield back.
    Mr.  Serrano. Mr. Case.
    Mr.  Case. Thank you.
    I understand--I think all we have at this point is your 
budget and brief. I don't think we have your congressional 
justifications of your budget yet. Is that correct?
    Mr. Jacobs. I don't believe so.
    Mr.  Case. Okay. And is there any reason for a delay in 
getting that to us?
    Mr.  Jacobs. I suspect part of it is related to the 
shutdown and just delaying our ability to get it out.
    Mr.  Case. Any expectation about when we can get a more 
detailed explanation of your budget?
    Mr.  Jacobs. We can certainly get you one--I can get you 
one as soon as I can. I am hoping later this week, but not 
completely sure on that.
    Mr.  Case. Okay. First of all, I just want to associate 
myself fully with my chair's remarks. I just find it 
unbelievable the cuts that were suggested in NOAA, and this 
comes from somebody that has believed in NOAA for a long, long 
time. I think many of us do. I think we believe in your 
mission. I think we believe it is critical, not just to the 
safety of folks and property around the world, but in a whole 
range of issues, really critical to our overall mission, 
scientific advancement, certainly our atmospheres as they are 
entering a critical phase and our oceans that are entering a 
critical phase. So I don't get the reductions and I don't get 
where those came from.
    I cannot believe that anybody in NOAA that believes in the 
mission of NOAA supports these cuts, and so I have to assume 
that somebody somewhere told you, hey, cut it. So is it correct 
that this was a top-down directive to reduce by that much in 
NOAA or was this some bottom-up judgment about priorities 
within NOAA?
    Mr.  Jacobs. Our primary mission was just to focus on 
dealing with some tough choices, and we really chose to 
prioritize our core mission and essential functions over a lot 
of the external grants.
    Mr.  Case. Okay. Well, let me give you an example in your 
budget, as I understand it. I was born and raised in Hilo. 
Hilo, Hawaii. Hilo, Hawaii, has had two devastating tsunamis in 
recent history, 1946 and 1960. I actually was there in 1960, I 
was a young boy. Our family routinely evacuated every time 
there was an earthquake anywhere in the Pacific rim. There was 
an earthquake in the danger zone, we didn't know if a tsunami 
was coming or not, we got out. And we would do that about once 
a year. We lived down by the ocean, we were in the danger zone. 
My school was in the danger zone.
    One day in 1960, the siren came on, we evacuated and we 
went to high ground. I went to sleep, I woke up, my town was 
devastated. There were 61 dead. And that was true throughout 
the Pacific rim. There was incredible damage in Chile; Japan, 
loss of life; California, loss of life, throughout the Pacific 
rim from a tsunami that was generated. And that was really the 
genesis for the tsunami warning systems that are so perfected 
today.
    The problem of why people died in Hilo in 1960 was that 
they didn't believe a tsunami was coming. They had no 
independent verification. They had an evacuation warning once a 
year, and they got into the lull of thinking, well, it is not 
going to happen this time around.
    And so when I see that you have proposed in this budget to 
cut the Pacific warning center, which seems to--you know, which 
may be a small amount in the big picture, but it is really, 
really critical to assure people of when a tsunami is and isn't 
coming, which still happens. Once a year, we have an earthquake 
somewhere in the Pacific rim. I don't get it. You know, that is 
a budget cutter up above you somewhere saying, well, let's just 
cut that. We don't understand the importance. And I am sitting 
here telling you, I lived through it. And that is very, very 
important to people.
    So can you elucidate a little bit on that one subject, why 
the tsunami warning function in the Pacific is being cut?
    Mr.  Jacobs. So the function itself is not. We are looking 
at consolidating the warning centers. Right now, we have two. 
We were looking at consolidating it to one. The actual DART 
array, as well as--we are actually exploring some other 
potential capabilities, so I will get into those in a second. 
But the DART array is fully funded. That is not going to 
decrease. It is the consolidation of the warning centers.
    There is actually the potential for us--we have a plus of 
$2.2 million for commercial data buys off ships, and there is 
some new interesting tsunami detection capability on several 
commercial ships. And now that they are installing SACCOM on 
these ships, there might be a way that we can actually enhance 
our tsunami-detection capability through this data.
    Mr.  Case. Will your scientists come before Congress and 
tell us that this replacement array facility capability that 
you suggest is going to be equally safe or safer from a tsunami 
prediction perspective than what we have now? Or is this simply 
about cutting budgets?
    Mr.  Jacobs. It won't be less safe. We haven't seen the 
data yet, so until we actually see the data and run the tests, 
it is going to be hard to quantify how much of an improvement 
it will add.
    Mr.  Case. OK. Well, I would suggest to you that that is 
putting the cart before the horse, because you are proposing to 
cut out that whole warning center before you have demonstrated 
and said with assurance that it is going to be safer. So I 
don't know why you are sitting here cutting it right now when 
you don't have the conclusions yet. But, anyway, we can move 
on.
    I am going to move on. Thank you.
    Mr.  Serrano. Mr. Palazzo.
    Mr.  Palazzo. Thank you, Mr. Chairman. And Administrator 
Jacobs, thanks for coming back.
    This is going to seem a lot like deja vu, same questions, 
same issues, parochial to, not just my State, but to the Gulf 
of Mexico States, and probably the United States. I would like 
to jump in and discuss marine aquaculture.
    As you know, marine aquaculture produces healthy, 
sustainable, and affordable seafood, yet the United States 
ranks 16th in the world in terms of aquaculture production. We 
owe it to our citizens to do better, which is why I am 
reintroducing the bipartisan AQUAA Act this year, to provide a 
clear path for permitting aquaculture in U.S. waters.
    Given that reducing the seafood deficit is one of NOAA's 
top priorities, why does this budget proposal zero out Sea 
Grant programs which provides important aquaculture research 
that drives economic development?
    Mr.  Jacobs. When it comes to Sea Grants, we had to make 
some tough budget decisions and some choices, and really 
decided to focus on our core capability and mission.
    I would like to add that there is an additional $13 million 
directed at aquaculture. The funding would enhance coordination 
with aquaculture siting and research, permitting agencies to 
simplify the process and streamline it in Federal waters.
    Mr.  Palazzo. What can we in Congress do to help with that 
permitting process? In fact, that is what the AQUAA Act is 
designed to do. And I know my Senate colleagues are trying to 
perfect it right now, as well as my House colleagues, and we 
are working very closely with your team. So what can we do?
    Mr.  Jacobs. I think what you are doing with the AQUAA Act 
is perfectly in line with what we have in mind for aquaculture.
    Mr.  Palazzo. Why is aquaculture one of NOAA's top 
priorities? Why should we be invested in aquaculture?
    Mr.  Jacobs. Well, there is roughly a $16 billion seafood 
trade deficit, and that is one of the things that we are trying 
to mitigate. Right now, almost all of the farmed fish is 
imports, and there is really no reason why we shouldn't be 
doing that in our own waters.
    Mr.  Palazzo. All right. I know my colleague, Congressman 
DeLauro, would agree with you that we need to rely more on our 
domestic fisheries than foreign imports.
    So again, the AQUAA bill is very much a bipartisan bill, 
and I hope to be sharing that with everyone on this committee 
in the near future.
    OK. Moving on, let's talk about hypoxia. When you were here 
last month, we discussed the importance of hypoxia research in 
stopping the growth of harmful algae blooms. This year, we are 
forecasting unusually high flooding levels across the country. 
Thirty-two States, again, drain into the Mississippi River 
basin, two Canadian provinces, and much of the nutrients of 
freshwater that cause hypoxia make their way into the Gulf of 
Mexico. More flooding means a growing dead zone in the Gulf. 
And right now, we have some record flooding happening all 
across the Mississippi River basin.
    And I know the EPA spearheads the Mississippi River, the 
Gulf of Mexico Hypoxia Task Force. But how does NOAA also help 
stop the growth of hypoxia? And anything you would like to add 
to what NOAA is doing to help us understand it and hopefully 
research it and, you know, shrink it or prevent it from further 
growing.
    Mr.  Jacobs. So actually, preventing the events is beyond 
the scope of our mission, but what we can do is we can help 
predict them. So this is where we really need to focus on, not 
just integrating our precipitation forecast models with the 
national water model at the Natural Water Center, but also 
integrate the runoff that the national water model produces 
through areas that would be prone to take nutrients into waters 
that were would trigger harmful algal blooms.
    It is typically when these algae bloom that they trigger a 
hypoxia event. So this is all sort of traced back to, largely, 
inland water flow exiting in through the estuaries out into the 
ocean. So improving and integrating the modeling system, not 
just on the national water model side, but also on the harmful 
algal bloom side, having the coupled hydrological, ecological, 
biological models is going to be critical in this.
    Mr.  Palazzo. And I guess last October, we were talking to 
Rear Admiral Silah, who testified before the Senate committee 
about the NOAA fleet recapitalization. And I believe he stated 
that we are decommissioning more ships than we are 
commissioning. Can you tell us about your plans on the 
recapitalization of the NOAA research survey ships?
    Mr.  Jacobs. So at the end of fiscal year 2019, we had a 
deferred maintenance backlog of roughly $12.6 million in ORF 
and 11.4 in PAC. One of the things that we are looking at is 
the Hi'ialakai. There is $3 million invested in that, but it is 
not for actual repairs. It is actually to determine the 
critical missions that it does; you know, how can we offload 
those onto other vessels, whether we contract or charter or 
actually try to divide up the current hours that we use across 
the other fleet.
    Mr.  Palazzo. I yield back. Thank you.
    Mr.  Serrano. Mr. Crist.
    Mr.  Crist. Thank you, Mr. Chairman. Thank you, Dr. Jacobs, 
for being here today.
    Taking a look at this budget request, it appears that you 
will be cutting as much as 75 percent of the total funding NOAA 
provides for addressing harmful algae blooms. And as I am sure 
you can agree, algae bloom events have significant negative 
impacts on the communities that are affected by them.
    Following the devastating red tide bloom off the coast of 
Florida this past year, the Tampa Bay Regional Planning Council 
performed a business damage assessment survey to gain a broad 
understanding of the economic impact of the algae bloom. That 
survey estimated that the total physical and economic damages 
between August and December of last year for the 12 most 
impacted counties in Florida was just over $130 million. So 12 
counties out of our 67, 5 months' time period, $130 million 
lost, which is a significant number.
    And unfortunately, the funding levels to support algae 
bloom research monitoring and response are already 
disproportionally low compared to the economic impact. So I was 
very disappointed to see that this budget request proposes to 
cut them even further.
    Considering the significant economic impact of harmful 
algae bloom events, how can you justify cutting that part of 
the budget in particular even more?
    Mr.  Jacobs. So, again, this is a tough budget decision. We 
made a conscious decision to retain. So out of that it was a 
cut of roughly $23.7 million. We are retaining $8.8 million for 
key personnel, particularly related to the forecasting of 
harmful algal blooms, hypoxia, pathogen research, and 
forecasting for habitat and species and the science related to 
that. So the actual forecast tools will remain, so the HABs 
prediction and hypoxia predictions will continue, but a lot of 
the research will be cut.
    Mr.  Crist. I think I heard you say that the cut is $23 
million?
    Mr.  Jacobs. Well, we actually do harmful algal bloom 
research in a lot of different areas, but we are retaining----
    Mr.  Crist. That is not what I asked you. I thought you 
just said--you cited a couple of numbers.
    Mr.  Jacobs. So for the end cost program, it is minus 23.7, 
but we are retaining 8.8. There will be potentially 94 
positions that, you know, will look at early retirement and 
such.
    Mr.  Crist. Well, you know, I studied a little math in 
school. So we are cutting 23 and we are keeping 8. So does that 
mean before it was $31 million total and is being reduced to 8?
    Mr.  Jacobs. We are going to retain 8.8 for this program, 
but there is actually--the work that we do for harmful algal 
blooms is not--there is a lot of different work that we do in 
different areas.
    Mr.  Crist. What is the total that you allocate for algae 
bloom research and effecting it?
    Mr.  Jacobs. I don't have the exact number for the total. 
It would--I mean, it would extend, some could argue, all the 
way back to our forecast models because of the water runoff at 
the National Water Center being a key component of this.
    Mr.  Crist. Let me ask it another way. Do you think that 
this budget request to us with these reductions of 
approximately 75 percent is appropriate in order for you to 
continue to meet your mission and help us avoid these kind of 
problems going forward, and be able to research and learn from 
them?
    Mr.  Jacobs. Well, it will obviously, you know, slow some 
of the research, but we will be able to maintain our core 
forecast capabilities at--certainly at their current standards.
    Mr.  Crist. So what did you do with the $23 million dollars 
if you could do it without it?
    Mr.  Jacobs. Well, that was dedicated at looking at how we 
could improve future capabilities.
    Mr.  Crist. That would be a pretty important mission, would 
it not? It is to Florida, and I am sure Mississippi and other 
places that are affected, to Alabama.
    Mr.  Jacobs. It is definitely important, but, you know, we 
had to make some tough decisions and chose to just retain the 
core essential functions.
    Mr.  Crist. This is not a part of your core essential 
function?
    Mr.  Jacobs. Oh, providing the harmful algal bloom 
forecast, that is part of our core essential function.
    Mr.  Crist. Which part is not? The research?
    Mr.  Jacobs. The external grants and research that would 
help us further improve our mission in the future.
    Mr.  Crist. Thank you. Thank you, Mr. Chairman.
    Mr.  Serrano. Thank you.
    Mr. Jacobs, the administration is proposing the elimination 
of the National Centers for Coastal Ocean, NCCOS. Let's discuss 
this proposal. First, your budget says that you will continue 
some of the highest priority work, but you failed to provide 
any information about how you will implement this plan. Can you 
shed some light on it?
    Mr. Jacobs. I believe you are talking about the end cost, 
the minus 23.7.
    Mr.  Serrano. Yes.
    Mr.  Jacobs. So, again, we are retaining $8.8 million of 
that to maintain our core functions and the tools that we 
provide to the public for just--not just the harmful algal 
bloom and hypoxia that we were just discussing, but pathogen 
research and prevention. But, you know, the additional research 
that is being done is not part of that retention of core 
capability.
    Mr.  Serrano. But you still didn't tell us exactly how you 
are going to implement the plan, though.
    Mr.  Jacobs. Well, implement the--the 8.8 will not be 
implementing anything new; it will just be retaining the core 
capabilities that we already do.
    Mr.  Serrano. You know, I am having difficulty with this 
hearing, because a lot of these things that are coming up look 
like they were not thought through completely. And as my 
colleague, Mr. Case, said, there has got to be people at NOAA 
who take this seriously, I mean, and I know you do. And it is 
clear to me that this did not come from you folks. You might 
have been told, here it is, and maybe you can comment on it, 
but this sounds like a policy that comes from some other place. 
But we will have to deal with that as time goes on.
    The budget also cuts a program in the Arctic that models 
and protects sea ice. Given that Russia is rapidly expanding 
its activities in the Arctic, our knowledge and understanding 
of sea ice is critical to our national security. How do you 
reconcile the elimination of NCCOS with the administration's 
broader national security efforts?
    Mr.  Jacobs. So a lot of the research that we do as it 
pertains to climate in the Arctic is being cut. But I would 
like to add that we are doing some enhanced work and 
development on forecasting and analyzing sea ice and sea ice 
flow as it pertains to both our dynamical weather model and our 
general circulation climate models. And this is something that 
we are working very closely with the Navy on.
    Mr.  Serrano. You are working with the Navy, and you feel 
that then this will make up for any deficiency that I might 
have pointed out?
    Mr.  Jacobs. It is yet to be determined if it would make up 
for the deficiencies. I think that the scope of it is a little 
bit different. It is more, how do we manage dealing with the 
sea ice and the analysis in the next couple of years versus 
very long range.
    Mr.  Serrano. NCCOS has been performing the work of 
evaluating the impact of rising sea levels on our coastal 
military installations, as Congress has repeatedly directed in 
the National Defense Authorization Act. Can you explain the 
seeming contradiction between the department's claims of 
prioritizing national security and the elimination of a program 
which is critical to it?
    Mr.  Jacobs. We actually are doing a tremendous amount of 
work in research and getting our data out there through various 
ocean data portals. Two of the things that I would like to 
point out--well, one of them, the marinecadastre.gov website. 
This is where you can actually access a lot of the sea level 
rise data. This is made available to the public. We are 
increasing this by $4 million to try to get the data out to the 
public.
    You know, this is something that I think would be very 
useful, not just for our stakeholders, but possibly any other--
whether it is private sector or other government agency doing 
planning when it comes to future mitigation of sea level rise.
    Mr.  Serrano. Committee members will note that I am keeping 
to the 5-minute rules.
    Mr. Aderholt.
    Mr.  Aderholt. Thank you.
    Let me go back to tornadoes. I want to take a moment to 
discuss the fiscal year 2020 request for the National Mesonet 
Program. Despite the fact that the National Mesonet Program is 
a key component of NOAA's efforts to develop a weather-ready 
Nation, the 2020 budget request proposes to reduce the 
geographic scope of the program from all 50 States to 
prioritize States most susceptible to tornadoes and severe 
weather.
    How important, in your opinion, is the Mesonet program 
improving weather predictions around the country?
    Mr.  Jacobs. The Mesonet program is very important because 
it is one of our only conduits to access data outside of the 
data that we actually collect ourselves. But it is beyond the 
typical Mesonet, which you would think is surface observations. 
There are other observing systems in there, such as atmospheric 
profilers and commercial aircraft data.
    The vertical profiles that we obtain through the Mesonet 
program are extremely critical. The surface obs, you could 
divide the surface obs in criticality based two ways. One would 
be the quality of the instrumentation, and the other one being 
the geographical location. So there are certain areas where the 
surface obs and the Mesonet would provide more impact in the 
model skill than the other.
    Mr.  Aderholt. Well, I appreciate that the program was 
protected in the request, but how will scaling back the program 
impact areas of the country, especially rural areas which rely 
on the program to define rapidly deterring weather conditions 
that are not identified by other observation platforms?
    Mr.  Jacobs. Well, that is--I mean, that is going to be 
tough to fill in those gaps. A lot of these--a lot of these 
Mesonets tend to be coincident with agriculture. So you tend to 
see a lot of the Mesonets in rural areas versus urban areas, 
which is actually a good thing because, as you say, there is 
not a lot of deployment of other systems out there.
    One of the only other ways that we can offset this is just 
through the better assimilation of satellite data, because in 
these rural areas where we don't have a lot of data, it is 
really hard to get information in the boundary layer.
    One of the things that the Mesonet program does do is 
regional airlines, which is a little bit different than the 
data we collect from the wide-body long-haul flights, and the 
regional airlines fly into these smaller regional airports, and 
the vertical profiles that they provide are extremely critical.
    Mr.  Aderholt. The 2019 conference report included guidance 
for NOAA to continue to expand the Mesonet program. How does 
NOAA plan to implement this direction in the upcoming year, and 
how will expanding the program improve weather forecast 
warning?
    Mr.  Jacobs. Well, the National Mesonet Program, I would 
argue the term ``national'' could possibly be a misnomer. It 
would be an interesting way to actually acquire non-NOAA 
related data that go well beyond the Nation's borders. For 
example, information from, you know, commercial aircraft data 
profilers or other Mesonets possibly in areas outside of our 
country.
    You know, when we really, over the next couple of years 
start to focus on high-resolution global modeling systems, the 
most valuable information might not actually be collected 
within our borders. It will most likely be collected to our 
west, whether it is over the Pacific Ocean or countries that we 
work with through the WMO and data-sharing agreements.
    It is entirely possible that we will find ourself in a 
situation where we would be doing commercial data buys for 
data--in situ data from observing systems overseas, and I can 
envision the National Mesonet Program possibly being one of 
those ways of doing that.
    Mr.  Aderholt. Let me switch briefly to improving our 
ability regarding the Earth Prediction Innovation Center. I 
think improving our ability to predict the Earth's systems, 
including weather climate and extreme events, has the potential 
to add enormous value to our economy, advance national 
security, and protect the safety of our communities.
    How will the Earth Prediction Innovation Center advance its 
capabilities?
    Mr.  Jacobs. So there is two primary hurdles that the EPIC 
tries to address. The first one is we really need access to 
expertise outside of NOAA, and these visiting scientists don't 
have security clearances to log into our machines. And it takes 
them--if they apply, it takes them well over a year to get it. 
So the only way I can think of to solve this problem is to move 
our software development to compute resources external to NOAA.
    The other thing is, per the Weather Research Innovation 
Act, we are required to develop a community model, and that 
doesn't necessarily just mean make the code community 
available; it means make the code accessible by the community 
on compute resources that the community has access to.
    So EPIC will sort of be the virtual hub where we manage the 
code development in commercial cloud vendors' hardware. So this 
will be the compute that the community has access to, and we 
make the code available and manage it through EPIC. So we are 
essentially crowdsourcing model development with the academic 
community and private industry.
    Mr.  Aderholt. Okay. Thank you, Mr. Chairman.
    Mr.  Serrano. Thank you.
    Mr. Cartwright.
    Mr.  Cartwright. Thank you, Mr. Chairman.
    Well, Dr. Jacobs, in the oversight hearing last month, you 
and Dr. Freilich identified several gaps in our Earth-observing 
capabilities, saying that obviously it would be more--it would 
be useful to have more data on things like aerosols, vertical 
wind, and soil moisture, better to predict weather, manage our 
resources, and understand climate change.
    Why does the Administration want to cut funding for 
research in these areas when it is clear more resources would 
make sense?
    Mr.  Jacobs. Well, some of the low hanging fruit that we 
are looking for in analyzing the satellite data, which is what 
we were discussing at that last hearing, is actually extracting 
more value from the data. So right now, with the existing 
capability that we have, we do not use roughly 80 percent of 
the data that we bring in, just because the file sizes are too 
large. So we only use about 10 percent of the data that we 
collect, as far as prediction capabilities, and only about 2 
percent actually influences the initial conditions in the 
models.
    So for a small amount of investment on the satellite data 
simulation side, if we can move that number from 2 or 3 percent 
to 5 or 6 percent, we could potentially have huge gains in 
forecast model skill, just using the current data that we have 
access to.
    Mr.  Cartwright. Well, I know you are trying to invest your 
limited resources wisely, but it has to be obvious that you 
can't possibly make up for the slashing of all of the following 
programs, and this is a mouthful, so bear with me. And it is 
not a complete list of the programs this budget proposes to 
reduce or eliminate.
    The VORTEX Southeast, taking out $5 million, that is 
something that improves tornado forecasts in the southeast 
U.S., including Alabama, which as we have heard, was hit by 
about 40 tornadoes in March that killed more people than all of 
2018. And according to NOAA's website, the number of killer 
tornadoes in the southeastern U.S. is disproportionately large 
when compared to the overall number of tornadoes throughout the 
country.
    It cuts out $2.6 million from the Airborne Phased Array 
Radar, which improves detection and understanding of severe 
weather. It cuts out $60 million from the climate competitive 
research activities, including NOAA's funding for the National 
Climate Assessment. It takes out $3 million from the Antarctic 
ecosystem research program, Antarctic research. It takes out $6 
million from that to improve operational sea ice modeling and 
predictions. It slashes $3.7 million from the regional climate 
centers, which help regions deal with emerging droughts and 
floods. It takes out $4.8 million from the Air Resources Lab, 
which researches atmospheric dispersion of mercury and other 
pollutants harmful to human health.
    My question is, have you informed the administration that 
cutting funding for weather and climate research makes it 
harder for NOAA to improve forecast precision, which is an 
important element for securing people and property and the 
American economy?
    Mr.  Jacobs. We have worked hand in hand with them in 
formulating this budget.
    Mr.  Cartwright. So, yes, you have informed them. Thank you 
for that.
    So why is the administration ignoring the advice of its 
expert scientists on the importance of improving forecasts to 
secure lives and property and protect the American economy?
    Mr.  Jacobs. Well, we had to make some tough budget 
decisions and we were forced to essentially look at retaining 
our core missions for our current state of predictive 
capabilities.
    Mr.  Cartwright. Now, there is this ad hoc working group I 
want to ask you about. Did the White House ask NOAA for input 
into the formation of the White House's ad hoc working group to 
question climate science? And will NOAA's climate and science 
experts be any part of that?
    Mr.  Jacobs. I don't know that there is any ad hoc working 
group that has been formed.
    Mr.  Cartwright. OK. You are not a part of it if there is?
    Mr.  Jacobs. I have been in discussions with various folks 
about issues related to the climate change, that is primarily 
the OSTP's director's job, but I don't know of any ad hoc 
working group that has officially been formed.
    Mr.  Cartwright. Will you commit, Dr. Jacobs, to informing 
the administration that we know with certainty that humans are 
contributing to climate change and that NOAA can make available 
expert scientists to help explain it? And can you report back 
the results of these conversations?
    Mr.  Jacobs. We make available all of our data. Certainly, 
the administration is aware of the research that we do. I am 
happy to report that back. And within the potential scope of 
NCA-5, that will be the official report.
    Mr.  Cartwright. Last question. Are staff and scientists at 
NOAA ever discouraged from using terms such as ``climate 
change'' and ``resilience''? And if you have heard of such 
instances, what would you do about it?
    Mr.  Jacobs. I am vehemently opposed to any type of 
academic censorship on this front. And transparency and 
openness is key to what our agency does. Our entire mission is 
based on providing open and transparent, robust defendable 
science.
    Mr.  Cartwright. Thank you, Doctor, I appreciate that.
    I yield back.
    Mr.  Serrano. Mr. Case.
    Mr.  Case. Sorry, I am still on the overall budget cuts and 
trying to figure out what the message we are to take from the 
Administration is on the budget cuts. And I understand that you 
felt you were under, or perhaps I am putting words in your 
mouth, but felt you were under directions to do substantial 
reductions.
    As I look at kind of where the reductions really fell the 
worst on, it just seems inescapable that the programs of NOAA 
that are focused on the oceans, and I don't mean on fisheries 
management, I mean on the conservation and health and welfare 
of our oceans overall, were the ones that took the biggest hit. 
I see the National Ocean Service, if my math is correct, 65 
percent of fiscal year enacted. OAR, Ocean and Atmospheric 
Research, I don't know the division there, but 55 percent of 
prior enacted, whereas, really your atmospheric was reduced and 
your satellites were, for the most part, maintained.
    Now, I have no--I made the same motion--I breathe the same 
air as everybody else in Hawaii, and we have the same use for 
the satellites, all of which is incredible research in 
contributions by NOAA. But if you look at the map above the 
chair over there, you will see that in Hawaii, we kind of live 
in the middle of a big ocean, so we are more focused on the 
ocean.
    So was there some judgment within NOAA or somewhere else 
that somehow oceanic research was, you know, not pulling its 
weight or too many external grants, or is that a priority 
judgment I should take from this budget exercise?
    Mr.  Jacobs. So as far as the OAR research, we are funding 
climate at 88 million, oceans at 98, and weather at 110. But I 
would point out that a lot of the weather research we are doing 
benefits the climate research, so it is pretty linear across 
the board. Oceans are, you know, it is part of my life, I mean, 
surfing and fishing are my two favorite hobbies. One of the 
things that we are funding----
    Mr.  Case. We have something in common, by the way.
    Mr.  Jacobs. I know. I have been to Hawaii multiple times, 
I love it there.
    One of the things I would like to point out is our National 
Oceans Partnership Program. So we will be relying heavily on 
public-private partnerships with key stakeholders on this to do 
a lot of the work. You know, whether it is actual research or 
just outreach, I think that there is a lot of opportunities 
here, both on the oceanographic prediction side as well as the 
observing side, not just in the water chemistry, but also 
bathymetry.
    Mr.  Case. Can I switch back? I just need to switch. I am 
not sure that I understand your answer. One part of your answer 
could be that we are going to essentially privatize a lot of 
the functions of NOAA and, as you say, lean on the private 
sector for that. And I am not sure that that is the right 
policy decision, but anyway, we can have that discussion 
further.
    Can I switch back to the NOAA fleet and talk to you about 
the NOAA fleet, because your recapitalization program, which I 
fully agree with, called for replacement of NOAA ships 
overtime, but assumed that the Hi'ialakai, which is the NOAA 
ship home ported in Hawaii, would be continued in place for 
some period of time into the future. And as you and I know, the 
Hi'ialakai is no longer seaworthy. That came as a sudden 
surprise to many people. And so, therefore, the functions that 
are carried out of Hawaii are discontinued from that 
perspective.
    I think you mentioned--well, two questions. First of all, 
have you considered revising your recapitalization program to 
accelerate ship construction and to home port a replacement 
ship in Hawaii, number one? And then, number two, what is your 
plan in this budget for fulfilling the research needs of the 
Hawaii-based NOAA activities?
    I think that if I look--I don't think you mentioned $3 
million in your answer to my colleague, but I am not sure, is 
that allocated to Hawaii replacement time or is it across the 
board? I see $200,000 in here, but I don't know whether the $3 
million is in the materials that you gave us.
    Mr.  Jacobs. So the $3 million is directed at trying to 
offset all of the work that the Hi'ialakai was doing. And so 
whether we can use that funding to do it on other NOAA ships or 
we have to charter other vessels or contract it out is to be 
determined based on the specific requirements. There are some 
type of requirements that are very specific to the type of 
vessel based on instrumentation and how the vessel is 
outfitted. So those could be limiting factors.
    As we go through the revision of this plan, we would 
certainly love to work with you on this.
    Mr.  Case. Appreciate that. So just to recap what you just 
said. The $3 million would essentially buy replacement time for 
Hi'ialakai through the next fiscal year?
    Mr.  Jacobs. That is the plan.
    Mr.  Case. Okay. And what about my question on revising the 
recapitalization plan to account for the Hi'ialakai's 
departure?
    Mr.  Jacobs. We would definitely love to work with you on 
the development of that.
    Mr.  Case. Thank you.
    Mr.  Serrano. Mr. Aderholt, do you have any more questions?
    Mr.  Aderholt. Unless you have something, I could submit to 
the record. So whatever is good for you. If you want to 
continue on for another question or two or if you want to 
conclude, I can submit for the record.
    Mr.  Serrano. Well, let me just ask one question and then 
you can finish up.
    Mr.  Aderholt. Okay. All right. I will finish up with one 
question as well.
    Mr.  Serrano. Mr. Jacobs, Puerto Rico's coral reefs provide 
nearly $1 billion in economic value to the island annually, 
supporting the tourism industry and protecting lives and 
infrastructure from storm surge by acting as a barrier. In 
September 2017, Hurricanes Irma and Maria caused extensive 
damage to the these valuable and slow growing reefs. 
Fortunately, NOAA's coral restoration work helped dramatically 
speed up the recovery.
    How does the proposed 6 percent cut to the coral reef 
program reflect a need to restore Puerto Rico's damaged corals 
and coordinate with agencies like FEMA to conduct post-storm 
damage assessments?
    Mr.  Jacobs. So the coral reefs are incredibly important, 
and after the storm, one of the things that we did, in addition 
to working with the Marine Corps to install radars and get the 
basic observing system capabilities up there, was to go and 
revitalize and do a lot of the marine debris removal of the 
coral reefs.
    One of the issues, not just with the damage to the reef, 
but actually the reef itself was damaged just from debris, as 
well as enhancing the coral reef. One of the great things about 
the reefs that surround Puerto Rico is that they actually are 
an integral part of dissipating the wave energy. So it is 
incredibly important to have them in place to, you know, to 
essentially protect the land from not just storm surge but 
waves.
    Mr.  Serrano. So these cuts you think will affect that work 
in any way?
    Mr.  Jacobs. Well, a lot of this research just on the coral 
side is--it is a reduction of 1.6 from the enacted, but it 
retains $26.1 million to continue on with that research. And so 
there is the opportunity to focus research on coral restoration 
as well as disease and such.
    Mr.  Serrano. Thank you.
    Mr. Aderholt.
    Mr.  Aderholt. Of course, every day, NOAA generates tens of 
terabytes of data from satellites, radar, ships, weather 
models, other sources. And, of course, NOAA makes that 
available to the public. What is the--tell us about the Big 
Data Project, and in what way is it different from what NOAA is 
already doing with the data?
    Mr.  Jacobs. So the Big Data Project is a great way to work 
with various cloud vendors in getting our data out to the 
public. So I know in the past I have discussed limitations with 
compute resources, but we also have limitation on storage, 
storing this data. We have well over 25, probably closer to 30 
petabytes of data that the public actually can make use of, not 
just the research community, but private industry and other 
government agencies.
    And so working with various cloud vendors, that they can 
set up a sort of interface where companies can actually 
download the data and generate value-add products from our data 
is enhancing, obviously, their business models, but it also 
benefits us. Because if we are driving industry to co-locate 
their operations adjacent to where we store our data on these 
cloud vendors, it is an incentive for them to work with us on 
negotiating a deal on storage because we are actually improving 
their revenue by generating business that wants access to the 
data that the taxpayers pay, and we produce and put on these 
data portals.
    Mr.  Aderholt. I know--and let me just change the subject, 
one thing about that, but it reminded me of it. I know growing 
up, I would listen to the NOAA weather radio reports and, of 
course, at that time, you didn't have weather available as 
quickly as we do nowadays with cellphones and apps and 
different things like that. Of course, you all still operate 
the weather radio program that has been in existence for--I am 
sure for decades.
    What--is there--in the day and age of smartphones, is there 
a way to access that data without a weather radio, or is it--do 
you have to have a weather radio to access that today?
    Mr.  Jacobs. So the NOAA weather radio is a very unique and 
important program. It actually saved my life in 1997. I would 
have been hit by a tornado had I not been listening to it. 
There are other ways to access that information. We disseminate 
our warnings and watches over various third-party vendor apps. 
There is also the capability of low Earth orbiting satellites 
that phone connectivity can get you access to this information, 
whether it is MRSAT or Iridium or another satellite data 
provider. But some of the, you know, the key core capabilities 
would still be part of the weather radio.
    So we are always looking at ways to try to get our message 
out there. And with the help of a lot of these various third-
party app developers, certainly smartphone devices are one way 
to do it, but that doesn't mean that it would ever be something 
that could possibly replace that.
    Mr.  Aderholt. Is what--of course, the information--if you 
have a weather radio that is, of course, you have free access 
to that information. Is there an app that the public has access 
to free of charge?
    Mr.  Jacobs. So we don't develop apps ourself. One of the 
things that we made a conscious decision on, because if you 
look at the National Academies' fair weather report, it 
basically defines swimlanes of what the weather service would 
do versus what private industry would do. And private industry 
has done a tremendous job in developing these apps. Some are 
free, some are for cost. And we would--essentially, if we tried 
to develop a competitive app, would not only be competing with 
a product that is probably better than what we can do, we would 
rather rely on them as a key partner.
    So as part of the Weather-Ready Nation, we have ambassadors 
which are, you know, essentially private sector, what we call 
value-add industry, that we rely on to disseminate our warnings 
and watches deeper into the public.
    Mr.  Aderholt. And you access the information from the 
weather radio. If you don't have a weather radio, can you 
access it off the internet?
    Mr.  Jacobs. I don't know that you can access it in the 
exact same format. The weather radio essentially just reads a 
lot of these transcribed pieces of information.
    Mr.  Aderholt. So, in essence, you have to have a weather 
radio in order to get the----
    Mr.  Jacobs. The weather--the feed that goes out encoded 
for the weather radio is specifically designed to be heard over 
the weather radio.
    Mr.  Aderholt. And there is really no other way you can get 
that, at this point?
    Mr.  Jacobs. At this point, not that I know of. There might 
be a third-party app that could transcribe it into something on 
the internet. Technically, it is possible. It would essentially 
just be doing what the weather radio does except, you know, 
voiceover IT or something.
    Mr.  Aderholt. So you all made the conscious decision not 
to have, through the internet or through an app, where it would 
just read off the message that you get on the weather radio?
    Mr.  Jacobs. Well, the text--the text is just the warnings. 
Those are issued over the internet, they are issued over 
smartphone devices.
    Mr.  Aderholt. But verbally?
    Mr.  Jacobs. Verbally, I don't know. You would have to have 
some software that would actually read the text off a web 
browser out loud.
    Mr.  Aderholt. All right. Thank you very much.
    Mr.  Serrano. Let me just say on that point that we are big 
fans of NOAA here, and I suspect you could do a better job than 
private industry in putting together an app that could give us 
information. In fact, I will probably get a lot of letters on 
this--or some. But I bet you when they were putting together 
their apps, they were working off of a lot of information that 
you guys have been gathering for years. And NOAA--don't 
undersell yourself.
    Thank you for your testimony today. I am not making 
excuses, but if at times the questioning was probing, it is 
because we are big fans of NOAA here, and we want NOAA to 
succeed and to continue to succeed. And when we see a budget 
proposal like this one, it worries us.
    And I think, in this case, you know, when it comes to 
spending money, we always have differences on different sides 
of the aisle. But I can honestly speak for Mr. Aderholt to say 
that we are fans of NOAA, and we want NOAA to do the right job 
and to be prepared and supported by Congress in doing the right 
job. So that is why we ask the questions the way we did.
    Thank you, Mr. Jacobs, and hope to see you again.
    Mr.  Jacobs. Thank you for your support.
    Mr.  Aderholt. Thank you.
    Mr.  Serrano. The hearing is adjourned.
    [Clerk's note. The Department did not respond with answers 
to submitted questions in time for inclusion in the record.]

                                        Wednesday, April 3, 2019.  

                         DEPARTMENT OF COMMERCE

                                WITNESS

HON. WILBUR ROSS, SECRETARY, U.S. DEPARTMENT OF COMMERCE
    Mr. Serrano. The subcommittee will come to order.
    We have an unusual situation today. We invited the 
Secretary of Commerce to come to testify before us this 
afternoon about his department's budget request, as Secretaries 
of Commerce have done consistently for many decades. After 
agreeing, he then communicated to us via or others at the 
Department that he was backing out and wanted to send his 
Deputy in his place. But Secretary Ross had no schedule 
conflicts to speak of and no other excuse, other than the fact 
that he simply didn't want to appear before this subcommittee 
and be held personally accountable.
    This is the second time the subcommittee has experienced 
this problem during this administration; the first was 2 years 
ago, when former Attorney General Jeff Sessions became worried 
about the Russian investigation; the second is today.
    I think that the Secretary's actions today show a stunning 
disrespect for the mechanisms of our democracy and the Article 
I powers of the Congress, as if we needed any reminding that 
the President and his staff couldn't care less about our 
institutions of democracy. We see a clear manifestation of that 
problem this afternoon.
    I understand that Deputy Secretary Karen Dunn Kelley has 
offered to testify; that will not be happening. This 
subcommittee invited Secretary Ross to testify and he is the 
only one who will be allowed to testify at this hearing. 
Neither the Deputy Secretary, nor any other Department 
officials, will be recognized to give a statement or to answer 
questions.
    I strongly believe in transparency and accountability, and 
that starts at the top of every government agency, including 
the Commerce Department. The Secretary has a lot of questions 
that he should answer directly. This is particularly true with 
regard to the Census where at this hearing last year the 
Secretary appeared to lie in response to questions about--from 
myself and Congresswoman Meng regarding the addition of a 
citizenship question to the 2020 Census.
    It is also true for the overall Commerce Department budget, 
which shows a shocking disregard for the American people. The 
Commerce Department budget process eliminating programs that 
specifically help rural and under-served communities like the 
Economic Development Administration and the Manufacturing 
Extension Partnership Program; it undermines community safety 
and climate change research by proposing an 18-percent cut to 
NOAA, including the elimination of several dozen important 
grant, research, and educational programs.
    The budget, once again, under-funds the Census Bureau, even 
for the critical census taking place in the year 2020. It 
proposes to eliminate funding for Minority Business Development 
Centers.
    The Secretary should be here to justify these harmful 
proposals rather than ducking our questions.
    Congress, through this committee, controls the power of the 
purse, as specified in Article I, Section 9 of our 
Constitution. Perhaps the Secretary has forgotten this and 
needs a reminder.
    At this time, I will recognize members of this subcommittee 
for any statements that they may want to make, starting with my 
friend and ranking member, Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman, and thank you for 
yielding. And of course thank you for scheduling these hearings 
that are important for us to learn more about the budget of our 
different departments.
    I think all of us would prefer to be able to visit with the 
Secretary today, but the absence of the Secretary, I believe, 
stems around the concern that this hearing might focus more on 
political or legal issues than the budget itself. Some have 
even speculated it might turn into a debate over the 2020 
Census.
    But this hearing is much bigger than that. It is an 
important budget hearing, covering an agency with a dozen major 
bureaus and a budget request of over $12 billion. This is the 
Appropriations Committee, as you well know, and I expect that 
we can and will tackle some significant issues here. There is 
no doubt about that, and I believe that there is time and a 
place for discussing all the matters important to this 
subcommittee.
    I will even say that I personally believe certain matters 
involving the Census, matters that are subject to ongoing 
litigation, are best not debated in Congress while the case is 
pending. And I have spoken with the Secretary and he feels very 
strongly about that as well.
    I do regret this missed opportunity to discuss the 
resources needed for the Commerce Secretary, but I 
wholeheartedly support the Department's efforts to promote job 
creation, economic competitiveness, and to protect our Nation's 
innovators and manufacturers, and ensure fair trade.
    I also support the 2020 Census, and the efforts to improve 
the quality and efficiency of the Census and other important 
surveys. Yet, while I take a very positive view of the work of 
the Department of Commerce, exchanges with Cabinet-level 
officials are always critical to the appropriations process.
    I do want to make note that there are several here from the 
Department of Commerce that has joined us here today. Dr. 
Steven Dillingham, the Director of the Census Bureau; Dr. Neil 
Jacobs, Assistant Secretary for Commerce and Environmental 
Observation, dealing with NOAA; John Fleming, Assistant 
Secretary of Commerce for Economic Development; Henry Childes, 
National Director of Minority Business Development 
Administration; Gil Kaplan, Undersecretary of Commerce for 
International Trade; Walter Copan, Undersecretary of Commerce 
for Standards and Technology; and Michael Platt, Assistant 
Secretary for Intergovernmental Legislative Affairs. So, I 
understand they are available and would be happy to answer any 
questions.
    And, furthermore, I understand from talking with the 
Secretary that at a later date of when we could mutually get an 
agreement, when this Census issue is more settled at the 
Supreme Court, that he is more than happy to come and testify 
before our subcommittee.
    So, with that, I want to say again, thank you for yielding, 
and I yield back.
    Mr. Serrano. Thank you.
    I would like to now recognize the chair of the full 
committee, Mrs. Lowey from New York.
    Mrs. Lowey. Thank you, Mr. Chairman. And I am truly 
disappointed that Secretary Ross believes publicly justifying 
his budget request is an optional exercise.
    This administration clearly needs to take a course in 
constitutional law. The power of the purse rests in Congress 
and in particular in the Appropriations Committee. Given his 
lack of interest, I can't imagine he is listening to this, but 
if he were here I would tell him how unacceptable his budget 
request is, from eliminating Economic Development 
Administration grants, which provide funding and technical 
assistance to economically-distressed communities, to seriously 
under-funding the Census. This request is clearly out of touch 
with the needs of our constituents.
    It is really disappointing that Secretary Ross is not here; 
he should be here, and his absence disrespects this committee 
and the appropriation process as a whole.
    I yield back.
    Mr. Serrano. Thank you.
    Any other members who--the next in line would be Mrs. Roby.
    Mrs. Roby. I think Mr. Crist was here before me.
    Mr. Serrano. Yes, he was.
    Mrs. Roby. Well, I thank the chairman for yielding. To the 
nine agency department heads here, thank you for your time to 
be here this afternoon.
    The fact that we are addressing an empty chair with nine 
agency department heads here is unsettling, because we have 
people here that can answer our questions about the budget, 
which is the whole point of the hearing today. I wish we had an 
opportunity to ask those very important questions from an 
oversight perspective.
    And, as we all know, the census required by the 
Constitution has very high stakes. Population numbers are used 
to determine how many U.S. Representatives a state receives 
and, the more people in the state, the more representation in 
Congress, but the data is also used to draw congressional and 
state legislative districts, and for the distribution of 
federal funds.
    So there are a lot of important questions and we have 
people here that are experts, and I appreciate you being here 
and your willingness to answer our questions.
    With that, I yield back.
    Mr. Serrano. Thank you.
    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    Mr. Chairman, the Secretary of Commerce's duty is to the 
people, first and foremost, and I want to say on behalf of the 
people of the United States we need to hear from the Secretary 
of Commerce. We have some serious questions to ask him on 
behalf of the people, we want to find out.
    Why does he want to terminate the Manufacturing Extension 
Program, which creates so many American manufacturing jobs? Why 
does he want to eliminate the Economic Development 
Administration, which again is formed for the purpose of 
creating good American jobs?
    Why does he want to reduce this budget in a way that will 
hurt the formation of American jobs?
    In fact, why does he refuse to come and testify about his 
own financial disclosures, which are very much an issue these 
days?
    When we talk about the Manufacturing Extension Partnership, 
the MEP is critical to keeping American manufacturing jobs in 
the United States, and helping small manufacturing companies 
expand and grow. In 2017 alone, MEP centers interacted with 
26,313 manufacturers, who created 110,000 new jobs, added $12.6 
billion to our domestic economy.
    MEP generates a 14.5-to-1 return on investment. Why would 
anyone in their right mind want to cut that program out? We 
need to know why the administration wants to do this; Mr. Ross 
is not here to tell us.
    We deserve to hear from him about the administration's 
budget proposal to eliminate the Economic Development 
Administration. For 50 years, this agency has provided economic 
opportunities to distressed communities across the country, 
including those in my home state of Pennsylvania. The EDA 
assists historic coal and manufacturing communities that are 
struggling with unemployment; it creates 25,000 jobs annually.
    And, finally, we do deserve to hear about Secretary Ross' 
own behavior. The Office of Government Ethics has rejected his 
financial disclosure because it was dishonest, in their view, 
and he has not submitted an updated disclosure.
    Moreover, he has made public misrepresentations not once, 
but twice about divesting from his own banking stock, held 
stock in companies that were tied to Putin's inner circle; he 
has been accused of insider trading by European lawmakers. He 
paid a confidential settlement last year over alleged 
fraudulent theft.
    These are legitimate questions that we have for Secretary 
Ross that should be asked here today and the silence that we 
are getting from that chair this afternoon, Mr. Chairman, is 
deafening. This hearing was supposed to be about accountability 
and how we can support small businesses, manufacturers, expand 
our economy; instead, we get nothing.
    So, Chairman, I look forward to working with you on 
crafting a CJS bill that does those things, invests in 
manufacturing, invests in small business, and invests in our 
great American economy.
    I yield back.
    Mr. Serrano. Thank you.
    Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    I am not sure which I am more frustrated with at this 
point. I mean, I think about what is the goal of 
appropriations. The purpose of our committee is oversight and 
accountability, we have heard that here today, but I am not 
sure that is what the intent is of today's hearing.
    I hear that Mr. Cartwright would rather--he would ask some 
questions about the appropriations process, but wants to put 
Mr. Ross on trial today for something he has no information on 
or evidence of. There are other avenues and venues for that.
    But if this committee is really about asking the first 
questions Mr. Cartwright had about the elimination of programs, 
cutting of programs, and you have qualified, expert, Senate-
confirmed individuals in this room who have been offered to 
answer those questions, why would you turn that down? Unless 
that is not the intent of today's hearing. Maybe it was 
something different, but you have people here ready to answer 
the questions.
    The Senate seemed to find their answers sufficient and the 
ability for them to answer the questions sufficient, but yet 
today's hearing has to be about an empty chair. So maybe it is 
a little bit more theater today and less about really 
accountability and transparency.
    Mr. Chairman, I think you used the term he needed to be 
held personally accountable. For what? Personally accountable--
what has he done that he needs to be held personally 
accountable for today?
    Is there maybe some questions about the budget request and 
the proposal put before us? Absolutely, but those questions can 
be answered by the qualified individuals and the experts that 
are here, who probably were more involved in that compilation 
of the actual budget document anyhow.
    But I will bring us back to something that a couple of 
years ago, Mr. Chairman, you and I were on the same committee 
and still are today, and Mr. Aderholt was--I mean Mr. Ander 
Crenshaw was chairman, and I was chairman next and you were on 
the committee. I think you might have been ranking member when 
Mr. Crenshaw was chairman. We wanted Richard Cordray to come 
before our committee; denied every time, but I don't recall any 
outrage then. We wanted transparency and accountability then, 
we wanted to ask about the budget then, we wanted to ask about 
how were they really providing consumer protection through that 
bureau, but not once would he ever show up.
    So it is ironic that today seems to be the day that you 
choose to bring an empty chair. When I was chairman, I never 
did that. Instead, we found ways to accommodate and get the 
answer to the questions, and do it in a way that was fulfilling 
of our duty, as these subcommittees are on this, bringing 
accountability and oversight.
    So, if the purpose of Appropriations is that oversight and 
accountability in funding, then we have experts and individuals 
here that can answer those questions. If today is more about 
theater, I guess we will have to wait until another day in the 
future.
    Thank you, Mr. Chairman. I yield back.
    Mr. Serrano. Thank you.
    Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman, for arranging this 
hearing. I too am utterly disappointed and angry at Secretary 
Ross' irresponsible decision to not appear today. His failure 
to testify on the Commerce Department's fiscal year 2020 budget 
request is undoubtedly an abandonment of his responsibilities 
as the Secretary of Commerce. It is an assault and an attack on 
transparency and trust.
    A major component of the Commerce Department's 2020 budget 
involves the funding for the 2020 Census, the largest ticket 
item of the Department. By my estimate, the President's budget 
request underestimated the necessary funding for the 2020 
Census and dangerously shortchanged the Department of Commerce 
and, by extension, the American people.
    Respectfully, to our Ranking Member Aderholt's comments, 
this is not political. The American people deserve an open and 
transparent debate on the census, because the census funding 
affects both Republican and Democratic districts in every 
single part of the country.
    There is--let me remind everyone, there is no do-over with 
the decennial census and a mistake will last for 10 years, at 
minimum.
    Even with esteemed agency heads in the room today, and I 
appreciate you all being here, we want to find out political 
motivations that have been demonstrated by communications with 
the Secretary himself and agency heads may not be able to 
adequately respond to those types of questions.
    And so this year he is a no-show. He is a public official 
who should be held accountable for his dereliction of duty.
    Mr. Chairman, I do want to thank you again, and thank all 
the subcommittee staff members for all the preparation that 
went into arranging today's hearing.
    Thank you, and I yield back.
    Mr. Serrano. Thank you.
    Mr. Palazzo.
    Mr. Palazzo. I will pass. Thank you.
    Mr. Serrano. Mrs. Lawrence.
    Mrs. Lawrence. Thank you, Mr. Chair.
    The Department of Commerce exercises a broad range of 
activities that are critical to our beloved country; a few are 
conducting a cost-effective and accurate census, working with 
distressed communities to support economic development, 
enforcing trade laws. Few departments have the potential to 
directly impact the strength and sustainability of our 
communities and local businesses back home.
    Wilbur Ross, as a private citizen, stepped up and accepted 
a job, and stood publicly and took an oath to serve and perform 
the duties of the job he accepted. And, because of this, I am 
deeply disappointed that Secretary Ross declined to appear 
before us as part of his job. We are not some outside entity, 
we are part of the government, performing our task as allocated 
on this committee. He declined to--declined, ladies and 
gentlemen--to appear before us to defend, explain, and support 
the Commerce Department's budget in the amount of $12.2 
billion, $12.2 billion.
    Where is Wilbur? What is his reason for declining to do his 
job? I hope he is well, but I don't know this.
    I want you to know that article I, section 9 of the 
Constitution designates the Congress with the power of the 
purse. As members of Congress and this committee, we have a 
responsibility to carry out our work in a timely fashion.
    Again, I want to express my frustration to why the 
Secretary is not with us today to explain the rationale for 
drastic cuts to critical programs, these programs that are not 
partisan. Ladies and gentlemen, the programs and the funding is 
across the board. My colleagues on the other side know that 
this budget affects them as well.
    Now, I understand the Supreme Court this month will hear 
arguments over Trump's administration decision to add his 
citizenship question to the 2020 questionnaire, and at this 
time we have already seen two federal judges separately block 
the decision by Secretary Wilbur Ross to add the citizenship 
question.
    This is deeply concerning, because the 2020 Census will 
help guide the allocation of more than $880 billion in federal 
funds for the next decade. Every American citizen pays taxes 
and we are held accountable to ensure that these dollars are 
being spent, and the whole basis and foundation of us doing our 
job is based on an accurate census. We have the responsibility 
to ask those questions.
    In my home state of Michigan, around $30 billion is 
dependent upon an accurate, complete, and reliable census.
    With all these priorities I just mentioned, I want to know 
exactly where is Secretary Wilbur Ross and why he is not here 
today.
    Mr. Chairman, this is not a game; this is not a decision 
that you can make once you take that oath of office. There are 
some hearings I would love not to sit through, but I show up 
here and I do my job, because I took the oath and I am part of 
this government. And whether it is the Republicans in charge or 
the Democrats, that does not stop me from doing my job.
    I yield back.
    Mr. Serrano. Thank you.
    Mr. Palazzo.
    Mr. Palazzo. Thank you, Mr. Chairman. And, you know, I am 
kind of just disappointed that we are not able to hear from the 
ladies and gentlemen that the Secretary did send over here to 
answer our questions. We do have an oversight function and I 
have a lot of questions on the budget.
    I know many of the agencies and related agencies, they do 
extremely great work. A lot of things are parochial to the 
Mississippi Gulf Coast, but I think the people that they sent 
in lieu of the Secretary are sometimes best situated to answer 
our more direct questions, because when you are the Secretary 
you have a huge umbrella of agencies underneath you, tens of 
thousands employees, numerous issues, so sometimes it is best 
to get into those subdepartments and get the answers that we 
need.
    So I don't, you know, really blame the Secretary for not 
being here. I think him sending ten of his best and brightest 
to answer our questions would satisfy. So, you know, I feel 
like my colleagues are wasting a great opportunity to get the 
answers to our questions that we have, and I guess we will 
submit those for the record.
    And at this time I would like to yield the balance of my 
time to my friend Congressman Graves.
    Mr. Graves. Thank you, Mr. Palazzo.
    And, Mr. Chairman, I would just like to point out, my 
understanding is, is that the Secretary has offered to return 
to this subcommittee at a time in the future. That when the 
request was sent out, he offered to send experts in lieu of his 
place now, eight of which are Senate-confirmed, Senate-
confirmed, and yet we won't hear their responses. Is there a 
question that you don't think they can answer here today?
    Mr. Serrano. No. The question is that we are elected to do 
a job as appropriations. Not everybody is in the Constitution, 
our job is in the Constitution. So it is for the Secretary to 
come in and not hide because he thinks it is going to get 
political.
    The fact of life is that if every appropriations discussion 
stuck only to numbers, we would have a whole new Congress and a 
whole new day. There are other questions that are answered. And 
if he has got nothing to worry about, then he has nothing to 
worry about in showing up before us, because we may ask hard 
questions, but we never disrespect anybody.
    Mr. Graves. Well, in reclaiming----
    Mr. Serrano. And by not showing up----
    Mr. Graves [continuing]. I understand----
    Mr. Serrano [continuing]. It is disrespectful.
    Mr. Graves.--reclaiming my time. I don't think he is shying 
away from anything and I don't think you are calling him a 
coward in any way. I think the Secretary said he would be happy 
to address this committee at a day in the future, it just 
didn't happen to comport to the calendar that the new majority 
wants right now.
    But might I bring everybody back--and, Mrs. Lawrence, I 
hope you all know--that Richard Cordray never would appear 
before this committee. This is an individual that could not be 
terminated, this is an individual that had zero oversight, this 
is an individual that had basically an unlimited budget, zero 
oversight by Congress at all, and we tried and tried again. We 
would offer amendments to help get it done. We offered 
invitations, public, private, what would it take, and every 
time he refused to sit before an elected body, constitutionally 
constituted, in defiance, in essence, of Congress.
    So we have seen it in the past. I just wish there had been 
equal outrage at that time, Mr. Chairman, because we had an 
opportunity to really bring forward accountability and 
transparency at that point. But, unfortunately, we heard the 
outcry that, no, no, no, he can't come before this committee, 
it just can't happen, and yet here we are today with an empty 
chair. If only we knew these tactics would be used today, maybe 
we should have done that then.
    And I will be happy to yield back to Mr. Palazzo.
    Mr. Serrano. Thank you.
    Mr. Palazzo.
    Mr. Palazzo. I yield back.
    Mr. Serrano. Mr. Case.
    Mr. Case. Thank you. I yield 30 seconds to my colleague 
Mrs. Lawrence.
    Mrs. Lawrence. I just--we are supposed to direct our 
comments to the chair. So, Mr. Chair, I just want to know, so 
often we refer to what happened in the past, the past isn't 
always the right thing. We have before us now a situation that 
should not be evaluated through history, but evaluated through 
the urgency of the moment of now. I respect what you said, I 
was not involved in it.
    And I yield back. Thank you.
    Mr. Case. Thank you very much.
    And I want to fully associate myself with the remarks of my 
majority colleagues. The remarks that hit me most directly were 
my full committee chair's reference to the Constitution and to 
our obligations in Congress to be the appropriators, to provide 
oversight, and recalling also that appropriations start in the 
House.
    And so, although both the Senate and the House have had 
their oversight committees, have had their budget committees, 
we now start in a process that is our responsibility to start 
here today in this subcommittee and that is critical to our 
work. And so I share the concerns that the Secretary would not 
appear here today to help us to start that process.
    To my colleague Mr. Graves' comments in a couple of 
different areas. You asked about accountability, where is the 
personal accountability. Mr. Ross is the Secretary of this 
Department and he is accountable for the decisions that were 
made and are made in putting that budget together and we are 
entitled to ask him along those lines. So, yes, there is 
accountability at the Secretary level. You have offered up a 
different level.
    And actually I have sat in these hearings with many of the 
good people here to my left testifying, we have asked them 
about how budgets are policies and priorities, budgets reflect 
policies and priorities. This is not politics, it is policies--
what policies do you support and not support, what priorities 
do you prioritize and not prioritize. And several of the 
persons that you have offered up to testify here today have 
basically said, hey, look, the decision was made above my head.
    Now, presumably the Secretary is aware that those decisions 
were made, since he is in charge of the Department and 
presumably he knows how he balanced everything across all of 
those departments.
    So I think it is entirely appropriate for us here to expect 
that that level be before this committee when we start this 
appropriations process. Yes, of course, we have experts, they 
are all good advocates for their divisions, but they are not 
the priority-setters; they are in their divisions, but not in 
the big picture. If somehow the Secretary does not have that 
role, then perhaps he should not be Secretary, but I say that 
just because I think this is a failure of accountability.
    So, you know, I share the concerns of my colleagues on 
areas that I wanted to ask about. I wanted to ask about EDA 
cuts, I wanted to ask about cuts, significant cuts to NOAA that 
have already been referenced here today. The capable NOAA 
administrator testified just a few weeks ago that those cuts 
were handed down--and I am putting words in his mouth, so with 
apologies--were handed down from the top. So I wanted to know, 
okay, well, how was that judgment made against something else? 
He is not capable of doing that, he won't do it, but the 
Secretary is responsible for it. So that is the reason here.
    I think I definitely wanted to ask about the 75-percent cut 
to the Minority Business Development Agency, which is so 
critical to minority-owned businesses across our country. I 
could give you a whole range of examples of minority-owned 
businesses, 11 million minority-owned businesses that are 
responsible and are benefitted from this program. Is it a 
policy of this administration that they do not support 
minority-owned businesses? Because that is exactly what is 
reflected in a 75-percent cut to a budget. Maybe there is a 
reason, maybe there is a judgment that it is done some other 
way that has not been answered.
    So there are a lot of questions that can only be answered 
at the Secretary level and, furthermore, should be answered at 
that level as a matter of us discharging our constitutional 
responsibilities.
    Mr. Serrano. Thank you.
    Let me just briefly say in closing that to infer, as the 
Department has, that coming here would detract from the work of 
the Commerce Department is just the opposite, in my opinion. 
Not showing up makes our markup, makes our writing of the bill 
much more difficult.
    Secondly, repetition of what I said before, if anybody 
thinks that you can have a hearing with an agency as large, a 
department as large as the Commerce Department and not discuss 
other issues that are before us and that are pending, then you 
have never been on the Appropriations Committee. And I am not 
suggesting anyone said that, but that is part of what was said 
in the letter that the Secretary sent to us.
    So we are going to recess the committee, subject to the 
call of the chair, with the hope that the Secretary understands 
that this is not about making his life miserable. This is about 
making sure we have a good department, we have good programs 
that all the agencies within that department are taking care 
of, and, yes, that there is a fair and accurate census count.
    And so with that we will recess, subject to the call of the 
chair.
    [Clerk's note. The Department did not respond with answers 
to submitted questions in time for inclusion in the record.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                         Thursday, April 4, 2019.  

                    FEDERAL BUREAU OF INVESTIGATION

                                WITNESS

CHRISTOPHER WRAY, DIRECTOR, FEDERAL BUREAU OF INVESTIGATION
    Mr. Serrano. The subcommittee will come to order.
    Good morning, everyone, and welcome to a hearing to which 
the appropriate official shows up. An inside joke.
    This morning, we welcome the Director of the Federal Bureau 
of Investigation, Christopher Wray, in his first appearance 
before the subcommittee to discuss the FBI's fiscal 2020 budget 
request and related issues.
    Much of your budget falls on the defense side of the 
ledger, but the President's efforts to increase defense 
spending do not seem to include your critical agency. Your 
fiscal year 2020 salaries and expenses request is only $65 
million above last year and includes some targeted investments, 
such as an additional $70 million for cyber threats, $18.3 
million for counterintelligence operations, and $4.2 million 
for the NICS; however, this increase is not enough to cover 
your new and continuing program course without some significant 
efficiencies in cost-cutting. We hope to learn how you plan to 
make ends meet.
    Director, you have testified before Congress on 
unprecedented threats from abroad and within, from cyber 
threats, espionage, and terrorism. The work of the FBI is 
extremely important in addressing these dangers, as well as 
white collar crime, foreign election interference, civil rights 
violations, including voting rights, and color of law 
violations, and much, much more. You also run our Nation's 
background check system, a vital oversight mechanism to ensure 
guns do not fall in the wrong hands.
    We also want to hear how the FBI is applying lessons from 
the financial crisis 10 years ago to target the type of white 
collar and institutional criminal activity that led to that 
economic disaster, and help keep history from repeating itself.
    And at a time when many communities suffer from rifts in 
trust with their law enforcement institutions, we would like to 
know how the FBI is taking steps, both in its own culture and 
operations, and in working with law enforcement partners 
nationwide to help bridge such gaps.
    It is extremely important that you have the resources 
necessary to enforce the law in all of these diverse areas 
without having to choose one at the expense of another.
    I have long been concerned about our overemphasis on 
pursuing so-called ``Islamic terrorism'' at the expense of 
important FBI missions like civil rights investigations and 
white collar crime. My concerns have grown along with the rise 
of white nationalist extremism. White supremacist terror 
attacks in Pittsburgh, Charlottesville, and Charleston have 
made headlines, and statistics show such attacks are on the 
rise; yet your budget request does not mention them. I realize 
the President minimizes this threat, but you should not, and I 
hope you can tell us more today about your work on areas 
outside of international terrorism.
    Speaking of the President, I do not think that we can hold 
this hearing without addressing Mr. Trump's persistent attacks 
on your agency. The FBI has not faced this level of political 
threat since Watergate. No one on this committee confuses 
honesty--and I mean no one on this committee confuses honest 
criticism of your agency, which is healthy and necessary, with 
insidious attacks on the reputation of the FBI workforce. These 
are poorly disguised efforts to undercut the legitimacy of an 
agency that must be free to enforce the law and the 
Constitution fairly, and without regard to politics of persons. 
It is deeply worrisome with the variety of important missions 
you have the President continues to focus on settling personal 
scores.
    To add injury to insult, the FBI faced its longest lapse in 
appropriations in history, compelling you to tell your 36,000 
employees that you were, quote, ``about as angry as I have been 
in a long time,'' end of quote. I can assure you, Director, 
every member of this committee on both sides shares your 
feelings.
    I hope to hear today how the shutdown affected your 
operations and why the FBI and our whole criminal justice 
system should not be held hostage again.
    Mr. Serrano. With that, let me turn to my ranking member, 
Mr. Aderholt, for his opening comments.
    Mr. Aderholt. Thank you, Mr. Chairman. And I too would like 
to welcome Director Wray to the Commerce, Justice, Science 
Subcommittee today for testifying for the fiscal year 2020 
budget request.
    Director Wray, as you well know as the Nation's premier law 
enforcement and intelligence agency, you are charged with 
combating terrorism, transnational organized crime, gang 
violence, and the foreign adversaries targeting our military, 
technology, and economic institutions, just to name a few 
facets of your diverse mission. Yet while these threats are not 
new, the means by which criminal actors implement them are 
always changing.
    Today, the FBI is increasingly fighting crime by leveraging 
big data analytics and employing data exploitation measures. 
This morning we look forward to hearing more about how the FBI 
is working to stay ahead of various developments in technology, 
as criminal actors abuse new technology to advance their 
lawless operations.
    I appreciate your efforts to identify and close strategic 
gaps, and the multi-year planning approach outlined in your 
budget, as well as your efforts to leverage the reach, 
expertise, and resources of your numerous intelligence 
community and law enforcement partners in the midst of an ever-
changing threat environment.
    Finally, as always, central to the FBI's success are the 
superb individuals that support the agency and its mission. We 
are all very deeply grateful for the dedicated patriots of the 
FBI who persist in their efforts to bravely respond to the 
domestic and the foreign threats facing the U.S., and who 
faithfully endeavor to preserve the civil liberties of all 
Americans while doing so.
    So, Mr. Chairman, thank you for holding this hearing this 
morning. Thank you, Director, for being here. And I yield back.
    Mr. Serrano. Thank you, Mr. Aderholt.
    Mr. Director, it is your turn now. We wish you could keep 
it to 5 minutes, but we give you our word that your full 
statement will be included in the record, and the 5 minutes is 
so that these great people alongside of me can ask you 
questions.
    Thank you.
    Mr. Wray. Thank you. Good morning, Mr. Chairman, Ranking 
Member Aderholt, members of the Subcommittee. I am honored to 
be here today representing the men and women of the FBI. It is 
our people, 37,000 of them, who are really the heart of the 
Bureau, and I am proud of their service, of their commitment to 
our mission. Every day I see them tackling their jobs with 
integrity, with perseverance, with professionalism.
    And I should say that I have now had the chance to visit 
all 56 of our FBI field offices all over the country over my 
first year and a half on the job. That means I visited the home 
states of every member of this Subcommittee, not only meeting 
with FBI employees in all those places, but also talking in 
each instance with state and local law enforcement partners in 
those communities, and with other members of the community 
about the issues that matter most to them. And I am grateful 
for the support and insight of those partners as we work 
together to keep 325 million American people safe and to make 
our communities even stronger.
    I want to thank this Subcommittee for the funding you have 
provided us in the past. The reality is, without your support, 
we wouldn't be able to do the important work we do. I have 
included details about our 2020 budget request in my written 
statement for the record and I am happy to address your 
questions about that request, of course, but I also want to 
touch, Mr. Chairman, on the wide array of threats that we face 
as Americans, including the terrorist threat from home-grown 
violent extremists, domestic terrorists, and foreign terrorist 
organizations; hostile foreign intelligence services actively 
seeking our state and military secrets, our trade secrets, our 
innovation, and our ideas; the scourge of gang violence and 
other violent crime, complex frauds, and transnational 
organized crime; crimes against children, human trafficking, 
and the opioid epidemic; and the list goes on and on.
    And increasingly these threats and others are cyber-based, 
and the more we shift to the Internet as the conduit and the 
repository for everything that we use and share and manage, the 
more we need the best tools and the most creative ways to 
combat this cross-cutting and growing dimension of the threat, 
which leads me naturally to the problem that is known 
throughout the law enforcement community as going dark.
    It is by now patently clear that those who would do all of 
us harm--criminals, terrorists, hackers, and spies--are 
exploiting encryption and other methods to hide their 
communications and their crimes. And, in a world of apps and 
smartphones, we continue to face hurdles in getting evidence 
that we have the legal authority to get in a timely manner.
    Let me be clear, we all recognize the important benefits of 
strong methods of encryption. Cyber security is, after all, an 
important part of our mission at the FBI, but it just cannot be 
an acceptable end state for companies to carve out, even 
unintentionally, an entire unfettered space for rogue actors, 
terrorists, and criminals to hide and do horrible things to 
innocent people.
    This country is home to a world-class technology sector and 
I believe that sector can and should work with us in pressing 
forward together to find solutions.
    We cannot afford to be complacent. We have got to stay 
ahead of the evolving terrorist, counterintelligence, and 
criminal threats, which includes things like enhancing our 
technical and analytical capabilities related to counter-
terrorism vetting; enhancing our cyber and foreign intelligence 
capabilities; enhancing our targeting and disruption of the 
financial and Darknet networks used by transnational organized 
crime groups; increasing our capacity to perform criminal 
background checks; and improving our ability to render safe a 
weapon of mass destruction.
    These threats are all ever changing and we have got to get 
even more agile and more predictive. We have got to keep pace 
with technology, we have got to help our law enforcement 
partners in your districts, all across the country, and 
partners all around the world, and we can't do any of that 
without your support.
    The threats that we face as a nation have never been 
greater and the expectations on the men and women of the FBI 
have never been higher, but I see those men and women every day 
meeting and exceeding those expectations. So, thank you for 
this opportunity to discuss their work, and I look forward to 
answering your questions.

                            BUDGET SHORTFALL

    Mr. Serrano. Thank you. Five minutes, incredible. Thank 
you.
    Let me first just make a comment. In our conversation prior 
to your appearance here, you told me that you had reinstituted 
or expanded on visits to different places, and conversations 
with new agents and current agents to remind them what happens 
when government does not treat its people fairly, its citizens 
fairly, and including visiting the Holocaust museum. So I want 
to commend you for that, because I think that that is something 
that shows what the FBI should be thinking about as it fights 
the fights that it has to fight and it can't be won at the 
expense of our rights; it has to be a combination and a 
balance, and so I appreciate that.
    You are requesting a total of $9.925 billion in salaries 
and expenses, which includes six program enhancements and 
additional positions. However, the $65 million you requested 
over the fiscal year 2019 appropriations is not enough to cover 
the full costs of the requested enhancements, let alone cover 
necessary adjustments to base, and you propose to rescind an 
additional $60 million in balances on top of that.
    What kinds of efficiencies could the FBI achieve that would 
permit it to cover this current services shortfall you face?
    Mr. Wray. Well, Mr. Chairman, I appreciate the question. 
Certainly, we try to be careful stewards of the taxpayers' 
money in lots of ways and we are always looking for 
efficiencies.
    I should say, which is an important clarification, that the 
fiscal year 2020 budget request was, as I understand it, 
assembled before the ultimate 2019 Appropriation that we 
received from the Congress, which means that it was not built 
off of the 2019 budget, but rather the 2019 CR, and that has 
the perverse effect of making it actually $200 million short. 
So there is a gap there.
    We are obviously very grateful for the 2019 Appropriation 
that this Subcommittee helped secure, which includes some very 
important increases for the FBI, and anything this Subcommittee 
could help us do to close the gap that I just referred to would 
be very much appreciated, and I can assure you we would put 
those resources to good use.
    Mr. Serrano. Thank you. And, without telling you anything I 
am not supposed to tell you at this point, you have people on 
both sides of this committee that want to be helpful and have 
you do the job that you need to do.

                              HATE CRIMES

    The 2017 FBI hate crime statistics published last November 
showed that hate crime incidents increased 17 percent over 
2016, a deplorable third straight year such crimes increased. 
This increase has been linked by some researchers, especially 
in late 2016, with the impact of Russian social media 
manipulation aimed at fomenting racial division in the U.S. 
While 2018 statistics have not been released, what is the FBI 
observing particularly in light of recent violent hate crimes 
in the past several years that have grown from isolated events 
to mass violence?
    Mr. Wray. Well, Mr. Chairman, like you, we are determined 
not to tolerate hate-fueled violence in our communities and we 
are going to aggressively investigate those cases. It is true 
that we have seen an increase in the reporting of hate crimes 
and the FBI's own number of hate crime cases have increased. It 
is not clear whether the increase is due to the number of 
agencies that are now reporting who weren't before. The FBI is 
doing a lot to raise awareness in the community, so that there 
will be more reporting. So I think it is a good thing that 
there is more reporting, but certainly we are concerned.
    We have brought a number of hate crime cases recently, 
including just last week, actually. We secured the 29-count 
hate crime guilty plea from an individual connected with the 
Charlottesville incident, for example. And, not that long 
before that, we had eight defendants charged during the Rise 
Above movement with rioting charges for the violence that they 
had caused during various rallies.
    So we have got quite a number of cases that we are pursuing 
at the moment. We are using every tool at our disposal, whether 
it is hate crimes charges, gun charges, explosives charges, or 
as in the example of the Rise Above movement charges we 
brought, we are trying to be creative in looking at other 
charges that might be available to us like the Federal rioting 
statute.
    Mr. Serrano. Thank you.
    What resources does the FBI need to deal with these issues 
within the Civil Rights Division and your partners in state and 
local law enforcement in combating the increase in hate crimes?
    Mr. Wray. Well, certainly we are stretched thin, there is 
no question about it. We try to tackle this kind of activity 
both through our criminal programs in the Civil Rights side as 
hate crimes, and then in other instances we are also using our 
counter-terrorism resources, pursuing them through the JTTFs on 
the domestic terrorism side.
    And so the more resources we have available to us in terms 
of agents and personnel and tools, because of the avalanche of 
data that Ranking Member Aderholt referred to, for example, the 
more effective we can be in fighting this problem.
    Mr. Serrano. Thank you.
    I suspect we are going to have a vote sometime during this 
hearing, so I will move it along so that we can get in as many 
questions as possible from as many members as possible.

                     REGIONAL COMPUTER FORENSIC LAB

    Mr. Aderholt.
    Mr. Aderholt. Thank you.
    I was very pleased to be involved in the probes process 
even in a small way as the Regional Computer Forensic Lab was 
created in Huntsville, Alabama, and excited to hear the FBI 
will be expanding its footprint in the Huntsville area with 
even more infrastructure for technology-focused training and 
other critical programs.
    What I would want to pose to you is, could you tell us here 
this morning about the importance of the Regional Computer 
Forensic Lab and explain the benefits to the states and the 
localities?
    Mr. Wray. Thank you for the question, it is an important 
topic, increasingly important. The reality is that criminals of 
all shapes and sizes, virtually in every instance now, are 
using one, if not multiple electronic devices, which means that 
in basically every kind of case the FBI or our state and local 
law enforcement partners handle there is going to be digital 
evidence. And where the RCFLs, the Regional Computer Forensics 
Labs, fit in is it basically becomes one-stop shopping for 
state and local law enforcement working together with the FBI 
to be able to do forensic exploitation of that digital evidence 
through properly certified and trained personnel. So there is a 
training dimension, but more importantly there is an ability to 
get through and forensically exploit the evidence that is 
critical to pretty much solving every kind of crime there is 
out there.
    And there was not--until the recent RCFL in Huntsville, 
there was not an RCFL in that region of the country. So it is 
not just good for Alabama, it is good for the whole region, and 
it is particularly helpful to our state and local partners who 
without it would be really high and dry.
    Mr. Aderholt. What other activities are you planning as the 
FBI to relocate into that area?
    Mr. Wray. Well, we are focusing on expanding on the data 
analytics side and we are ultimately expecting it could be as 
many as about 3,000 FBI employees there at Redstone Arsenal.
    We have of course been in Huntsville since back in the 
early '70s when we stood up our Hazardous Device School, which 
is the place that trains all state, local, and Federal civilian 
bomb techs all over the country. We then added in the last 
decade TEDAC, which is the place that forensically examines 
terrorist explosive devices. So when IEDs get picked up on the 
battlefield, they are exploited there at that lab.
    We have added things like the Ballistics Research Facility. 
There is of course a thriving cleared defense contractor 
community down there. So we now have something called the 
National Defense Cyber Alliance, which is a place where we work 
with other cleared defense contractors and Intelligence 
Community partners to exploit cyber threat intelligence.
    So I think we are really excited about the prospects and 
building on the momentum that, as I said, started in the early 
'70s, but is really kicking into high gear over the last year 
or so.

                            OPIOID EPIDEMIC

    Mr. Aderholt. You highlighted in your written testimony 
that the FBI is doing some extraordinary work disrupting opioid 
trafficking networks on the dark net. What are some of the key 
investments you would make with an additional $18 million you 
requested to enhance your transnational organized crime 
efforts, including the J-CODE initiative?
    Mr. Wray. So, needless to say, the opioid epidemic is 
something that exceeds the bandwidth of any Federal agency and 
it is a problem that faces the entire country. We are trying to 
do our part and that is where our budget request and whatever 
resources Congress can send our way would be extremely helpful 
through our specific contribution.
    So, first, the Darknet; increasingly there is opioid 
trafficking on the Darknet. We stood up an initiative a while 
ago called J-CODE, which focuses on elicit opioid trafficking 
and other kinds of trafficking on the Darknet. That was largely 
done with a very small investment and it is already having a 
very significant impact. And that is clearly where the threat 
is moving, so that would be a place where the personnel and 
technological investments that we have requested, those kinds 
of things could help drive it.
    There is the transnational organized crime piece, which is 
also reflected in our budget request. The supply, right now we 
are targeting that through our Transnational Organized Crime 
West Program, which really deals with the cartels and others 
who are supplying that pernicious substance. We also have a 
prescription drug initiative, which is very focused on going 
after medical professionals, because of course the opioid 
epidemic is heavily fueled by over and abusive prescribing, you 
know, pill mills and things like that, and we have gotten very 
aggressive there. And that relies heavily on data analytics 
there too, because we are looking at things like over-
prescribing patterns and there is an avalanche of data that 
comes there as well.
    And then, last, our Safe Streets Task Forces all over the 
country focus on what I would call the distributors, the gangs, 
et cetera, that are pushing heroin and fentanyl-related 
substances in our streets.
    Mr. Aderholt. I see my time is up and I know we have a lot 
to get to, so I will yield back. Thank you.
    Mr. Serrano. Thank you.

                          RESOURCE REQUIREMENT

    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.
    And, Director Wray, I would like to continue the line of 
questioning of Mr. Aderholt and I want to make sure I 
understand. You have asked for $18 million additional, is that 
just for the Joint Criminal Opioid Dark Net Enforcement, or is 
it for all opioid, anti-opioid efforts?
    Mr. Wray. I think hang on a second, let me check with my 
CFO here.
    It is a broad request, not just for the J-CODE initiative.
    Mr. Cartwright. OK, fair enough. But you also just said 
``please send us whatever resources can be sent our way,'' and 
I was listening when you said that. What do you need? What do 
you guys need to do an effective job of addressing not only the 
dark net, but this horrible opioid crisis that is killing our 
young people and people of all ages in this country?
    Mr. Wray. Well, I think at the end of the day it comes down 
to people and technology and tools. Our budget request 
highlights some of the things that we thought were of the 
highest priority and highlights the nature of the problem. 
Certainly we, like Congress, try to balance the demands of our 
mission with trying to be good stewards of the taxpayers' 
resources.
    Mr. Cartwright. All right. I also want to ask you about the 
fiscal year 2020 request for 33 positions, including three 
special agents, and $70.5 million to enhance cyber information 
sharing abilities and increased cyber tools and capacities. It 
is the same question, Director Wray: is that enough or do you 
need more than that?
    Mr. Wray. Well, I can assure you, Congressman, that 
whatever resources you were to make available to us on the 
cyber mission could immediately be put to good use. The cyber 
threat has grown in its range of actors, from nation states to 
criminal hacktivist and global crime syndicates; the increase 
in range of attack methods, whether it's botnets, ransomware, 
DDoS attacks, et cetera; and the range of targets, from Fortune 
100 companies down to startups out in Silicon Valley has 
increased exponentially.
    So, make no mistake, it is a significant challenge and it 
exceeds the bandwidth that we have at the moment.
    Mr. Cartwright. All right. So when I think about 33 new 
positions, I am thinking programmers and really tech-savvy 
people to attack the cyber threat, but I am also wondering, do 
you not outsource a good deal of that to companies that 
specialize in cyber threats?
    Mr. Wray. Well, I wouldn't say we outsource exactly. We do 
partner with the private sector and of the 33 positions that we 
have asked for, I think 25 of them would be data analysts, 
which gets back to this theme that we have already discussed a 
little bit here about the importance of data analytics. Let me 
just put a little context around that, because I think it 
affects all the areas that we have asked about.

                        SIZE OF DIGITAL EVIDENCE

    The Las Vegas attacks, so let's take that outside of cyber 
for a minute, the mass shooting in Las Vegas, that one case, a 
big case to be sure--a tragic, horrible case--one petabyte of 
data. Now, one petabyte of data, if you are like me and not 
like my kids, you think petabyte, I don't know what petabyte 
is, but----
    Mr. Cartwright. More than a terabyte.
    Mr. Wray [continuing]. The entire digital library at the 
Library of Congress, the digital records of the entire Library 
of Congress has seven petabytes of data. So Las Vegas, one 
case, had about a sixth of the entire Library of Congress 
digital records. Just a few years ago, we were ingesting 
annually about half of what the Library of Congress digital 
records has annually. So, for us to keep up with it, we are 
having to do things right now, like in Las Vegas and in Boston, 
where we have had to take the digital evidence and fly it clear 
across the country to Quantico, whereas if we could have more 
of the resources that we are asking for it would enable us to 
be more forward-deployed in terms of marshaling some of this 
information. So that is an example.

                      UNIVERSAL BACKGROUND CHECKS

    Mr. Cartwright. My final question is about HRA. We just 
passed a bill for universal background checks with a list of 
specific sensible exceptions. The question is, would a 
universal background check requirement be helpful to law 
enforcement in preventing and/or solving violent crime 
involving firearms?
    Mr. Wray. Well, certainly, the more information we have, 
the more effective we can be. There are other considerations. I 
would have to look closely at the legislation, which I have not 
done, to be able to review it and give you a more meaningful 
answer.
    Mr. Cartwright. I would urge to do that and maybe we will 
work together.
    Mr. Wray. Thank you.
    Mr. Cartwright. Thank you, Director.
    And I yield back.
    Mr. Serrano. Thank you.
    Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman.
    Director, good to have you. Thank you for your work, thank 
you for the Bureau's work. I know it is a tremendous task each 
and every one of you deal with each day. And it is good to have 
Georgian with us as well today.

                                 CYBER

    Just following up on cyber, that is one of my main focuses 
and lanes that I stay in, and you have noted it is a big part 
of your testimony as well that the private sector faces ever-
increasing threats each and every day.
    So, while you are working with the private sector, is it 
safe to say that when you are investigating these cyber attacks 
you are engaging the private sector and you are relying on them 
to cooperate with the investigation or to help gather 
information or to help with attribution, is the private sector 
involved in that way as well?
    Mr. Wray. Yes. I think in the cyber arena, probably more 
than maybe any other of the threat areas we contend with, the 
partnership that needs to exist and does exist between the FBI 
and the private sector is incredibly important. The reality is 
that the most effective defense against cyber threats is 
prevention and increasingly mitigation, right? In other words, 
as soon as there has been an intrusion, detecting it quickly 
and getting rid of it quickly, and that requires that 
collaboration.
    There are a lot of things that we do in terms of providing 
so-called TTPs to the private sector, you know, providing 
information about different things that we are seeing, getting 
information from them about what they are seeing, forging 
relationships through a variety of programs, formal and 
informal, that we have so that we can have that bond. You know, 
there is a saying that the best time to patch the roof is when 
the sun is shining, and that is the approach we are trying to 
take with the private sector in that space.
    Mr. Graves. You acknowledge that the FBI, you know, limited 
resources, you focus primarily on the high-level intrusions and 
state-sponsored attacks. So, the private sector that doesn't 
meet that threshold, what tools, what resources do they have to 
help stop and prevent attacks or address attacks, what do you 
recommend there? I feel like we are a little short.
    Mr. Wray. Well, there is a swath--I think you have picked 
up on a very important point, which is in some ways where some 
things like this RCFL that we were talking about with 
Congressman Aderholt is so important--there is a swath of 
cyber-enabled criminal activity that is affecting businesses 
that is essentially below the level of the most sophisticated 
stuff that the Feds typically take on, but above the level that 
currently is in the range of most state and local law 
enforcement. Where these RCFLs fit in, as just one of many 
tools that we have, is that it is providing resources and 
capabilities to state and local law enforcement to sort of move 
up market, if you will, in terms of the kinds of things they 
can reach. It is also--you know, the old saying about teach a 
man to fish, we are training them at the same time, which then 
makes them even more effective and they can train others in 
their departments.
    So, in the long term, I think that will help us capture 
that gap that you are alluding to.
    Mr. Graves. You may be aware, I have been promoting a 
concept of active cyber defense, allowing the private sector to 
engage outside of their network to prevent an attack. And, you 
know, the Cyber Fraud and Abuse Act hasn't been updated in 
decades and I feel like the private sector is limited in what 
they can do. I would love a commitment from you to be able just 
to work with your team, your staff, to walk through some of the 
challenges, maybe walk through the policy I have proposed and 
how we might be able to enable the private sector to have a few 
more tools at their disposal, instead of a passive approach and 
additional defenses, maybe being able to actively defend their 
network. If I could just work with your team on that a little 
bit, I would appreciate that.
    Mr. Wray. We would be happy to work with you and take a 
look at any ideas you have. I do think that over the next 10 
years the partnership that is going to have to exist between 
law enforcement and the Intelligence Community and the private 
sector, in the cyber arena in particular, is going to be a 
significant paradigm shift, because otherwise we are not going 
to be able to stay ahead of the threat.
    Mr. Graves. Right, ever-increasing threats and successful 
attempts every day.

                            FBI HEADQUARTERS

    One final question, Mr. Chairman. As the Republican leader 
of the Financial Services Committee, there has been this issue 
developed over the years and a lot of controversy about the 
location of the FBI headquarters, can you bring a little 
clarity to us? We had a lot of debate with GSA just a few weeks 
ago about this, but our understanding is that the Bureau 
believes that the best approach to meeting the demands of the 
Bureau is to rebuild at the current location and site, is that 
correct?
    Mr. Wray. Yes. This is obviously an important issue to the 
men and women of the FBI, as well as to the American public.
    A little context, you know, I worked in the FBI building a 
lot on 9/11 and in the years after 9/11. The building was in 
bad shape then, and I can assure you it hasn't gotten better 
since then. When I came into this job, the previous project had 
already been canceled, so I wasn't involved in that part of it. 
So I came into it with a blank slate and we took a very long, 
careful, thorough look, and it is the FBI's view that the best 
balance of equities for the men and women of the FBI is to be 
here downtown, ideally in our current location. Building a new 
building--not trying to renovate the old one, but building a 
new building in that location gives us the ability to both have 
a Level 5 security facility to significantly grow the number of 
people we can have there, but also--and this is incredibly 
important--also make sure that our folks are within close 
proximity for the hundreds and hundreds of meetings that they 
have every day with their partners all within about a mile and 
a half of our current location, starting with, of course, 
across the street at the main Justice building. And so the 
ability to do that is something that we think is important.
    I think that is the best choice for the American people as 
well, thousands of whom visit the FBI building every day to see 
the FBI experience tour, and that is an important part of the 
transparency that I think needs to exist between the FBI and 
the taxpayer and the American public.
    Mr. Graves. To be clear, the decision was based on what is 
best for the Bureau, the security of our country, and not 
because of political pressure?
    Mr. Wray. Correct.
    Mr. Graves. Thank you.
    Mr. Serrano. Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman. Director, thank you for 
being with us today, it is a pleasure to have you here.
    I am curious. You are under the Department of Justice, 
right?
    Mr. Wray. Yes, the FBI is part of the Justice Department.

                             MUELLER REPORT

    Mr. Crist. Great. Have you had an occasion to read the 
Mueller report?
    Mr. Wray. I have not.

                            FBI HEADQUARTERS

    Mr. Crist. Let me get back to a little bit of what my 
colleague was just asking you about, because I sit on another 
Appropriations subcommittee that has some overlap with regard 
to your headquarters at the FBI.
    There was some consternation around exactly the GSA and the 
FBI had become--or had come, rather, to abandon a decade-old 
plan to build a suburban, centralized campus in favor of a more 
expensive plan, as you said, to knock down the current site and 
rebuild a smaller building there on Pennsylvania Avenue.
    Now, the GSA leader, Emily Murphy--you may know her, I 
don't know, but in her opening statement before the other 
committee she stated, ``I want to be clear, the FBI made the 
decision to propose remaining at its current location. I wish 
the FBI were here with me today to explain their reasoning for 
having done so, but there was a new FBI Director,'' which I 
assume was you, ``who joined the agency in August of 2017. And 
I don't find it at all surprising that a new leader coming into 
an agency would want to take a step back and look at the very 
best way to address the needs that he assessed for the 
agency.'' She is talking about you, I assume?
    Mr. Wray. I assume so as well.
    Mr. Crist. Great. You just addressed a little bit about, 
you know, what--was that ultimately your decision to abandon 
the prior idea of going to a campus location and stay downtown?
    Mr. Wray. It is absolutely the FBI's view, the FBI's 
choice, the FBI's preference to build a new building--a bigger 
building, not a smaller building--at our current location, 
which would allow us to, as I said, improve security, build a 
state-of-the-art facility, add the number of people in terms of 
consolidating our footprint, and be more accessible or remain 
accessible to all of our partners and to the public.
    Mr. Crist. Was it in fact contemplated that the campus 
location is something that had been embraced by your 
predecessors, or is that not the case?
    Mr. Wray. I can't speak for my predecessors. I know that 
when I came in and I asked the question, tell me why we are not 
building a building here in this location, it appeared to me 
that people had thought that that was not an option that was 
available to us. So I don't know that, given the choice, my 
predecessors wouldn't have made exactly the same choice that I 
am making.
    Mr. Crist. OK. Thank you, Director.
    I yield back.
    Mr. Serrano. Mrs. Roby.
    Mrs. Roby. Thank you, Mr. Chairman. And thank you, Director 
Wray, for being here this morning.

                         CRIMES AGAINST CHIDREN

    And I echo the sentiments of my colleague from Alabama 
about the ever-expanding footprint that the FBI has in Alabama, 
and so we are grateful for those efforts and want to continue 
to be a partner in that. But I want to spend my time talking 
about the almost two pages in your written testimony that are 
specific to crimes against children, child exploitation, and 
sex and human trafficking.
    I have been working with the Department of Justice in my 
other role on the Judiciary Committee to look at ways that we 
can enhance our laws. Unfortunately, we had a package of bills 
that moved by voice vote here in the House and failed in the 
Senate at the end of the last Congress. And I was very 
disappointed in that, because I felt like this was providing 
you, law enforcement, with even greater tools to go after these 
horrible predators who are seeking to do harm against children.
    So I wanted to give you an opportunity, since you only had 
5 minutes to give us a summary of your testimony. Again, this 
is important to all of us on this committee, this is important 
to this legislative body to make sure that we are doing all 
that we can to eradicate modern-day slavery and particularly 
crimes against children. So I want to know as a policymaker, as 
an appropriator, as a member of the Judiciary Committee as 
well, number one, give us--it is in your testimony, I 
understand, but give us a recap on your efforts to work with 
law enforcement across this country to eradicate these horrific 
crimes, but also give us suggestions as to how we can be more 
helpful in assuring that you have every tool necessary to help 
eradicate this.
    Mr. Wray. Well, thank you for the question. This is a topic 
that is not only a high priority for the FBI, but it is 
something that is near and dear to my heart personally. One of 
the few pro bono projects that I was pushing in private 
practice at the time that I was nominated for this position was 
to try to look for ways, which I don't think has historically 
been done much in the private sector, to help the victims of 
human trafficking.
    The FBI tackles this problem through multiple programs, 
multiple weapons that we bring to bear. We have our VCAC 
Program, our Violent Crimes Against Children Program, is the 
program that kind of manages the effort primarily. We have 81 
Child Exploitation Task Forces around the country where we work 
with state and local law enforcement and other folks; we have 
18 human trafficking task forces on top of those.
    And it is important, I think, for people to understand that 
it is not just immigrant victims, you know, the majority of 
human trafficking victims in this country are actually U.S. 
citizens. And I think your use of the word slavery is spot-on. 
I mean, frankly, I struggle for words to capture how horrific 
this is. I mean, it is downright medieval in 2019 that activity 
like this can happen. And barely a week goes by where I am not 
hearing about our successes in taking down some sex 
trafficking, typically child sex trafficking network, where we 
are recovering--you know, I think the number of kids that we 
rescued and recovered last year I think was well over a 
hundred. And some of these kids are just horrifyingly young.
    It is not something that the FBI does alone. We do it with 
Federal partners, we do it with state and local law 
enforcement. We rely heavily on our Victim Services Division, 
because there is obviously a huge victim impact dimension to 
this. So we try to work on how we can position these folks, 
especially the kids, to have at least some semblance of a 
normal life after this is all over and done with; we try to 
work with social services providers.
    So I think it starts with the Congress and Members like 
yourself kind of raising awareness, and then using all the 
different tools that we have asked for in our 2020 request in 
some way end up touching on this. The data analytics piece, the 
transnational organized crime piece, all those things tie in, 
among other things, to the human trafficking piece as well.
    Mrs. Roby. From a resource/budgetary standpoint, do you 
feel as though you have the resources that you need in order to 
carry out these programs?
    Mr. Wray. Well, I would say I am very proud of the hard 
work that our folks are doing and the successes we are 
accomplishing with our partners, but there is also no question 
in my mind that if Congress were to send more resources our way 
to deal with this problem those people would be busy 
immediately.
    Mrs. Roby. OK. Thank you for your service to our country, 
and your family as well, we very much appreciate that.
    Mr. Chairman, I yield back.
    Mr. Serrano. Thank you.
    Ms. Meng.

                            HATE CRIMES DATA

    Ms. Meng. Thank you, Mr. Chairman. And thank you, Director, 
for being here and for your service to our country.
    I wanted to ask about the under-reporting by local law 
enforcement of hate crimes; it remains a major problem. 
According to ProPublica's Documenting Hate Project, thousands 
of local law enforcement agencies choose not to report hate 
crime stats to the FBI at all. And a separate investigation 
revealed that 120 Federal agencies have not complied with 
mandates to submit hate crime data to the FBI, and also reports 
that the FBI itself does not regularly submit hate crimes it 
investigates to its own database.
    I just wanted to know what is the FBI doing to improve the 
situation, to bring not only local law enforcement agencies, 
but also Federal agencies and FBI itself, into compliance for 
reporting hate crimes.
    Mr. Wray. Well, first, I would say you are correct that 
there has historically been under-reporting of hate crimes 
throughout this country. That is the bad news. The good news is 
that there has been a very positive upward trend in terms of 
the number of agencies that are reporting. We are still not 
where we need to be in terms of getting our arms fully around 
the scope and extent of the problem, but it is definitely 
moving in the right direction, and I think the statistics 
reflect that.
    We at the FBI are trying to do a number of things from a 
sort of outreach perspective, working with partners to try to 
raise awareness and help our partners understand why it is in 
everybody's interest for the information to be reported.
    For the most part, crime statistics, whether it is hate 
crimes or other types of crimes, you know, our pitch to the law 
enforcement community is we are all better off if we have the 
actual data and the actual facts. Otherwise, what happens is 
people start trying to analyze the issue based only on media 
reporting, which is not necessarily reliable.
    So, good or bad, we think it is in the best interests of 
the profession, and therefore the country, to have complete and 
accurate data, and so we are committed to trying to ensure 
that.

                       HATE CRIMES UNDERREPORTING

    Ms. Meng. I appreciate efforts for increased outreach and 
raising awareness, I think that is great.
    I also wanted to ask about under-reporting specifically by 
certain more marginalized or under-represented communities; 
immigrant communities, people with disabilities, Arab 
Americans, South Asian Americans, people who might not speak 
English proficiently, many of these communities don't report, 
they can't report, or they don't feel safe reporting. How is 
the FBI engaging or doing outreach with these communities? And 
we work together in my district to have seminars and workshops 
with the FBI, for example.
    And also with the rise of immigration enforcement 
activities, how is the FBI countering the fear that some of 
these victims might have and still encouraging them to report 
their crimes?
    Mr. Wray. Well, certainly I believe very strongly, and I 
think most people in the FBI believe very strongly, that the 
better we know all of our communities and the better they know 
us, the better we can protect them and uphold the Constitution. 
And there are all shapes and sizes, some formal, some informal, 
of community engagement with all the communities we serve. And 
I say that now with the benefit of having been to all 56 field 
offices and in the vast majority of them met not just with 
state and local law enforcement partners, but also with 
community leaders.
    So I have gotten feedback directly from community leaders 
from all different corners of the country, and the feedback I 
get there is that they appreciate the engagement that our 
offices are doing. We are always looking for new and better 
ways to do that, we are never satisfied, but I think we are 
moving in the right direction. And we are doing things like our 
FBI Citizens Academy, where we will often include people from a 
wide variety of backgrounds and communities within the broader 
community, and those folks then stay involved and then help 
recruit and bring more people in. And they get to understand 
the FBI and law enforcement in a way that is I think very 
helpful, increasing the likelihood that when they are the 
victim of a crime they are going to reach out and say so, 
because there is a greater level of trust. I think that is the 
goal.
    Ms. Meng. Thank you.
    I yield back.
    Mr. Serrano. Thank you.
    I am going to start a second round now. The members know 
that there will be votes, the votes will take about an hour. So 
probably whatever we can do now will be the end of the hearing, 
but we will stay in touch with you along the way to make sure 
that we get things done.

                           VIOLENT EXTREMISM

    So, with that in mind, let me not make my opening statement 
to this question and get to the question. How would you 
describe the danger to public safety that is posed by white 
supremacist extremism? Is it changing in its qualities or in 
the kinds of resources that the FBI and other law enforcement 
agencies need to respond?
    And secondly, the second part to that question, your budget 
request does not mention white supremacist extremism at all. 
How much funding and how many employees are dedicated to 
investigating white nationalist and white supremacist 
extremists in your fiscal year 2020 budget?
    So what is the danger to the country and what do you need 
to fight it?
    Mr. Wray. Well, the danger, I think, of white supremacist 
violent extremism, or any other kind of violent extremism, is 
of course significant. We assess that it is a persistent, 
pervasive threat. We tackle it both through our Joint Terrorism 
Task Forces on the domestic terrorism side, as well as through 
our Civil Rights program on the criminal side through hate 
crime enforcement.
    I think as to whether I would see any significant 
difference or trend there, or whether it is changing, I think I 
would say in general domestic terrorism in this country has 
changed in the sense that it is less structured, less 
organized, fewer groups, more uncoordinated one-off 
individuals, as opposed to some structured hierarchy, and that 
presents its own share of challenges. But certainly we tackle 
it through agents, analysts, professional staff, and 
technology, because there is a lot of social media exploitation 
that comes with it.
    So, again, it comes back to this theme of data analytics 
and the volume of data that we talked about before.

                            FBI RECRUITMENT

    Mr. Serrano. Let me just ask you about recruitment. The FBI 
has always attracted talented young persons to its national 
security and law enforcement missions, but it is now finding it 
more difficult to compete with industry, particularly when it 
comes to technology skills. As a result, the FBI, like many 
Federal agencies, is trying to train current employees to fill 
such positions.
    What is the current skill gap the FBI faces in this regard, 
both in terms of categories of positions and numbers of such 
personnel, and what is the FBI doing to close it?
    Mr. Wray. Well, certainly we are trying to be more focused 
on recruiting employees with STEM backgrounds, for example. We 
have a variety of programs where we start reaching out to kids, 
you know, at a much younger age to get them interested in 
careers with the FBI. We have created positions like the data 
analyst and computer scientist positions.
    But you are correct, Mr. Chairman, that we are focusing 
very heavily on training, because the reality is, in this 
economy, that the sort of cyber whiz-kids that are out there 
are in short supply. Even Silicon Valley can't recruit enough 
of them and they have something else to offer that we don't 
have as much of.
    Mr. Serrano. Right.
    Mr. Wray. We have mission and we think we can compete on 
mission with anybody. But we think, if we are ultimately going 
to be where we need to be for the future, we are going to have 
to not only recruit more people with those backgrounds, but, 
frankly, raise the proficiency level throughout the workforce, 
because it is no longer just a case of a Cyber Division. As I 
said in my opening remarks, pretty much every threat area we 
have talked about here today has a cyber dimension to it or a 
digital evidence dimension to it.
    So we need to improve kind of the median proficiency 
throughout the FBI workforce, so that the really sophisticated 
nation state intrusions and things like that can be the focus 
of our sort of cyber black belts, if you will, and that is the 
approach we are taking.
    Mr. Serrano. Thank you, Mr. Director.
    Mr. Aderholt.

                       SEXUAL ASSAULT KIT BACKLOG

    Mr. Aderholt. Thank you, Mr. Chairman.
    I want to ask about sexual assault kits. The effort to 
address the backlog of sexual assault kits nationwide has led 
to tens of thousands of long-shelf kits being tested over the 
last several years. And while the analysis of sexual assault 
evidence seems primarily a state or a local law enforcement 
matter, I understand the FBI actually played a role in helping 
to ensure that these kits not go--don't go untested.
    My question would be is under what program is or was the 
FBI involved with the testing of these rape kits?
    Mr. Wray. So, Congressman, our FBI lab has been a very, 
very important partner with state and local law enforcement in 
trying to clear through this backlog of sexual assault kits, 
rape kits, and it is a very impressive operation. I have been 
down there and seen it firsthand, and I am very proud of their 
work. Not only is that clearing the backlog, but of course in 
many cases these are serial rapists who are out and about until 
the backlog was cleared.
    So this is having a real impact in a positive way on the 
safety of people all across the country.
    Mr. Aderholt. What has the testing of these volumes of 
these backlogged sexual assault kits have taught the FBI 
about--and other law enforcement about crime in general?
    Mr. Wray. Well, it certainly highlights something that we 
talk about all the time, which is the value of partnership 
between Federal, state and local law enforcement. It has also 
taught us a lot about the value of the forensic skill set that 
is required to address all of the criminal threats we have, and 
of course it has highlighted the importance of Rapid DNA in 
particular, which is a place that has become an indispensable 
tool in this country both for catching the guilty, but also for 
exonerating the innocent.

                               RAPID DNA

    Mr. Aderholt. I want to--I will quickly just move on. Rapid 
DNA, it is a term that is used to describe the fully automated 
process developing DNA profile from a cheek swab without a 
human intervention. Can you talk about the goal of the FBI's 
rapid DNA initiative?
    Mr. Wray. We are very excited about rapid DNA. Essentially, 
as you say, rapid DNA would allow for much, much faster and 
more agile and nimble DNA testing for the same kinds of results 
I was referring to just a second ago. We are trying to be very 
thoughtful about how we build up to this. Right now, we are 
moving in a direction where we are starting to use it in 
booking stations, in the more stable platform that that 
provides. Ultimately--but that's the key word, ultimately, we 
are not there yet. We want to be in a position where it can be 
used at crime scenes, but that is not where we are yet and that 
has got to be done very carefully, because we know there will 
be court challenges and other things. And we want to make sure 
that this very exciting, very promising technology to 
protecting the American people and upholding the Constitution 
is preserved and doesn't take a stumble by us starting out of 
the starting gate too quickly. But I know that in talking to my 
state and local law enforcement partners that we are all very 
excited about what this could mean for the profession and the 
country.
    Mr. Aderholt. Thank you.
    Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    Mr. Cartwright.
    Mr. Cartwright. Thank you, Mr. Chairman.

                     H.R. 1112 CHARLESTON LOOPHOLE

    Director Wray, you and I briefly touched on H.R. 8, and 
thank you for agreeing to work with me as you go through it and 
think about the ramifications on what that means for your 
agency. I also wanted to ask you about H.R. 1112, which is the 
closing the Charleston loophole bill. Same question, have you 
had a chance to review that and think about the ramifications 
for the FBI?
    Mr. Wray. I am afraid I have not had a chance to review 
that particular piece of legislation, but I would be happy for 
us to do that--view it, review it, that is.
    Mr. Cartwright. Let's go over that offline, shall we? But 
it struck me as odd. The Trump Administration has come out 
against both H.R. 8 and H.R. 1112, and obviously they did not 
ask you to review those things, otherwise you would have done 
it by today, I assume, with a view toward how that would affect 
FBI operations.

                               FBI MORALE

    Mr. Wray. Well, just to be clear, I am saying that I 
personally have not reviewed either of the pieces of 
legislation you are referring to. I don't know for sure whether 
somebody in the 37,000-person workforce that we have might have 
reviewed and provided an assessment of the operational impact.
    Mr. Cartwright. Well, they are not terribly long bills. And 
I understand you are a graduate of the Yale Law School and I 
understand that is an accredited law school at this point.
    Mr. Wray. The last time I checked, yes.
    Mr. Cartwright. Let's work together and maybe you can give 
some context yourself to the White House on whether it ought to 
be opposing those bills.
    I also wanted to talk about FBI morale and the reputation 
of the FBI. The FBI has seen really more than its fair share of 
negative press coverage over the past several years. The 
Administration has really gone to unprecedented lengths to 
criticize and undermine the FBI as an institution and several 
of its employees specifically. I am concerned about a potential 
political polarization of the FBI. We don't want to see that. 
The FBI works for all Americans and I know you understand that. 
And I know that the men and women of the FBI are resilient, 
professional, hard-working, and largely able to focus on their 
mission even while subjected to unfair criticism.
    Here is my question. What is your sense of the morale right 
now of the FBI and its employees in light of what I think are 
unfair attacks?
    Mr. Wray. Well, as you say, the men and women of the FBI 
are resilient, and I could give you story after story having 
gone now to all 56 offices and met with all of our employees in 
all those places. I would tell you that, while there are plenty 
of opinions out there about the FBI, the opinions that I 
encounter from our partners, Federal, state and local law 
enforcement, from prosecutors, from judges, from community 
groups, from private sector organizations, from the workforce 
that we are recruiting, has, frankly, been uniformly positive, 
in fact in a way that I think is a good measure of morale. Do 
you know that since October, we have had more people applying 
to be special agents of the FBI than all of the prior fiscal 
years. So that says, I think, good things about the morale.
    Mr. Cartwright. It would be a good leading indicator there. 
Well, good.
    Well, tell me, do you believe that public confidence in an 
agency is impacted when an elected official relentlessly 
attacks an agency and its members, and tries to undermine its 
credibility, do you think there is any effect of those things?

                             FBI EXPERIENCE

    Mr. Wray. You know, I don't think it is really my place to 
be weighing in or commenting on political speech and social 
media; those things have their place, I am focused on us 
getting the work done. I think that is what most of our folks 
are doing and the results I see there are not only strong, but 
improving all the time.
    Mr. Cartwright. I am certainly glad to hear that Director. 
And thank you for coming today and your testimony.
    I yield back, Mr. Chairman.
    Mr. Serrano. Thank you.
    Mr. Graves--and, by the way, before I go to Mr. Graves, I 
am glad you keep saying 56 places that you went to, because it 
has been my mantra that there are more than 50 states of the 
American flag.
    Thank you.
    Mr. Graves. Director, thank you again. No question, just I 
really want to commend you and your team, and particularly the 
personal attention that Mr. Halley gave to myself and others 
earlier this year, including my family as we came to visit 
headquarters and enjoy the new, I guess, tour that is 
available. And I must say, it is inspiring. If there is one 
thing that may be assisting with the new recruits or attention 
to wanting to join the Bureau, maybe that was it, because it 
was really inspiring as to the work and the history of the FBI 
and the challenges you face.
    But I just wanted to thank you and your team, and Mr. Haley 
in particular, for their attention to us. Thanks for joining us 
today.
    Mr. Wray. Thank you.
    Mr. Graves. I yield back.
    Mr. Serrano. Well, I guess it is me. We will use whatever 
time we have here for a second.

                FBI DIVERSITY AGENT RECRUITMENT PROGRAM

    The FBI has a Diversity Agent Recruitment Program; how does 
it work and what would you regard as a measure of success for 
that program?
    Mr. Wray. Well, Mr. Chairman, diversity is very important 
to me personally, and I think it is to the whole FBI. We view 
it as critical to our effectiveness, I think we make better 
decisions when we have a more diverse workforce; I think it is 
essential to our credibility. There have been a lot of 
questions today about the trust of the community and we need, 
in order to have that trust, to be credible with all the 
different communities we engage with, and I think it is about 
respect and treating everybody with respect.
    Our Diversity Agent Recruitment Program has a number of 
dimensions. We do a lot of social media exposure of what it is 
like to work at the FBI and we sort of prominently feature 
diverse employees to try to encourage greater application from 
that standpoint. We have Diversity Agent Recruitment events all 
across the country. I have gone and spoken at well over, I 
think about a half dozen of them myself to set the tone. And 
where we bring in people from, you know, historically African-
American colleges and things like that, community groups, et 
cetera, to try to get people interested in careers with the 
FBI, and there is a whole sort of job fair dimension to that.
    Mr. Serrano. Well, I wanted to ask you----
    Mr. Wray. And the results are actually quite encouraging. 
The last couple years, we have seen----
    Mr. Serrano. Excuse me, I wanted to ask you about that, 
because I want it to be clear that you do participate in job 
fairs the way so many other people do.
    Mr. Wray. Well, these are sort of our own----
    Mr. Serrano. Your own job fairs----
    Mr. Wray. Job fairs----
    Mr. Serrano. Right.
    Mr. Wray. Because we like to make sure people are 
completely focused on the FBI when we are doing them, as 
opposed to showing up in some of these other settings, but we 
probably do a little bit of that too.
    I would say that the results are encouraging. The last few 
years of our entering classes have been up in terms of the 
diversity that they represent. Each of those years is also more 
as a percentage matter than the current percentage of our 
workforce. And, importantly, this year the percentage, the 
diversity of applications--I mentioned a minute ago how 
recruiting is up--within that, the percentage of diverse 
candidates is up quite significantly in terms of the 
applications. So I think that is also a very promising sign for 
the future of the organization.

                              9/11 FUNDING

    Mr. Serrano. Very briefly, my last question. I was part of 
this committee right after 9/11 and we gave a lot of money to 
the FBI, and rightfully so, to do what had to be done after 9/
11. And I started worrying then, and I still worry now, that 
maybe the focus on criminals, drug dealers, and others, the 
white collar crimes, if you will, would not be paid attention 
to with the same fervor as it was before. What can you tell us 
about that?
    Mr. Wray. Well, certainly 9/11 is very important to me 
personally, as I know it is to you. And as I mentioned to you 
when we spoke on the phone, I have actually now added a visit 
to the 9/11 Memorial for every new training class, along with 
the Holocaust Memorial and the MLK Memorial.
    I would say that while counter-terrorism remains our top 
priority, if you looked at where are our resources are 
allocated in terms of just the sheer numbers of agents, 
analysts, and professional staff, our traditional criminal 
programs are still where the lion's share of the resources are 
allocated. So you might hear us talking more about counter-
terrorism and it might get a little more attention in the 
leadership just because of the stakes, the mass-casualty stakes 
that are implicated by a terrorist attack, but in terms of just 
the day-to-day cadence of the organization, our criminal 
programs still represent the biggest program we have.
    Mr. Serrano. Mr. Aderholt.

                              MS-13 THREAT

    Mr. Aderholt. Let me ask about some other gang and violent 
crime issues. Other than the opioid epidemic, violent crime and 
gangs seem to affect just about every part of our community. 
Can you talk about MS-13 a little bit and just talk about the 
current--is it still a threat, as we have, you know, seen a lot 
in the news over the past several months and years on that? And 
just talk a little bit about MS-13 in general.
    Mr. Wray. So, certainly MS-13 remains a threat, it remains 
an organization that we are tackling very aggressively. We have 
had significant MS-13 cases of course in Long Island, but not 
exclusively. I think in Queens and Long Island, for example, 
not that long ago we took down I think about 45 of the most 
dangerous MS-13 members. But what is important about the way we 
tackle the MS-13 threat is that it is not just here in the U.S. 
with our Safe Streets Task Forces, we also have what we call 
our TAGS, which are task forces that are in El Salvador, 
Guatemala, and Honduras, where we work with local law 
enforcement there to help them address more of the problem 
there as well.
    And so those two kind of bookends help us tackle the threat 
in a more cross-border way and sort of not just kind of getting 
it when it is here inside our borders.

               VIOLENCE AGAINST LAW ENFORCEMENT OFFICERS

    Mr. Aderholt. Has there been an increase in violence 
against law enforcement officers that you have been aware of?
    Mr. Wray. Last year, 2018, there was an increase in the 
number of law enforcement officers in this country who were 
shot and killed in the line of duty. And I say that because I 
personally call every time that happens the chief or sheriff or 
commissioner involved to express my support and condolences. 
And so every single one of those instances I am seeing myself, 
the picture of the person who was killed, information about his 
or her family, how long they were on the job, and it was up 
last year. I don't have the percentage or the number off the 
top of my head, but it was up last year in a way that I find 
very alarming.
    And I would also say, which is in some ways even more 
concerning, that the number of those deaths that were as a 
result of ambush was up last year as well, as a subset.
    This year, it is not clear yet whether the number will be 
up this year but this is a time for, you know, considerable 
concern about the well-being and safety of the men and women of 
law enforcement who put themselves at great risk. And it takes 
a very, very, very special person to every day be willing to 
sacrifice your life for a complete stranger. There are not a 
lot of people willing to do that and we all as Americans owe 
those people a debt of gratitude, and my heart and the hearts 
of everybody in the FBI breaks whenever one of these things 
happens.
    Mr. Aderholt. Thank you.
    Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    Mr. Graves.
    Mr. Graves. No questions.
    Mr. Serrano. That is it.
    We want to thank you, Mr. Director, for coming before us 
today. Your agency is one that has our respect. When we 
disagree with you, we tell you in a diplomatic way to make 
changes, throughout our history, my personal history on this 
committee and I know the other members. The FBI at times has 
had difficult relationships with different communities, it did 
so in Puerto Rico for many years, and Director Freeh opened up 
those files for people to see and then changes were made to 
make sure that that didn't happen again.
    And so you can tell the members of your workforce, your 
agents, that we respect them and we will do whatever we need to 
do to make sure they do the right job and do it properly, but 
do it with the support of Congress, and that is very important. 
And we thank you for your testimony.
    This meeting is adjourned.
    [Clerk's note. The Department did not respond with answers 
to submitted questions in time for inclusion in the record.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 


                                          Tuesday, April 9, 2019.  

                         DEPARTMENT OF JUSTICE

                               WITNESSES

WILLIAM P. BARR, ATTORNEY GENERAL OF THE UNITED STATES
LEE J. LOFTHUS, ASSISTANT ATTORNEY GENERAL FOR ADMINISTRATION
    Mr. Serrano. Good morning. The subcommittee will come to 
order.
    Today we welcome the new Attorney General, William Barr, 
before the subcommittee. As the Attorney General during the 
George H. W. Bush administration, he has testified before this 
committee in the past, but this is his first time in quite a 
while. Welcome and congratulations to your new and old 
position, sir.
    We also welcome Assistant Attorney General for 
Administration Lee Lofthus. Because Attorney General Barr was 
not confirmed when this year's budget proposal was largely 
formulated, he has asked that the Assistant Attorney General be 
allowed to join him at the table to answer some of the nuts-
and-bolts questions that we will ask regarding the budget.
    This year we have held several hearings for components of 
the Department, including the FBI, the ATF, the Civil Rights 
Division, and the Executive Office for Immigration Review. I 
appreciate the willingness of the Department to come and 
testify, even though we may have different opinions on 
different issues.
    Let me take a moment to describe some concerns prompted by 
those hearings. We have heard what appears to be a lack of 
commitment to the Department's traditional mission to defend 
civil rights, disability rights, and prevent discrimination. We 
have discussed what appears to be a clear animus towards 
policies that protect individuals' health care, voting rights, 
access to education, and much, much more.
    We have discussed the need for additional resources to 
address gun violence in this country, while at the same time 
hearing ATF say that the budget request would result in 
staffing reductions. We have talked to the head of the 
Executive Office for Immigration Review about the need to 
protect due process and fairness in our immigration courts, and 
the many policy changes that make such goals more difficult to 
achieve. We have heard the FBI describe the threats our Nation 
faces, but also that their budget request will not fully fund 
their efforts to address those threats. As we discuss the 
Department today, we are faced with a budget request that fails 
to address many of these concerns and raises new problems.
    And of course, Mr. Attorney General, we could not hold this 
hearing without mentioning the elephant in the room, and I am 
not referring to my colleagues on the other side. Two and a 
half weeks ago, the Mueller report was completed. In extremely 
quick fashion, you turned a 300-plus-page report into a four-
page letter that supposedly summarized the findings. Last week, 
the New York Times reported that the Special Counsel's office 
had already created summary documents that were ignored in your 
letter, and that some investigators within the Special 
Counsel's office felt that the summary understates the level of 
malfeasance by the President and several of his campaign and 
White House advisors.
    The American people have been left with many unanswered 
questions; serious concerns about the process by which you 
formulated your letter; and uncertainty about when we can 
expect to see the full report. I believe the American people 
deserve to see the full report and to be trusted to make our 
own determinations on the merits based on what the Special 
Counsel has presented.
    Mr. Attorney General, if there is one thing I would like to 
leave with you today, something you already know, but just my 
role to remind you, is that this Congress voted unanimously to 
see that report, that the Congress and the committees of 
jurisdiction want to see the report, and that the American 
people want to see the report. I think it would strike a 
serious blow to our system and, yes, to our democracy if that 
report is not fully seen. And when it comes to redactions, we 
would hope that you could tell us when something is redacted, 
if you feel it has to be, what area it covered. I just see a 
blackout, it doesn't tell us where it came from and why it 
might have been redacted.
    We are not here today to be in a confrontational situation 
with you. We want to help you do your job and you need to help 
us do ours, but what cannot happen is that somebody higher than 
you tells you that you don't have to answer our questions or 
you don't have to deal with us at all; that is not who we are 
as a country, that is not who we are as a democracy, that is 
not who we are as an Appropriations committee.
    So let me just say this. Since 2017, our Nation's Justice 
Department has too often failed to meet the needs of the 
American people. I hope that with your ascension to Attorney 
General we can work together to change that.
    And, with that said, I would turn to my colleague and 
friend Mr. Aderholt.
    Mr. Aderholt. Thank you for yielding, Mr. Chairman, and I 
too would like to welcome Attorney General Barr and Assistant 
Attorney General Lofthus to the Commerce, Justice, Science 
Subcommittee to testify regarding the fiscal year 2020 budget 
request.
    Your stewardship of the Department of Justice is important 
to all our communities and your budget proposes key investments 
in what we can all agree on are critical criminal justice 
priorities, such as strengthening national security, reducing 
violent crime, enforcing our Nation's immigration laws, 
combating the opioid crisis, and reducing recidivism.
    Attorney General Barr, we recognize that you have an 
incredibly demanding job. Your presence here this morning 
reveals how seriously you take the Department's fiscal year 
2020 budget request, as well as the role of Congress and this 
committee in making the funding decisions. So, thank you for 
being here this morning. We want to work with you, as the 
chairman said, to ensure that the programs you administer to 
help keep this country safe are as effective and efficient as 
possible.
    I hope your testimony today will address many of the issues 
that affect our local communities. I am particularly interested 
in the Justice Department's efforts to help curb the deadly 
opioid epidemic; I hope to learn more about high-tech law 
enforcement initiatives you are using to disrupt the 
sophisticated transnational criminal organizations at the heart 
of this scourge, and how we can best support these efforts.
    I am also interested in hearing about your perspective on 
the humanitarian and the security crisis that we now have on 
our Southern border that we are hearing so much about, and how 
it affects the workload at your Department.
    I look forward to working with Chairman Serrano on these 
and many other issues with the appropriations process as we 
move forward for the fiscal year 2020 appropriations process.
    So, with that, we look forward to your testimony this 
morning, and I yield back.
    Mr. Serrano. Thank you, Mr. Aderholt.
    Let me now turn to the chairwoman of the full committee, my 
colleague from New York, Mrs. Lowey.
    Mrs. Lowey. I would like to thank Chairman Serrano, Ranking 
Member Aderholt, for holding this hearing. And, Attorney 
General Barr, welcome, and thank you for appearing this 
morning.
    Before getting into your budget request, I want to address 
a serious oversight matter: your unacceptable handing of 
Special Counsel Robert Mueller's report. It has been reported 
that the report is 300 to 400 pages. And I use the term 
``reported,'' because we have no idea how long it actually is. 
All we have is your four-page summary, which seems to cherry-
pick from the report to draw the most favorable conclusion 
possible for the President. And, in many ways, your letter 
raises more questions than it answers.
    I must say, it is extraordinary to evaluate hundreds of 
pages of evidence, legal documents, and findings based on a 22-
month long inquiry and make definitive legal conclusions in 
less than 48 hours. Even for someone who has done this job 
before, I would argue it is more suspicious than impressive.
    Your conclusion is something we have seen before. In fact, 
we have seen it in your own legal writing. In June 2018, you 
wrote a memo as a private citizen and a former Attorney General 
to the Department of Justice laying out the President's case 
against obstruction of justice. Your audition clearly went 
well.
    I look forward to reviewing the Mueller report myself, and 
I know my constituents do as well. I understand that portions 
of it must be redacted as a matter of law, but my hope is that 
you will stop there and bring transparency to this process as 
soon as possible. The American people deserve the facts.
    Now to your fiscal year 2020 budget request. The request 
provides a significant increase for immigration judges and a 
modest increase for most Federal law enforcement. However, it 
either eliminates or significantly cuts respected grant 
programs at the Department of Justice that really make a 
difference in our constituents' daily lives.
    For example, your request significantly decreases essential 
programs, including the COPS program, which advances community 
policing on a state and a local level would be cut by $205 
million; the DNA Initiative program, which provides grants to 
reduce the rape kit backlog by ensuring evidence that could 
lead to meaningful convictions does not sit on forgotten 
shelves, and that would be cut by $25 million; and the Juvenile 
Justice program, which helps prevent youth crime, violence, and 
reduce recidivism, which would be cut by $48.5 million.
    These are simply unacceptable reductions.
    I look forward to a productive discussion today. I hope you 
can shed some light on how this budget request can adequately 
respond to the grave task the Department of Justice and its 
grant programs undertake daily.
    Thank you again for appearing before us. I look forward to 
an open discussion, an honest discussion, and address the many 
challenges before us today.
    Thank you very much.
    Mr. Serrano. Thank you.
    And now, Attorney General Barr, you are recognized to give 
your opening statement. We ask you please to try to keep it to 
5 minutes and your whole statement will be included in the 
record. Thank you.
    Attorney General Barr. Thank you, Mr. Chairman, Madam 
Chair, and Ranking Member Aderholt.
    I am pleased to be here today to present to you the 
President's fiscal year 2020 budget for the Department of 
Justice, and I am joined here today by the Department's Chief 
Financial Officer, Assistant Attorney General for 
Administration, Lee Lofthus. We look forward to discussing how 
our requested appropriations will help protect the safety and 
rights of our constituents and your constituents.
    For two fiscal years in a row, the Department has broken 
records for prosecuting violent crime. The Department has also 
significantly increased prosecution of firearms offenses, and 
in fiscal year 2018 prosecuted more firearm defendants than 
ever before.
    As prosecutions have gone up, crime has gone down, and in 
2017, after 2 years of increases, violent crime and homicide 
rates went down nationwide.
    The FBI's preliminary data for the first 6 months of 2018 
show a 4.3 percent decline in violent crime overall and a 6.7 
percent decline in murders, and a 12 percent decline in robbery 
and burglary compared to the first 6 months of 2017.
    In order to continue this momentum, President Trump has 
requested an additional $137 million for violent crime and 
transnational organized crime prosecutions, as well as an 
additional $100 million for the Project Safe Neighborhood 
grants to state and local law enforcement. The Department also 
requests $5.8 million to enhance violent crime and firearms 
prosecutions.
    Over the first 2 years of the Trump administration, we have 
also gained ground against the opioid epidemic, which is by far 
the deadliest drug crisis that this country has ever faced. The 
Department increased the number of defendants charged with 
Federal opioid-related crimes by 28 percent from fiscal year 
2017 to fiscal year 2018. Prescriptions of the seven most 
frequently abused prescription opioids are down more than 23 
percent since 2016, to the lowest level in at least a decade, 
and over the same period the DEA has lowered the legal limits 
on production of the active ingredients in these opioids by 47 
percent.
    More importantly, drug overdose deaths may have finally 
stopped rising. According to preliminary data from the CDC, 
overdose deaths decreased slightly from September 2017 to 
August 2018. But there is a lot more work to be done and that 
is why the President's budget provides for $295 million to 
combat the opioid epidemic, including $18.2 million for the 
FBI's Joint Criminal Opioid Darknet Enforcement initiative or 
J-CODE, which is a team of agents that work to disrupt and 
dismantle the sale of synthetic opioids on the darknet.
    The President requests $11.1 million for five new heroin 
enforcement groups that will be deployed to DEA field divisions 
that have identified heroin as the first or second-greatest 
threat in their area. The President also includes $2 million in 
operational funds for the National Opioid Initiative of our 
OCDETF program.
    The President's budget also proposes to permanently 
transfer $254 million from the White House Office of National 
Drug Control Policy to the DEA for the HIDTA programs, the High 
Intensity Drug Trafficking Areas. This change will eliminate 
redundancies by placing this program under the agency that 
leads our drug enforcement efforts.
    We know that most of the illicit drugs in this country came 
across our Southern border. In the fight against an 
unprecedented drug crisis, border security is imperative.
    In fiscal year 2018, the Department charged more defendants 
with illegal entry into this country than in any year before. 
At the same time, the Department increased the number of felony 
illegal reentry prosecutions by more than 38 percent.
    Our immigration courts, which are under the Department of 
Justice, have also become more productive under this 
Administration. Since the beginning of 2017, the Department has 
conducted an unprecedented surge in hiring immigration judges. 
The Department has hired more immigration judges under 
President Trump than in the previous 7 years combined. We now 
employ the largest number of immigration judges in history, 
with 46 percent more immigration judges than just 3 years ago. 
That is having an impact on immigration cases.
    After 8 consecutive years of declining or stagnant 
productivity between fiscal year 2009 and fiscal year 2016, our 
immigration judges have increased case completions 2 years in a 
row. In fiscal year 2018, immigration judges completed the most 
cases in 7 years.
    In order to continue this progress, the Department requests 
$71 million for 100 new immigration judges and additional 
support staff in fiscal year 2020. This would bring the number 
of authorized immigration judges to 634, which would more than 
double the number of immigration judges on board in fiscal year 
2016. Given the fact that these judges face a record-breaking 
860,000 case backlog, this investment is more than warranted.
    And with the crisis on our Southwest border, the Department 
requests $6 million for our Southwest Border Rural Law 
Enforcement Violent Crime Reduction Initiative, which will help 
law enforcement agencies serving rural areas along and near the 
border to fight rural crime.
    The Department also plays a critical role in protecting our 
national security in combating terrorism and cyber crime, and 
that is why the President requests an additional $70.5 million 
to enhance the FBI's cyber information-sharing abilities and 
cyber tools and capabilities, as well as $16 million for our 
National Vetting Center.
    The President requests an additional $18 million for the 
FBI to address counterintelligence threats, particularly cyber 
attacks and threats from hostile foreign intelligence services.
    Mr. Chairman, there are many other issues facing law 
enforcement that we could talk about today, but the bottom line 
is the more than 112,000 men and women at the Department of 
Justice are doing important work, and we ask for your support.
    Thank you.
    [The information follows:]
 [GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
                SPECIAL COUNSEL MUELLER'S INVESTIGATION

    Mr. Serrano. Attorney General Barr, in your confirmation 
hearing you say you believed it very important that results of 
Special Counsel Mueller's investigation be shared with Congress 
and the public; we agree on that. FBI Director Wray, the 
Nation's top counterintelligence investigator, told us last 
week he had not read the Special Counsel's report.
    My question is, with regard to your March 24 and 29 letters 
to the Judiciary Committees, did Special Counsel Mueller or 
anyone on his team have a role in drafting them or reviewing 
them in advance? Did you use any of the summary documents 
prepared by the Special Counsel in drafting these documents?
    Attorney General Barr. The 24th and 29th. The letter of the 
24th, Mr. Mueller's team did not play a role in drafting that 
document, although we offered him the opportunity to review it 
before we sent it out and he declined that.
    The letter on the 29th, I don't believe that that was 
reviewed by Mr. Mueller or that they participated in drafting 
that letter.
    But to go back to something you said in your opening 
statement about the availability of the report. As I said, as 
you pointed out, since my confirmation I do think it is 
important that the public have an opportunity to learn the 
results of the Special Counsel's work, and I said then that I 
would work diligently to make as much information public as I 
could and available to Congress as I could.
    You will recognize that I am operating under a regulation 
that was put together during the Clinton administration and 
does not provide for the publication of the report, but I am 
relying on my discretion to make as much public as I can.
    Now, in my letter of March 29, I identified four areas that 
I feel should be redacted, and I think most people would agree. 
The first is grand jury information, Rule 6(e); the second is 
information that the intelligence community believes would 
reveal intelligence sources and methods; the third is 
information in the report that could interfere with ongoing 
prosecutions. You will recall that the Special Counsel did spin 
off a number of cases that are still being pursued and we want 
to make sure that none of the information in the report would 
impinge upon either the ability of the prosecutors to prosecute 
the cases or the fairness to the defendants.
    And, finally, we intend to redact information that 
implicates the privacy or reputational interests of peripheral 
players where there is a decision not to charge them.
    Right now, the Special Counsel is working with us on 
identifying information in the reports that fall under those 
four categories. We will color code the excisions from the 
report and we will provide explanatory notes describing the 
basis for each redaction. So, for example, if a redaction is 
made because of a court order in a pending prosecution, we will 
state that and we will distinguish between the various 
categories. This process is going along very well and my 
original time table of being able to release this by mid-April 
stands.
    And so I think that, from my standpoint, within a week I 
will be in a position to release the report to the public, and 
then I will engage with the chairmen of both Judiciary 
Committees about that report and about any further requests 
that they have.
    Mr. Serrano. So let me just get one thing clear for the 
record. My concern during my opening statement that when you 
redact something we should know what area it falls under, that 
you say will happen?
    Attorney General Barr. Yes, yes, sir.
    Mr. Serrano. Your March 24 letter indicated that some 
actions the Special Counsel investigated as potentially raising 
obstruction of justice concerns have not been publicly 
reported; will these actions be identified in the report sent 
to Congress?
    Attorney General Barr. As things stand now, I don't think 
that they will be redacted. So they will be identifiable, yes.
    Mr. Serrano. All right, thank you.
    Mr. Aderholt.
    Mr. Aderholt. Thank you, Mr. Chairman.

                          U.S. MEXICAN BORDER

    Mr. Attorney General, as you know, there is a serious 
humanitarian crisis at the Southern Border, and in fact the 
previous Administration specifically noted that transnational 
organized crime in Mexico makes the U.S. border more 
vulnerable, because it creates and maintains illicit corridors 
of border crossings that can be employed by other secondary 
criminal or terrorist actors or organizations. Of course, your 
fiscal year 2020 budget proposes an additional $18 million in 
resources to help advance the fight against organized crime.
    Can you talk a bit about the Department of Justice and how 
it is addressing the smuggling networks that are endangering so 
many of the lives that are being smuggled and trafficked across 
the Southern Border, and particularly the children?
    Attorney General Barr. Yes, sir. The problem we face on our 
Southern Border is really unprecedented, not just the volume 
and the makeup of the people coming across from an immigration 
policy standpoint, but by the strength of the criminal 
organizations in Mexico. One of the things that has changed a 
lot in the 30 years prior when I was Attorney General has been 
the strengthening of these criminal organizations in Mexico, 
these cartels, that are not only involved in multiple kinds of 
drugs and the transportation of those drugs and distribution in 
the United States, but also into human trafficking. So 
attacking those transnational criminal organizations is a high 
priority.
    The fiscal year 2020 budget requests a total of $3.2 
billion that is targeted at dealings with these transnational 
organizations, and we are seeking an increase of $109 million 
this year. We are also seeking $29 million in programmatic 
enhancements, including $18 million to strengthen the FBI's 
ability to monitor and target the transnational organizations; 
and $10 million to strengthen DEA's ability to operate its 
Judicial Wire Intercept Program in Central America; and another 
$1.7 million for DEA's Sensitive Intelligence Unit, which is 
targeting these groups and their illicit trafficking in 
narcotics.
    I personally believe that an important part of securing the 
Southern Border is to have a barrier system on the border, and 
I think that that will help not only in narcotics interdiction, 
but also in suppressing human trafficking, and it is an 
important part of our enforcement.

                                  FISA

    Mr. Aderholt. Let me switch gears just a minute. One of the 
most sacred rights, as you know, as Americans, is the right not 
to be spied on by the Government. A FISA order may only be 
issued based on a finding by the Foreign Intelligence 
Surveillance Court that probable cause exists to believe that 
the target of surveillance is an agent of a foreign power.
    One of our colleagues, Representative Nunes, has referred 
eight persons to the FBI for investigation concerning alleged 
misconduct during the Russia investigation, including the leak 
of highly classified material, and alleged conspiracies to lie 
to Congress and the FISA Court in order to spy on then-
candidate Trump and other persons. I would hope the Department 
of Justice will be giving these referrals appropriate and 
prompt consideration.
    My question is, now that President Trump has been 
exonerated of Russia collusion, is the Justice Department 
investigating how it came to be that your agency used a 
salacious and unverified dossier as a predicate for a FISA 
order on a U.S. citizen?
    Attorney General Barr. The Office of the Inspector General 
has a pending investigation of the FISA process in the Russia 
investigation and I expect that that will be complete in--
probably in May or June, I am told. So, hopefully we will have 
some answers from Inspector General Horowitz on the issue of 
the FISA warrants.
    More general----
    Mr. Aderholt. Do you--go ahead.
    Attorney General Barr. More generally, I am reviewing the 
conduct of the investigation and trying to get my arms around 
all the aspects of the counterintelligence investigation that 
was conducted during the summer of 2016.
    Mr. Aderholt. Are you investigating who leaked the 
existence of the FISA order against Carter Page?
    Attorney General Barr. Who what?
    Mr. Aderholt. Are you investigating who leaked the 
existence of a FISA order against Carter Page?
    Attorney General Barr. I haven't seen the referrals yet 
from Congressman Nunes, but obviously, if there is a predicate 
for an investigation, it will be conducted.
    Mr. Aderholt. Thank you.
    Thank you, Mr. Chairman.
    Mr. Serrano. Mrs. Lowey.

                SPECIAL COUNSEL MUELLER'S INVESTIGATION

    Mrs. Lowey. Attorney General Barr, reports suggest that 
Special Counsel Mueller's report is anywhere between 300 and 
400 pages long. I would be interested in knowing, how many 
discussions did you have with the Deputy Attorney General and 
other staff between receiving the report and releasing the 
memo? Was there discussion or debate about the evidence and 
conclusions? How many staffers assisted you in digesting so 
many pages of complex information in such a short period of 
time?
    Let me tell you what I'm getting at that I find quite 
extraordinary. You received a very serious, detailed report, 
hundreds of pages of high-level information, weighed the 
factors and conclusions at length, outlined, prepared, edited, 
and released your memos in less than 48 hours. To me, to do 
this, it seems your mind must have been already made up. How 
did you do it?
    Attorney General Barr. The thinking of the Special Counsel 
was not a mystery to the people at the Department of Justice 
prior to his submission of the report. He had been interacting, 
he and his people had been interacting with the Deputy Attorney 
General and lawyers supporting the Deputy Attorney General in 
his supervision of the Special Counsel, and in that context 
there had been discussions. So there was some inkling as to 
some of the thinking of the Special Counsel.
    Furthermore, on March 5th, I believe, the Deputy and I met 
with Special Counsel Mueller and his team, and had a 
preliminary discussion about the report. So we had an inkling 
as to what was coming in our direction, and so even more 
thinking within the Department was done about that over that 
time; that was a matter of weeks. And then, when the report 
came, and it came approximately midday on Friday, the Deputy 
Attorney General and I and our staffs worked closely for the 
balance of that day, Saturday, and Sunday.
    Mrs. Lowey. I didn't want to interrupt you.

                SPECIAL COUNSEL MUELLER'S INVESTIGATION

    Attorney General Barr. That is----
    Mrs. Lowey. Did the White House see the report before you 
released your summary letter? Has the White House seen it since 
then? Have they been briefed on the contents beyond what was in 
your summarizing letter to the Judiciary Committee?
    Attorney General Barr. I have said what I am going to say 
about the report today; I have issued three letters about it. 
And I was willing to discuss the historic information of how 
the report came to me and my decision on Sunday, but I have 
already laid out the process that is going forward to release 
these reports, hopefully within a week, and I am not going to 
say anything more about it until the report is out and everyone 
has a chance to look at it.
    Mrs. Lowey. I think there are some relevant questions that 
I do hope you could answer today, sir.
    On the question of obstruction of justice, your memo 
stated, quote, ``While this report does not conclude that the 
President committed a crime, it also does not exonerate him.'' 
Yet President Trump has publicly stated that this report is a 
complete and total exoneration.
    Can you tell us who is factually accurate? And will the 
released report include details on the obstruction issue and 
why, as you noted, the President is not exonerated, or will 
that information be redacted?
    Attorney General Barr. I have already explained the 
information that is going to be redacted from the report, the 
four categories, that is what is going to govern the 
redactions, and in fact the Special Counsel and his staff are 
helping us select the information in the report that falls into 
those four categories. But, again, the report--I will be in a 
position, as I said, within a week to release the report, 
people can then read the report.
    I have already promised the Judiciary Committees that I 
would appear as soon as they are able to schedule a hearing 
after the report is released, so I am not going to discuss it 
any further until after the report is out.
    Mrs. Lowey. Could you just explain for us--I understand 
that you are going to appear before the Judiciary Committee, 
but in that short period of time, it is very puzzling to me 
that the 400 pages could have been reviewed, and the President 
states that this report is a complete and total exoneration; 
who is factually accurate?
    Attorney General Barr. As I say, it is hard to have that 
discussion without the contents of the report, isn't it? And 
that is why I am suggesting that we wait until the report is 
out and I am glad to talk to people about it after then, and I 
am already scheduled to testify about that.
    Mrs. Lowey. I appreciate that. In closing, I just hope that 
we, as members of Congress, are going to have the complete 
report and have discussions with you as to the accuracy of some 
of the statements.
    Thank you for appearing before us today. And we will--in 
closing, we will have the complete report, or are you going to 
be selective as to what you give Members of Congress?
    Attorney General Barr. You mean the un-redacted report?
    Mrs. Lowey. Yes.
    Attorney General Barr. No, the first pass at this is going 
to produce a report that makes these redactions based on these 
four categories, and that is something that I am hoping will be 
available to the public. As I said, I am glad to talk to 
Chairman Nadler and Chairman Graham as to whether they feel 
they need more information and see if there is a way we could 
accommodate that.
    Mrs. Lowey. Well, I do hope you can accommodate Members of 
Congress who feel it is our responsibility to see the complete 
report, and I look forward to continuing the discussion.
    Thank you again for appearing.
    Attorney General Barr. Thank you.
    Mr. Serrano. Thank you.
    Mrs. Roby.

                       SEX AND HUMAN TRAFFICKING

    Mrs. Roby. Attorney General Barr and Assistant Attorney 
General Lofthus, thank you so much for appearing before this 
committee today to discuss the President's fiscal year 2020 
budget request.
    I would like to focus on the Department's efforts as it 
relates to sex and human trafficking. In the fiscal year 2018, 
the Justice Department initiated a total of 230 human 
trafficking prosecutions, charging 386 defendants and 
convicting a record 526 defendants. The Department continued 
its successfully Anti-Trafficking Coordination Team Initiative, 
working with partners in the Department of Homeland Security 
and the Department of Labor.
    In 2018, these ACT teams saw significant prosecution 
results, including increases of 10 percent, 75 percent, and 106 
percent in cases filed, defendants charged, and defendants 
convicted.
    I wear another hat sitting on the Judiciary Committee and, 
through that committee's efforts in the last Congress, we 
passed several pieces of legislation working with the 
Department specifically to close loopholes in the criminal code 
and make it easier for the Department to go after these folks 
that are exploiting children and trafficking human beings.
    This is modern-day slavery. It is important for me as a 
member of this committee and I suspect every member of this 
committee, I think I can say that, we all want to see sex and 
human trafficking eradicated in this country and want to make 
sure that your Department has the tools that you need to do so.
    Director Wray was here recently, I directed some questions 
specific to this issue as well and would like for you to 
address for the benefit of all of us as we put pen to paper in 
our appropriations bills, we know the successes, but where are 
the deficiencies and how can we on this subcommittee be helpful 
in making sure you have every tool that you need?
    Attorney General Barr. Thank you, Congresswoman.
    Human trafficking is one of our highest priorities now in 
the Department and we have brought in an exceptional prosecutor 
as an Associate Deputy Attorney General in the Deputy's office, 
with a portfolio of coordinating the Department's efforts 
directed at human trafficking and are setting up task forces 
around the country that she works with.
    I met with this team within the last month, received a full 
briefing on their current activities, and I have asked them to 
come back to me with a plan of action that could take it to the 
next level. And that could include shifting some resources 
within the Department, as well as seeking some additional 
legislative provisions that would help our prosecutors.
    So rest assured that I am very focused on this and will be 
back to the committee and the Judiciary Committee with 
proposals as to how we could accelerate our efforts.
    Mrs. Roby. I certainly appreciate that. And I of course was 
extremely disappointed that we were able to get a package of 
bills through the House by voice vote only to see them fail in 
the United States Senate, which I know each of those pieces of 
legislation would have made law enforcement's job much easier, 
I guess. And I do appreciate too all of the work that you do 
with local law enforcement to make sure that they have the 
tools and the resources that they need in order to combat sex 
and human trafficking and child exploitation.

                    INTERNET CRIMES AGAINST CHILDREN

    Most children now have access to the Internet and the 
Internet technology affords children access to vast amounts of 
valuable information and endless sources of entertainment; 
however, it also exposes children to certain dangers. Most 
worrisome, children may encounter, and oftentimes do, actual 
predators that use the Internet to identify and lure victims 
through chat rooms, instant messaging, and social networking 
sites.
    So, if you could with the short amount of time that I have 
left--and I can revisit this if there is a second round, but 
what does this DOJ's budget request bill do to safeguard our 
children from these predators specifically on the Internet?
    Attorney General Barr. Well, we are requesting $81 million 
for OJP's Missing and Exploited Children Program. We have $30 
million for NCMEC; we have $30 million for the ICAC task 
forces, which are now operating in states--we have 81 of them 
operating throughout the country; and then the activities of 
the Child Exploitation and Obscenity Section in the Department 
of Justice. So those are sort of the three pillars of our 
effort and all together it is approximately $90 million.
    Mrs. Roby. Thank you.
    I yield back. Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    Mr. Cartwright.

                       AFFORDABLE CARE ACT (ACA)

    Mr. Cartwright. Thank you, Mr. Chairman. Thank you, Mr. 
Attorney General, for appearing before us today.
    I have understood for quite some time now that there are 
those in this country whose favorite pastime is attacking 
health care, but your decision as our new Attorney General to 
throw the weight of the United States Department of Justice 
behind an effort to get the Federal courts entirely to 
invalidate the Patient Protection and Affordable Care Act as 
unconstitutional is breathtaking; it is unbelievable. It stands 
out, your decision does, for its breadth, its scope, its 
recklessness, and its lack of legal justification to invalidate 
the Patient Protection and Affordable Care Act.
    If your efforts are successful, millions of Americans would 
lose their health care, tens of millions of Americans would see 
the premiums for their coverage skyrocket. One of our 
Republican colleagues in the Senate, Senator Collins, put it 
best when she wrote to you last week, her letter was dated 
April 1st--did you get her letter?
    Attorney General Barr. Yes.
    Mr. Cartwright. Okay. Then you saw that she wrote, ``Your 
decision to pursue this course of action in the Federal courts 
puts at risk not only critical consumer protections, such as 
those protecting individuals suffering from preexisting 
conditions, but also other important provisions of that law 
such as the Medicaid expansion, dependent coverage for young 
adults to age 26, coverage for preventative services, and the 
regulatory pathway for FDA approval of biosimilar drugs,'' 
unquote.
    The Department of Justice's refusal to defend our law, the 
Patient Protection and Affordable Care Act, is distressing 
because of the harm that it poses to the physical and financial 
well-being of millions of Americans, and also because DOJ's 
refusal appears to be driven by political considerations rather 
than health care policy discussions or sound legal arguments.
    Attorney General Barr, you are not a health care policy 
expert, but your Department is taking the lead on attempting a 
massive overhaul of our American health care system. So I want 
to make sure we agree on a few of the top-line facts and let's 
go through a couple of quick yes-or-no questions at the outset.
    Number one, have you conducted or reviewed an analysis to 
evaluate the effects of DOJ's litigation position to overturn 
the ACA, the effects on consumer costs and coverage, have you 
done that analysis or have you reviewed one?
    Attorney General Barr. Well, when we are faced with a legal 
question, we try to base our answer on the law.
    Mr. Cartwright. On the law. So the answer is no.
    And here is the thing: I can't imagine that you would take 
that kind of dramatic, drastic action without even trying to 
evaluate the consequences for the American consumers, the 
people using the health care, the people for whom these 
premiums are paid, but let's start the process of going through 
that----
    Attorney General Barr. Well, do you mean----
    Mr. Cartwright [continuing]. If we may.
    Attorney General Barr [continuing]. In the event that the 
law is struck down?
    Mr. Cartwright. If you are successful in this lawsuit that 
you are supporting and the entire Patient Protection and 
Affordable Care Act is struck down, millions of Americans who 
currently receive health insurance coverage under the law are 
at risk of losing that coverage; am I correct in that?

                       AFFORDABLE CARE ACT (ACA)

    Attorney General Barr. I think the President has made clear 
that he favors not only protections for preexisting conditions, 
but would like action on a broad health plan. So he is 
proposing a substitute for ObamaCare.
    Mr. Cartwright. The one that is going to come after the 
next election, you mean?
    Attorney General Barr. The one that will come down if and 
when ObamaCare is struck down.
    Mr. Cartwright. Well, let me be the one to inform, should 
the law be struck down, millions of people who get their 
coverage through the ACA marketplace would lose their coverage, 
and tens of millions more would see their premiums skyrocket.
    In addition, if you are successful, 12 million people 
nationally and 750,000 people in my home state of Pennsylvania 
who have coverage under the Medicaid expansion would also 
likely lose that coverage; am I correct in that, sir?
    Attorney General Barr. Do you think it is likely we are 
going to prevail?
    Mr. Cartwright. If you prevail--well, you are devoting 
scarce resources of your department toward that effort; are you 
not, Attorney General?
    Attorney General Barr. We are in litigation, we have to 
take a position----
    Mr. Cartwright. The answer is yes----
    Attorney General Barr [continuing]. We take a position----
    Mr. Cartwright [continuing]. You are trying to get it----
    Attorney General Barr [continuing]. In litigation----
    Mr. Cartwright [continuing]. Invalidated and, if you 
succeed, that many people will lose their coverage nationally 
for Medicaid and 750,000 from Pennsylvania alone; right?
    Attorney General Barr. I am just saying that, if you think 
it is such an outrageous position, you have nothing to worry 
about. Let the courts do their job.
    Mr. Cartwright. If you--well, my time is out. We will come 
back to this.
    I yield back, Mr. Chairman.
    Mr. Serrano. Mr. Palazzo.

                             VIOLENT CRIME

    Mr. Palazzo. Well, thank you, Mr. Chairman. And, Mr. 
Attorney General, thank you for being here today.
    For a couple of years at the end of the Obama 
administration, violent crime in America started to tick up, 
that means more robberies, more murders, and more assaults. I 
am encouraged to see that the FBI's preliminary crime 
statistics that were released in late February show this 
alarming trend is being reversed.
    Can you tell me, what is the Department doing that is 
working and does your new budget add resources for fighting 
violent crime?
    Attorney General Barr. Thank you, sir. Reducing violent 
crime, as I said in my statement, is one of our priorities, and 
making sure we don't see a resurgence of violent crime. Our 
base amount in the budget is $4.3 billion and we are seeking 
$138 million enhancement to that; $120 million would go toward 
reducing violent crime in communities and $18 million would be 
to step up our efforts against these transnational criminal 
organizations.
    The flagship, one of the flagships in our fight against 
violent crime is our Project Safe Neighborhoods. This is really 
a concept that has been around for a while under various 
guises, but fundamentally what it is, it is a strategy to focus 
on high-crime areas that brings together the local community; 
the law enforcement, including Federal and state; and also the 
various social programs and social agencies that run and fund 
programs that are meant to prevent crimes from occurring. And 
they have had a tremendous record, there have been studies 
showing how it has suppressed crime where it has been deployed. 
We are seeking $100 million to increase--go from $20 million to 
$100 million to extend the Project Safe Neighborhoods program.
    We also are seeking $10.7 million to expand ATF's NIBIN 
program, which has proved to be a tremendous tool in the fight 
against violent crime. This helps us identify firearms when 
they are used in a crime and trace it back to particular 
individuals.
    So those are some of the main initiatives we have underway 
to grapple with violent crime and so far it looks as if they 
are successful.
    Mr. Palazzo. I definitely agree. Our local police chiefs 
and sheriffs really support the Project Safe Neighborhoods, and 
it is a great program with a high return on investment for 
helping reduce gun and violent crime in our communities.

                           HUMAN TRAFFICKING

    Also important to the State of Mississippi is addressing 
human trafficking. I know the state legislature has been 
working really hard on it and I know my colleague Mrs. Roby has 
asked you some questions. And I want to just talk a little bit 
about, I know the DOJ undertook a U.S.-Mexico Bilateral Human 
Trafficking Enforcement Initiative to combat trans-border 
trafficking. Can you speak on this initiative; specifically, 
how effective has it been in stopping trafficking across the 
border?
    Attorney General Barr. I am going to have to get back to 
you on that, Congressman. I really would have to talk to people 
to see whether it is having an impact at this point.

                            SOUTHERN BORDER

    Mr. Palazzo. Okay. With my limited time, I will jump over 
to address some of the issues with the crisis that we have on 
our Southern Border.
    I know we have an immigration case backlog. There are over 
820,000 immigration cases pending nationwide, with the past 12 
consecutive years seen an increase in the number of cases. This 
years budget request includes an additional $72 million to hire 
a hundred new immigration judges.
    In your testimony, you mentioned that additional reforms 
are necessary to manage the backlog of cases. What reforms does 
the Department of Justice need to manage the case backlog and 
what can Congress to help you better manage the backlog?
    Attorney General Barr. On inauguration day, there were 306 
immigration judges, today we have 424. One of the problems we 
had was the long lead time of hiring these judges, which we 
have now cut from 2 years to 6 months. So it only takes 6 
months to onboard a judge. Currently, there at 534 slots 
authorized and we are asking for a hundred more slots. So we 
will be going up to 634, if that is approved.
    The backlog, however, we are not making progress right now 
against the backlog. Our productivity is increasing, so that, 
for example, in the first quarter of this year, 19,000 cases 
were completed; however, during that same time 26,000 new cases 
emerged. So we actually lost ground in the first quarter. As we 
bring on more judges, we are hoping that we are actually going 
to start working down that backlog. But until we can get some 
control of the inflow, we are not going to be able to work down 
that backlog.
    And the inflow is a function of a number of factors. The 
problems with the asylum laws and applying the asylum laws is 
one of the chief factors, the fact that they can be gained, and 
when people are then released--the catch-and-release situation, 
so when people are released into the country and never show up 
again, that prospect is what is drawing people up from Central 
America, and also the fact that so many children are now 
included in that population.
    So we need to have reform, as the President has said 
repeatedly, we need to have reform of the immigration laws, and 
we need to do all we can to discourage people from making the 
journey up to the United States by mechanisms such as a border 
barrier system.
    Mr. Serrano. Ms. Meng.

                SPECIAL COUNSEL MUELLER'S INVESTIGATION

    Ms. Meng. Thank you, Mr. Attorney General, and thank you, 
Assistant Attorney General Lofthus, for being here today and 
for your service to our country.
    I don't have a question about the substance or redactions 
of the report, but I do want to know, was the President or 
anyone at the White House alerted in advance of your letter's 
release?
    Attorney General Barr. The March 24th letter, I don't 
believe so. But as I said, once the report is out, I will be 
testifying and I will be glad to discuss all aspects of the 
process, and also explain the decisions I have made.
    Ms. Meng. Did you or anyone on your team consult with 
anyone in the White House in the crafting of that letter?
    Attorney General Barr. Are you talking about the March 24th 
letter?
    Ms. Meng. Yes.
    Attorney General Barr. The answer to that is no, but as I 
say, I am not going to discuss this further until after the 
report is out.
    Ms. Meng. Okay. So they did not have to approve for you to 
release the letter, the White House?
    Attorney General Barr. No.
    Ms. Meng. Thank you.

                           VOTING RIGHTS ACT

    I do want to ask my second question and if you could answer 
yes or no, just in the interest of time, running out of time, 
does the DOJ under the Trump administration consider 
enforcement of the Voting Rights Act a priority?
    Chief Roberts himself has stated that voting discrimination 
still exists; no one doubts that.
    Attorney General Barr. Yes, we do, we consider voting 
rights a priority.
    Ms. Meng. Has the DOJ, the Civil Rights Division, brought 
any cases under the Trump administration to enforce Section 2 
of the VRA?
    Attorney General Barr. No, but I would point out that 
during the first 4 years of the Obama administration one case 
was brought. So----
    Ms. Meng. Well, according to your website, the Department 
of Justice under Obama, both President Bushes, and President 
Clinton have brought at least over 30 cases in enforcement of 
Section 2 of the Voting Rights Act.

                      CENSUS CITIZENSHIP QUESTION

    Secretary Ross credits the Department of Justice's need to 
enforce Section 2 of the Voting Rights Act for the reason why a 
citizenship question is needed on the census. The DOJ has been 
enforcing the Voting Rights Act for over 50 years without the 
need for a citizenship question. What are your thoughts on 
that?
    Attorney General Barr. My thoughts are that it is being 
litigated right now and I think oral argument is on April 23rd, 
so I am not going to discuss it.

                         ZERO TOLERANCE POLICY

    Ms. Meng. Okay. I wanted to also ask about zero tolerance 
policy. Do you agree with your predecessor's zero tolerance 
policy memorandum issued last year, April 2018?
    Attorney General Barr. Well, there is a lot of 
misunderstanding about the zero tolerance policy. The zero 
tolerance policy is that the Department would prosecute cases 
that are referred to the Department and the thing that caused 
family separation was the referral of cases to the Department 
that involved families with children. The Administration--the 
President has put out an executive order, I believe, saying 
that we are not going--that DHS is not going to follow that 
policy and, as far as I know, we are not getting referrals of 
that type. But the general proposition that the Department will 
prosecute cases that are referred to it stands.
    Ms. Meng. Well, according to an article in the New York 
Times yesterday, President Trump has been pushing to restart 
this practice of separating parents from their children. The 
term ``binary choice policy'' has certainly been getting 
traction; is that something that you support?
    Attorney General Barr. I haven't heard that.
    Ms. Meng. You haven't heard that?
    Attorney General Barr. No.
    Ms. Meng. OK. We can submit articles to your office.
    Are you aware of research showing that separation, from 
initial stages to ongoing and long-term, is devastating and 
detrimental to children's health and development?
    Attorney General Barr. I'm sorry, could you repeat that?
    Ms. Meng. Are you aware of any research that shows 
separation of families and children are detrimental to their 
health?
    Attorney General Barr. I mean, I haven't reviewed that 
research, but as I said, the President has already put out an 
order stopping the separation of families.
    Ms. Meng. So would you enforce and put forth policies of 
new discussions that have been happening about President Trump 
wanting to restart this separate practice?
    Attorney General Barr. All I can say, I personally, sitting 
here, am not familiar with those discussions.
    Ms. Meng. Would you support continuation of separation of 
families?
    Attorney General Barr. I support the President's policy, 
which is we are not going to separate families.
    Ms. Meng. So you support that we will not separate families 
anymore?
    Attorney General Barr. Yes.
    Ms. Meng. Thank you. I yield back.
    Mr. Serrano. Mr. Graves.
    Mr. Graves. Thank you, Mr. Chairman. Attorney General, 
thanks for being with us.

                SPECIAL COUNSEL MUELLER'S INVESTIGATION

    I will just remind the committee, we have heard a lot about 
the Mueller report today. Twenty-two months of investigation, 
2,800 subpoenas, $25 million from taxpayers, 500 witness 
interviews, 19 lawyers, 40 FBI agents and who knows how many 
warrants, and the conclusions were simple: no collusion, no 
obstruction.
    I remember when the summary letter was released there were 
a lot of complaints then, Attorney General, that you weren't 
releasing the summary soon enough, and then here today I hear 
it was too hasty, too quick.
    So now you have had time to review, and your team has had 
time to review, you have indicated within the next week we will 
get the report. So, for the committee, is there anything new 
you have seen in the review of the entirety of the report that 
would change your conclusions?
    Attorney General Barr. No, Congressman. As I have 
explained, my March 24th letter was meant to state the bottom 
line conclusions of the report, not summarize the report, and I 
tried to use as much of the Special Counsel's own language as I 
could, but they were just stating the bottom line conclusions 
and there is nothing to suggest to me that, you know, that 
those weren't----
    Mr. Graves. No collusion, no obstruction----
    Attorney General Barr [continuing]. A fair statement of the 
conclusions.
    Mr. Graves. It is over, it is done--it is over.
    Attorney General Barr. Well, the letter speaks for itself.
    Mr. Graves. I thought it did too. Well, I will shift for a 
second, because Members of Congress have said they intend to 
ignore the public redactions and leak the full report; would 
that give you pause if that were to occur?
    Attorney General Barr. Someone is going to leak the full 
report?
    Mr. Graves. That is what----
    Attorney General Barr. Well, that would be----
    Mr. Graves [continuing]. That is what----
    Attorney General Barr [continuing]. Unfortunate.
    Mr. Graves [continuing]. Members of Congress have been 
saying.
    Attorney General Barr. Well, that would be unfortunate, 
because, you know, there is grand jury information in there 
that under the law has to be redacted.
    Mr. Graves. We have heard members of this committee today 
say that the American people deserve to see the full report, 
and so even members of this committee have indicated that. The 
Chairman of the Judiciary just this weekend said that--this is 
Chairman Nadler--certainly some of it would not leak publicly, 
that he has discretion, and his committee has a very good 
record of protecting information which it decides to protect.
    So, General Barr, under Federal law, does a Member of 
Congress have the power to arbitrarily decide what portions of 
the Special Counsel's report they might release, redacted or 
not?
    Attorney General Barr. Well, not if it violates the law, 
and we believe Rule 6(e) does apply to Members of Congress.
    So, you know, I--it is interesting, because this whole 
mechanism for the Special Counsel, as I said, was established 
during the Clinton administration in the wake of Ken Starr's 
report and that is why the current rule says that the report 
should be kept confidential, because there was a lot of 
reaction against the publication of Ken Starr's report, and 
many of the people who are right now calling for release of 
this report were basically castigating Ken Starr and others for 
releasing the Starr report.
    I have already said that I think the situation here 
requires me to exercise my discretion to get as much 
information out as I can and I think these categories, I think 
most fair-minded people would agree are things that have to be 
redacted.
    Mr. Graves. Right. Just thinking about the Chairman of 
Judiciary, if he were to release or any Member of Congress were 
to release the full report or redacted portions of the report, 
are they in compliance with the law or in violation of the law, 
and how do you deal with that?
    Attorney General Barr. I don't want to speculate about all 
the circumstances that would be involved. I don't intend at 
this stage to send the full, un-redacted report to the 
committee, so I am not sure where he would get it.
    Mr. Graves. OK. And then just----
    Attorney General Barr. If you get it directly from the 
Special Counsel, that would be unfortunate; I doubt that would 
happen.
    Mr. Graves. And a quick question about the subpoena. I am 
not on the Judiciary Committee; my understanding is, though, 
they have issued a subpoena to you to release the full report. 
Would that put you in violation of Federal law if you were to 
comply with----
    Attorney General Barr. In the current situation, I don't 
think I have the latitude to release Rule 6(e) material. As to 
the other categories, as I said, I am willing to discuss those 
with the Judiciary Committees. I want to try to accommodate and 
satisfy their interests, but at the same time uphold the law. 
And right now--and there has been a recent case decided in the 
U.S. Court of Appeals for the Disrict of Columbia Circuit just 
I think within the last week on this--the Rule 6(e) material is 
not releaseable.
    Mr. Graves. Well, thank you for the fashion in which you 
have handled this. I think you have been upright, you have been 
an example of integrity, and I know that you are going to abide 
by the law and my hope is that all Members of Congress would 
follow in like manner.
    So, thank you, Attorney General, for your good work.
    Attorney General Barr. Yes, sir.
    Mr. Serrano. Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman. Thank you, Attorney 
General Barr, for being with us today.

                SPECIAL COUNSEL MUELLER'S INVESTIGATION

    On the question of obstruction of justice, you stated in 
your March 24th letter that the Mueller report does not 
exonerate the President. Can you elaborate on what is meant by 
``does not exonerate the President'' ?
    Attorney General Barr. I think that is the language from 
the report.
    Mr. Crist. Right, I understand that.
    Attorney General Barr. That is a statement made by the 
Special Counsel----
    Mr. Crist. Right.
    Attorney General Barr [continuing]. Which I reported as one 
of his bottom line conclusions. So I am not in a position to 
discuss that further until the report is all out and then what 
is meant by exonerate is really a question that I can't answer, 
what he meant by that.
    Mr. Crist. But, as you sit here today, you can't opine, 
after having read the report, why it reaches that conclusion 
that it does not exonerate the President?
    Attorney General Barr. That is right.

                           MARCH 24TH LETTER

    Mr. Crist. Okay. Reports have emerged recently, General, 
that members of the Special Counsel's team are frustrated at 
some level with the limited information included in your March 
24th letter, that it does not adequately or accurately 
necessary portray the report's findings; do you know what they 
are referencing with that?
    Attorney General Barr. No, I don't. I think--I suspect that 
they probably wanted, you know, more put out, but in my view I 
was not interested in putting out summaries or trying to 
summarize, because I think any summary, regardless of who 
prepares it, not only runs the risk of, you know, being under-
inclusive or over-inclusive, but also, you know, would trigger 
a lot of discussion and analysis that really should await 
everything coming out at once.
    So I was not interested in a summary of the report, and in 
fact at the time I put out my March 24th letter there was 
nothing from the Special Counsel that wasn't marked as 
potentially containing Rule 6(e) material and I had no material 
that had been sanitized of Rule 6(e) material. So I felt that I 
should state the bottom line conclusions and I tried to use 
Special Counsel Mueller's own language in doing that.
    Mr. Crist. I am curious, did you feel that there was an 
obligation upon you or your office to prepare this four-letter 
overview, if you will, rather than summary, rather than having 
the Special Counsel's team do it themselves? Why did that 
happen, I guess is what I'm trying to find out.
    Attorney General Barr. It happened because the Special 
Counsel was providing the report to the Attorney General and I 
was making the decision as to whether to make it public or any 
part of it public. And, in my judgment, it was important for 
people to know the bottom line conclusions of the report while 
we worked on the necessary redactions to make the whole thing 
available.
    Mr. Crist. Let me ask then----
    Attorney General Barr. Unfortunately, you know, that is a 
matter of weeks and I don't think that the public would have 
tolerated and Congress would not have tolerated at least 
knowing the bottom line. And, as you know from your own 
experience, from a prosecutor's standpoint, the bottom line is 
binary, which is charges or no charges.
    Mr. Crist. Indeed. Did you contemplate having the Special 
Counsel's office help you with the preparation of your March 
24th letter, or did you?
    Attorney General Barr. We offered to have Bob review it 
before putting it out and he declined.
    Mr. Crist. I didn't ask you about reviewing. I asked if you 
thought about having them help prepare the March 24th letter. I 
mean, they did----
    Attorney General Barr. No, I didn't think about it----
    Mr. Crist [continuing]. The report after all.
    Attorney General Barr [continuing]. No, I didn't think 
about it.
    Mr. Crist. Why not?
    Attorney General Barr. Because it was my letter.
    Mr. Crist. You said that the Special Counsel and his team 
were not shown--or did not review the March 24th letter, right? 
You offered to let him review it?
    Attorney General Barr. Yes.
    Mr. Crist. Did you offer to anyone else to let other people 
review it besides the Special Counsel?
    Attorney General Barr. Not that I recall. You mean outside 
the Department?
    Mr. Crist. Anywhere. Yes, outside the Department, let's 
start there.
    Attorney General Barr. Well, the answer, I am pretty sure, 
is no, but----
    Mr. Crist. You are not sure?
    Attorney General Barr. I am sure.
    Mr. Crist. OK. I think I will yield. I only have 15 
seconds. Thank you, General.
    Mr. Serrano. Mr. Case.

                SPECIAL COUNSEL MUELLER'S INVESTIGATION

    Mr. Case. Thank you, Mr. Attorney General. I would love to 
talk to you about your 2020 budget, but what is far more 
critical at present and has much far-more-reaching consequences 
to the credibility of our government is the prompt and full 
disclosure of the Mueller report.
    The current non-disclosure of that report has only worsened 
the pervasive distrust of government generally and of Mr. 
Mueller's investigation, and your Department's response to it 
specifically. This really started very early on in the 
investigation with excessive secrecy about exactly what we were 
taking a look at. Here is the supplemental memo from the Deputy 
Acting Attorney General, and this is what drives the public 
crazy when they see something like this. This is what we have 
to try to avoid when we get into this.
    In your March 24th, three-and-a-half-page summary of the 
report, you stated that you are, quote, ``mindful of the public 
interest in this matter,'' and that you intend to release, 
quote, ``as much of the report as you can, consistent with 
applicable law, regulations, and Department policies.''
    You know, of course, that on March 14th the House resolved 
unanimously, 420-to-zero, all Members of this committee and 
House voting, that the full report be released publicly, except 
where prohibited by law, and be released to Congress 
unconditionally.
    Do you appreciate the importance of a full disclosure of 
this report, both personally and on behalf of your department?
    Attorney General Barr. I appreciate the importance of 
releasing as much of the information in the report as I can 
consistent with the law.
    Mr. Case. OK. Well, let's get into that then. What specific 
laws, regulations, and Department policies, as you cited in 
your letter, do you claim require or justify you to withhold 
portions of the report? You have already talked about 6(e); 
what else?
    Attorney General Barr. Well, as I said, there are four 
categories of information that are being redacted.
    Mr. Case. I understand that, sir.
    Attorney General Barr. Okay, first----
    Mr. Case. And one of those categories----
    Attorney General Barr [continuing]. You asked what else. 
The other one is we have asked the intelligence community to 
identify any information that could reveal intelligence sources 
and methods. The third----
    Mr. Case. Yes, but what authority do you have to state that 
you have discretion to withhold--I get the grand jury cite, 
that is 6(e). And, by the way, you know as well as I do that 
6(e) also encompasses an intelligence committee exception. So I 
assume you are going to say that that falls under that 
category, that there can be some release or withholding of 
intelligence-specific information under your 6(e) category. 
What about the other two categories? What justifies you in 
claiming the discretion to withhold that information?
    Attorney General Barr. Well, are you talking about the 
intelligence information?
    Mr. Case. No, I am talking about the other two categories. 
I am talking about ongoing prosecutions, but I am particularly 
focused on privacy and reputational interests, because it seems 
to me that that is an exception that you can just drive a truck 
through.
    So, I mean, you are the one that says you have the 
discretion to do that and, I am asking you, where does your 
discretion lie; where is your authority?
    Attorney General Barr. Regulation, because the regulation 
that sets up the Special Counsel and also provides for his 
report to the Attorney General, and also what the Attorney 
General can release, specifies that it has to be consistent 
with the Department's long-standing policies. And the 
Department's long-standing policy and practice is that, if we 
are not going to charge someone, we don't go out and discuss 
the bad or derogatory information about them. That is what got 
everyone outraged at what FBI Director Comey did in the case of 
Hillary Clinton.
    Mr. Case. Okay. So the regulation, back to long-standing 
policy, is what justifies that exception, right, in your view?
    Attorney General Barr. The regulation that says that any 
release has to be consistent with that.

                          EXECUTIVE PRIVILEGE

    Mr. Case. Okay, good. Let's go to 6(e) here for a second--
well, before I get to 6(e), are you maintaining or will you 
maintain any right to withhold any of the information in that 
report based on a so-called claim of executive privilege?
    Attorney General Barr. Am I what?
    Mr. Case. Are you going to claim that you have a right to 
withhold any of that report based on a so-called claim of 
executive privilege?
    Attorney General Barr. Any claim of executive privilege 
would have to be asserted by the President.
    Mr. Case. And he, the President----
    Attorney General Barr. As I said in my letter, which sort 
of speaks for itself, he has said that he is leaving the 
decisions up to me.
    Mr. Case. Okay. Are you going to claim executive privilege 
to keep any of that report back?
    Attorney General Barr. As I said, there is no plan, I have 
no plan to do that.
    Mr. Case. Okay. Do you believe that executive privilege 
applies to any broader range of communications and specific 
direct communications from the President?
    Attorney General Barr. You know, I would have to review the 
latest opinions from OLC about the precise scope of it, but it 
is not relevant to me right now.
    Mr. Case. And, as far as you know, does it apply to any 
communications by the President before he was President?
    Attorney General Barr. As I say, I am not sure what the 
learning is in the Department of Justice on that.

                SPECIAL COUNSEL MUELLER'S INVESTIGATION

    Mr. Case. You are aware that some of the--that there are 
exceptions under 6(e) under which you can in fact disclose 
grand jury material; some of those are within your discretion, 
but many of those are subject to a ruling of a court, correct?
    Attorney General Barr. What are they?
    Mr. Case. Well, there is 6(e), there are five exceptions in 
6(e) that allow you to go to court to ask the court for 
permission to release those. It is up to the court to decide 
whether to release.
    Are you intending to go to court to ask for guidance and/or 
direction and/or an order where you are uncertain whether you 
can in fact release or should in fact release materials?
    Attorney General Barr. I mean, the Chairman of the 
Judiciary Committee is free to go to court if he feels one of 
those exceptions is applicable.
    Mr. Case. The right is yours to ask for these exceptions.
    Attorney General Barr. Well, why do you say the right is 
mine?
    Mr. Case. Because you are the exercising authority under 
6(e).
    Attorney General Barr. Yeah, but I think if the chairman 
believes that he is entitled to receive it, he can move the 
court forward.
    Mr. Case. Well, I will come back to this. It is your right 
to ask, so I am asking, what is your intention?
    Attorney General Barr. My intention is not to ask for it at 
this stage. I mean, if the chairman has a good explanation of 
why 6(e) does not apply and his need for the information, I am 
willing to listen to that.
    As I say, my first agenda item here is to get the public 
report out, what can be gotten out publicly, that is going to 
be within a week. So I----
    Mr. Case. My time is up----
    Attorney General Barr [continuing]. Will discuss----
    Mr. Case [continuing]. I will come back.
    Attorney General Barr [continuing]. I will discuss these 
issues in greater detail after that occurs.
    Mr. Serrano. Mrs. Lawrence.
    Mrs. Lawrence. Thank you, Mr. Chair.

                              CIVIL RIGHTS

    Attorney General, according to recent reporting, the Trump 
administration is pursuing far fewer civil rights cases, 
including hate crimes, police bias, and disability right cases 
than the Obama or Bush administrations. The DOJ's Civil Rights 
Department has started 60 percent fewer cases against potential 
violations during the first 2 years of the Trump administration 
than during the President Obama administration and 50 percent 
fewer than under the George Bush administration.
    Can you please provide me why that is happening and what 
are you planning to do to address that?
    Attorney General Barr. I would have to see those figures 
and how they are broken down. I haven't seen those figures 
before. The areas that I am familiar with, such as hate crimes, 
it is simply not true. We have an enviable record of 
prosecuting hate crimes at the same or higher rate than 
previous administrations, as far as I am aware. I would have to 
see what else you are talking about.
    Mrs. Lawrence. Are you familiar with the data of what the 
percentage have they increased under the Trump administration--
--
    Attorney General Barr. I think there----
    Mrs. Lawrence [continuing]. There are indications they 
have?
    Attorney General Barr. Have they increased?
    Mrs. Lawrence. Yes.
    Attorney General Barr. Whether hate crimes versus the 
prosecution of hate crimes has?
    Mrs. Lawrence. Hate crimes, have they increased under this 
administration.
    Attorney General Barr. I haven't seen any data, you know, 
going from 2017----
    Mrs. Lawrence. So is it a priority? You haven't looked at 
the data, you are not aware of it.
    Attorney General Barr. No, as I said in my confirmation 
hearings, I am very concerned about hate crimes and intend to 
vigorously pursue them. The data that I have seen have showed 
an increase going back to 2013. So, I agree with you that they 
have been increasing, but I have seen no data to say that it is 
different under the Trump administration.
    Mrs. Lawrence. Attorney General, I want you to--we use the 
word ``stay woke'' sometime in community activism where you are 
in tune with what is happening on the ground. I appreciate your 
tenure or your length of time that you have been Attorney 
General, but I can tell you that this is something that is very 
important and I expect for you to be informed and aware of what 
is happening in this area.

                       AFFORDABLE CARE ACT (ACA)

    I wanted to follow up on a question that my colleague 
Cartwright asked, because I really need to ask this question. I 
watched the deliberate intent of your answers when who do you 
report to, the President of the United States or to the people 
of America. You, during your confirmation, without duress, said 
you report to the people, but you just said when it came to the 
ACA ruling that you gave that the President was very clear that 
he opposed it and so let it work out in legislation. I want you 
to be very----
    Attorney General Barr. I didn't say----
    Mrs. Lawrence [continuing]. I want you to be very----
    Attorney General Barr [continuing]. I didn't say----
    Mrs. Lawrence [continuing]. Let me finish my question, 
because that is what I heard, maybe you need to clarify it--I 
want you to explain to me, do you understand your role, when 
you issue a statement abolishing the Affordable Care Act that 
you, as the Attorney General of the people of the United 
States, have a responsibility to understand and support that 
decision not based on the policy of a President of the United 
States. It was clearly laid out the impact it will have and I 
want you to respond to that, because that is what I heard, sir.
    Attorney General Barr. Well, if you did listen to my 
confirmation----
    Mrs. Lawrence. I did, sir.
    Attorney General Barr [continuing]. Okay, I distinguished 
between three different roles the Attorney General plays; one 
is in enforcement, another is in a policy role, and the third 
is in providing legal advice. And what I said then is that the 
Attorney General has the responsibility to provide straight-
from-the-shoulder legal advice as to what the Attorney General 
thinks is the right view of the law.
    Mrs. Lawrence. So in this case of ACA you felt it was the 
right decision under the law to issue that you support 
abolishing----
    Attorney General Barr. Well----
    Mrs. Lawrence [continuing]. The Affordable Care Act, that 
is your legal opinion.
    Attorney General Barr [continuing]. No. You didn't let me 
finish, which is that the first obligation is to provide your 
best view of the law. If the President or the executive branch 
agencies that you are representing and are stakeholders in the 
issue disagree with that advice and want to pursue a different 
position, then the Attorney General litigating on behalf of the 
United States should take that position, if it is reasonable 
and a defensible legal position----
    Mrs. Lawrence. So----
    Attorney General Barr [continuing]. Even if it is not the 
position that the Attorney General would take if the Attorney 
General was a judge. That is the position I stated at my 
confirmation hearing.
    Mrs. Lawrence. So----
    Attorney General Barr. Also, I did not----
    Mrs. Lawrence [continuing]. That we can be clear, sir, what 
you are saying is that, if you disagree with the President, if 
your legal experience and your expertise doesn't agree and your 
President says something different, you are obligated to agree 
and enforce what the President says, is that what you are 
telling me as the Attorney General of the United States of 
America?
    Attorney General Barr. Well, it is----
    Mrs. Lawrence. Is that your statement, sir?
    Attorney General Barr. Well, it is the same as when we 
represent and are defending a law of Congress, sometimes we 
don't think the law as an original matter actually----
    Mrs. Lawrence. Sir, we pass laws; the President of the 
United States does not pass laws.
    Attorney General Barr. Right, but I am saying that--but I 
feel that if there is a reasonable and defensible argument that 
could be made to defend a statute, we frequently do that.
    Mrs. Lawrence. Sir----
    Attorney General Barr. So the----
    Mrs. Lawrence [continuing]. I am very concerned at this 
point. I am over my time and I will come back at my second one, 
but I am very concerned with your statement.
    Thank you.

                           VIOLENT EXTREMISM

    Mr. Serrano. So, Attorney General, in your testimony you 
said violent crime has declined since 2016, but as we learned 
from the FBI, home-grown violent extremism has grown over the 
same time. What priority and resources have you included in the 
2020 budget to counter such violent extremism?
    Attorney General Barr. I don't think we break out--maybe 
you can help me, Lee--I don't think we break out the budget 
targeting that particular category of offense.
    Mr. Lofthus. We do not have a separate category for violent 
extremism, but we do pursue all matters of violent crime 
together. And we have $138 million and 135 new positions for 
our violent crime efforts. In the FBI, we are adding 47 new FBI 
agents to the FBI for a variety of new initiatives, and among 
them is the FBI's work on violent extremism.
    Mr. Serrano. OK. It is important for this committee to know 
at a certain point how many folks will be assigned to this or 
how many dollars will be assigned to it, because it is an issue 
that concerns all Americans, I believe, and we need to deal 
with it in a proper way.
    Attorney General Barr. Yes, Mr. Chairman, but, you know, 
the people who are on the watch for this kind of thing, whether 
they be FBI agents or U.S. Attorneys pursuing potential cases, 
are the very same people that would also be looking at other 
forms of terrorism potentially. So it is hard to allocate 
exactly the dollars by that category, but, you know, obviously 
it is a serious issue and it is one that the FBI devotes a lot 
of effort to.
    Mr. Serrano. Well, as long as we know that the Department, 
the agency is looking at it, is dealing with it, is taking it 
seriously, we can then work together on it; that is the easier 
part.
    Mr. Lofthus. Mr. Chairman, if I can add a bit more? We do 
have in the FBI's budget this year, we have the $16 million for 
the FBI's participation in the National Vetting Center with 
other Federal entities, and that helps the FBI look closely at 
individuals who may be coming to the United States. So we have 
that vetting money in the FBI.
    We also have $4 million in the Office of Justice programs 
on grants that go towards looking at extremism and domestic 
terrorism.

                               ATF BUDGET

    Mr. Serrano. Good. A few weeks ago, the ATF Director 
Brandon told us that the Department's fiscal year 2020 budget 
request would result in ATF being forced to let go more than 
300 staff due to increasing investigatory costs. As we seek to 
address rising gun violence in this Nation, how can the 
Department justify a proposal that would result in fewer 
resources dedicated to that goal?
    Attorney General Barr. Let me just say first that I am a 
huge fan of ATF, I think they are an outstanding agency and I 
would--you know, any money spent on the ATF is well worth it. 
One of the common themes I hear from U.S. Attorneys is how 
valuable the ATF agents are and their technology is just 
outstanding in helping to deal with gun violence and violent 
crime.
    Now, I am told that the statement made by Mr. Brandon was 
actually based on faulty information and we don't think that it 
would lead to--we are asking for more money for ATF and we 
don't think it would result in fewer agents, but, you know, 
maybe Lee could help me with that.
    Mr. Lofthus. Sure. So I think very highly of the ATF chief. 
I have known him for years, we have worked together very, very 
closely; we took a hard look at his budget. This year's budget 
will increase ATF by 3.9 percent--actually, just about 4 
percent, it does have increases for ATF. If you look back over 
the last 3 years, we have given an 8.7 percent increase to ATF. 
So we do think ATF is important, we are trying to support ATF.
    I know the ATF chief is very concerned about his agency. 
His budget is susceptible to absorbing inflationary increases 
and if the pay raise isn't funded, or if his rents or contracts 
go up, he is very concerned about that, and he is worried that 
it will translate into a loss of staff.
    I can tell you that we have looked at this year's budget, 
though, and at the 4 percent increase we are asking for, we 
don't think that translates into loss of hundreds of staff. And 
our commitment is that we want to work closely with ATF, make 
sure they have what they need. As the Attorney General says, 
``Any resources ATF receives, I think will be put to very good 
use.'' But we are committed to working closely with the ATF 
folks to make sure they make it through the year.
    And again, a 4 percent increase on this budget, we think is 
a strong request for ATF, strong request for their NIBIN 
system, the $11 million for that. There is $4 million for their 
Spartan Case Management System. So we are trying to stand 
behind ATF in this budget.
    Mr. Serrano. Well, I would hope that you can get this issue 
resolved in terms of letting us know what really is going on 
because as we put together the bill, and that will happen 
pretty soon, you know, I need to be able to go to this young 
woman on my right and tell her I need more money for certain 
agencies. And we can't do this if they are saying they are 
going to lose over 300 folks and you all say they are not, or 
that it is not--we need that picture cleared up. Thank you.
    Mr. Lofthus. Absolutely. And we will help you.
    Mr. Serrano. Thank you. Mr. Aderholt?
    Mr. Aderholt. Thank you, Mr. Chairman. And of course, the 
Department of Justice has submitted almost $30 billion, 
taxpayer dollars to use and I want to remind my colleagues that 
that is what this--the purpose of the Attorney General being 
here today is to talk about how that $30 billion of taxpayer 
dollars is going to be used. And unfortunately, I see so many 
of the questions here this morning have gone toward a grassy 
knoll conspiracy theory regarding the Mueller report.

                             DNA FORENSICS

    So I hope we can focus on the questions of having the 
Attorney General giving up his time this morning to be here to 
answer these questions regarding the budget. As you know, 
General Barr, DNA forensic science can speed the prosecution of 
the guilty, protect the innocent from wrongful prosecution, and 
exonerate the wrongfully convicted.
    Mr. Lofthus, as in prior years, the DOJ is proposing to use 
the fund available under the Debbie Smith program for DNA 
analysis and capacity enhancement, along with, ``Other local, 
state, and federal forensic activities.'' So long as sexual 
assault kit backlogs persist, I believe it is important that 
this funding be focused on DNA analysis and capacity 
enhancement.
    What are some of the, ``Other local, state, and federal 
forensic activities,'' that are funded under this authority?
    Mr. Lofthus. The National Institute of Justice, which is 
inside OJP funds a program that strengthens the medical 
examiner and coroner systems within our country in a variety of 
ways, supporting forensic pathologists. And there is an 
alarming shortage of pathologists across the country. Opioid 
crisis has created an additional strain due to overdose deaths.
    So one of the focuses of our grant money today is on 
medical examiners and coroners. We also provide grants directly 
to forensic laboratories to encourage their research. And the 
focus of the grant is to make sure that they have all the tools 
they need to have effective forensic testing. And that has a 
real impact on the DNA backlogs across the country. If we can 
help them with their technology, we can really reduce the 
backlog. So that is one of our key things we are focused on.
    We have $105 million in this budget for DNA related 
programs. And we have $47 and a half million to work on the 
backlog of the National Sexual Assault Kit Initiative. And we 
want to make sure that that money is funded in the budget 
because it is very important to help the states and localities 
with the sexual assault examinations, and the kits, and make 
sure that is taken care of.
    So we believe we have a good, solid budget in this area 
that continue to work on both the DNA and the sexual assault 
kit areas.

                            OPIOID EPIDEMIC

    Mr. Aderholt. Let me switch over just a minute to opioids. 
Of course, that epidemic continues to ravage communities in my 
home state of Alabama. And I know you realize that fentanyl is 
50 times more potent than heroin and overdose deaths are on the 
rise with fentanyl. The President has called this a national 
health crisis. It is impacting families and the future of this 
country.
    What would you say are some of the most significant actions 
that the Department of Justice has taken to curb the deadly 
opioid epidemic that is plaguing the country currently?
    Attorney General Barr. Just fentanyl or the whole opioid 
epidemic?
    Mr. Aderholt. Well, you know, both, or either one that you 
want to address.
    Attorney General Barr. Fentanyl, there has recently been a 
development, as you know, most of the fentanyl and fentanyl 
analogues come from China. And the Chinese have agreed to 
schedule all fentanyl or fentanyl analogues, which would make 
enforcement much easier in China. And we would like to see a 
comparable action taken here in the United States to allow us 
to schedule fentanyl, keep fentanyl on the schedule, and all 
analogues of fentanyl. That is a very important step.
    Now, whether the Chinese action--they actually deliver on 
it from an enforcement standpoint remains to be seen, but it is 
something we have been asking them to do and we are very 
pleased that they have done it.
    But generally speaking, in the opioid arena, as you know, 
there--one of the main problems, and essentially the sort of 
the groundwork for this epidemic was set by the abuse of 
prescription drugs and the diversion of licit drugs. And a lot 
of our efforts are devoted toward going after healthcare 
providers and companies and others that contributed to this by 
over-prescription or permitting diversion.
    And so there are a lot of civil and criminal actions around 
the country that are going after these bad actors and there are 
task forces around the country focused on that aspect of it.
    And so the first effort is to contract the pool of people 
who are addicted by licit drugs. On the illicit drug front, we 
basically have a two-prong strategy of going after the TOCs, 
the transnational criminal organizations, primarily in Mexico, 
that are responsible for most of these drugs coming into the 
United States, and also the local distribution networks.
    And we have the FBI, the DEA, and a substantial portion of 
our U.S. Attorney's Offices focused on dealing with these local 
distribution networks. And so that is basically the strategy.
    Mr. Aderholt. Thank you. I yield back.

                SPECIAL COUNSEL MUELLER'S INVESTIGATION

    Attorney General Barr. Excuse me, Mr. Chairman. I think it 
was Congressman Crist was asking me about the letters and 
whether anyone was involved in the letters, other than people 
at Justice. And I checked with my staff and was told that just 
before the letters went out, after they were finalized and just 
before they went out, we did advise the White House Counsel's 
Office that the letters were being sent. But they were not 
allowed or even asked to make any changes to the letters. But 
we notified them before we issued them.
    Mr. Serrano. Mr. Crist I'm sure would have asked you, did 
they get to see the letter, however?
    Attorney General Barr. I think it may have been read to 
them. They did not get to see the letter.
    Mr. Serrano. Thank you. Mrs. Lowey.

                           BACKGROUND CHECKS

    Mrs. Lowey. Mr. Attorney General, I want to get to some 
other items in the budget today because under current law, 
background checks must be done within three days or the 
transaction is allowed to proceed, regardless of whether a 
person is lawfully permitted to buy a gun. My judgment, it is 
vitally important that background checks are done thoroughly, 
as we know the results of incomplete information can be fatal. 
For example, we know that the shooter who perpetrated the 
Charleston shooting had passed the background check, despite 
information that should have disqualified him.
    The House passed Enhanced Background Checks Act 
substantially increases the amount of time allowed for a NICS 
background check to ensure that we close these loopholes. I am 
concerned that until this bill moves through the Senate and on 
to the President's desk, that three days is not often enough 
time to evaluate a background check with questionable 
information.
    In your judgment, would fewer prohibited individuals be 
able to purchase firearms if this time period was extended?
    Attorney General Barr. The data that I have heard is that 
there are about 6,000 of these delayed responses, where these 
default sales occur after the expiration of the 3 days. And 
that when you go back and look at those 6,000, approximately 
2,000 of those, about a third, are people that would have 
flunked the background check and ATF goes out and gets the 
weapon, retrieves the weapon.
    I think it is fairly rare that--well, I think the Aurora 
shooter may have been someone who got that default sale, that 
it was sold to them after the 3 day period. So it does 
occasionally happen.
    Mrs. Lowey. Occasionally? Didn't you mention 2,000, 6,000.
    Attorney General Barr. Well, they are not all shooters. In 
other words, it does sometimes happen that somebody does----
    Mrs. Lowey. Do you support extending the time period? I 
have had an interaction with so many people in law enforcement 
and in many cases, 3 days is just not enough. Do you support 
extending the time period?
    Attorney General Barr. No. I think that puts a burden on a 
lot of people.
    Mrs. Lowey. Maybe buying a gun that shouldn't have a gun; 
is that what you are saying? When you are saying it puts a 
burden on a lot of people----
    Attorney General Barr. I think we are----
    Mrs. Lowey. I would rather put a burden on those who are 
doing the investigation than the potential shooter.
    Attorney General Barr. I would put the emphasis on getting 
accurate records put into the system and make sure that we are 
getting all of the records into this system. I think a far 
bigger problem is the problem of mental health. That is another 
elephant in the room. That is where all these school shootings 
are arising from. And we have to figure out a way of upgrading 
the NICS system so it actually helps us to detect people with 
mental illness that should not have guns. And I think we should 
be investing in NICS, the accuracy of the records, the 
obligations of states to put those records into the system, and 
make that a stronger system, one that we can rely on. That is 
where I would put the effort.
    Mrs. Lowey. I am not sure what you mean by a stronger 
system. In other words, if one of your colleagues was doing a 
study and looking at a background check and said, ``I need 3 
more days,'' do you feel that person should have 3 more days, 2 
more days, 6 more days? Isn't it more important to get a good, 
thorough background check than limiting the office to 3 days?
    Attorney General Barr. No. What I was saying is that the 
better job we do of getting the records into the system, that 
we won't have those 3 days--the level of a 3 day default sale.
    I mean, you mentioned sometimes federal agencies are not 
putting the appropriate records in, as we saw with the Air 
Force situation. Sometimes state agencies are not putting the 
records in. So there are gaps in the records and that is a far 
more important thing to address.

                                  VAWA

    Mrs. Lowey. Let me go on to the next question. Let me go on 
to the next question. I do hope we can continue this 
conversation another time. You have referred to the Violence 
Against Women Act as a bad idea and not a legitimate interest 
of the Federal Government. These are investments that fund 
services for victims of domestic abuse and sexual assault that 
many of my constituents, including those trapped in cycles of 
domestic violence, and looking for a way out rely on.
    Under Republican leadership in the previous Congress, maybe 
I will just wait a minute.
    Attorney General Barr. I am sorry.
    Mrs. Lowey. The authorization of the Violence Against Women 
Act was allowed to expire despite bipartisan support. 
Thankfully, last week, the reauthorization passed the House, 
again with bipartisan support. During your confirmation 
hearing, you changed your position and supported VAWA's 
programs, pledging to familiarize yourself with the office's 
work and its program. I was delighted to hear that.
    So I would be interested in knowing whether you support the 
reauthorization of VAWA and do you support the House passed 
reauthorization bill?
    Attorney General Barr. I do support the reauthorization of 
Violence Against Women Act. I am not sure about the House bill 
and what is in it, but I do support the reauthorization of that 
provision. Let me just say that to the extent I said something 
against the Violence Against Women Statute, I believe that that 
was in the context of when it originally came up 2 and a half 
decades ago, or 30 years ago, somewhere in that range, and what 
I said was that at that point, it was a substantive law 
relating to the--federalizing certain acts of violence against 
women. And that was eventually struck down as not having a 
sufficient commerce clause basis.
    I think that is what my concern with the Violence Against 
Women Act was many, many years ago. It was a different kind of 
Act. I fully support what we are doing right now on Violence 
Against Women.
    Mrs. Lowey. Thank you very much and I am delighted that you 
support the current actions. And I am glad to know that there 
was good bipartisan support for the bill. Thank you, sir.
    Mr. Serrano. Mrs. Roby.

                 STATE AND LOCAL LAW ENFORCEMENT GRANTS

    Mrs. Roby. Attorney General Barr, I mentioned earlier in my 
questions about sex and human trafficking about the 
coordination between state and local law enforcement and how 
important that is in combating a number of different areas of 
crime. And I wanted you to address, if you would, the overall 
reduction of state and local law enforcement activities, grant 
programs by the amount of $583 million.
    Attorney General Barr. Right. Well, I think part of that, a 
big chunk of that is the reduction in the COPS grant program, 
which was in the $300 millions and we are putting it down to 
$99 million. But the $99 million does cover the hiring part of 
the COPS grant program. So that translates into continued 
hiring of state and local law enforcement officers.
    The rationale for not funding the rest of COPS is that that 
is really, we feel, addressed in the funding that goes to the 
federal opioid task forces and other task forces that the 
states can participate in and get paid by the Federal 
Government, but they are part of a federal state cooperative 
task force.
    So it is really reorienting the spending toward those joint 
task forces versus funding purely state task forces. Lee, I 
don't know if you have something to add on it about the other 
grant money.
    Mr. Lofthus. All right, on the other grant money, the 
apparent reductions in the 2020 request, one reason the grant 
dollars look smaller is that the Office of Violence Against 
Women is proposed to be moved into a mandatory funding account, 
where we think it can ensure that there is available money for 
Violence Against Women programs. The $493 million we have for 
Violence Against Women programs.
    There is also an adjustment to the crime victims money. The 
obligation limit there goes down by about a billion dollars. 
But over the last two years, that is an area that has received 
$8 billion and it has received $10 billion over the last 3 
years. So overall, we still have over $4.3 billion in grant 
programs proposed in this budget.
    The Attorney General talked about the impact on COPS, but 
$4.3 billion is what we are looking for your help on in 
supporting this year's budget.

                              ELDER FRAUD

    Mrs. Roby. Okay. Thank you. The area that I represent is 
home to a large number of retirees. I am increasingly concerned 
about the elderly being taken advantage of by scammers and con 
men, especially given the rise of technology and social media. 
So I am sure you are aware of this problem, but the question is 
what are you doing about it and again, as always, what 
deficiencies may exist that you need more resources to help?
    Attorney General Barr. Right. You know, in the area of 
fraud, it is such a vast area of law enforcement that I have 
always felt it is important to focus on the sleeping giants. 
And when I was attorney general last time, it was healthcare 
fraud, and that was, in fact, the sleeping giant. This time, I 
am trying to focus on elder fraud, which suddenly awoken into a 
major area of criminality.
    It arises because of a concatenation of events, including 
the baby boomers, a larger elder population, and the internet, 
new technologies, and some of the increased loneliness that 
many elderly people, unfortunately, experience later in life.
    And this has mushroomed, as I think anyone whose phone 
rings over the weekend with these scammers knows, more and more 
of these scams are coming along. We have a major effort in this 
area. We have one person in the department in the deputy's 
office focused on elder care enforcement and the task forces 
that are being set up to deal with that.
    In March, we had a big national sweep where we indicted 200 
defendants involved in these various scams. A lot of these 
scams are perpetrated wholly within the United States, but 
increasingly, they are actually operated by international 
criminal organizations. A lot of them come out of India. There 
are signs that organized crime, not La Cosa Nostra, but other 
kinds of global organized crime are getting into these areas. 
They are so lucrative. And the losses are substantial. And 
people--this is a population that doesn't have a runway to 
recover when they lose their life's savings.
    So we are ratcheting up the effort. We have had two annual 
sweeps with tremendous results, but I have set up a strike 
force to go after the large organized criminal organizations 
that we think are behind this.
    Mrs. Roby. Thank you. And thank you again for being here. 
And Mr. Chairman, I yield back.
    Mr. Serrano. Mr. Cartwright.

                       AFFORDABLE CARE ACT (ACA)

    Mr. Cartwright. Thank you, Mr. Chairman. Attorney General 
Barr, I would like to finish up our discussion of the 
healthcare law. Our Republican colleagues in the Senate, and in 
particular Senator McConnell, have made it clear that they have 
no intention of introducing, let alone passing, a new 
healthcare law, a new healthcare plan for at least the next two 
years. And apparently, that view has been prevailed upon the 
White House and the President has accepted it.
    My question is we have already discussed the devastating 
effects if this lawsuit wins and repeals the Patient Protection 
and Affordable Care Act. Given the position of the Senate 
Republicans and the President himself opposing any progress on 
healthcare for the next two years, if the Supreme Court of the 
United States were to grant credence to your position and sweep 
away the healthcare law, either in part or in entirety, would 
the Department of Justice support a stay of the effect of that 
ruling until Congress, the President, this Nation can formulate 
a plan properly to supplant the Patient Protection and 
Affordable Care Act?
    Attorney General Barr. Well, you are asking me to speculate 
whether or not we are going to--the administration's position 
is going to prevail in court. And beyond that, whether if it 
does prevail in court, when that is. And also whether or not 
there will be a legislative response, if in fact we prevail.
    Mr. Cartwright. That is absolutely true. I am asking you to 
speculate on those and ``if'' questions are proper in this 
room, Attorney General. If you win the case, will you agree 
that we ought to stay the effect of that until a new plan can 
go in place, rather than strand all of the people with 
preexisting conditions, and all the people that--whose 
healthcare will lapse because of that ruling?
    Attorney General Barr. Well, from my experience, the 
Supreme Court would likely deal with that in their opinion and 
provide some kind of period to wind it down.
    Mr. Cartwright. You want them to do it sua sponte, on their 
own motion with no prompting from the Justice Department; is 
that it?
    Attorney General Barr. I didn't say that. I would say 
whatever the administration's position is at that point, we 
will carry out from a legal standpoint.
    Mr. Cartwright. Well, I am dismayed to hear that you are 
willing to drive our healthcare system off the cliff with no 
plan for replacing it.
    Attorney General Barr. Well, I think your premise that the 
Justice Department makes healthcare policy is simply wrong. We 
take legal positions in cases.
    Mr. Cartwright. Well, let me--I am going to follow that up. 
Numerous reports have indicated that you, the chief lawyer for 
the Federal Government and Secretary Azar, who is the lead on 
healthcare policy for our Federal Government, strongly argued 
against supporting the complete repeal of the Patient 
Protection and Affordable Care Act. However, reports indicate 
you and Secretary Azar were overruled by Acting Chief of Staff 
Mick Mulvaney and the President himself. Now, at any point, did 
you convey either to Mr. Mulvaney or the President any concerns 
about either the effects of this lawsuit prevailing, if it 
does, or concerns about the dubious legal arguments in this 
lawsuit? And did Secretary Azar communicate concerns about the 
effects on our American healthcare system?
    Attorney General Barr. Well, I am not going to get into, 
you know, the internal deliberations of the administration on 
this point. I had ample opportunity to present my views and I 
believe that the final decision reached is a legally defensible 
and reasonable legal position. It is a position that prevailed 
in the district court. And it is a position taken by the 4 
dissenting Justices in the NFIB case, which is that once you do 
away with the mandate, the rest of the statute cannot stand.
    Mr. Cartwright. Are you citing executive privilege by 
declining to tell me about the discussions between you, Mr. 
Azar, Mr. Mulvaney?
    Attorney General Barr. Call it what you wish, I am not 
discussing it.
    Mr. Cartwright. You are refusing to discuss it. All right. 
Well, it is a decision that makes more extreme, and in fact 
even contradicts, the decision to go forward with this position 
contradicts the DOJ's June 2018 position on the case, which was 
so controversial then that 3 of the 4 career attorneys 
representing the government refused to sign onto the briefs and 
actually removed themselves from the case. The American people 
deserve to understand if you and Secretary Azar support this 
lawsuit based on sound rationale, or if it was just bald 
politics talking----
    Attorney General Barr. I said it was----
    Mr. Cartwright.--we are requesting that you submit this 
assertion of executive privilege in writing to this committee 
if that is what you are doing. Don't ask us to call it what it 
is. I am asking you if you are exercising executive privilege, 
we need to know it, and we need to know it in writing. I yield 
back, Mr. Chairman.
    Mr. Serrano. Mr. Palazzo.

                             CYBERSECURITY

    Mr. Palazzo. Well, thank you, Mr. Chairman and Attorney 
General Barr. In your testimony, you mentioned cybersecurity. 
And being that the FBI is the lead federal agency for 
investigating cyber attacks by criminals, overseas adversaries, 
and terrorists, the threat is incredibly serious and growing. 
Cyber intrusion is more commonplace, more dangerous, and more 
sophisticated.
    Targets include critical infrastructure, trade secrets, 
cutting edge R and D, identity theft, and as well as online 
predators and et cetera. While my colleagues on the left are 
chasing shiny objects, I believe the American people want us to 
address the real physical and financial threats that exist in 
the real world. Can you elaborate on the growing threat, and 
maybe provide some scenarios that we should be concerned with, 
call out some of these foreign overseas adversaries? And what 
is the FBI doing to transform itself and protect Americans?
    Attorney General Barr. You are correct that the cyber 
threat is a serious and growing threat, obviously. And it is a 
threat to our intellectual capital, our trade secrets, and 
therefore our economic health. It is a threat to our national 
security. It exposes some of our fundamental infrastructure to 
disruption. We all have heard about the attempt to penetrate 
into election infrastructure and the results of that could be 
devastating.
    The FBI is receiving in this budget $70 million to upgrade 
and enhance their cyber tools and capabilities to deal with 
these threats. A total of $72 million is in the budget.
    In terms of emerging threats, as you know, we have a China 
initiative in the department because China, we think, poses a 
very serious threat to the United States in terms of economic 
espionage, as well as classical espionage. And a lot of that 
does use cyber tools and threats--involves cyber threats to the 
United States. And we are very focused on that, as well as not 
just the industrial espionage, but also the use of non-
traditional collectors that the Chinese are able to marshal 
within the United States by coopting Chinese nationals who may 
be working in universities, or laboratories, and so forth.
    So it is a broad gauge threat and probably our highest 
priority at this point in terms of dealing with counter 
espionage.
    Mr. Lofthus. If I can add one thing. We have over $750 
million overall in our budget. The Attorney General mentions 
the $72 million increase. $70 million is the FBI. The smaller 
piece, though, it worth mentioning. It is only $2 million, but 
it is really going to have a lot of bang for its buck. It is 
money put into the Justice Security Operations Center. That 
allows us to protect our own networks from intrusions and 
malware. So it is really important that the agencies protect 
their own networks.
    Mr. Palazzo. We definitely appreciate the FBI's work on 
this. I mean, when our universities are coming up with cutting 
edge research and development and technologies, just to see 
them stolen by our adversaries. They didn't invest any money in 
it. They didn't work hard to create it. And they take it from 
us, that is--we are wasting taxpayer dollars.
    When I first came to Congress, I was on the Armed Services 
Committee and many of the generals and admirals said in one of 
their--they have several threats that they are concerned with 
that keep them up at night. There is never just one. But one of 
them that was recurring was our cyber threats, knocking out our 
power grids, crippling us, our financial markets. And that 
would just create massive amounts of chaos.
    And so these are extremely important. This is why I think 
the American people are interested in having this conversation, 
and making sure the FBI is using their resources in the 
protection and security of America.
    And to know now that that technological gap between some of 
us and our overseas adversaries, where it was 25, 30, 40 years, 
just 8 years ago now we are neck and neck. That is a true 
threat to our economy, as well as our national security. So 
Attorney General, thank you. And thank your team at the FBI for 
taking care and keeping America safe. Thank you.
    Mr. Serrano. Ms. Meng.

                SPECIAL COUNSEL MUELLER'S INVESTIGATION

    Ms. Meng. Thank you. And Attorney General, I want to thank 
you for clarifying the answers to my questions. And I just want 
to confirm in relation to communication with the White House or 
any of its team, you are answering that for both the March 24 
and the March 29 letters, correct?
    Attorney General Barr. Yes. Yes.

                              ELDER FRAUD

    Ms. Meng. Thank you. You brought up a really important 
topic in my district, and I am sure in many of my colleagues' 
districts, about elder fraud. Last year, I had a piece of 
legislation signed into law by President Trump, supported by 
Congressman Barton and Lance at the time. And basically 
targeting and allowing the United States to prosecute those 
calls that you mentioned that were actually coming from outside 
of the United States.
    We were very happy to have the legislation signed. However, 
our local law enforcement, in our case, the NYPD, is having a 
difficult time in terms of actually catching and figuring out 
who these perpetrators are. I don't know if you have any 
further ideas on how we can approach this, and just in general 
in the future, I would love to work with your office on this.
    Attorney General Barr. Yes, I would like to do that, 
Congresswoman. That is exactly why I set up the strike force to 
be able--I think we need to get ourselves to a higher level of 
sophistication in pursuing these crimes because although they 
might appear to the victim to be sort of not very 
sophisticated, they are, in fact, very sophisticated and we 
have to get back to the people behind the scam. And we have to 
use all of our tools, our treaty tools, our cooperative 
agreements with the enforcement authorities in other countries 
to get the information we need.

                             CIVIL DIVISION

    Mr. Lofthus. You can help us in our budget on this. We have 
$611,000 in the Civil Division's budget in the consumer 
protection branch. They do a lot of elder fraud work and we 
sure could use that money in this year's budget to help the 
civil division continue its work in the elder fraud area.
    Ms. Meng. Thank you. My second question----
    Attorney General Barr. One other thing I could say is that 
I have asked to put together a number of additional legislative 
proposals that would give us more tools in this area, as well 
as more effective penalties. And I think that is being done and 
I will be proposing them. So I would like to provide them to 
you once we are done.

                            SANCTUARY CITIES

    Ms. Meng. Sure. Thank you. I just wanted to ask about 
sanctuary jurisdictions. As you know, last November, Judge 
Ramos of the Southern District of New York said the Trump 
administration cannot compel states and cities to cooperate 
with federal immigration authorities as a condition for 
receiving law enforcement funds, such as Byrne JAG. In other 
words, Judge Ramos ordered the administration to award fiscal 
year 2017 funds without condition, and became the fourth 
federal judge to rule against the administration on this issue.
    The Department of Justice's 2018, 2022 strategic plan 
states that you still intend to end sanctuary jurisdictions. 
What is the plan? How do you intend to continue with these 
conditions for the fiscal year 2019 grants?
    Attorney General Barr. Well, you are right that we have 
lost in a number of district courts, but that is why we have 
appellate courts. So we are appealing those decisions.
    Ms. Meng. So you still intend to continue then. Okay.
    Attorney General Barr. Yes.
    Ms. Meng. Thank you. I yield back.
    Mr. Serrano. Mr. Graves.

                SPECIAL COUNSEL MUELLER'S INVESTIGATION

    Mr. Graves. Thank you, Mr. Chairman. General, I am just 
trying to close things out. Oftentimes when an individual or 
folks are in denial, closure helps. And there are a lot of 
unanswered questions. We have heard some here today. I want to 
just read a few quotes to you and then let's go through a 
series of questions.
    Presidential candidate Eric Swalwell, who is a member of 
the House Intelligence Committee, said, ``In our investigation, 
we saw strong evidence of collusion.'' He declared President 
Trump an agent, ``working on behalf of the Russians.'' 
Judiciary Chairman Nadler claimed, ``It is clear that the 
campaign colluded. And there is a lot of evidence of that.'' 
Senator Blumenthal, who is a member of the Judiciary Committee, 
assured us last year that, ``The evidence is pretty clear that 
there was collusion between the Trump campaign and the 
Russians.''
    Now, assuming they are speaking from a position of truth 
and not attempting to mislead anyone, do they have access to 
any evidence that the investigators did not have access to?
    Attorney General Barr. Not to my knowledge, but I don't 
know what access they had. I would be in a better position to 
address that once the report is out.
    Mr. Graves. To your knowledge, are they withholding any 
evidence from the investigators?
    Attorney General Barr. Not to my knowledge.
    Mr. Graves. And if they did knowingly withhold any evidence 
from the investigators, is that akin to obstruction or 
something similar?
    Attorney General Barr. I don't want to speculate about 
that.

                           MARCH 24TH LETTER

    Mr. Graves. You also stated earlier that as you were 
preparing the March 24th letter, you offered the Mueller team 
the opportunity to assist in that, yet they declined; is that 
correct?
    Attorney General Barr. Not to assist. We----
    Mr. Graves. Or to review. What was your term?
    Attorney General Barr. To review it.
    Mr. Graves. To review. And yet reports indicate that there 
were a few disgruntled investigators on the team who since 
then, without names, under a shroud of secrecy themselves, have 
expressed that they are upset with your findings. But your 
findings basically just restated the report; is that correct?
    Attorney General Barr. That is what I tried to do.
    Mr. Graves. So in essence----
    Attorney General Barr. They weren't my findings. I was just 
trying to state the principal conclusions of the report.
    Mr. Graves. So the letter just basically restated what was 
found in the report as it was given to you.
    Attorney General Barr. As I say, the bottom line 
conclusions.
    Mr. Graves. And so, in essence, they are just upset with 
their own findings.
    Attorney General Barr. I don't know whether they are upset.
    Mr. Graves. Have you heard from any of the disgruntled 
Mueller investigators?
    Attorney General Barr. I think the article says something 
like associates, is sourced to associates of----
    Mr. Graves. Third person, too, if I might add.
    Attorney General Barr. Some of the people who worked on the 
Mueller report. I am not sure who it refers to. I haven't----
    Mr. Graves. Were the investigators, or anyone assisting the 
Mueller team, did they have security clearances?
    Attorney General Barr. Yes. I would think so, yes. At least 
many of them did, I am sure.
    Mr. Graves. So it is possible that some of this information 
that is being leaked or potentially going to be leaked is in 
violation of security clearances as well?
    Attorney General Barr. Well, only if it were classified 
information. I haven't seen any classified information leaked 
from--that I would attribute to the special counsel's office.
    Mr. Graves. Right, so this information--I think as you 
stated it, is multiple levels removed from the source, it 
seems, so I would hope no one on this committee and no member 
of Congress would take that information as fact.

                             CYBERSECURITY

    Shifting to cybersecurity, first let me thank you. You have 
done a great job today answering our questions. We did meet 
with Director Wray last week and he is doing a fantastic job as 
well. Cybersecurity is something that I have a passion for. I 
have been very aggressive in advocating for a policy that 
allows for active cyber defense, allowing one the ability to 
defend his or her network outside of that network, and not 
requiring he or she wait in a passive posture until he or she 
has actually been impacted.
    Your department has broad purview over a lot of this and I 
would like the opportunity to work with you and your team to 
see how we might better advance policy. The Cyber Fraud and 
Abuse Act hasn't been updated in decades. It deserves a good 
review and an aggressive stance. Again, I would like to work 
with you, your team, or whoever you might designate as we look 
ahead. Thank you again for your testimony today, for taking 
time to join us, and for your good work. Mr. Chairman, thank 
you.
    Mr. Serrano. Mr. Crist.

                       AFFORDABLE CARE ACT (ACA)

    Mr. Crist. Thank you, Mr. Chairman. Mr. Barr, during the 
heat of the 2018 midterm election, President Trump pledged to 
protect coverage for Americans with preexisting conditions. Are 
you aware of that or were you aware of that?
    Attorney General Barr. Yes.
    Mr. Crist. Are you aware that prior to the Affordable Care 
Act, up to 130 million Americans had some type of preexisting 
condition that insurance companies could use to deny coverage, 
delay treatment, or limit access?
    Attorney General Barr. I didn't know that number, but it 
sounds reasonable. Yes, sir.
    Mr. Crist. Are you aware that the Affordable Care Act made 
discrimination against preexisting conditions against the law?
    Attorney General Barr. Yes.
    Mr. Crist. Do you agree that the Texas Affordable Care Act 
ruling, if affirmed by the Supreme Court, would eliminate the 
law in its entirety, which would necessarily include 
eliminating protections for preexisting conditions?
    Attorney General Barr. Yes. And the President has made 
clear that he supports protection of preexisting conditions.
    Mr. Crist. But pursuing this case would remove them if it 
is successful.
    Attorney General Barr. Is that a reason to take a legal 
position?
    Mr. Crist. I don't know.
    Attorney General Barr. You know, I hear members of the 
committee basically saying, you know, you have taken this legal 
position that can have bad consequences, bad policy 
consequences.
    Mr. Crist. Yes.
    Attorney General Barr. But as you know, as an Attorney 
General, you take positions based on the law, and you litigate 
them in court, and the court makes the decision.
    Mr. Crist. That is true.
    Attorney General Barr. So if this was such a hokey position 
to take, what are you worried about?
    Mr. Crist. What am I worried about?
    Attorney General Barr. Yes. You are acting like--you say 
that the administration's position is hokey. And then you say 
the sky is falling.
    Mr. Crist. I didn't say that.
    Attorney General Barr. Well.
    Mr. Crist. Those are your words, sir.
    Attorney General Barr. OK. So if it is not hokey, then----
    Mr. Crist. What am I worried about? I am worried about 
millions of Americans----
    Attorney General Barr. I am just saying, I am a lawyer. You 
know, I am not in charge of healthcare. I litigate on behalf of 
the United States.
    Mr. Crist. I will try not to interrupt you. I would expect 
the same. What I am worried about are the people I work for, 
the American people, and the people you work for, sir. And it 
is our duty around here to look out for their best interest as 
public servants. And that is what I am worried about.
    Attorney General Barr. We are very worried about them. And 
the President has made clear that he wants a strong healthcare 
legislation and he wants to protect preexisting conditions in 
the event that the court accepts the legal arguments that we 
have presented.
    Mr. Crist. Worries about it so much so that you are 
pursuing a case that would take it away from them. The irony of 
that is rich.
    Attorney General Barr. Well, as I say, we----
    Mr. Crist. I yield my time. Thank you.
    Mr. Serrano. Mr. Case.

                SPECIAL COUNSEL MUELLER'S INVESTIGATION

    Mr. Case. Thank you. When you offered Mr. Mueller the 
opportunity to review or edit, I am not exactly sure what your 
characterization was--your 3 and a half page summary of his 
report, and he declined, did he give you a reason why he 
declined?
    Attorney General Barr. I didn't talk to him directly.
    Mr. Case. Were you provided with a reason why the Mueller 
team did not want to participate?
    Attorney General Barr. I don't recall whether I was--
whether a reason was given.
    Mr. Case. So somebody offered to them that they could 
review your summary, make comments.
    Attorney General Barr. It wasn't a summary. It was a 
statement of the principal conclusions. It wasn't a summary of 
the report.
    Mr. Case. Okay. Your 3 and a half page letter, did you take 
it that there was no reason given back for their declining to 
do so?
    Attorney General Barr. Did I what?
    Mr. Case. Did you take it that there was no reason for them 
to do so? In other words, did they not tell you, in any way, 
shape, or form why they declined to participate in reviewing 
your 3 and a half page letter?
    Attorney General Barr. As I say, I don't recall whether 
that was relayed to me. My sense was that he understood that 
this was the function of the Attorney General. I am the person 
to whom the report is given.
    Mr. Case. Okay. You know, I am listening to you on the 
Mueller report and here is my problem. You say in your March 
24th letter that you are mindful of the public interest on this 
matter and that you will release as much of the report as you 
can, consistent with applicable law, regulations, and 
department policies.
    You follow up with a letter of a few days later outlining 
four categories in which you are evaluating redactions. One of 
those categories is Grand Jury related to Federal Rule of 
Criminal Procedure 6(e). The other three are intelligence, 
ongoing prosecutions, and privacy reputational interests. And I 
ask you what is the authority for that. And you track it back 
to department policies, which do not have the force of law.
    Attorney General Barr. They do when they are embodied in 
regulation.
    Mr. Case. The regulation triggers back to department 
policies which----
    Attorney General Barr. Right. The regulation states that 
any disclosure has to be in accord with those policies. It is a 
regulatory mandate.
    Mr. Case. Do you consider that you have the discretion as 
to how you apply those department policies?
    Attorney General Barr. I have discretion.
    Mr. Case. Okay. And so we are sitting here, from my 
perspective, with virtually unlimited discretion for you to 
redact from that document. And maybe if I trusted my government 
more, I would be comfortable with that. But since I don't, I am 
not comfortable with that. And I am looking for some way in 
which your judgment, which is going to be the arbiter as I 
understand it, of what the public sees, the arbiter, it is you 
ultimately, can be overseen.
    I have suggested to you that under 6(e), there are 
procedures under which you can go to court to ask the court to 
give you guidance, direction, or an order. I am not sure 
whether you will do that or not. I am----
    Attorney General Barr. Well, the court is limited to the 
grounds stated in 6(e).
    Mr. Case. This is correct. But you do have quite a bit of 
discretion to go to court under 6(e) if you review it. So that 
is one category. The other category, obviously, is that there 
would be some function for Congress to exercise in its 
oversight responsibility under the Constitution, but I am not 
clear as I sit here today whether you envision a role for 
Congress in that oversight.

                SPECIAL COUNSEL MUELLER'S INVESTIGATION

    Attorney General Barr. Well, I think I sort of addressed 
that. I identified the four categories. And the team that 
includes the special counsel office lawyers are implementing 
that. So they are the ones redacting what is Rule 6(e). They 
are the ones who conducted the investigation. They know what is 
Rule 6(e) and what is not Rule 6(e). That is why I am dependent 
on the special counsel to identify Rule 6(e) material.
    And the intelligence community will identify the 
intelligence stuff. And the lawyers who were prosecuting the 
cases in the special counsel's office can identify whether 
there is going to be a conflict between releasing any 
information and a court order or an ongoing prosecution.
    And the special counsel's office knows who the peripheral 
players are that they have said shouldn't be charged. So those 
are the categories.
    Mr. Case. Does Congress have a role in overseeing your 
decision as to what is and isn't taken out of the Mueller 
report? Is there any circumstances under which any member of 
Congress would have full access to all of the Mueller report, 
period, maybe under conditions. But is there any circumstance 
you can envision, sir, where Congress with whatever protective 
procedures may be in place, would have access to the full 
report to review it?
    Attorney General Barr. Yes. I did say here that once that 
report is ready for release, I would not only give it to the 
chairmen of the judiciary committees, but I would talk to them 
and engage with them about what additional information they 
feel they require and whether there is a way of accommodating 
that. As you, I am sure----
    Mr. Case. They have to give you a reason? What if they just 
want to see the report to satisfy themselves of your exercise 
of discretion?
    Attorney General Barr. Well, it depends. Take classified 
information. I can envision----
    Mr. Case. You have an intelligence committee for that.
    Attorney General Barr. Well, if you let me finish. I was 
saying I can envision a situation where under appropriate 
safeguards that information would be shared. I also think there 
may be under appropriate safeguards a way of people verifying 
that these categories were not abused and that the information 
is bonafide privacy related information and so forth. And I am 
willing to work with the judiciary committees on that.
    But I will have to say that until someone shows me a 
provision in Rule 6(e) that permits its release, Congress 
doesn't get 6(e), unless there is a provision that permits it.
    Mr. Case. There is plenty of discretion in 6(e) for you to 
make that judgment.
    Attorney General Barr. Where would you find that?
    Mr. Case. Judicial proceedings, akin to judicial 
proceedings, if you want to go there. I am sorry. I am really 
out of time. But there are a number of interpretations you can 
make of 6(e) that would give you some pretty good discretion to 
come up to Congress under limited circumstances possibly to be 
able to satisfy somebody in Congress who gets to see the entire 
report, and who gets to oversee you.
    Mr. Serrano. Ms. Lawrence.
    Ms. Lawrence. Thank you. I want to publicly thank you, 
Attorney General, for your support of Violence Against Women 
Act. It is long overdue and I do look forward to your support 
of that law.
    Also, I look forward to your release of the report next 
week, for it to be timely, and I look forward to the things 
that you are saying.

                              HATE CRIMES

    I just wanted to follow up to the previous question and let 
you know that under the Hate Crime Statistics Act of 1990, the 
FBI is required to collect and report hate crimes from state, 
local, and federal offices. In 2017, the most recent data 
available, the FBI reported a 17 percent increase in hate 
crimes on race, religion, and sexual orientation. And I do 
encourage you to look at those numbers.
    Attorney General Barr. Can I say something?
    Ms. Lawrence. Yes.
    Attorney General Barr. You know, I am very concerned about 
hate crimes and one of the priorities we have is to make sure 
that those numbers are not understating the level of hate 
crime. As you probably know, local jurisdictions are very 
spotty in the extent to which they report hate crimes. There 
are some major U.S. cities, major cities, that say there are 
zero hate crimes.
    So as you may know, the FBI is engaged in a major 
initiative to try to----
    Ms. Lawrence. Yes.
    Attorney General Barr. [continuing]. Make sure that these 
jurisdictions are accurately reporting and are converting their 
crime reporting system into a new system that actually will 
have a field in the system for hate crimes. So we are hopeful--
one of the things we have to do is get a better handle on the 
actual level of this, where it is, and so forth, and that 
depends on reporting and we are trying to improve that.
    Ms. Lawrence. And taking those who committed to trial.
    Attorney General Barr. Yes.

                              COPS GRANTS

    Ms. Lawrence. I thank you. That is a lot better answer than 
before. I wanted to talk to you, I was previously a mayor 
before becoming to Congress and COPS grants, which I used as a 
mayor, was just really an amazing support that we have in our 
cities across the country. Unfortunately, there is cities who 
are being told they are no longer eligible. This is creating, 
we know after the economic downfall, a number of cities reduced 
their number of police officers. And although they are not back 
at the regular--at the amount they were before, they were able 
to increase that deficit with COPS.
    Can you tell me what was the thinking, and what is 
happening with the COPS grant? And you are going to hear more 
about this because this is a critical funding to cities.
    Attorney General Barr. Right. So as I understand it, the 
COPS grants had two components: one was the hiring of police 
officers, and that was running at $99 million, and that is what 
we are asking for in this budget, which is to continue that 
program.
    The other money related to the funding of state and local 
task forces. And I think the thinking behind not asking for 
that money was that we would rather--support joint federal, 
state, and local task forces, where the money does benefit the 
state and locals because when they participate in the joint 
federal state task forces, they are paid. But the idea was 
let's put our effort on these joint task forces rather than 
putting the dollars----

                            CIVIL RIGHTS/CRS

    Ms. Lawrence. I ask that you look at that because that is 
critical. And those joint task forces, human trafficking and 
drug trafficking has been extremely beneficial in cities.
    The other question I want to ask is about the decision of 
the President's budget to transfer the Community Relations 
Service to the civil rights department. And that activity, the 
proposal requests minimum funding and staff to be dedicated to 
the functions of community relations.
    Attorney General, you know so many of the issues that we 
have had, and riots, and civil unrest, we have deliberately 
infused money into the community relations. In doing this, in 
consolidating, there are going to be reductions in staffing of 
the civil rights community relations initiative. How do you 
ensure that the Civil Rights Act is fully enforced with these 
cuts to the budget?
    Attorney General Barr. Right. This, I think, is the second 
year in a row this is being proposed. My understanding of the 
rationale is that currently the CRS has I think maybe 50 
positions, and they are spread in small offices around the 
country, sometimes just one or two people in whole areas of the 
country.
    And I think the idea is that given what they are actually 
involved in, it would be more efficient to have them co-housed 
with the civil rights division and have a reservoir of people, 
essentially, I think 15 slots of people who could be deployed 
when there is a situation that needs their services, rather 
than maintaining this whole nationwide structure with very 
small offices. That is the rationale for it.
    Ms. Lawrence. Yes. I really need you to do a deep dive in 
that because this proposed move undermines the express terms of 
Title 10 of the Civil Rights Act by inserting the civil--I 
mean, the community relations into a division that you are not 
supposed to have in a division that litigates and investigates.
    And so to me, I see this combining is a direct attack on 
Title 10 and it is also--it is not in compliance with combining 
those two together. And so this is an area that I will be 
looking at very closely and the funding of doing that is not 
something I would support. Thank you.
    Attorney General Barr. Thank you.
    Mr. Serrano. Mr. Attorney General, before I close, I am 
just going to make a very personal statement. Like so many 
people in this House, I grew up politically in the 1960s. That 
is where I developed a lot of my feelings about things in our 
great country. And we were a group of people trying to make the 
country even better than it was, knowing that it was great at 
all times. It is still great.
    Whenever things got rough with segregated housing, or 
education issues, or civil rights issues, or voting rights 
issues, we knew there was always a Justice Department we could 
turn to. We always knew that that Justice Department would 
defend the law and therefore defend the people, and somehow 
come through for us.
    It is very troublesome to see a Justice Department against 
the law of the land when there are many people who if not 
liking the whole law, certainly like the preexisting conditions 
provision, the ability to keep their child on their plan until 
that person is 26. And so I hope that if you take something 
from here today, since we took a lot from you in information, 
is to maybe look around and realize, or pay more attention to 
the fact that we lean on you to come through for this country. 
And when we see you taking sides against the law of the land, 
or taking sides that we may not think is in the best interest 
of the American people, it troubles us.
    Nevertheless, we want to thank you for your testimony 
today, for your patience with the time, and I think--I want to 
thank my committee members on both sides. Mr. Aderholt, it was 
a great hearing, great attendance, and I am sure your picture 
is somewhere in the files today. Thank you so much, Mr. 
Attorney General.
    Attorney General Barr. Thank you, Mr. Chairman. Thank you.
    Mr. Serrano. The meeting is adjourned.
    [Clerk's note. The Department did not respond with answers 
to submitted questions in time for inclusion in the record.]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                                         Tuesday, April 30, 2019.  

                OVERSIGHT OF THE 2020 CENSUS PREPARATION

                               WITNESSES

 STEVEN DILLINGHAM, DIRECTOR, U.S. CENSUS BUREAU
ROBERT GOLDENKOFF, DIRECTOR OF STRATEGIC ISSUES, GOVERNMENT 
    ACCOUNTABILITY OFFICE
NICHOLAS MARINOS, DIRECTOR, INFORMATION TECHNOLOGY AND CYBERSECURITY, 
    GOVERNMENT ACCOUNTABILITY OFFICE
KEVIN SMITH, CHIEF INFORMATION OFFICER, U.S. CENSUS BUREAU
    Mr. Serrano. The subcommittee will come to order. Good 
morning, everyone.
    Today we welcome Dr. Steven Dillingham, Director of the 
Census Bureau; Kevin Smith, the Chief Innovation Officer of the 
Census Bureau; Robert Goldenkoff, Director of Strategic Issues, 
Government Accountability Office; and Nicholas Marinos, the 
Director of Information Technology and Cybersecurity at the 
Government Accountability Office.
    You are all here to talk about the 2020 Census 
preparations, which are now in their final stages.
    We are now in the critical stages of the rollout and 
administration of the 2020 Census. Unfortunately, as we 
discussed the funding needs for fiscal year 2020, we seem to 
have more uncertainty than I have ever seen at this point in a 
decennial cycle. That is almost entirely the result of the 
decision to try and add an untested citizenship question to the 
form.
    While we wait for the Supreme Court to rule on the legality 
and constitutionality of that addition, I am deeply concerned 
that the Bureau remains unprepared for and unwilling to admit 
culpability in creating this situation. In particular, I am 
worried that the Bureau remains seriously unready to administer 
a census that includes a citizenship question. I have heard 
little of any plans to address community fears in immigrant 
communities about what this information is used for. You are 
only studying the impact of the question this summer when it 
will be too late to address outreach and communications, based 
on the results.
    Your budget request of $6.149 billion for the 2020 Census 
is inadequate and does not include funding for a contingency 
fund previously requested by Secretary Ross. I am not sure if 
these decisions are yours, Director Dillingham, but it is 
apparent that the White House and the Secretary have little 
interest in a fair or accurate census; in other words, the fix 
is in.
    I realize, Director Dillingham, this mess is not entirely 
your fault. After all, you were not confirmed when the decision 
was made to add a citizenship question to the decennial form 
and you report to the Secretary of Commerce, who instigated 
this political farce in the first place. I have no doubt about 
your desire or the desire of the thousands of Census Bureau 
employees to administer a census that accurately reflects how 
our country has grown and changed, but you have been dealt a 
very bad hand and you are being forced to administer this 
census at an extreme disadvantage.
    Today, I hope we can hear about the Bureau's preparations 
for next year, what challenges remain, and how the Bureau will 
react when the Supreme Court rules on the validity of the 
Secretary's process for changing the decennial census form. 
This committee stands ready to help you in every way possible, 
and our questions today are designed to highlight our concerns 
and our communities' needs as you move forward. We hope you and 
your staff and paying close attention to these concerns.
    This is, of course, something that is on everybody's mind 
in many communities throughout the country. I can tell you that 
in mine it is a big issue and it is everywhere, and it is on 
the mind of many people in Congress. So I hope that we all pay 
attention to today's hearings, both here and afar, because this 
issue still has to be resolved and we need a fair and accurate 
count.
    And with that let me turn to my friend Ranking Member 
Aderholt for his remarks.
    Mr. Aderholt. Thank you for yielding, Mr. Chairman, and I 
too want to welcome all of our witnesses that are here to the 
Commerce, Justice, Science subcommittee today to testify 
regarding the 2020 Census.
    It is difficult to believe that we are just now 11 months 
out from Census Day, April 1st, 2020. As we all know, Census 
Day will represent the culmination of nearly a decade of 
research, design, integration, and testing of the Bureau's 
substantial efforts to modernize the census and make it easier 
for people to respond any time and anywhere.
    I do appreciate the Bureau's commitment to assuring a full, 
fair, and accurate count of all Americans in 2020. The Bureau 
has a monumental task and it is a task that I know all four of 
you take very seriously.
    For fiscal year 2020, the Department of Commerce has 
requested, as you know, $2.3 billion in additional funding in 
order to support your efforts to meet the constitutional 
mandate for the 2020 Census. This subcommittee must examine, 
therefore, whether the funding requested for fiscal year 2020 
is adequate to meet your needs, both anticipated and those 
arising under different contingencies.
    The ambitious, but worthy effort of converting to an 
Internet-based enumeration has required much research, 
planning, and coordination, not to mention the scaling of 
complex systems to make sure they can handle the massive amount 
of data that comes with counting more than 300 million people.
    I look forward to learning today as we have this hearing 
about the key indicators of your readiness, such as the 2018 
End-to-End Test; the status and nature of your communications 
campaign; the on-boarding activities well underway this year; 
and, finally, I would like to say a few words about the topic I 
know that there is a lot of concern about by a good number of 
people. And let me just add, a lot of good people disagree on 
this issue, but I will say I do believe the Federal Government 
does has a compelling interest in collecting primary-source 
data on citizenship.
    By law, the Census Bureau cannot disclose anyone's response 
or share data from which an individual can be identified, and 
that goes to even other Federal agencies. The law, in my 
opinion and what I understand, is very clear on this: a 
person's response that they are not a citizen does not provide 
the government with any reliable information about whether they 
are lawfully present in the United States.
    There are some who would like to turn this into some kind 
of campaign of fear surrounding this question, but I really 
think this can be a situation about education.
    I look forward to hearing about the census effort to 
mitigate the skepticism and the lack of awareness associated 
with every decennial census, and expect to hear that equal 
focus will be afforded to all segments of the so-called hard-
to-count populations, including a lot who live in my home state 
of Alabama. Many of them lack broadband Internet service, a lot 
of them have rural addresses, and there are, of course, quite a 
few that distrust the Federal Government, and it might result 
in an undercount.
    So, Mr. Chairman, thank you for holding this hearing, and I 
will yield back.
    Mr. Serrano. Thank you, Mr. Aderholt.
    Now it is my pleasure to introduce my chairwoman, the 
Chairwoman of the Full Committee, Mrs. Lowey of New York, for 
her remarks.
    Mrs. Lowey. Welcome. Thank you, Chairman Serrano and 
Ranking Member Aderholt, for holding this important hearing.
    While I frankly was very disappointed that Secretary Ross 
refused to testify before the subcommittee, and I am really 
puzzled about that, I have known the Secretary for a long time 
and I was looking forward to hearing from him today, but I am 
very pleased to have these esteemed witnesses with us and I 
thank you for appearing.
    The 2020 Census is a serious constitutional obligation that 
must be adequately funded and free of partisan interference. 
The 2020 count will shape how federal dollars are shared 
nationwide for the next decade and that means it determines how 
much each community receives for schools, roads, health care, 
and other public services that our constituents rely on daily. 
Unfortunately, this Administration is playing football with 
this fundamental function of our government.
    We know that certain hard-to-reach populations are much 
more difficult to count than others; those groups are 
vulnerable to underestimation. My home state of New York has a 
number of people who are frequently undercounted, such as 
African Americans, foreign-born residents, Latinos. Part of the 
beauty of New York is our diversity and we must do everything 
we can to ensure an accurate census count. Underfunding the 
census puts New York communities that need funding most at risk 
of losing more than $73.3 billion.
    On top of funding issues associated with the census, this 
Administration's decision to include the citizenship question 
is, frankly, highly offensive and, as multiple Federal courts 
have held, unconstitutional. It is an unnecessary addition and 
a clear attack on immigrant and other minority communities; 
frankly, it must be stopped. Congress and this committee should 
work together with the Census Bureau to protect our most 
vulnerable communities, and I look forward to a productive 
discussion today that highlights ways we can preserve the 
sanctity of our democracy and best represent our constituents.
    So I thank you very much, Mr. Chairman.
    Mr. Serrano. Thank you, Chairwoman Lowey.
    Director Dillingham, you are now recognized for 5 minutes. 
Please try to keep it to 5 minutes and you have our word that 
every word you wrote will be on the record.
    Mr. Dillingham. Good morning, Chairman Serrano, Committee 
Chairwoman Lowey, Ranking Member Aderholt, and members of the 
subcommittee. Thank you for inviting me to be with you today. 
We appreciate your strong support for the Census Bureau and its 
work; we are deeply grateful to Congress for funding our 
programs. We are highly confident that the budget request for 
fiscal year 2020 supports the operation of a complete and 
accurate count of our Nation's population.
    The budget request has $7.2 billion in total resources, it 
includes $1 billion in carried-over funds. The request 
represents a $3.3 billion, 88-percent increase from fiscal year 
2019. Of that, $6.3 billion is for the 2020 Census, the rest is 
for other programs, including data processing and 
dissemination; data releases of the Economic Census, Census of 
Governments; and a collection of monthly, quarterly, and annual 
data, including the Principal Economic Indicators, the American 
Community Survey, and other economic, demographic, and 
geographic programs.
    In fiscal year 2018, you provided advanced funding of 
nearly $1 billion, allowing us to continue our 2020 Census work 
during the funding lapsing, and we thank you. Funding certainty 
will continue to be a vital need.
    Presently, we are on schedule, on budget, on message, and 
on course to complete the biggest and best census ever. We and 
our partners are excited and committed. Our mission is to count 
every person once, only once, and in the right place, and with 
your support we will accomplish this mission.
    We have made a number of major improvements, including 
better technologies for canvassing and enumerating; new options 
for responding--the Internet, the phone, as well as the paper--
more language assistance; customer-assistance phone centers; 
more partners and partnership specialists; a sophisticated and 
expanded media campaign; and advanced IT safeguards and privacy 
protections.
    These successes and time-tested operations increase our 
confidence that we can conduct a complete and accurate census 
within the budget.
    During the 2018 End-to-End Test, which was our dress 
rehearsal, we successfully tested and deployed census 
operations and systems. The results, including the self-
response rates, exceeded projections. The systems worked 
efficiently, enumerator productivity rose about 50 percent, and 
responded information was securely encrypted and processed.
    Confidentiality is a core part of the Census Bureau's 
culture, it requires response data to be used only for 
statistical purposes. Those working with the data take a 
lifetime oath not to share confidential information, including 
with law enforcement. Unlawful disclosures subject violators to 
fines and imprisonment. The Bureau has decades of success in 
carrying out this responsibility.
    IT security enhancements and preparations for 2020 are 
underway. In-Field Address Canvassing begins in August. Our 
communications contractor team includes leaders in advertising 
and multi-cultural subcontractors with experience in reaching 
everyone.
    We are recruiting trusted voices from communities to 
motivate people to respond. We are hiring 1,500 local 
partnership specialists, almost double that from the last 
decennial census. We plan to establish a record 300,000 
partnerships. Communications and partnerships encourage 
everyone, especially the hard-to-count, to respond to the 
census. We plan to reach under-counted children; areas with 
limited Internet access; rural and remote areas; hard-to-count 
groups; and households lacking English proficiency through 
online and phone assistance in English and 12 other languages 
covering more than 99 percent of all households, plus materials 
in 59 languages.
    We are committed to reaching the hard-to-count populations, 
and have answered the committee's request as to how this might 
be expanded.
    In closing, I am pleased to testify with the Government 
Accountability Office. We consult closely with GAO on key risks 
and steps to mitigate them; we have closed about two thirds of 
the GAO recommendations, we have action plans for the others. 
We value GAO input and engagement, and are encouraged by recent 
progress.
    We thank this committee and Congress for communicating the 
shared message that the 2020 Census is easy, safe, and 
important. It is easy, because you can respond online, by 
phone, or on paper. This creates new efficiencies, it saves 
dollars, it relieves burdens, and it reassures people that 
assistance is but a phone call away. It is safe, because we 
have the latest and best technologies and practices to protect 
the data and confidentiality. And it is important, because it 
is used to apportion the House of Representatives; to allocate 
the billions of dollars, as was mentioned; and to guide 
decisions by individuals, communities, businesses, and 
government at all levels.
    Finally, we commend the members of this subcommittee, and 
the full committee and the Congress, for your interest, support 
and valued partnership. We look forward to working together.
    I will be happy to answer your questions.
    [The information follows:]
[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 
    
    Mr. Serrano. Thank you.
    Director Goldenkoff, you are now recognized for 5 minutes. 
Same rules, same request, try to keep it to 5 minutes and we 
will include everything in the record for you.
    Mr. Goldenkoff. Thank you.
    Chairman Serrano, Chairwoman Lowey, Ranking Member 
Aderholt, and members of the subcommittee. GAO is pleased to be 
here today to discuss the Census Bureau's readiness for the 
2020 head count.
    As you know, in recent years we have identified a number of 
operational, IT, cybersecurity, and other challenges that raise 
serious concerns about the Bureau's ability to conduct a cost-
effective enumeration. In February 2017, we added the 2020 
Census to GAO's list of high-risk government programs and it 
remains on our high-risk list today.
    My remarks this morning will focus on two such challenges: 
implementing design innovations aimed at controlling costs and 
developing reliable cost estimates that better account for 
risks and inform annual budget requests. My colleague Nick 
Marinos will then discuss the challenges the Bureau faces in 
implementing and securing critical IT systems.
    The bottom line is that, as the countdown to Census Day 
grows short, the Bureau has made important progress toward 
mitigating some of the risks facing the Census, and we are 
encouraged by the Commerce Department and the Census Bureau's 
leadership commitment toward carrying out a cost-effective 
enumeration. Still, the Bureau estimates that the census may 
cost as much as $15.6 billion, which is a $3 billion increase 
over the Bureau's original estimate, and significant 
operational uncertainties lie ahead.
    For example, with respect to design innovations, to help 
control costs while maintaining accuracy, the Bureau will use 
new procedures and technology for 2020, including greater use 
of automated data-collection methods; administrative records in 
place of data collected by enumerators; verifying most 
addresses using aerial imagery and other in-office procedures 
rather than by going door to door; and allowing households the 
option of responding to the Census via the Internet.
    These innovations show promise for controlling costs, but 
they also introduce new risks, in part because they have not 
been used extensively, if at all, in early numerations. As a 
result, testing is essential to ensure that key IT systems and 
operations will function as planned. However, citing budgetary 
uncertainties, the Bureau scaled back operational tests in 2017 
and 2018. Without sufficient testing across a range of 
geographic locations, housing types, living arrangements, and 
demographic groups, operational problems can go undiscovered, 
and the opportunity to refine procedures and systems could be 
lost.
    Another risk factor is the reliability of the Bureau's 2020 
life cycle cost estimate. In August 2018, we found that, 
although the Bureau had taken steps to improve its cost-
estimation process compared to prior iterations, it still 
needed to implement a system to track and record variances 
between actual and estimated cost elements. The Bureau plans to 
release an updated version of the cost estimate sometime this 
spring. To ensure that this and any future versions reflect 
best practices, it will be important for the Bureau to 
implement our open recommendations.
    In short, while the Bureau and the Department of Commerce 
have taken important steps to keep preparations for the 
decennial on track, additional steps are needed. For example, 
over the past decade GAO has made 97 recommendations to help 
address risks facing the 2020 Census. The Department of 
Commerce has generally agreed with these recommendations and 
has taken actions to address many of them. However, as of April 
2019, 24 of the recommendations have not been fully 
implemented.
    Going forward, to help ensure a cost-effective head count 
in the months ahead, continued leadership attention and strong 
congressional oversight will be needed to help ensure that the 
Bureau implements our open recommendation; that key components 
and systems work as required; that preparations stay on 
schedule; and that management functions follow leading 
practices.
    This concludes my prepared remarks. I will now turn it over 
to my colleague Rick Marinos, who will discuss the risks facing 
the Bureau's IT and cyber efforts.
    Mr. Serrano. Thank you.
    Director Marinos, you are recognized for 5 minutes.
    Mr. Marinos. Thank you.
    Chairman Serrano, Chairwoman Lowey, Ranking Member 
Aderholt, and members of the subcommittee, thank you for 
inviting GAO to discuss the Bureau's efforts to prepare for the 
2020 Census.
    As Robert mentioned, our most recent high-risk report 
highlighted a number of IT-related challenges, these included 
IT systems readiness and cybersecurity. To sum up where we 
stand today, significant work still remains for the Bureau to 
address these challenges prior to the 2020 Census.
    Starting with systems readiness. The Bureau plans to rely 
heavily on IT for the 2020 Census, including through using over 
50 systems across different stages of Census operations. Many 
of these systems will be deployed multiple times in order to 
add needed functionality over the course of 16 operational 
deliveries planned by the Bureau.
    Last fall, the Bureau delivered the first group of systems 
to support early hiring and training, and the next 4 months 
will see key testing and production deadlines for many 
additional systems. However, our written statement notes that 
the Bureau is at risk of not meeting near-term system 
development and testing schedule milestones for two upcoming 
operational deliveries. These include deliveries that support 
address canvassing, which is intended to verify the location of 
housing units across the country, and Internet self-response, a 
new innovation that the Bureau intends to rely on for a 
significant portion of responses to the census. The Bureau 
needs to closely monitor the risks associated with the systems 
that support these two important census activities in order to 
ensure that they are all delivered on time.
    Regarding cybersecurity, the Bureau has efforts underway to 
assess the security of its systems and identify weaknesses that 
need fixing. To the Bureau's credit, it has established a risk-
management framework that requires it to conduct a security 
assessment for each system expected to be used for the 2020 
Census and to address any security vulnerabilities identified 
through the course of testing.
    We are encouraged that, in addition to performing its own 
assessments, the Bureau is coordinating with the Department of 
Homeland Security on cybersecurity issues. Through assessments 
conducted over the last 2 years, DHS has made 17 
recommendations aimed at improving the Bureau's cybersecurity 
posture and strengthening its ability to respond to potential 
cyber threats. These internal and external assessment 
activities and their findings are critical, especially since 
the majority of the Bureau's systems that will support the 2020 
operations contain personally identifiable information. 
However, our written statement calls for significant management 
attention by Commerce and Bureau leadership in order to ensure 
that security deficiencies are not only identified, but 
corrected.
    Specifically, we are making two recommendations today. The 
first calls for the Bureau to address its security to-do list 
in a timelier manner. Recent data indicates that the Bureau has 
been challenged in meeting its self-prescribed time frames for 
taking corrective actions for security weaknesses, including 
those it designates as high or very high risk. Resolving 
identified vulnerabilities within these time frames can help 
reduce the risk that unauthorized individuals may exploit 
weaknesses to gain access to sensitive information in systems.
    The second recommendation calls for the Bureau to improve 
its process for tracking and completing corrective actions in 
response to DHS's assessments and recommendations. At the 
present time, the Bureau has yet to fully establish such a 
formal process.
    The bottom line is that the security-assessment efforts 
conducted by DHS and the Bureau itself will only be as valuable 
as the security fixes that the Bureau fully implements.
    In summary, we are running short on time before key census 
operations begin. Moving forward, it will be vital for the 
Bureau to devote enough time and effort to complete IT system 
development activities and address identified security 
weaknesses in a timely and prioritized way.
    Mr. Chairman, this concludes my statement.
    Mr. Serrano. Thank you.
    Director Dillingham, as I mentioned in my opening 
statement, there is a greater degree of uncertainty with regard 
to the administration of the 2020 Census than any decennial 
census I have dealt with. We are currently waiting for the 
Supreme Court to determine the legality and constitutionality 
of the addition of a citizenship question on the 2020 form, but 
the Bureau has had to continue preparing for the 2020 Census 
regardless.
    My understanding is that you essentially have two versions 
of the 2020 Census ready to go for printing; however, what is 
less clear to me is whether your outreach, communications, and 
partnership activities also have two parallel paths.
    Question: what is the Bureau doing to prepare for the 
Supreme Court's decision? You have different strategies for 
deployment depending on results and can you share those changes 
with us today?
    Mr. Dillingham. Thank you, Mr. Chairman. I would like to 
update you and I appreciate the concerns about uncertainties 
surrounding the decennial census in some quarters and in the 
media, et cetera.
    I can assure you that--you asked if we had two different 
plans, for printing purposes in the beginning of July, we do. 
We have two systems ready to go as to which questionnaire will 
be printed, but after that we have a process in place and an 
execution plan that will proceed regardless.
    Now, one of the issues, as you have pointed out and as 
Committee Chairwoman Lowey has pointed out, is what about there 
could be a question on citizenship in there and how might that 
impact. And we are conducting a study this summer, the results 
will be available in October, for just the purpose of 
operational needs. So as a result of doing a survey of 480,000 
households, half with the question and half without, that will 
better inform us as to any particular needs for deploying our 
resources.
    You mentioned how we are preparing for the census overall. 
We have an extensive campaign and I would be glad to brief you 
and other members of the committee, but one element that I want 
to bring to your attention is our communications plan and our 
integration with partnership.
    We are going to deploy almost twice as many partnership 
specialists into the communities, particularly the hard-to-
reach communities, and our targeting messages with the campaign 
will be to reach the hard-to-count populations. So we have a 
number of subcontractors creating messages specifically for the 
hard-to-count populations.
    Mr. Serrano. But there seems to be, unless I heard it 
wrong, a contradiction here that Mr. Marinos, Director Marinos, 
tells us that he is concerned or his department is concerned 
that you are not moving fast enough to take care of some needs 
within the Bureau for the Census and then you tell me that you 
will be ready to deal with whatever decision the Supreme Court 
hands down; isn't there a contradiction there?
    Mr. Dillingham. We don't see a contradiction, Mr. Chairman, 
but an explanation. You know, the GAO has over time and for a 
number of years been monitoring and presenting progress 
reports, and we are very pleased that they have done that. We 
are also pleased with the Inspector General, with the Congress 
and others, and the Department leadership. We have a number of 
people looking over our shoulders as to where we are.
    Now, most recently, in today's testimony the GAO has 
highlighted four specific areas which were mentioned in their 
comments, and that is the areas of innovations and some of the 
challenges there with implementing IT, with making sure we have 
the cybersecurity safeguards, and also in our cost estimates 
and cost-control measures.
    The first--when we were placed on the high-risk list, which 
was deservedly so, this is one of the largest projects, one of 
the largest hirings of civilian employment since World War II 
and it happens every ten years, as you are well aware from 
prior censuses. This is a mammoth operation, it deserves 
special scrutiny, and it deserves the resources that are needed 
to get the job done.
    So, yes, we are on the high-risk list, I expect we will be 
on there until we complete this census, and every census will 
probably be on the high-risk list. That being said, the five 
things, the areas of improvement the GAO previously pointed out 
with the leadership, with the capacity, with the action plans, 
with the monitoring, and with demonstrating results, they say 
that we have made substantial progress and on the leadership 
they said we have met those needs.
    Now, today we are still focused on continuing needs. The 
four that I pointed out with the innovations, this will be the 
most innovative census by far; it is a sea change from prior 
censuses. We will be collecting most of the information during 
this census electronically, that is a major change. It has 
always been on paper, a substantial amount will still be on 
paper, but we are collecting information by the Internet, by 
phone, and our enumerators will have electronic devices.
    So it will be more efficient and there will be challenges, 
and there are challenges, we are meeting those challenges. We 
have identified more than 26,000 tasks as a part of this census 
with tens of thousands of relationships. Nevertheless, we 
monitor on a weekly basis more than a hundred of those critical 
tasks and activities. And we do color-code it, as GAO points 
out, some are in yellow and actually we have sometimes some in 
red. So that is a process by which we look at all these 
important tasks. We give them a green or shades of green and, 
if it needs management attention, we put it in yellow. And if 
it is more than 9 days late--and this has been going on for 
several years--we put it in red to make sure we get the people 
and the resources assigned to that particular need.
    So we are very pleased. We are going to be busy, we are 
going to be fulfilling these needs, we are going to continue to 
make progress up until the completion of the census, but there 
is a lot of work yet to be done, that is correct, Mr. Chairman.
    Mr. Serrano. Thank you. I want to stop here, because I want 
to let Mr. Aderholt ask his questions, so that we can move to 
our chairwoman, because I know she has got 12 committees to 
attend.
    Mr. Aderholt.
    Mr. Aderholt. I will defer to her if she needs to--I know 
she has got a lot of committees to go to, so I will defer.
    Mrs. Lowey. You are so gracious.
    Mr. Serrano. Bipartisanship at its best.
    Mrs. Lowey. Oh, my goodness.
    [Laughter.]
    Mrs. Lowey. Thank you very much.
    Mr. Serrano. You realize you made me look very bad, right?
    [Laughter.]
    Mrs. Lowey. I really do appreciate it. Thank you very much. 
Oh, you don't have a clock. I was saying I will make sure I 
stick to my time.
    Thank you again to the panel for appearing before us, and 
this is really so important and very exciting to know what you 
will be doing electronically. I hope that a great percentage of 
the people can understand how to use the electronics you are 
offering.
    I want to get back to the citizenship question again, 
because, as a career statistician and you are an expert, you 
must be concerned that Census is asking the citizenship 
question, which has not been asked of the entire nation in 
nearly 7 zero, 70 years, are you worried? Are you worried that 
in the current political environment this question could have a 
very negative effect on the 2020 Census count, especially in 
places like New York where the chairman and I are very well 
aware of these challenges? Could you give us a straight answer 
about this?
    Mr. Dillingham. I certainly will, but let me first of all 
mention--you mentioned New York and I had the opportunity last 
week to visit areas of New York City and to visit four 
districts, including your own--both the chairman and your 
districts. I very much appreciated meeting with your staff 
there. We also visited other members of this committee and some 
not on this committee, we visited their districts.
    What we looked at in those districts were the hard-to-count 
populations. As you pointed out, there are--you have a very 
diverse district----
    Mrs. Lowey. We sure do.
    Mr. Dillingham [continuing]. And you do have hard-to-count 
populations. Now, in your districts, your self-response rate is 
higher than the national average, and that is a good thing, but 
there are pockets, there are tracts within your district. And 
we track them, we have them on our website, and we during the 
census will have that in real time, you can look at these 
tracts and see how they are responding.
    So, even though you are above average overall in your 
congressional district, some of those areas are less than half 
that. So what we are trying to do is get our resources and our 
partnership specialists and to work with your partners to make 
sure we reach those populations.
    And I will say that I have seen the list of your partnering 
organizations. The chairman has, I must say, the longest list 
so far, but it is changing daily. And one Member who is not on 
this committee was so pleased with the length of her list that 
she said she may be speaking with you for a healthy 
competition, and we would welcome that.
    But we cannot perform this census without these 
partnerships, without the people from your communities in New 
York and other jurisdictions, they are the key. So we are going 
to be partnering with them and partnering with them in many 
different ways.
    On the citizenship question, part of that is really, the 
manifestation of concerns is, will it reduce the response rate 
and will we perhaps not be able to count everyone. We are 
designing some of the best media campaign, some of which are 
located in New York City, at least the national headquarters, 
who know those communities. We have some of these 
subcontractors that know the various communities. And we will 
have partnership specialists from those communities and, where 
English is not the primary language, they will be speaking 
those languages.
    So, yes, we have a plan in place and, yes, we intend to 
carry it out. And we are focused, laser-focused on reaching 
those hard-to-count populations such as in your area. So, if a 
population feels particularly that the question causes them 
concern, we want to address it and we want to address it as 
soon as possible and right out front, and we are going to do 
that and to a large extent through our media campaign.
    We need everyone to understand that the census is easy to 
complete, that it is safe to complete. We do not release any 
information except aggregate data; we release numbers. So there 
should be no fear among individuals completing the census, 
because at the end of the day we have aggregate numbers for 
geographical areas.
    Mrs. Lowey. May I interrupt at that point----
    Mr. Serrano. Yes.
    Mrs. Lowey. [continuing]. Because I am really puzzled and 
this is a serious question.
    Mr. Dillingham. Yes.
    Mrs. Lowey. So if you have a building with 20 apartments in 
it and the person who is helping you, you said you are dealing 
with all kinds of people, know that in 50 percent of those 
apartments they are not citizens. OK, but they should be 
counted for the census, but they are not citizens. Is there 
going to be a process where someone says, look, OK, ten of 
these apartments, they are not citizens, who are they?
    I am puzzled at how somebody could feel comfortable being 
interviewed if that material is going to this Administration 
with the citizenship question.
    Mr. Dillingham. Sure.
    Mrs. Lowey. And certainly, as Chairman Serrano and I know 
in New York, we depend--we give more money to Washington than 
we get from Washington, we need the money. So I just want to 
know how will the process work?
    Now, many of these people may have access online, but if 
there are follow-ups, one of your assistants will say, huh, 
there are 20, whatever I said, 30 apartments in this building, 
half of them are not citizens, what is the next step? What is 
your responsibility?
    Mr. Dillingham. Chairwoman Lowey, when we met with your 
staff, we were lucky enough to meet with some of those partners 
and some of those local government officials. We went through 
the neighborhoods in your district, we found exactly those--we 
saw some of the New York City Housing Authority complexes. We 
were told that in some instances those people may not be 
citizens, we were told in some instances there will be more 
than one family per unit in those complexes. There are 
challenges and that is why we are going to devote all of our 
resources and talents, but more importantly working with the 
partners in your community to ensure that we understand that 
complex, that we know who the trusted voices are, and that we 
have----
    Mrs. Lowey. Excuse me for a minute, because I don't want to 
take advantage of your generosity in giving me the time. I know 
you are very kind and I know you are going to use all the 
partners. What is your responsibility regarding citizenship? 
You have a building, you have someone helping you who knows 
everyone in that building, they also know 50, 60 percent may 
not be citizens; what can you do, what do you do, what ought 
you to do with that information?
    Mr. Dillingham. Chairwoman, we are ordered to take a count 
and we are going to do everything that we can to ensure people 
self-respond----
    Mrs. Lowey. To take a count----
    Mr. Dillingham [continuing]. To take a count of those 
people----
    Mrs. Lowey. [continuing]. Not pass that information on to 
some other authority. Let's face it, that is the concern.
    Mr. Dillingham. Exactly. That would be a legal violation 
and, if I was to prove that, I would go to prison, and if 
anyone in the Census Bureau does it they are subject to fines 
and imprisonment.
    Mrs. Lowey. So let me repeat it, because I think this is 
the key question that we are worried about in many of our 
communities. You go to a building, and I am sure you have been 
to Port Chester, Tarrytown, several of those communities, you 
know or the person who is helping you know that 50 percent--I 
am just saying--of the people there are not citizens. You are 
just interested in the count of the number of people there, you 
are not directed, you have no order, you have no responsibility 
to report to anyone, Secretary Ross, how many people are 
citizens and how many are not; is that correct?
    Mr. Dillingham. That is exactly correct, except for the 
fact that we encourage everyone to complete all the questions 
on the form.
    Mrs. Lowey. I know that, but if a person is a non-citizen 
in a building, whether there are 50 percent, 30 percent, 20 
percent--and there have been pickups by ICE in these 
communities--your responsibility is to count the numbers and 
you have no order or directive based on information you have 
gotten by responsible leaders to report to Secretary Ross how 
many people did not respond to the citizenship question and, 
based on your advice or assistance, 50 percent are not 
citizens, you have no directive to do that?
    Mr. Dillingham. You are exactly correct, Chairwoman.
    Mrs. Lowey. Thank you very much.
    Mr. Serrano. And before I go to Mr. Aderholt, please 
forgive me for this, but I can't pass this up.
    So we know that you are not supposed to give information 
out by law, but there is a reason for putting that question 
there. On down the line, it will give us a lot of information 
about who we are as a people; what we look like, where we come 
from, how many of us were born overseas, how many were born 
here. Why do I fear that at some point you would also say X 
amount are not citizens and X amount are undocumented, which 
you are not supposed to do in the Constitution, regardless of 
what the court does now, they may have to rewrite that part of 
the Constitution to just count the people amongst the states, 
nothing else.
    So you are telling her--and I want this on the record again 
and then I will close--that you have no instructions, the 
Census Bureau, to take citizenship question information and 
pass it on to the Administration or to someone else?
    Mr. Dillingham. Mr. Chairman, that is exactly correct.
    Mr. Serrano. Thank you.
    Mr. Aderholt.
    Mrs. Lowey. Thank you. And thank you, Mr. Chairman.
    Mr. Aderholt. Thank you.
    Director Dillingham and Associate Director Smith, I will 
direct this question to you all. Unfortunately, about 80 
percent of the 24 million American households don't have 
reliable, affordable, high-speed Internet that live in rural 
areas, and it is easy for individuals who reside in cities and 
suburbs to overlook the fact that many of our rural 
communities, particularly in my home state of Alabama, still 
lack broadband Internet technology, whether it is to educate 
their children, expand their businesses, whatever the case may 
be, and not to mention respond to a census.
    Can you talk a little bit about what you are doing to 
really concentrate on those rural areas where there is no 
Internet technology and how you can make sure that you can have 
those accurately counted?
    Mr. Dillingham. Ranking Member, thank you for that 
question, it is an excellent question. We do have special plans 
for rural areas and we consider them part and parcel with the 
hard-to-count areas. So if people, residential areas do not 
have much connectivity, we have a separate process by which we 
process the collection of the data, and that is that we have a 
process where in the first instance we have about five contacts 
we make with these people by mail, but we will send out in the 
first instance--if connectivity is low, we will send out a 
letter and instructions along with the census form.
    So in the other areas, in the other 80 percent of the 
areas, we typically wait until the fourth contact, because we 
encourage people to go online or get on their phone and to 
answer the census, but we do it in those areas, those special 
areas where we provide the form up front and then again, on the 
fourth contact, we give them the form again. But, in addition 
to that, we also are educating the people and notifying in the 
correspondence and through our partnership specialists, as well 
as through our media, that they can make a phone call. And in 
many of those areas they have access to phones or they know 
people who do have access to phones, so they can answer the 
census by phone.
    And then, finally, we have the non-response follow-up. So 
if we don't get responses by the Internet, if we don't get 
responses by phone, if we don't get the written responses, then 
ultimately we do send people out and they will knock on doors. 
So that is the more expensive way of getting the information 
and contacting them. So we expect that people with limited 
connectivity that we will reach--we will collect much of that 
information electronically regardless, but we will encourage 
and we will do the follow-up needed to make sure we reach them.
    Mr. Aderholt. Well, all of us as Members, we talk to 
groups, you know, constantly, whether they be groups from our 
constituencies that are in Washington or back in our districts 
that are talking to different groups, what can we do to help in 
this regard? Not just in regard to those who do not have 
Internet, but just in general.
    Mr. Dillingham. Well, there are a couple of things. And 
one, as a Member of Congress, we will be distributing some kits 
to your offices on how congressional offices can particularly 
be of assistance and how they can work with the partnership 
groups more closely, but most importantly is really the public 
message that completing the census is easy. You have got three 
ways now, very easy; if you do have the Internet access, you 
can do it by phone, or you can do it in the traditional written 
form.
    So that is the first time, this is the first time where 
most of the information that we will be collecting is going to 
be collected electronically, and stored and transmitted 
electronically, and protected electronically. But the easiness 
is a very important message.
    The safety, particularly as the chairwoman and as the 
chairman here have pointed out, there is a concern about 
possible fears in the community, we want to make sure they 
understood the dialogue that we just had is that this 
information is protected, only for statistical purposes will it 
be used, it will not be shared with other agencies, and their 
identities, the confidentiality will be protected in a number 
of ways, and some ways are brand new ways with the latest 
technologies that we might discuss with you later. But it is 
easy, it is safe, and then it is important.
    We also want to encourage, the theme of this year's 
campaign is ``Shape your future, start here.'' So you will see 
that in the creative media commercials, you will see it in 
print, you will hear it on the radio, you will see it in the 
social media. ``Shape your future, start here.'' So we are 
encouraging people to know and the stakeholder groups to 
understand how important these data are. We are going to need 
to reinforce that message that it is in their interest, it is 
in their community's interest, it is in their group interest, 
community interest, and many of the partners that we have are 
spreading that word.
    We are working with the libraries across the Nation, they 
are going to be assisting, they are going to make their 
computers available. So in some of those areas that may be more 
remote, there is usually at least a library in those areas, and 
the libraries of America are going to be our partners.
    So there are a number of ways we are going to reach those 
people and encourage. And the message that I would leave is, 
again, the simplification; easy, safe, and important. And that 
is kind of the theme that we are reinforcing.
    Mr. Aderholt. You mentioned these kits that you will be 
distributing to Members of Congress----
    Mr. Dillingham. Yes.
    Mr. Aderholt [continuing]. When will those be available?
    Mr. Dillingham. My understanding is within a matter of 
weeks, it could be a month or two, but I will be checking into 
that. I have asked that question and it will be in relatively 
short order, this summer you will----
    Mr. Aderholt. And, again, these kits will help us do what 
now?
    Mr. Dillingham. They will help congressional districts to 
help organize, work with the partners; they will also tell you 
more about what we have online and on the website, how you can 
track your districts and you will know the tracts that are 
hard-to-count populations. So you can just go right online and 
see that in my district I have these tracts that where the 
self-response rate is lower than my district, and you can make 
special efforts in those areas. But our partnership specialists 
will be working with you on that and our media campaign will be 
devoting resources directly to that.
    Mr. Aderholt. And I understand this is the first time that 
the questionnaires for the census will be electronic and not 
paper; is that correct?
    Mr. Dillingham. Well, you have the option, you have the 
options. You can certainly do it by paper, if that is what you 
would like to do----
    Mr. Aderholt. But, historically, it has always been paper, 
right?
    Mr. Dillingham. That is correct, that is correct.
    Mr. Aderholt. So this is the first time that it won't be--
--
    Mr. Dillingham. The first time the Internet and the phone 
will be used.
    Mr. Aderholt. Has there been any discussion about backup on 
paper, so when this in the future is studied--when it is 
released--of course eventually, after how many years is it, 
that you can--70 years or----
    Mr. Dillingham. Seventy two years.
    Mr. Aderholt [continuing]. Seventy two years, you know, 
obviously we are seeing results from 72 years ago now, but this 
will be very important to look back for historical reasons. Is 
there any--has there been any that this will be backed up on 
paper?
    No paper copies are stored. The Census Bureau works with 
the National Archives and Records Administration to ensure 
records are stored in a format that is retrievable in the 
future.
    Mr. Dillingham. I could--I am not certain. Let me get back 
to you, but I don't know what the printed products might be 
with the actual data, but we have the electronic data. I 
haven't been briefed exactly if we are going to be storing that 
information in another form.
    Mr. Aderholt. Yeah, the reason I ask that, in 72 years, I 
have a feeling the electronics they will use then will be 
different from what we use today.
    Mr. Dillingham. Exactly.
    Mr. Aderholt. So, you know, I think it is--you know, I am 
thinking from a historical standpoint now, not from----
    Mr. Dillingham. I can assure you, the Census Bureau, as the 
Nation's largest collector of data and information, will have 
ways that people will be able to access and even the electronic 
data will be able to access. But let me ask our CIO if he may 
have some other insights on this.
    Mr. Aderholt. Okay.
    Mr. Smith. Yes, good morning. I just wanted to add that 
within technology changes and backing up of electronic data, 
there are absolutely migration paths to use the more modern 
technology. So electronic records have been stored for long 
periods of time, 70 years, 90 years are some of the 
stipulations people have, and there are technology ways to move 
from old technology to new technology to keep that data 
electronically archived to the right period of time.
    Mr. Aderholt. All right, thank you.
    Mr. Serrano. Thank you.
    Mr. Case.
    Mr. Case. Good morning, Dr. Dillingham. Can I follow up, 
please, on my committee and subcommittee chairs' questions on 
citizenship, but not only citizenship, because you have assured 
us that information will not be shared and I take by that that 
you are referring to individual information; however, the 
census does report its results.
    Mr. Dillingham. That is correct.
    Mr. Case. And so, therefore, if you ask a citizenship 
question or any other question for that matter, ethnicity, 
income, there is a report, a public report of that information. 
So there will be a public report, I would assume, at some level 
if the citizenship question is on the census of where people 
are or are not citizens; correct?
    Mr. Dillingham. We will have aggregate data that sometimes 
will be geographic, that is correct.
    Mr. Case. Okay. And so my question then is, how granular is 
that aggregate data? Do you report down to the tract level or 
do you report lower than that?
    And where I am obviously going with this is, okay, fine, 
you talk about the individual data not being available; 
however, at some level, there is a pretty good interpolation of 
the data reported to make inferences as to some level of 
specificity, and I am wondering how specific that is and what 
the policy judgments are behind that specificity, and the 
consequences.
    Mr. Dillingham. Congressman, that is an excellent question, 
and things are changing in that regard. There is an interest 
and there are some people, particularly researchers and other, 
that want the most granular data possible. And we collect data 
by the blocks, we aggregate blocks, and then we have tracts.
    One of the new protections we are putting in place as a 
result of our research was that we do not want in the future 
people with great computer capabilities and with other data 
sets to try to match the data and try to figure out and 
identify individuals. So one of the tradeoffs that we have in 
protecting data, and we call this disclosure avoidance, is that 
we actually inject noise into the data at the lowest levels. So 
that that data at the lowest level, perhaps at a block level, 
will not be accurate at that level, but when you aggregate the 
data at a certain level it will have increased accuracy.
    Mr. Case. Okay, so let me just cut to the chase here. At 
what level do you actually report the results, is it at the 
tract level? So, in other words, X tract somewhere in Y state 
has 20 percent non-citizens in it, what level is that at?
    Mr. Dillingham. My understanding is that we are focused on 
the tract level, but exactly the format by which and in the 
units by which it will be tabulated I would have to get back to 
you. But it is a change from past practice and we do have some 
data users that have legitimate concerns that they will not 
have the granularity that they once had.
    Mr. Case. I do understand the tradeoff, so--and by the way, 
I am not making a policy judgment, at least in these questions, 
about citizenship or anything else, I am just trying to 
understand what is that tradeoff.
    And, following up on that, have you considered with a 
question as controversial as citizenship--and there are two 
sides to that argument--have you considered injecting more 
noise at a higher level for a particular question that is a 
more sensitive question, so that it cannot be traced back with 
such granularity as, for example, I can look up the last census 
and identify with some specificity how many Japanese Americans 
are living in Y tract in downtown Honolulu. Have you considered 
elevating the noise to a higher level than tract to address the 
concerns over the misuse of this data--public data, by the way?
    Mr. Dillingham. Congressman, we haven't made a 
determination yet as to the level. We are still continuing to 
study it with some of the best minds in the country and we can 
get back and advise you of where we are in that process, but as 
of yet we have not decided. We view it somewhat as a dial and 
you have to set the dial on a certain level of protection.
    And the intent here and the reason we are doing this and 
employing the newest and best techniques from high-tech 
industry and from academics is just for that purpose of 
protecting people for any question identifying individual 
answers to those things, but we will have aggregate data for 
some geographical area that will reflect answers to the 
questions.
    Mr. Case. Okay, thank you.
    Mr. Serrano. Ms. Roby.
    Mrs. Roby. Thank you, Mr. Chairman.
    Gentlemen, thank you for making time to be with us this 
morning and to speak before this committee. Of course, as been 
said I'm sure multiple times in my absence, we are almost 
exactly one year to the date from the next year's census. And I 
am sure you are aware Alabama is a state that has some concerns 
that we could potentially lose a congressional seat which has 
more than just the obvious implications. I mean, as you can 
see, you have already talked to my colleague from Alabama, you 
have two of us sitting up here this morning. And so I just want 
to highlight the census and its future outcome further.
    In the 2010 Census, Alabama did not do as good of a job as 
we could for accounting for all of its people, especially our 
youngest population, children below the age of six, but 
particularly in rural communities. So we have to make sure that 
that is not the case again in next year's count.
    And I know Mr. Aderholt already talked about the issue of 
rural Alabama, rural America, and my understanding is that 
there will be a strong focus on advertising and the use of 
social media platforms to get the word out regarding the 
census. But you need to know, rural America doesn't always have 
access to social media platforms, because they don't have 
access to broadband, which is going to be a challenge in order 
to make sure that folks are aware of what is going on.
    So I just want to give you the opportunity to talk about 
what methods do you have to build in to make sure that these 
rural areas get the message and particularly those that may not 
have access to the Internet or to social media platforms, what 
is the plan?
    Mr. Dillingham. Thank you very much for that question, 
Congresswoman, and I do note there is a joinder of interest 
with the other member here in this area.
    So, we had a previous discussion on the rural areas and 
some of the challenges. You correctly point out that the 
undercount of children is a major concern. That is a hard-to-
reach population, and we are doing a number of things both, 
nationally and locally, and working with our partners.
    I have meetings this afternoon, as a matter of fact, with 
The Annie E. Casey Foundation in Baltimore, who has been 
leading in this area for making sure we remedy the undercount 
and potential undercount of children. We are working with 
partners everywhere, the medical community, the pediatrics 
associations. Just on Sunday morning, the deputy director was 
over in Baltimore at Pediatrics Association meeting and they 
are very interested in what they can do.
    We have Statistics in Schools program where we are working 
with the educational communities. We are trying to educate from 
a variety of perspectives, particularly the importance of 
counting children in households. And it is using that 
population, it is very difficult. There are nontraditional 
family structures these days and sometimes, without any 
intention whatsoever, we are getting an undercount because the 
children may be with the grandmother or a trusted family friend 
and they may not consider them their children, so they don't 
count them.
    So we are training our enumerators and we are training 
others to make sure we get a complete count, particularly with 
the undercount problem with children, up until age 5--that is a 
particular concern--but there are other communities and, 
certainly, the rural areas, as we mentioned, we are going to 
use all the media we can, the radio, et cetera, so even though 
the television coverage may be limited in some areas, we want 
to use the radio.
    We do use the social media, but as you say, if the 
connectivity is low, we have to have other ways to reach them. 
We do that through our partnerships. So, we have an integrated 
campaign with our media and our partners. So, we have almost 
double the number of partnership specialists. We should have--
we will have partners in every state and there will be 
partnerships, numerous partnerships reaching every 
congressional district. And when we send out the tool kits and 
stuff, it will explain this in greater detail.
    Mrs. Roby. And just lastly--and I appreciate your answer 
and I hope you will keep us posted on any additional 
developments there--but Alabama and other states across our 
country have been beaten with hurricanes and tornados and other 
powerful storms. There has been flooding throughout the Midwest 
and fires throughout California. So, what is the Census Bureau 
as it relates to make sure that those displaced from their 
homes as a result of a national disaster being included in next 
year's count?
    Mr. Dillingham. Again, Congresswoman, that is an excellent 
question. I know there is a particular interest with Puerto 
Rico and we have special procedures we are going to implement 
where we reach and we verify the address. Physically, someone 
will go to those residences, they will verify the address, and 
they will also leave information for completing the census, 
including the census form. So, we call that update leave. So, 
that is where we have people that actually go to every address.
    There is such an area in Florida. There is one in 
California that was subject to the terrible fires in 
California. And should something else occur between now and 
during the collection of that information, we will have that 
resource available.
    Mrs. Roby. All right. Thank you.
    Mr. Chairman, I yield back. Thank you, again, for being 
here.
    Mr. Serrano. Mr. Crist.
    Mr. Crist. Thank you, Mr. Chairman, and I thank the panel 
for being here today. I appreciate your cooperation.
    Dr. Dillingham, do you agree that the key to an accurate 
and successful census is making sure every single person is, in 
fact, counted?
    Mr. Dillingham. Absolutely. That is our number one goal.
    Mr. Crist. And do you agree that minority, immigrant, low-
income, and rural communities tend to be some of the most 
difficult to count, but that those communities often have the 
most at stake in the census since the data is used to 
distribute federal resources and support programs?
    Mr. Dillingham. Congressman Crist, we consider the hard-to-
count population our number one priority and we are going to be 
working and targeting those populations. And one of the 
benefits, as just pointed out with our innovations, is now we 
can take the capacity to respond to the census directly into 
the community. They don't have to leave the community. They 
don't have to go up to a brick-and-mortar office somewhere else 
in the city or somewhere else in the area. We want to reach 
them directly and through their internet, through their 
telephones, et cetera, we hope they will be able to answer. We 
will encourage them to answer, working with our partners, from 
wherever they are, whenever they want to.
    Mr. Crist. Are you going to dedicate additional resources 
for that purpose?
    Mr. Dillingham. We have almost doubled our partnership 
specialists.
    Mr. Crist. I don't know what that means.
    Mr. Dillingham. Where we have a partnership--well, 
partnership specialists, we have almost doubled--but we are 
increasing our partnerships. We have national partners. As you 
are well aware in Florida, we have a state commission for a 
complete count. In the local areas, we have local complete-
count committees, but apart from that, we also have national 
partners and we have local partners, and we envision more than 
300,000 partners.
    So, when I saw a list the other day when I was in New York 
City and we are looking at--I don't want to miss the number 
here--but there were at least 5 dozen partners already with the 
chairman's district where a list that we have, people working 
in his congressional district that are already partnering with 
us. So, the outreach through the partnerships are so valuable. 
I can't stress that enough. Without the partnerships, we would 
not be able to nearly as effectively reach those hard-to-count 
populations.
    Mr. Crist. Okay. Thank you. And you have stated that you 
are going to have an advertising campaign to try to make people 
aware to not be concerned or frightened or worried about the 
census and that it will be easy. I imagine you have a budget 
already dedicated for that; how much is that budget?
    Mr. Dillingham. Our immediate outreach budget is about a 
half billion dollars. It is the largest budget ever. I think 
the last decennial census, it was somewhere around $350 
million. So, it is a substantial investment and we think it 
will prove to be a very wise investment.
    Mr. Crist. Okay. Thank you. I appreciate that. I wanted to 
ask you, federal agencies rely on the census data to make 
decisions about law enforcement, health care, equal employment 
opportunities, among other things, and that LGBTQ people have 
needs and experiences unique to their communities. LGBTQ 
advocates have long pushed for questions regarding sexual 
orientation, gender identity to be included on the census.
    In 2017, the Census Bureau appeared to propose including 
those types of questions in the ``Subjects Planned for the 2020 
Census Report.'' Then almost as quickly as the questions were 
added, they disappeared. I know this happened before your 
tenure began, but in response, the Census Bureau released a 
statement calling the LGBTQ inclusion, ``a mistake.''
    Do you consider including questions about a marginalized, 
vulnerable, and disenfranchised population a mistake, 
particularly, if it helps to direct needed resources to the 
appropriate locations?
    Mr. Dillingham. Congressman Crist, that is a topic that we 
work closely with those communities and we have representatives 
of those communities on our advisory board. They are also very 
prominent members of our stakeholders groups and they are 
partnering with us in many different ways.
    The working of this decennial census has been decided. It 
was decided and approved by the Office of Management and Budget 
a few years ago, and so the wording will not change for this 
decennial census.
    But our outreach to those communities will change. We are 
going to make sure that our trusted partners in all of those 
communities are working with us and ensuring that their 
communities know the importance, as you well pointed out, the 
importance of this data. So, the data is important in so many 
different ways--not just with government, but even in the 
private sector, even in individual decisions and community 
decisions. But the particular community, the LGBTQ community, 
that information is not collected in this decennial census.
    But we do have some changes in the census. We do ask people 
about the sex of their spouse, and if it is a same-sex spouse, 
they can mark it on the census. But that doesn't resolve the 
issues of the future about where might the wording go. I can 
tell you that we have a number of people that are studying 
this. We will continue to study this. We will continue to work 
with those groups and we will look at options and certainly 
consider in the future how those questions might be asked.
    Mr. Crist. Thank you, sir.
    Thank you, Mr. Chairman.
    Mr. Serrano. Thank you. Ms. Lawrence.
    Mrs. Lawrence. Director Dillingham, you were in Detroit 
recently and thank you----
    Mr. Dillingham. I very much appreciate that visit and I 
appreciate your attending that function.
    Mrs. Lawrence. And I appreciate you being there because the 
concern that we have, as one of the hard-to-count communities, 
and as my colleague had said, being one of those communities 
that need it the most, during your visit, you were talking 
about the questionnaire assistance centers. I want to know--my 
question is, how many locations will there be? How many staff 
hours will be devoted? And do you have a plan yet to roll those 
out? And when can we expect to receive the plan?
    Mr. Dillingham. Congresswoman, first let me express my 
pleasure with the meeting in Detroit. I learned so much about 
Detroit. I learned so much about the hard-to-count areas. 
Saturday morning we went on tours of the hard-to-count areas in 
Detroit, along with the city officials and partners. We learned 
so much.
    Detroit has unique residential needs. There is much being 
done in Detroit, particularly, the revitalization, but in those 
neighborhoods, Detroit, as you well know, is more than 140 
square miles.
    Mrs. Lawrence. Yes.
    Mr. Dillingham. It is lost more than a million in 
population. It has lost population every census since 1950. 
When the manufacturing that kind of dried up in Detroit, it 
created unique challenges in those neighborhoods and we saw 
those challenges. And we are very pleased to see the partners 
and appreciate them educating us to those challenges. Detroit 
is--you can argue that every city is unique--but Detroit, going 
through a bankruptcy, et cetera, is a very unique city 
situation.
    Now, the hard-to-reach populations there--and this gets 
back to sort of if I have a theme here--is that we want to take 
the capacity directly into those communities. When I went 
through the districts, the relatively new districts in Detroit, 
we saw civic centers that were vibrant. We saw areas where 
people got together. There were still active churches and 
houses of worship in Detroit.
    And we think we need to get the capacity directly to the 
people in those communities where they can complete the census. 
And we can do it with laptops. We can do it with phones. And we 
can do it with partners.
    Mrs. Lawrence. So, those community centers will be 
officially the assistance centers?
    Mr. Dillingham. Well, let me explain that the 
Appropriations Committee has asked us to look at two options, 
to study two options.
    Mrs. Lawrence. Okay.
    Mr. Dillingham. If we had enhanced resources, where would 
we recommend applying them and what's our assessment. When we 
looked at the questionnaire assistance centers, we recommended 
that we would not be taking action, that it was not feasible. 
That by the time you go through the process of getting the 
leases, et cetera, a year-long process--a year-and-a-half-long 
process, it really wasn't as cost-effective as we would have 
hoped.
    Mrs. Lawrence. So, we are not going to do them?
    Mr. Dillingham. Well, we are going to do--every--we are 
going to have partnerships and we are going to have resources 
with every library. Libraries across the nation will be open 
for business in helping to explain and helping to assist, 
including internet use.
    We are going to have other areas. We have partnership 
specialists in Detroit. We want to beef that up, and we have 
the multitude of partners--
    Mrs. Lawrence. So, Director, I do want to put this concern.
    Mr. Dillingham. Okay.
    Mrs. Lawrence. One of the things, using a library, a lot of 
our public libraries, especially in the poorer neighborhoods, 
have been closed or have limited hours; they are only open so 
many days a week. It is important that we create that sense of 
energy in those communities.
    Now, I didn't know you weren't going to do the assistance 
centers, but we need to plan. Because for us to be partners in 
those communities, we need to know where they are and how we 
support it, and I am concerned about the time. So, we are 
rapidly approaching, and so we can't be talking about this. 
They should be identified and then we, you know, as a member of 
Congress, I can monitor and engage and make sure that I am 
being supportive.
    So, when will I know where you are a partner and where they 
are going to be?
    Mr. Dillingham. Congresswoman, we delivered a report to the 
committee yesterday. My understanding is that it was delivered 
yesterday in response to the Appropriations' request on how we 
could beef up partnerships if additional resources were added. 
So, there is a plan there.
    But I can tell you we have an existing plan by almost 
doubling our partnership specialists in those communities, but 
we did submit to the record--it was requested by Appropriations 
that we present a plan on what we would do with partnerships. 
And that plan actually conceptually, I think, is very promising 
for the circumstances and issues you point out.
    Mrs. Lawrence. Again, promising is one thing. I am very 
concerned about the presence in the community, I tell you, I 
want to see, once we do our work and the funds are approved, I 
expect a fast turnaround to identify these communities--places 
where you are going to be. And I can't tell you--this leads 
into my last point here--is that where are we in the timeline 
of being effective?
    Because we are far behind the census. That, as a mayor of a 
city, I was far ahead--further ahead than I am now. So, I don't 
want excuses. I don't want, Well, you know, we don't have a 
plan yet, and then I get the pushback from the communities. I 
get calls every day that people are so concerned about us not 
being able to do a full count.
    Mr. Dillingham. Congresswoman, we do have a plan. What I 
was referring to was the committee asked us for an additional 
plan if other circumstances occurred. The plan--and I think it 
was a good evidence, the meeting we had----
    Mrs. Lawrence. It was a good meeting.
    Mr. Dillingham. All the partners in the communities that 
want to work with us, the ones that took us through the city of 
Detroit and showed us those special areas, they are going to be 
our partners.
    On our partnership-specialists hiring, I was informed this 
morning that we have over 900 that are either hired or in the 
process; they have accepted those jobs. So, out of the 1,501, 
we have more than 900 being hired.
    That being said, what is important, as you well point out, 
is not just having the plan, but it is executing that plan.
    Mrs. Lawrence. Yes.
    Mr. Dillingham. So, we want to work with all the partners 
in the Detroit area, as well as all areas, in carrying out that 
plan. And as I mentioned, the partners are absolutely 
essential, and to the extent we can better coordinate and 
assist those partners, the better.
    Mrs. Lawrence. Thank you.
    Mr. Serrano. Ms. Kaptur.
    Ms. Kaptur. Thank you, Mr. Chairman.
    Welcome, Dr. Dillingham and your staff. Could you explain 
to me, why is the information from the U.S. Postal Service not 
sufficient to provide you with your base maps and where you 
send information on the census?
    Mr. Dillingham. Congresswoman, the information from the 
Postal Office is very helpful, very valuable, but we have to 
reach everyone and it actually is not quite sufficient. So, not 
only do we use the postal information, there are rural 
communities and other locations for which there may be 
mailboxes and other things that need to be coordinated. So, not 
all residences actually are on the mail list.
    As I recall--I could be wrong on this--something like that 
87 percent are accounted for by the postal mail addresses, but 
we need to--it may be higher--but we need to add to that and we 
do add to that. We do aerial surveillance. We do a lot of 
different ways to find out where people are living and 
sometimes we actually--this morning, someone was discussing 
with me in certain areas of the country where people are mobile 
where they are living. They are actually traveling in 
recreational vehicles and living out of those vehicles. So, we 
have to capture them, even where there isn't a mailing address.
    Ms. Kaptur. So, driver's licenses are important, perhaps?
    Mr. Dillingham. Title 13 tells us that we are to use 
administrative data to the maximum extent possible to help 
carry out our surveys and our censuses, and so we do that. We 
do various datasets and federal agencies share data with us, et 
cetera, so we can verify certain essentially information, 
including addresses.
    Ms. Kaptur. It is good to know, though, that it sounds like 
over 80 percent of the households you need to reach would be at 
addresses that the Postal Service has, they are very important.
    Mr. Dillingham. It may be higher than that.
    Ms. Kaptur. They are very, very important in your work.
    In past census documents, there were, on the--not the short 
form, but the long form, the ability of a family to indicate 
its heritage if they chose to do that. Will that be on this 
year's census?
    Mr. Dillingham. The questions that we have on this year's 
census, we do have race and ethnicity--two separate questions--
and we have--there is the ability for people to write in. So, 
we have an ``other'' category, and we also have where people 
can write in their answer.
    Ms. Kaptur. But you are not providing the list--
    Mr. Dillingham. No, we provide a list, a relatively 
comprehensive list----
    Ms. Kaptur. Okay.
    Mr. Dillingham [continuing]. But at the same time, 
actually--there are some anomalies in the historic research 
that sometimes, over time, people actually can change their 
race and ethnicity, as to how they report it.
    Ms. Kaptur. Thank you for that statement.
    I was looking for--you had in your testimony, you--oh, here 
we go. On page 6, you talk about the various organizations you 
are partnering with--the Library Association, Boys & Girls 
Clubs, Latino Elected Officials. I represent a region where we 
have vast ethnic and racial diversity, so I am just going to 
tick off some groups and tell me if you think you would partner 
with some of these organizations: Albanian, Lebanese, Puerto 
Rican--we have many, many--maybe Congressman Serrano already 
went over this--I don't know--but as a result of the tragedies 
in Puerto Rico, we have many, many citizens moving to Ohio, 
literally, thousands, and so, that would be an important 
organizational category--Polish, Turkish, Arab-American, 
Hungarian. I can't speak for Congresswoman Beatty in Columbus, 
but there are several new immigrants from countries in Africa.
    And so, I guess my question is, how are you linking to the 
national organizations or state organizations that these 
individuals belong to? How do you link to them?
    Mr. Dillingham. Congresswoman, we are doing it in many, 
many different ways. Just by way of example, when I was in 
Chicago, I went to a focus group where we were discussing the 
census with the Polish community in their language. This was a 
group, a focus group with people that did not speak English, 
but spoke Polish. And so, we have more than 100 focus groups 
across the nation where we are looking at these communities and 
talking with them.
    And sometimes it is very important because in our 
instructions and in our outreach media, one word can matter. It 
can be that a translator would want to use this word, maybe 
with an academic background, but the community may have a 
different interpretation of that word. So, only in our 
materials in our outreach, but, particularly, in our 
partnerships, we invite all of those communities to partner 
with us.
    So, if there are associations and groups, our partnership 
specialists actually will be hiring from those communities. We 
are making every effort that we hire people from those 
communities, as our enumerators, as well.
    Ms. Kaptur. Excuse me, and would you permit the members of 
the Ohio delegation, on a bipartisan basis, to give you a list 
of the groups they are aware of in Ohio?
    Mr. Dillingham. Absolutely.
    Ms. Kaptur. Okay.
    Mr. Dillingham. And we will give you further information 
how we have engaged in outreach to date, but we would be glad 
to work with those groups.
    Ms. Kaptur. All right. I thank you. Thank you very much.
    Thank you, Mr. Chairman.
    Mr. Serrano. Thank you.
    Ms. Meng.
    Ms. Meng. Thank you, Mr. Chairman.
    And thank you, Director, and all of you for being here and 
your service, as well. I wanted to sort of piggyback off of 
what Congresswoman Kaptur was talking about in terms of 
partnering with local organizations, especially in these 
communities of color, immigrant communities. It remains 
imperative that the Federal Government take its responsibility 
seriously and continue to invest and engage in these hard-to-
count communities over the next year. I appreciate you going 
around the country. I know that you were in New York last week, 
as well, and I thank you for engaging.
    I wanted to talk about the partnership plan and where the 
Census Bureau is in its hiring process for partnership staff 
and are you on track.
    Mr. Dillingham. Congresswoman, again, that is an excellent 
question. We did experience some delay in setting up the 
partnership specialists and bringing them onboard. Within a 
month, we will be back on track. We had very ambitious goals.
    As I mentioned, this morning I was informed that we had 
more than 900 either hired or had accepted the positions. So, 
out of the 1,500, we have about two-thirds that will soon be 
operational.
    But we do have already--and when I did do a tour of the 
areas of New York City, including your district, we did have 
partnership specialists in place in some of those areas. And as 
a matter of fact, I was in a van and we pulled over to the curb 
and I spoke for the New York region, which includes New York, 
all the way through Maine, I spoke to some 96 partnership 
specialists who were on the phone and I was encouraging them 
and commending them for the job they are doing.
    So, that is a very important area, and we are looking at 
other ways to make sure that these partnership specialists are 
working with the partners. I was looking--I thought I might 
have the list from your district--but I did see a lengthy list 
of partners in your area and I am sure--and I am told that list 
is growing daily.
    So, we appreciate the members of Congress that assisting 
and their staffs that are assisting with these partnership 
efforts. And it is a good way for both, the Congress to stay 
involved with what's going on in their districts, and for these 
people to express their opinions about the needs and the 
coordination, et cetera.
    So, we think we know we devoted more resources to 
partnerships than ever before. We think nationally, when we 
combine all the partnerships at the national, state, and local 
government level, and the community level, that we will have 
more than 300,000, which will be a significant increase over 
the last decennial census.
    But bringing on all those partners also creates work. So, 
we will need to coordinate that work and make sure that our 
partnership specialists are both, skilled at it and committed 
to it, and I think you will find that they are.
    Ms. Meng. Thank you. I want to echo Congresswoman Kaptur's 
request in relation to New York. If we can be helpful in 
working with you on this growing list of partnership 
organizations.
    But I also specifically wanted to find out about the 
seemingly lack of language support for native Hawaiians and 
Pacific Islanders, as well as Alaska natives and American 
Indians, outside of Navajo. We are told that the Census Bureau 
is not providing translated-language assistance guides, whether 
in print or video, for these communities.
    Mr. Dillingham. Well, we are in the process of ensuring--
and some of the translation services, I am not sure they have 
completed this yet--but we will offer the census questionnaire 
in 13 languages, including English. And that reaches more than 
99 percent of the nation's households. But in addition to that, 
we will have translated materials in 59 supported languages. I 
am told that those materials will represent languages spoken by 
2,000 or more limited-english-speaking households.
    In addition to that, though, our partnership specialists 
are tasked with finding how to reach--if they find these 
communities, say it is 100 people in a community with a special 
language not covered by the materials and not covered by the 
questionnaires, then we will find trusted sources in that 
community. If it is sizable enough in some instances, 
particularly in tribal areas, we will hire partnership 
specialists from those communities. But in the event that we 
don't have a specialist that has that language, we will find 
someone with that language skill. And so, we have the ability 
to contract and hire on a temporary basis, people with those 
language skills, once we identify them, and that is part of the 
responsibility of the partnership specialists.
    Ms. Meng. Thank you. And I will just quickly ask the last 
part of my questioning. Last year's hearing before the 
subcommittee, then Acting Director Jarmin confirmed two things; 
one, that unanswered survey questions were marked as ``identity 
non-response'' and, two, not answering some questions on the 
census survey would not negate the entire survey response, but 
responses to answered questions would still be tabulated.
    About 2 months ago, Chairman Serrano and I sent a letter 
urgency you to publicly confirm that full consideration and 
count of household census survey responses will be conducted 
regardless of any potential unanswered questions in the form. 
We are still awaiting a response to this letter. Do you know 
why or what has the commerce secretary instructed officials of 
the Census Bureau in relation to this issue?
    Mr. Dillingham. Congresswoman, the deputy director's 
observations were correct. I apologize if the committee has not 
yet received our response. I had been advised that the response 
would be issued in short order recently, we will be getting you 
a response on that.
    Ms. Meng. Okay. Do you know now, before the letter--and I 
appreciate your response.
    Mr. Dillingham. The deputy director had a correct answer to 
that question.
    Ms. Meng. Okay. So, if the citizenship question is added to 
the 2020 Decennial Census and it happens to be left unanswered 
on the survey, would that survey still be counted?
    Mr. Dillingham. I can assure you that we encourage everyone 
to answer all questions.
    Ms. Meng. Yes.
    Mr. Dillingham. But it is the historical practice of the 
Census Bureau in all censuses and surveys that we have varying 
rates at which questions are answered, and sometimes we can 
detect that some answers may not be fully accurate. So, we do 
accommodate that. We have some of the best and brightest that 
work on resolving that, but we will accept the information 
online, on the phone, or on paper that may have some areas that 
are not totally complete.
    Ms. Meng. Thank you. I yield back.
    Mr. Serrano. Thank you.
    Director, your budget request for the 2020 Census is $6.149 
billion, which is significantly less than your life-cycle cost 
estimate and does not include a contingency fund that the 
secretary had previously asked for. Given the uncertainty and 
controversy surrounding this census under this administration, 
how can you justify these proposed reductions?
    Mr. Dillingham. Mr. Chairman, let me thank you for asking 
that question, and let me thank the GAO who is always 
encouraging us and pointing out the wisdom in having a complete 
and accurate cost estimate. And we do go through the process 
and use the procedures prescribed by the GAO, very elaborate 
procedures, making sure that our cost estimates are well-
documented, that they are accurate, they are credible, and they 
are comprehensive.
    As you pointed out correctly, the earlier estimate for the 
total cost of the census about at about $12.5 billion and that 
was in 2015. The secretary, when he came in, he wanted a re-
examination of that and wanted to make sure that we have 
sufficient resources to get the job done.
    As a result of that both, the Census Bureau and the 
Department of Congress, applied their best talents to that 
process and they developed and they reconciled an independent 
cost estimate. And that independent cost estimate was $14.1 
billion, and then the secretary subsequently, based on his 
business experience and business acumen, wanted even that re-
examined and to see if there might be a need for additional 
funding. So, there was a $15.6 billion life-cycle cost estimate 
that was developed.
    And it really was an extension of the independent cost 
estimate with adding some additional contingencies and those 
contingencies were considered to be the unknowns. What if 
something that we can't project happens? An example might be a 
natural disaster, something of that magnitude. Would it be 
advisable to have funds built into the budget for such a 
purpose?
    Well, the current budget request is built on the $14.1 
billion independent cost estimate that the Bureau and the 
Department has agreed to that followed the GAO guidance. Over 
time, built on successes and time-tested operations, some of 
the built-in contingencies that we had expected did not occur.
    So, now we are at the stage of execution. So, now we are 
less than a year away. We haven't incurred those contingencies, 
yet we still have a little over a billion dollars in a 
contingency fund. So, if, as a result of our current research 
this summer or other factors, we have to shift some areas of 
responsibilities, some priorities, we do have, basically, a 
billion dollars in contingency funding and some of that comes 
from the carryover funds that this committee has approved for 
us.
    So, we currently are very confident, based on our 
experience and considering the contingencies and rationale 
built into the independent cost estimate, that it can get the 
job done. So, we can get the job done. We are projecting 
getting the job done at $14.1 billion, total life-cycle cost, 
built on the independent cost estimate, but it is at a total 
figure that was below what had been considered.
    So, we haven't had those contingencies. We don't think we 
are going to experience those contingencies. We have a 
contingency budget that we think can accommodate some 
variations in the self-response rate, which is one of the 
primary considerations, and that is why the current budget 
request is based on and consistent with the $14.1 billion 
independent cost estimate.
    Mr. Serrano. Well, it is very important, Director, that the 
Bureau stay in touch with us and with our staff to let us know 
how things are going. Because what we don't want as 
legislators, staff doesn't want it, and you don't want is for 
people to say we short-changed the census after all the fuss we 
made about getting a fair and accurate count. So, please don't 
be--I can't believe I am saying this--don't be shy about 
asking, OK?
    Mr. Dillingham. Chairman, we appreciate that.
    Mr. Serrano. I didn't say that.
    Director Dillingham, a critical component of adding a new 
question to the census is testing it. Unfortunately, a 
citizenship question will only be tested for the first time 
this summer with results that will come in too late to mitigate 
impacts. What is Commerce's plan if the results of this test 
conclude that self-response rates in 2020 will be far lower 
than what is currently assumed and budgeted for? For that 
matter, will the test be cancelled if the Supreme Court finds 
that the citizenship question should not be included in the 
census?
    Mr. Dillingham. Mr. Chairman, we think the test that we are 
doing this summer and the research and analytics associated 
with it are very prudent, because we want to see if something 
that we had not projected occurs in administering the census 
with the question, as well as without.
    This test will be completed regardless. It is going to 
inform us to the future. It will provide very valuable 
information. But it is--it does have--it instigated for 
purposes of operational needs. If we see area in which we need 
to devote more resources, that is what we intend to do.
    So, we think it is going to be very valuable to conduct 
that research, to use that research to see if we see a need, 
and then we have the one-billion-dollar contingency fund that 
we can, within certain parameters, accommodate those findings 
from that research. If there is some percentage-point drop in 
the self-response rate, we have a cushion built into the 
contingency funding that we can accommodate that. We are not 
expecting anything dramatic outside of those parameters, and so 
we think we are on course for doing a complete count.
    Mr. Serrano. Thank you.
    Mr. Goldenkoff or Mr. Marinos, with respect to the 2019 
census test, what will GAO be looking for in terms of how this 
test and its results can be utilized, given the results won't 
be available until October?
    Mr. Goldenkoff. We are going to be looking at the rigor of 
the test. We have looked at it on its face, and so far, the 
methodology appears to have some face validity to it. As Dr. 
Dillingham already mentioned, the purpose of the test was to 
look to see what the citizenship question, how that might 
affect the non-response follow-up workload and some of the 
additional operational requirements that might be needed. So, 
it will be looking at the results and then we will see how the 
Census Bureau is reacting to the results of the test; the 
extent to which they are incorporating the results of that test 
into their operations.
    Mr. Marinos. I would echo Mr. Goldenkoff. I think the one 
thing to articulate--and maybe stating the obvious here--is 
that the reality is any late changes to a process are going to 
introduce risk, so I think it just highlights those high-risk 
areas that we have articulated within this area recently.
    Mr. Serrano. Director, a question that is not on my list--
my staff hates that when I do that, you know----
    Mr. Dillingham. My staff does, as well, Mr. Chairman.
    Mr. Serrano. People, at times, respond to people they know 
and they see and they follow. So, will you be, in your 
advertising campaign, or will be people that you hire for the 
advertising campaign, be willing to look at, you know, 
professional athletes, people in the Hollywood community, you 
know, Broadway people, just to say, Listen, I am so and so, and 
you should be counted.
    Mr. Dillingham. Mr. Chairman, we would like to brief you on 
that campaign, where we are, and especially as we have some of 
the products to share with you. I can say that a lot of thought 
is going into just that.
    We do, particularly, with some of our subcontractors that 
are focused on hard-to-count groups and special groups, trying 
to determine who is the trusted voice for that community. And I 
am informed, in various instances, with some of those 
communities, they have identified people they think are trusted 
voices. Some might be from the--might have a background in 
athletics or similar types, that are well- known in those 
communities.
    At the same time, we have to be very careful with doing 
that because sometimes a public persona, the image or 
activities can give rise to unknowns in that area. So, it is a 
trade-off. We are looking at trusted voices, but, particularly, 
in administering our campaign at the local level, we want local 
trusted voices as part of our partnership arrangements.
    So, the mayors that I have visited with--and I will be 
going to the mayors' conference--they have, the ones that I 
have talked with, are all onboard for partnering with us. But 
the national figures and those associated with certain 
communities, we are examining that and I expect there will be 
some of that and, particularly, people recognizable in those 
communities. I don't want to get into any of those communities 
right now, because nothing has been finally settled on.
    Mr. Serrano. Okay. I can tell you, for instance, in the 
Latino community, Univision and Telemundo, last time, I don't 
know if they were subcontractors or what or if they took it on 
their own, but it was a huge campaign, where every 10 minutes, 
they were telling people, Count yourself, and explaining to 
them the importance of it and what it meant and the fact that 
that information could not be shared and so on.
    Mr. Dillingham. And I think you will be seeing that again 
in this decennial census.
    Mr. Serrano. Mr. Aderholt.
    Mr. Aderholt. Thank you. Just going back to the budget 
question that the chairman asked about. Of course, the 
President's budget proposed $7.2 billion for the census for 
fiscal year 2020 if I am correct?
    Mr. Dillingham. That's right.
    Mr. Aderholt. And that was a level that is below the 
secretary's estimate of funding needs as of last year. And as 
you know, outside census analysts have said it is too low for 
the Bureau to complete all its needs in the decade's final 
year.
    Can you talk a little bit about is that and how you--I know 
you mentioned that a little bit earlier--but talk a little bit 
more about that in light of the fact that there were some that 
census analysts have said that it is too low.
    Mr. Dillingham. Ranking Member Aderholt, as I said, we are 
on course and we are on budget and we are on schedule and 
consistent with the President's budget and the $14.1 billion. 
That is no guarantee about the future. Something totally 
unexpected and unknown could occur and that is what was built 
into that $15.6 billion estimate. There were certain 
contingencies. It was called a ``sensitivity analysis'' that 
was included that looked at potential increases in wages, 
perhaps diminished productivity, and perhaps significantly 
diminished response rates. So, the sensitivity analysis, as 
well, is in the category that internally we called it the 
``unknown unknowns,'' and that was just, in my mind, a consider 
it sort of an insurance policy if the unexpected occurs.
    We are down to the wire now. We are less than a year away. 
We are executing the plan and we haven't experienced the kinds 
of things that the unknowns as of yet, and we are very, very 
confident that we are on course to complete a full and accurate 
count at the $14.1 billion life-cycle cost level.
    So, that is kind of where we are, and we are working very 
hard. Again, we are on budget. Our operations is consistent 
with that budget. So, that is the budget that we are working 
under at the present.
    Mr. Aderholt. And that includes for the 2020, as well? You 
include that in that, as well as----
    Mr. Dillingham. Yeah, the--that is correct. That was for 
the 2020 Census; that's correct.
    Mr. Aderholt. But for the 2020 request for the----
    Mr. Dillingham. The 2020 request, I think we had a $6.3 
billion request and then we had a carryover of a billion 
dollars, so that made it the 7.2, 7.3 figure.
    $7.2 billion is the correct amount.
    Mr. Aderholt. Okay. All right. The GAO, why don't you give 
me your thoughts on the budget adequacy request.
    Mr. Goldenkoff. You know, we have looked at the budget. We 
have spoken to the Census Bureau officials. We think that it is 
good that there is a contingency fund, especially the unknown 
unknowns. Our focus, too, was on the justification for that 
budget with the life-cycle cost estimate; that has been an 
ongoing challenge for the Bureau to come up with a reliable 
cost estimate.
    We have seen some improvements there, so, one of the things 
that we were looking for was the extent to which the budget was 
actually justified within the life-cycle cost estimate. And so, 
now, we have seen that $14 billion that is baked into the cost 
estimate, so that is a good thing.
    And then in subsequent conversations with Census Bureau 
officials, as we have heard today, the director feels that the 
amount of money is adequate to conduct a complete and accurate 
account.
    Mr. Aderholt. Well, regarding the census, let me on my last 
question, how do you determine where a person should be counted 
if they are, you know, in a transitory location or they are a 
foreign citizen that is spending some time here in the United 
States for a period of time? How do you go about it in your 
calculation of trying to count them?
    Mr. Dillingham. Ranking Member, that is an excellent 
question, and there is an art to it and a science to it. In 
discussing some of those issues recently with the head of our 
decennial census, with many years of experience--and I must say 
that in conducting the census, we are very honored to have 
institutional knowledge, experience, and history, from which we 
are building. So, even though, as GAO points out, we have a 
number of innovations, we also have a history of what we have 
done and how we are doing it.
    So, in that regard, the transitory populations, sometimes 
it may require a judgment call. But if we know people are here 
on a temporary basis, if they are visiting from another 
country, if they are a tourist or whatever, we don't count 
them; however, at some--you can change the information 
somewhat, and if they are staying here and want to stay here 
and the time in which they are leaving is indefinite and they 
have been here for 6 months or longer, then we are probably 
going to count them--where were you on April the 1st, because 
you are not giving us any information that you are leaving 
anytime soon.
    So, a lot of it is a factual determination and we have 
guidance and criteria, but that is both, a challenge, and as I 
said, there is an art to it, that sometimes we have to seek out 
that information.
    Mr. Aderholt. So, one of the determining factors is their 
intent to reside?
    Mr. Dillingham. Intent certainly is very important; that is 
correct. But if they have been here, you know----
    Mr. Aderholt. Say someone is visiting from another country 
and are here and staying here for 6 months doing a research 
project and they are here on April 1st.
    Mr. Dillingham. If they are absolutely sure they are 
leaving and they have been here for--the 6 months bothers me a 
little bit because that is most of the year--but if it is 
absolutely certain they are leaving and they know----
    Mr. Aderholt. Say they were only here for 7 months.
    Mr. Dillingham. Well, again, that is a--I would have to 
consult with our experts and see how they are doing that, but 
they do----
    Mr. Aderholt. Say they are here just for the purpose of 
maybe conducting a study. They are from--and they are doing a 
study, but they obviously don't want to live in a hotel for 7 
months.
    Mr. Dillingham. Sure. You know, one of the things about the 
census is we are counting the people that are living here. So, 
at some point, we draw lines. Those lines are not, to my 
understanding and the information I have, those are not solid 
lines, but they do sometimes require further inquiry as to the 
nature of their stay, the length of their stay, and what their 
intent is.
    Mr. Aderholt. So, they could be counted, then?
    Mr. Dillingham. They could be counted if certain facts are 
that they have been living here for a significant period of 
time and it is indefinite and not sure when they are going back 
to wherever they are from.
    Mr. Aderholt. So, would they ask that question about their 
intent to leave?
    Mr. Dillingham. In the non-response follow-up, our 
enumerators have a series of questions and they are trained to 
ask, professional, those questions, and then the information 
will be entered in accordance with their assessment of that 
individual's set of facts.
    Mr. Aderholt. Yeah, a question like this makes your job 
hard. I mean----
    Mr. Dillingham. It does.
    Mr. Aderholt [continuing]. Because you have people that may 
be here for a certain amount of time on April 1st and, you 
know, unless you really dig down deep into what they are doing 
here and how long they're going to be here and why they are 
here, and, you know, there is a lot of----
    Mr. Dillingham. There is a lot to it. And, particularly, 
when people are, for example, as you are well aware, we have 
special circumstances when people are in prison or in certain 
group quarters and we have different criteria for all that. And 
as I pointed out earlier, if someone is living out of their 
mobile home or recreational vehicle, not only do we need to 
count them, but we need to assign them a location. And so, 
there will be--judgments will be made based on the individual 
facts of that circumstance.
    Mr. Aderholt. And I have one more question. You mentioned 
that you had been to Congressman Serrano's district and met 
with some folks in Congresswoman Lowey's district and 
Congresswoman Lawrence's district. What the chances that we 
will get you to Alabama?
    Mr. Dillingham. We are working on that, Congressman. We 
have made inquiries and not yet made a commitment as to, and 
check the schedules, but we have asked, and we will be----
    Mr. Aderholt. Can we work with you on that to try to----
    Mr. Dillingham. Absolutely. We will be working with your 
office.
    Mr. Aderholt. Okay. Perfect.
    All right. I yield back.
    Mr. Serrano. I encourage you, as chairman of this 
committee, to go to Alabama.
    But you know, the ranking member brings up an interesting 
question, though. People who know me know that it is very hard 
for me to do one hearing without mentioning Puerto Rico, Frank 
Sinatra, or baseball. So, there are baseball players who come 
here April 1st when the season starts. They stay here it will 
September. If they are lucky, they go into October, right? And 
some of them do that year after year after year.
    Do they get counted here?
    Mr. Dillingham. If I understood--and I am not an expert on 
the baseball players and the time which they are in the 
country--but if they are here for an extended period of time 
and they are here on April 1st, I would imagine, especially if 
they are here for the majority of the year, they would probably 
be counted. But don't hold me to that, because I don't know 
if--how hard they are to catch. You know, I don't know if we 
can----
    Mr. Serrano. That is a nice pun there. [Laughter.]
    Mr. Serrano. Some of them are very difficult at catching, 
yes. Well, anyway, they show up in February for spring training 
and they don't leave till the end of September and some stay 
till October. And if you have a good career, you do that single 
year, and then you have thousands in the minor leagues in the 
same situation.
    Mr. Dillingham. Sure.
    Mr. Serrano. Just a--not an important question, but a fun 
question.
    Mr. Dillingham. It is important----
    Mr. Serrano. Yes, right.
    How does Commerce intend to use the data provided by DHS 
for its decennial operation?
    Mr. Dillingham. Mr. Chairman, as I mentioned, by law, 
Congress has provided that we will, to the maximum extent 
possible, use administrative data, particularly for, I call it 
``quality-assurance activities.'' So, we receive data. We 
receive sensitive data. The Census Bureau has special statutory 
authorities and we use that data to make sure that our censuses 
and our surveys are accurate and complete.
    So, the data comes in. The data does not go back. So, if 
DHS provides us with data, we will use that data for our 
purposes, but we do not send data back to those federal 
agencies.
    Mr. Serrano. But, you can see where this adds to the issue. 
I mean, certain bells go off when you say citizenship question 
and other bells go off when you hear DHS will be providing 
information to the census. This was going on in prior years by 
the census?
    Mr. Dillingham. I can't say historically how, but I can say 
there are other sensitive data sources where we have the same 
issue in this forum. But it is well-known, we have access to 
certain Social Security around IRS data for purposes of 
verifying our data. But it is a one-way street; that data comes 
to us and we use that data for I will call it ``quality-
assurance purposes'' and the data does not flow out.
    Mr. Serrano. Okay. So, we don't know if it is been done 
before in other censuses?
    The Census Bureau has not used microdata records from the 
Department of Homeland Security (or the predecessor Immigration 
and Naturalization Service) for enumeration in prior censuses. 
However, in the prior census the Census Bureau acquired 
aggregate data for use in evaluations of the census, including 
for the Demographic Analysis Program, which is an evaluation of 
census coverage.
    However, as the Census Bureau has sought data from many 
federal agencies, we are seeking data from the USCIS and other 
DHS components for potential use in the 2020 Census. The Census 
Bureau acquires and protects data under Title 13, and does not 
return or otherwise share these data.
    Mr. Dillingham. With DHS, I would have to check to see when 
that started.
    Mr. Serrano. That is important because some people, if that 
gets published a lot--I know there are people here that are 
going to publish it right now.
    Recognizing you may intend to use the data as 
administrative records toward identifying non-citizens' 
locations at the block level, wouldn't this exercise eliminate 
your need for a citizenship question on the 2020 Census form 
altogether?
    Mr. Dillingham. Mr. Chairman, the need and the decision to 
have the citizenship question is before the Supreme Court. And 
what we have to do as an agency and what I have to do as the 
director, is not to take a position on the inclusion of that 
question, and we are waiting for the Court to decide the 
question.
    Mr. Serrano. Let me just ask something--this will be my 
last question, Mr. Aderholt, if you have any questions--
something I have asked for, for a long time and I have gotten 
various answers that all mean no, but if you are an American 
citizen living in Puerto Rico--which is almost redundant if you 
were born there, right--you would only get counted--you get 
counted in Puerto Rico, but you don't get counted in the final 
number as to what the population of the United States is. Now, 
at the expense of being written up as being anti-immigrant, 
which God and every reporter knows I am not, technically, you 
could be undocumented in one of the states and get counted in 
the final population number, which is correct, but if you are 
living in Puerto Rico, the Virgin Islands, Samoa, Guam, and the 
Northern Mariana Islands, and you won't get counted in the 
final number. So, when we say, for argument's sake, the United 
States has 350 people--not really; it is got closer to 356 or 
57 because those folks don't get included.
    Have you heard anything during your tenure there, as to 
Serrano's mantra on including everybody under the American 
flag?
    Mr. Dillingham. Mr. Chairman, I have heard----
    Mr. Serrano. Notice how I said it: Everybody under the 
American flag should be counted.
    There are people in Europe, as you know, that are allowed 
to vote in our elections, because they are Americans living in 
Europe. I don't know what that arrangement is. I also 
understand that they get counted in the census, and yet, they 
are not living under the American flag.
    Mr. Dillingham. Mr. Chairman, I don't want to widen this 
line of inquiry, but I have been advised that you have 
expressed concerns with the wording of the question for people 
in Puerto Rico, how they report their information, and also, I 
am now apprised that you are concerned about the tabulation of 
it.
    Now, on the wording of the question, the information I that 
I received was that the current wording of the question was 
developed by people that--the researchers that were studying it 
to improve the response and that, in fact, it has done that. 
That being said, with all our questions, we continuously 
revisit our questions to see if improvements can be made. And I 
would say the same holds true for the tabulation of our data.
    I am not specifically aware, and would be glad to work with 
you and your staff, on your concerns with the tabulation, and 
whether there are ways that we might be able to be of 
assistance or even to reconsider some of those practices. So, 
we are very open. We are very open with all of our questions. 
We are open with all of our tabulations for areas of 
improvement, and I would be glad to work with you and your 
staff in looking at that.
    Mr. Serrano. Well, I am glad to hear that you are open, but 
I think one of the answers we got throughout the years--and I 
probably shouldn't tell you this, but somebody will tell you--a 
lawyer will tell--was that the Constitution says count people 
amongst the states, which speaks to the citizenship question, 
right--people, not citizens.
    But on the other hand, these are territories, but I am not 
sure that when that was written in the Constitution, there were 
people thinking ahead to the fact that someday you would have 
territories with citizens living in those territories, and 
people who are born, as I was, an American citizen. I was born 
no different than someone who was born in New York. And my son 
was born in New York.
    Mr. Dillingham. Mr. Chairman, again, we will work with you 
on that. I can't promise you that if something has 
constitutional underpinnings that I am in a position to change 
it, but we will look to see what we can do.
    Mr. Serrano. Mr. Aderholt.
    Mr. Aderholt. I don't have anything else.
    Mr. Serrano. I want to thank you for coming here. As you 
know, we pay a lot of attention to the census. All Americans 
should. Sometimes I wonder why some folks in some states go out 
of their way to--the census and so on, when it actually helps 
them if everybody gets counted.
    I also understand, unfortunately, that some people have 
problems, some people who are not here, documented--I don't 
understand it, really, but I understand those feelings that 
they have, you know, they have them and that is it; I have to 
deal with it--try to change their mind--but they, sometimes, 
forget that those folks get counted and that means dollars for 
their state. It means congressional districts for their state 
and it means other things.
    And so, we take this very seriously. We want to help you in 
making the best and most accurate count. We are on your side. 
Notwithstanding a line of questioning or how we ask you about 
dollars and cents, we want this to work and we want it to work 
properly. So, we thank you for today.
    Mr. Dillingham. Thank you, Mr. Chairman.
    Mr. Serrano. And the hearing is adjourned.
    [Clerk's note. The Department did not respond with answers 
to submitted questions in time for inclusion in the record.]

[GRAPHICS NOT AVAILABLE IN TIFF FORMAT] 

                           [all]
</pre></body></html>
